<html>
<title> - MEMBERS' DAY</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]






                              MEMBERS' DAY

=======================================================================

                                HEARING

                               before the

                        COMMITTEE ON THE BUDGET
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

          HEARING HELD IN WASHINGTON, DC, MARCH 11 & 18, 2009

                               __________

                            Serial No. 111-6

                               __________

           Printed for the use of the Committee on the Budget


                       Available on the Internet:
       http://www.gpoaccess.gov/congress/house/budget/index.html

                              ------


                  U.S. GOVERNMENT PRINTING OFFICE
47-992                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office  Internet: bookstore.gov Phone: toll free (866) 512-1800; DC area 
(202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001







                        COMMITTEE ON THE BUDGET

             JOHN M. SPRATT, Jr., South Carolina, Chairman
ALLYSON Y. SCHWARTZ, Pennsylvania    PAUL RYAN, Wisconsin,
MARCY KAPTUR, Ohio                     Ranking Minority Member
XAVIER BECERRA, California           JEB HENSARLING, Texas
LLOYD DOGGETT, Texas                 SCOTT GARRETT, New Jersey
EARL BLUMENAUER, Oregon              MARIO DIAZ-BALART, Florida
MARION BERRY, Arkansas               MICHAEL K. SIMPSON, Idaho
ALLEN BOYD, Florida                  PATRICK T. McHENRY, North Carolina
JAMES P. McGOVERN, Massachusetts     CONNIE MACK, Florida
NIKI TSONGAS, Massachusetts          JOHN CAMPBELL, California
BOB ETHERIDGE, North Carolina        JIM JORDAN, Ohio
BETTY McCOLLUM, Minnesota            CYNTHIA M. LUMMIS, Wyoming
CHARLIE MELANCON, Louisiana          STEVE AUSTRIA, Ohio
JOHN A. YARMUTH, Kentucky            ROBERT B. ADERHOLT, Alabama
ROBERT E. ANDREWS, New Jersey        DEVIN NUNES, California
ROSA L. DeLAURO, Connecticut,        GREGG HARPER, Mississippi
CHET EDWARDS, Texas                  [Vacant]
ROBERT C. ``BOBBY'' SCOTT, Virginia
JAMES R. LANGEVIN, Rhode Island
RICK LARSEN, Washington
TIMOTHY H. BISHOP, New York
GWEN MOORE, Wisconsin
GERALD E. CONNOLLY, Virginia
KURT SCHRADER, Oregon

                           Professional Staff

            Thomas S. Kahn, Staff Director and Chief Counsel
                 Austin Smythe, Minority Staff Director














                            C O N T E N T S

                                                                   Page
Hearing held in Washington, DC, March 11 & 18, 2009..............     1

Statement of:
    Hon. John M. Spratt, Jr., Chairman, House Committee on the 
      Budget.....................................................     1
    Hon. Vernon J. Ehlers, a Representative in Congress from the 
      State of Michigan..........................................     2
        Prepared statement of....................................     3
    Hon. Rush D. Holt, a Representative in Congress from the 
      State of New Jersey........................................     6
        Prepared statement of....................................     8
    Hon. Betsy Markey, a Representative in Congress from the 
      State of Colorado..........................................    10
        Prepared statement of....................................    12
    Hon. Phil Hare, a Representative in Congress from the State 
      of Illinois................................................    14
        Prepared statement of....................................    16
    Hon. Gregorio Kilili Camacho Sablan, a Delegate in Congress 
      from the Commonweath of the Northern Mariana Islands.......    19
        Prepared statement of....................................    22
    Hon. Ben Ray Lujan, a Representative in Congress from the 
      State of New Mexico........................................    26
        Prepared statement of....................................    28
    Hon. Parker Griffith, a Representative in Congress from the 
      State of Alabama...........................................    29
        Prepared statement of....................................    30
    Hon. Ron Klein, a Representative in Congress from the State 
      of Florida.................................................    31
        Prepared statement of....................................    34
    Hon. Gary C. Peters, a Representative in Congress from the 
      State of Michigan..........................................    36
        Prepared statement of....................................    38
    Hon. James P. McGovern, a Representative in Congress from the 
      State of Massachusetts.....................................    39
        Additional matrial submitted.............................    41
        Prepared statement of....................................    42
    Hon. Timothy J. Walz, a Representative in Congress from the 
      State of Minnesota.........................................    42
        Prepared statement of....................................    44
    Hon. Gabrielle Giffords, a Representative in Congress from 
      the State of Arizona.......................................    45
        Prepared statement of....................................    47
    Hon. Steve Cohen, a Representative in Congress from the State 
      of Tennessee...............................................    49
        Prepared statement of....................................    51
    Hon. Gene Green, a Representative in Congress from the State 
      of Texas...................................................    52
        Prepared statement of....................................    55
    Hon. Lynn C. Woolsey, a Representative in Congress from the 
      State of California........................................    56
        Prepared statement of....................................    58
    Hon. Ciro D. Rodriguez, a Representative in Congress from the 
      State of Texas.............................................    59
        Prepared statement of....................................    60
    Hon. Bob Goodlatte, a Representative in Congress from the 
      State of Virginia..........................................    62
        Prepared statement of....................................    64
    Hon. Dina Titus, a Representative in Congress from the State 
      of Nevada..................................................    65
        Prepared statement of....................................    66
    Hon. Ann Kirkpatrick, a Representative in Congress from the 
      State of Arizona...........................................    67
        Prepared statement of....................................    69
    Hon. Alan Grayson, a Representative in Congress from the 
      State of Florida...........................................    70
        Prepared statement of....................................    71
    Hon. Pedro R. Pierluisi, a Resident Commissioner in Congress 
      from the Territory of Puerto Rico..........................    72
        Prepared statement of....................................    74
    Hon. Danny K. Davis, a Representative in Congress from the 
      State of Illinois..........................................    76
        Prepared statement of....................................    78
    Hon. Chris Carney, a Representative in Congress from the 
      State of Pennsylvania......................................    79
        Prepared statement of....................................    81
    Hon. Harry Teague, a Representative in Congress from the 
      State of New Mexico........................................    82
        Prepared statement of....................................    84
    Hon. Carolyn McCarthy, a Representative in Congress from the 
      State of New York..........................................    85
        Prepared statement of....................................    87
    Hon. Jim Matheson, a Representative in Congress from the 
      State of Utah..............................................    88

                        Part II, March 18, 2009

    Hon. Chellie Pingree, a Representative in Congress from the 
      State of Maine.............................................    91
        Prepared statement of....................................    93
    Hon. Louise McIntosh Slaughter, a Representative in Congress 
      from the State of New York.................................    94
        Prepared statement of....................................    96
    Hon. Paul D. Tonko, a Representative in Congress from the 
      State of New York..........................................    99
        Prepared statement of....................................   101
    Hon. Frank R. Wolf, a Representative in Congress from the 
      State of Virginia..........................................   103
        Prepared statement of....................................   104
    Hon. Kurt Schrader, a Representative in Congress from the 
      State of Oregon............................................   107
        Prepared statement of....................................   108
    Hon. Donna Christensen, a Delegate in Congress from the 
      Territory of the Virgin Islands............................   111
        Prepared statement of....................................   112
    Hon. Carol Shea-Porter, a Representative in Congress from the 
      State of New Hampshire.....................................   113
        Prepared statement of....................................   115
    Hon. Bill Foster, a Representative in Congress from the State 
      of Illinois................................................   117
        Prepared statement of....................................   118
    Hon. Eric J.J. Massa, a Representative in Congress from the 
      State of New York..........................................   120
        Prepared statement of....................................   121
    Hon. Thomas S.P. Perriello, a Representative in Congress from 
      the State of Virginia......................................   122
        Prepared statement of....................................   123
    Hon. Betty Sutton, a Representative in Congress from the 
      State of Ohio..............................................   124
        Prepared statement of....................................   126
    Hon. Brian Higgins, a Representative in Congress from the 
      State of New York..........................................   128
        Prepared statement of....................................   129
    Hon. Diane E. Watson, a Representative in Congress from the 
      State of California........................................   129
        Prepared statement of....................................   131
    Hon. Barbara Lee, a Representative in Congress from the State 
      of California..............................................   132
        Prepared statement of....................................   133
    Hon. David Loebsack, a Representative in Congress from the 
      State of Iowa..............................................   135
        Prepared statement of....................................   136
    Hon. Yvette D. Clarke, a Representative in Congress from the 
      State of New York..........................................   137
        Prepared statement of....................................   138
    Hon. Laura Richardson, a Representative in Congress from the 
      State of California........................................   139
        Prepared statement of....................................   141
    Hon. Madeleine Z. Bordallo, a Delegate in Congress from the 
      Territory of Guam..........................................   142
        Prepared statement of....................................   144
    Hon. Sheila Jackson-Lee, a Representative in Congress from 
      the State of Texas.........................................   147
        Prepared statement of....................................   149

Prepared statements only:
    Hon. Michele Bachmann, a Representative in Congress from the 
      State of Minnesota.........................................   150
    Hon. Sam Farr, a Representative in Congress from the State of 
      California.................................................   152
    Hon. John J. Hall, a Representative in Congress from the 
      State of New York..........................................   152
    Hon. Baron P. Hill, a Representative in Congress from the 
      State of Indiana...........................................   153
    Hon. Steve Kagen, a Representative in Congress from the State 
      of Wisconsin...............................................   153
    Hon. Howard P. ``Buck'' McKeon, a Representative in Congress 
      from the State of California...............................   154
    Hon. Michael E. McMahon, a Representative in Congress from 
      the State of New York......................................   156
    Hon. Pete Olson, a Representative in Congress from the State 
      of Texas...................................................   157
    Hon. Bill Posey, a Representative in Congress from the State 
      of Florida.................................................   158
    Hon. Linda T. Sanchez, a Representative in Congress from the 
      State of California........................................   159
    Hon. Jackie Speier, a Representative in Congress from the 
      State of California........................................   160
    Hon. Maxine Waters, a Representative in Congress from the 
      State of California........................................   161
    Hon. Peter Welch, a Representative in Congress from the State 
      of Vermont.................................................   162

 
                              MEMBERS' DAY

                              ----------                              


                       WEDNESDAY, MARCH 11, 2009

                          House of Representatives,
                                   Committee on the Budget,
                                                    Washington, DC.
    The committee met, pursuant to call, at 10:37 a.m. in room 
210, Cannon House Office Building, Hon. John Spratt [chairman 
of the committee] presiding.
    Present: Representatives Spratt, Schwartz, Blumenauer, 
Berry, Boyd, McGovern, Tsongas, Melancon, Larsen, and Schrader.
    Chairman Spratt. I call the hearing to order.
    Today, we convene for our annual Members' Day hearing, a 
chance for Members on both sides of the aisle of the House to 
testify before the Budget Committee about their priorities, 
things of particular significance to them.
    As usual, we can expect a long day. We will run all the way 
until 4:30 today, and if we have Members who cannot be 
accommodated within that time frame, we plan on having a second 
session next Wednesday, starting at 2:00 p.m.
    While we can expect a long day, we can also expect an 
interesting day. On Members Day we get to hear from a broad 
spectrum of Members coming to talk to us about budget items of 
great importance to them and their constituencies. Today's 
testimony provides input for us here at the Budget Committee as 
we craft the annual budget resolution, which will be on the 
House floor sometime in early April.
    Just a brief word about the ground rules for today. Every 
Member will have 5 minutes to present his or her testimony. 
Printed testimony, if submitted, will be incorporated into the 
record. We will then have 5 minutes for any questions from 
Budget Committee Members.
    The ranking member is not here now, but we will proceed if 
the first witness is here. We are waiting on Mr. Rush Holt of 
New Jersey. In the meantime, is Mr. Ehlers of Michigan here?
    We will recess until the first witness comes and claims the 
time.
    Chairman Spratt. Mr. Ehlers, welcome to the Members Day 
hearing of the Budget Committee. You have the privilege of 
being the first member since you are the first to show up. Here 
is Rush Holt right behind you.
    Mr. Ehlers. If he wants to go first, that is fine with me.
    Mr. Holt. Please, Vern. I have to catch my breath.
    Mr. Ehlers. Okay. I hope you catch it.

  STATEMENT OF THE HON. VERNON J. EHLERS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Ehlers. Thank you, Mr. Chairman. It is a pleasure to be 
here and to once again do the team job with Mr. Holt. For 
years, he and I were the Physics Caucus. And we have now been--
--
    Chairman Spratt. Bill Foster has joined you now.
    Mr. Ehlers. Pardon?
    Chairman Spratt. Bill Foster has joined you now.
    Mr. Ehlers. Yes. And now we have a fourth one, Mr. Cao from 
Louisiana. I was the first to come, and now we are up to four. 
So this fits well into our plan for taking over the Congress.
    Chairman Spratt. Let me ask just a housekeeping detail 
before you get started.
    Mr. Ehlers. Yes, sir.
    Chairman Spratt. If you have written statements, if you 
would simply offer them for the record and summarize them, that 
would help us proceed today.
    Basically, we will recognize you for 5 minutes. If you need 
more time, we can accommodate you, but it would be good if you 
could finish within 5 minutes. But your printed statements will 
be made part of the record so that you can summarize them as 
you see fit to do so.
    Mr. Ehlers. All right. Thank you. And I do have a written 
statement for the record.
    The main purpose of my comments is simply to point out once 
again--as I know you know, Mr. Chairman; you have been on this 
committee for a number of years--the positive effects of 
putting money into science, technology, space, and so forth.
    The positive effects on the budget are very well known. The 
best example of that is during the Clinton administration; as 
you know, we actually had surpluses there for several years. 
Many people will argue about the political reason for that, but 
the actual reason economists will give is that all the research 
that we did on the Internet came to fruition during that decade 
and led to a great increase in economic activity, and certainly 
helped our country to achieve a better payment of its taxes and 
to better balance its budget--and, in fact, to exceed the 
budget.
    We are particularly concerned about Function 250, the 
General Space, Science and Technology function. We, once again, 
think that is the key to the research and development program 
of the Nation.
    I very much appreciate what has happened in the stimulus 
bill and the omnibus bill; that gives us a start. But we are 
still not caught up with the doubling which was agreed to in 
the America COMPETES Act, and I hope that we can do that soon.
    I am pleased with the President's preliminary fiscal year 
statement, and the importance he has placed on the Department 
of Energy's Office of Science, the Department of Commerce's 
National Institute of Standards and Technology. I would point 
out that NIST, which is often overlooked as an auxiliary 
science organization in this country, is a major contributor to 
the scientific effort. Three Nobel prizes were won by that 
Agency in the past decade; that exceeds any other department of 
the government, and so it indicates that NIST has really come 
of age.
    In addition to that, NIST plays an extremely important role 
in helping the industries of this country get ahead, learn how 
to make products better, to compete better with other areas of 
the world.
    So I ask that the President's request for science be 
granted, starting with the preparation of the House budget 
allocations for Function 250 and Function 370. The Department's 
Office of Science has done yeoman's work for the past decade. 
And now with Steve Chu, a Nobel prize winner, as Secretary of 
Energy, I look for even greater progress there; and I hope that 
you would adequately fund the Office of Science of the 
Department of Energy.
    The National Science Foundation, for years, has been the 
mainstay of the research in this Nation. They continue to do 
marvelous work. I would say they are the best in the world in 
terms of carefully choosing projects that will work. And they 
make very few mistakes in choosing what to fund, and it has 
paid off handsomely for this country over the years.
    The National Institute of Standards and Technology, I 
mentioned already. And, Mr. Chairman, I think that is as 
quickly as I can summarize it.
    I think we are off to a good start this year with the 
funding that has already been provided. It is very important to 
continue it and to maintain the doubling track which was 
established in the America COMPETES Act a few years ago. And 
the administrations have generally wanted to spend the money 
for the doubling; the legislative body, unfortunately, has not 
come through. So I hope we can follow that doubling track and 
get back to where we should be.
    With that, I will yield back.
    Chairman Spratt. Thank you very much, Mr. Ehlers.
    [The prepared statement of Vernon Ehlers follows:]

   Prepared Statement of Hon. Vernon J. Ehlers, a Representative in 
                  Congress From the State of Michigan

    Thank you, Mr. Chairman, for the opportunity to testify as the 
Committee considers a fiscal year 2010 Budget Resolution.
    As you begin the budget process, I strongly urge you to give high 
priority to scientific research and development and math and science 
education in the General Space, Science and Technology function (250) 
of the budget. I will focus my comments on two areas covered under this 
function: the National Science Foundation and the Department of 
Energy's science programs. I will also address the science and 
technology portion of the Commerce account within function (370).
    I am pleased that the President's preliminary fiscal year 2010 
budget request states his commitment to ``* * * invest in the science, 
research, and technology that will lead to new medical breakthroughs, 
new discoveries, and entire new industries.'' The Budget provides 
substantial funding levels for the National Science Foundation (NSF) 
and similarly large increases are anticipated (although not yet 
detailed) for the Department of Energy's (DOE) Office of Science and 
the Department of Commerce's National Institute of Standards and 
Technology (NIST).
    As we struggle in a current economic downturn, many people refer to 
the economic growth of the 1990's as a place we would like to return. 
We fail to realize that a large part of that growth came from the 
``dot-com'' boom based around innovations in high-technology fields. 
Many of the discoveries turned into applications during that time were 
based on the fundamental research investments of the previous decades.
    Starting in 2006, the Congress and Administration jointly committed 
themselves to ``doubling the basic science research budget.'' Though 
the fiscal year requests have included the establishment of a doubling 
track for the DOE Office of Science, the NSF, and NIST's laboratories 
and research, Congress has been unable to set the final doubling 
numbers into law. This year, I ask that the President's request for 
science be granted, starting with the preparation of the House budget 
allocations for Function 250 and Function 370.
                               background
    On a bipartisan basis, Congress has recognized that innovation is 
critical to our national competitiveness and that scientific research 
and development is the key to increased innovation, economic vitality 
and national security. I am very appreciative that this committee has 
been historically supportive of this goal.
    Since the passage of the America COMPETES Act, Congress has 
struggled to fully fund the authorized funding levels for the COMPETES 
agencies. I recognize that the American Recovery and Reinvestment Act 
(H.R. 1) has helped patch some significant holes in these agencies, 
which for many years have had to deny many high-quality grant 
applications due to lack of funding. However, ultimately we must commit 
to steady and sustained growth in research budgets and work within the 
annual budget and appropriations process to maintain a consistent and 
predictably strong funding pathway for these agencies.
    To elucidate the importance of science and technology funding, I 
would like to talk about our economic competitiveness, and articulate 
how the DOE Office of Science, NSF, and NIST are addressing this issue.
                department of energy's office of science
    ``Existing energy approaches--even with improvements from advanced 
engineering and improved technology based on known concepts--will not 
be enough to secure our energy future. Instead, meeting the challenge 
will require new technology for producing, storing and using energy 
with performance levels far beyond what is now possible.'' \1\
---------------------------------------------------------------------------
    \1\ New Science for a Secure and Sustainable Energy Future : A 
Report from the Basic Energy Sciences Advisory Committee, Department of 
Energy, December 2008.
---------------------------------------------------------------------------
    Our country faces a number of challenges related to energy supply, 
development, and sustainability. The Department of Energy's Office of 
Science funds 40 percent of all federal basic research investments in 
the physical sciences as well as 14 percent of investments in 
mathematics and computing, environmental sciences, and engineering. 
Research in these areas has led to many new economic and medical 
advancements including, among others, new energy sources, the Internet, 
cell phones and laser surgery. To overcome our substantial energy 
challenges, the federal government must continue to support research in 
alternative energy sources, nanotechnology and supercomputing.
    The Office of Science is not only important to the future of U.S. 
science, but also to our competitiveness and energy security. I 
respectfully request that the Committee provide the Office of Science 
with a budget that reflects the critical role that it plays in 
maintaining our economic and military pre-eminence.
                      national science foundation
    ``Although the United States is still the world leader in science, 
technology, and engineering, the findings of the National Science Board 
and of many other eminent bodies representing a wide range of 
perspectives, from think tanks, industry, academia, and government, 
indicate that urgent and sustained action is required to maintain our 
leadership. During these difficult economic times, when industry may be 
forced to cut back basic research investments for short-term survival, 
it is particularly critical for the federal government to ensure our 
innovative capacity through basic research and workforce training in 
science and engineering.'' \2\
---------------------------------------------------------------------------
    \2\ Testimony of Dr. Steven Beering, Chairman, National Science 
Board before the Research and Science Education Subcommittee, House 
Committee on Science and Technology, February 26, 2008.
---------------------------------------------------------------------------
    The National Science Foundation (NSF) is the only federal agency 
dedicated solely to supporting basic scientific research and education. 
NSF funding accounts for one-fifth of all federal support for basic 
research and 40 percent of physical science research at academic 
institutions. Nearly 90 percent of these awards are made through a 
competitive, merit-review process that ensures that excellent and 
innovative research is being supported. Furthermore, NSF consistently 
receives the highest rating from OMB for the efficiency and excellence 
of its programs.
    I am very appreciative that the fiscal year 2009 House and Senate-
approved Budget Conference Report included language recognizing the 
goals of the America COMPETES Act and stating that ``this resolution 
will keep us on the path toward doubling funding for the National 
Science Foundation, basic research in the physical sciences, and 
collaborative research partnerships, and toward achieving energy 
independence through the development of clean and sustainable 
alternative energy technologies.''
    The Administration's FY 2010 budget request for NSF of $7.0 billion 
is a 16 percent increase over FY 2008 appropriations. Before the 
funding provided through the American Recovery and Reinvestment Act, 
the NSF budget had been stagnant in recent years, despite the COMPETES 
Act setting the agency on a 7-year doubling path. Providing a budget 
that allows for the President's requested level of NSF funding is 
extremely necessary for FY 2010 and I ask you to enhance the function 
250 allocation accordingly.
             national institute of standards and technology
    ``The mission of NIST is `To promote U.S. innovation and industrial 
competitiveness by advancing measurement science (or metrology), 
standards, and technology in ways that enhance economic security and 
improve our quality of life.' As a government agency, it does so 
objectively, without favor or advantage to any preferred technology or 
enterprise. NIST has been described * * * as the `crown jewel of the 
federal laboratories,' since it is recognized as the broadest and 
strongest national metrology institution in the world. Unfortunately, 
the essential role NIST plays in enabling the competitiveness of 
American industry has often been under-recognized.'' \3\
---------------------------------------------------------------------------
    \3\ Written Testimony of Dr. Stanley Williams, Hewlett-Packard 
Quantum Research Group on behalf of ASTRA, The Alliance for Science & 
Technology Research in America before the House Science & Technology 
Committee, Subcommittee on Technology and Innovation, February 15, 
2007.
---------------------------------------------------------------------------
    The National Institute of Standards and Technology (NIST) is the 
nation's oldest federal laboratory, and the only laboratory with the 
explicitly-stated mission to promote U.S. innovation and industrial 
competitiveness. NIST provides high-quality, cutting-edge research in a 
number of scientific and technical fields, and it plays a critical role 
in keeping our nation competitive. Since 1997, NIST researchers have 
been awarded three Nobel Prizes, demonstrating the high-quality work 
this agency is supporting.
    Perhaps no other group has been impacted as greatly by the current 
economic recession than the small and medium-sized manufacturers in our 
nation. The Hollings Manufacturing Extension Partnership (MEP) program 
helps small and medium-sized manufacturers stay competitive by helping 
them become more innovative, and the Technology Innovation Program 
(TIP) is NIST's only external research grant program, funding high-
risk, high-return technology research and development focused on 
national priorities. Both of these programs run on an efficient cost-
shared basis with industry. Without a doubt, these two programs provide 
invaluable assistance to the sectors of our economy that are currently 
fighting to stay competitive in the global economy.
    The President's FY2010 budget includes $125 million for the 
Hollings Manufacturing Extension Partnership Program and $70 million 
for the Technology Innovation Program. Given the recent paltry funding 
these programs have received, this request may appear to be a healthy 
level of funding. However, given our current economic situation, I 
believe that the COMPETES authorized levels for FY 2010 of $133 million 
for MEP and $141 million for TIP would be more appropriate and ask that 
the committee work to improve the allocation for the science and 
technology portion of function 370 accordingly. Both the MEP and TIP 
have historically had strong, bipartisan Congressional support, and I 
respectfully ask that this support be reflected in the Budget 
Committee's recommendations.
                               conclusion
    Thank you in advance for your efforts to undertake this important 
job. While the preliminary budget does not spell out exact funding for 
many of these programs, I believe that you can send a strong signal 
about the importance of fundamental science and education to the 
Appropriations Committee by making function 250 and the science and 
technology portion of function 370 top priorities in the FY 2010 
budget.
    Thank you again for allowing me to testify.

    Chairman Spratt. What we will do is recognize Mr. Holt. 
And, Ms. Markey, are you testifying on behalf of science 
programs, too?
    Ms. Markey. No, sir, I am not.
    Chairman Spratt. Okay, Rush, if you would proceed with your 
statement, then any questions that Members have can be put to 
the two of you as the panel supporting the science 
appropriation for the year.

 STATEMENT OF THE HON. RUSH HOLT, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF NEW JERSEY

    Mr. Holt. Thank you, Mr. Chairman. I appreciate the 
opportunity to provide testimony and, once again, to be a tag 
team testifier with Mr. Ehlers.
    A couple of days ago I had the opportunity to attend a 
signing ceremony held by the President for the Presidential 
memorandum restoring scientific integrity to governmental 
decision-making, and I see that as validating the President's 
inaugural declaration that we will restore science to its 
rightful place.
    I am excited about the President's restoring science to its 
rightful place in our policy process, and now we must turn to 
restoring science to its rightful place in terms of our 
national investment.
    It is worth noting that in the President's inaugural 
address, when he used that sentence--it was in the economic 
paragraph, the economic section of his address. Now, I say this 
not to suggest that there is, or should be, anything partisan 
in Function 250 and restoring science to its rightful place in 
our national investment. It is just that the budget before us, 
as proposed by the President, as well as the economic stimulus 
package as negotiated by the Congress and the President, treat 
science considerably better than we have seen for some time.
    We know that science and technology have the potential for 
transforming and accelerating our economy. A particularly 
telling example comes from the National Science Foundation, 
which Mr. Ehlers rightly points out is one of the best examples 
in the world of peer-reviewed investment in knowledge and 
learning.
    Two graduate students working on a project a couple of 
decades ago--an NSF graduate fellow, one of them--developed an 
innovative method for searching web pages. The two students, 
Sergey Brin and Larry Page, eventually turned their research 
into Google.
    Various studies show that science and engineering research 
indeed hold the key to our future economic growth. Innovation 
and technology clearly lead to more than half of our 
productivity growth, according to a Federal Research Board 
study. And a National Bureau of Economic Research study 
similarly estimates that almost 60 percent of our economic 
growth is attributable to technical progress.
    Some of us have been saying this for years. Representative 
Ehlers and I have come before this committee every year for a 
decade at least to say that this is the best investment we 
could be making in research and development and in education 
that supports that research and development. It is best for 
bringing improved quality of life to our people, but also the 
economic growth that we desperately seek in these troubled 
times.
    The stimulus, as I mentioned a moment ago, includes more 
than $20 billion in research--I would argue a very wise 
investment. A report by the Information Technology and 
Innovation Foundation estimates that for each additional 
billion dollars in investment in research, 20,000 American jobs 
are created per year. The job creation, I would argue, is 
comparable to or better than job creation for other spending, 
even in the short term, and--and this is of critical 
importance--this kind of spending by the Federal Government 
produces dividends for years to come. It is the gift that keeps 
on giving.
    The effect of research underinvestment in the past decade 
or two has been outlined in Rising Above the Gathering Storm 
and a number of other places. We have slipped. We have some 
remedial work to do in these investments.
    This body passed the America COMPETES Act in 2007 to stem 
the decline and to double our investment in the Department of 
Energy's Office of Science and the National Science Foundation. 
Unfortunately, the subsequent appropriations fell short of that 
rate of spending. Now that appears to be on the mend, as 
proposed in the President's budget and as discussed here in the 
House.
    The Atlantic Century, a report by the Information 
Technology and Innovation Foundation, ranked 40 countries and 
regions based on 16 metrics of innovation and competitiveness. 
The report found that the United States no longer ranks first 
in terms of innovation, we do have a moderately good ranking of 
sixth among the countries studied, but what is disturbing is 
that the other countries--China, India, European Union 
countries and so forth--are pursuing policies that are 
explicitly designed to spur innovation. And the United States 
placed last in terms of progress made over the last decade.
    So I repeat, we have remedial work to do.
    The government spending in Function 250 is some of the 
best, most effective government spending there is, and yet we 
have failed to do it over the years at the level necessary. So 
I am here today to urge you to meet at least the President's 
request in these areas. They seem to be on the right track.
    Chairman Spratt. For the record, how much is the 
President's request over fiscal year 2009?
    Mr. Holt. For Function 250, total, $31 billion total.
    Chairman Spratt. What was it last year? In 2009, it was--it 
is?
    Mr. Holt. It is a $1.3 billion increase.
    Chairman Spratt. Okay.
    Mr. Ehlers. Mr. Chairman, may I just point out that 
generally the problem has not been so much the President's 
request or the Budget Committee's action, but the 
Appropriations Committee has failed to appropriate as much 
money as they could have; and that has been an ongoing problem 
for probably 6 or 7 years now.
    And so I realize you are one part of it, but if you set a 
high enough standard, it does let the appropriators clearly 
know that you believe this is very important, as well, and it 
is not just the President's idea.
    Thank you.
    Mr. Holt. And to that I would add, the mood appears to be 
changing here in Congress as well. And if you set a high bar, I 
expect that it will be well accepted, and the appropriators 
will go a long way toward meeting it.
    Chairman Spratt. We will do our best, very best, to meet 
the President's request. And we appreciate your support and 
explanation for it. It only strengthens our conviction that 
this is something that is entirely worthy.
    Mr. Schrader, would you like to ask any questions?
    Mr. Schrader. No. Thank you, Mr. Chairman.
    Chairman Spratt. Any further comments from Mr. Ehlers or 
Mr. Holt?
    Mr. Ehlers. No. Thank you very much.
    Chairman Spratt. Thank you very much, both of you, for 
coming.
    Mr. Holt. Thank you, Mr. Chairman.
    [The prepared statement of Rush Holt follows:]

 Prepared Statement of Hon. Rush D. Holt, a Representative in Congress 
                      From the State of New Jersey

    Thank you Chairman Spratt, Ranking Member Ryan, and distinguished 
Members of the Committee on the Budget. I appreciate the opportunity to 
provide testimony on the proposed Fiscal Year 2010 Function 250 
investment in science and science education.
    I had the honor this Monday to attend the signing ceremony held by 
President Obama for the Executive Order rescinding the ban on funding 
for embryonic stem cell research and the Presidential Memorandum 
restoring scientific integrity to governmental decision-making. This 
validates the President's Inaugural declaration that we will `restore 
science to its rightful place.' I am excited about the President's 
restoring science to its rightful place in our policy process and now 
we must turn to restoring science to its rightful place in terms of our 
national investment.
    We know that science and technology have the potential for 
transforming and accelerating our economy. One particularly 
illuminating example occurred from a National Science Foundation (NSF) 
project examining the potential of digital libraries. Two graduate 
students working on that project two decades ago, one an NSF graduate 
fellow, developed an innovative method to search for web pages. These 
two students, Sergey Brin and Larry Page, eventually turned their 
innovative research into Google, one of the world's largest companies, 
whose service is used more than 200 million times per day.
    Statistics confirm that science and engineering research hold the 
key to our future economic growth. Innovation and technology lead to 
two-thirds of our productivity growth according to a Federal Research 
Board study, while a National Bureau of Economic Research study 
similarly estimates that almost 60 percent of our economic growth is 
attributable to technical progress.
    In these troubled economic times, it is also important to remember 
that while research lays the foundation for our long-term prosperity, 
research also creates jobs now. According to Families USA, grants from 
the National Institutes of Health (NIH) supported more than 350,000 
jobs in 2007. A report by the Information Technology and Innovation 
Foundation estimated that each additional $1 billion investment in 
research would create approximately 20,000 American jobs a year. This 
investment would provide jobs not just to scientists but even more to 
research students, electricians who wire the labs, lab technicians who 
run the instrumentation, construction workers who will renovate the 
buildings, and many more. The job creation is comparable to or better 
than job creation for other spending, even in the short term.
     effect of research underinvestment on national competitiveness
    As a result of flat investment in physical science and engineering 
research for the past 15 years, the National Academies released its 
ground-breaking report ``Rising Above the Gathering Storm.'' In 
response, this body passed the America COMPETES Act in August 2007 to 
stem this decline and double our investment in the Department of 
Energy's (DoE) Office of Science and the National Science Foundation 
(NSF) by 2016. Unfortunately, the Fiscal Year 2008 appropriations fell 
far short of this goal. The Fiscal Year 2009 appropriations bill passed 
by the House and Senate contains a 7% increase in research funding at 
NSF and NIST as well as a 16% increase at the Department of Energy's 
Office of Science, which is a stronger scientific investment than in 
years past.
    Federal research support is all the more crucial because other 
nations are vigorously expanding their innovation investment and 
research infrastructure. The Information Technology and Innovation 
Foundation recently released a report entitled The Atlantic Century: 
Benchmarking EU and U.S. Innovation and Competitiveness, which ranked 
40 countries and regions based on 16 metrics of innovation and 
competitiveness including educational attainment, scientific workforce, 
and research investment. This report found that the United States no 
longer ranks first in terms of innovation, but continues to have a 
moderate competitive position, ranking 6th out of the countries 
studied, behind countries such as Singapore and South Korea. What is 
most disturbing however is the rate of change. While other countries, 
such as China, India, and European Union countries, have been pursuing 
policies that are explicitly designed to spur innovation, the United 
States placed last in terms of progress made over the last decade. This 
means that America's lead in science and technology is eroding at the 
same time that other nations are gathering strength in science and 
innovation.
               important increases in president's request
    I am pleased the President Obama's budget request recognizes the 
centrality of science and innovation for our future economic and social 
prosperity. The budget invests in science by requesting $7 billion for 
NSF, $18.7 billion for NASA, and supports increases for the DOE Office 
of Science and National Institute of Standards and Technology (NIST) 
laboratories. President Obama's budget would reverse years of neglect 
for science and, combined with the science funding in the economic 
recovery package, it would make a significant down-payment on the 
President's plan to double research funding over the next 10 years. I 
urge you to meet President Obama's request and make the necessary 
investment in innovation.
    I also am pleased that the budget request pledges to make permanent 
the research and experimentation tax credit, otherwise called the R&D 
tax credit. This tax credit is crucial in spurring private research and 
driving technological innovation. As important as the R&D tax credit 
has been, it has never been a permanent part of the tax code and has 
been allowed to expire several times, most notably in 2007. While 
Congress has extended the credit, making the R&D tax credit permanent 
will strengthen the incentive for businesses to invest in long-term 
research, because corporate leaders will know their research 
investments will be rewarded year after year.
                         education and training
    I appreciate that the budget commits to tripling graduate 
fellowships in science and supports increases in NSF Graduate Research 
Fellowships. By reducing the financial barriers to a graduate 
education, this provision should increase the number of Americans that 
enter into science and engineering fields. This is necessary to ensure 
America continues to have a large science and engineering workforce and 
remains competitive with emerging powers, who are producing vastly more 
graduates in the science and engineering fields.
    I also am encouraged that the budget expands the Faculty Early 
Career Development program. This expands our support for early-career 
researchers, who face substantial challenges obtaining funding and 
establishing themselves. With wildly fluctuating federal support of 
competitive grants, this phase of an academic scientific career is 
unstable and therefore much less appealing than needs to be the case. 
It is important that we support our researchers at each stage of their 
career so that we can maintain a strong workforce.
    Prospective undergraduates need better access to the promise of a 
technical college education. I appreciate that the budget request 
commits to improving the education of technicians in high-technology 
fields by increasing support for the Advanced Technological Education 
program. This program focuses on two-year colleges and supports 
partnerships between academic institutions and employers to enhance the 
education of future science and engineering technicians.
              congressional action on president's request
    From Fiscal Year 2005 through 2008, federal research obligations 
decreased 7.8 percent in constant dollars. Between Fiscal Year 2007 and 
2008 alone, total federal research spending dropped by 4.8 percent in 
constant dollars. The Congress must take some responsibility for this 
funding situation. In Fiscal Year 2008, Congress slightly increased the 
investment in NSF by 2.5 percent, far short of the 8 to 10 percent 
increase that was provided in earlier versions of the appropriations 
bills and less than the 3.8 percent inflation that year. At the same 
time, DoE's Office of Science received 5.8 percent increase, far less 
than the 15 to 18 percent increase in earlier versions of these bills. 
I urge the Budget Committee and the Congress to take a different 
approach this appropriations cycle.
    Recognizing the centrality of innovation to our national 
prosperity, I hosted a roundtable in December with Speaker of the House 
Nancy Pelosi and Princeton University President Shirley Tilghman. That 
roundtable included senior members of Congress, university presidents, 
industry leaders, and research scientists, who were all brought 
together to look at the state of basic research. What we concluded was 
that our innovation infrastructure, which has served our nation so well 
for 50 years, is showing signs of age and disrepair. In fact, the 
American share of world research investment has been falling since 1998 
and our R&D intensity, as measured by the percentage of our GDP 
invested in research, trails many other nations.
    I am pleased that the economic recovery package made a necessary 
down payment toward repairing our nation's innovation infrastructure, 
but those investments would be wasted unless we sustain our science 
funding in the coming years. In these troubled economic times, science 
is the ideal investment because it provides jobs now while laying the 
foundation for our future economic growth. As Speaker Pelosi said best, 
the way to move forward as a nation is ``through science, science, 
science, and science.'' I look forward to working with the Congress to 
make this necessary investment and meeting the President's call to 
restore science to its rightful place in our national investment 
portfolio.

    Chairman Spratt. We now go to Ms. Markey from Colorado.

    STATEMENT OF THE HON. BETSY MARKEY, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF COLORADO

    Ms. Markey. Good morning, Chairman Spratt. And thank you 
for allowing me to share my thoughts before the Budget 
Committee on the proposed fiscal year 2010 budget.
    I believe that the President's budget does take steps to 
put us on a sustainable path, and I am hopeful that we can have 
an open dialogue on programs I support and on cuts to the 
budget that would have a negative impact on constituents in the 
Fourth Congressional District of Colorado.
    First, President Obama has proposed the elimination of 
direct payments to farmers who have more than $500,000 in 
annual gross sales, a level that would cut off the typical 
full-time farmer without regard to their profit or loss in a 
given year.
    Farmers in Colorado and across the country have made it 
clear that the direct payment program is the best safety net 
available to help them meet the challenges of volatile diesel 
and fertilizer costs, as well as potential costs associated 
with increasing environmental regulation. Direct payments are 
also the most economical because they allow farmers to plan 
according to market conditions, and are the least disruptive of 
trade.
    Under the President's proposal, a farmer could experience a 
net loss and still be ineligible for direct payments because 
the President's plan fails to take into account expenses. This 
change would affect over 1,700 Colorado farms, the majority of 
which are located in my district.
    Further, I am concerned about the President's elimination 
of the Resource Conservation and Development Program from the 
budget. The RC&D Program provides support to authorize 
multicounty areas in the form of Natural Resource Conservation 
Staff coordinators and technical advisers. These coordinators 
assist local conservation councils of public and private sector 
volunteers in developing programs to conserve and develop 
natural resources and improve economic and environmental 
conditions in rural America. The funding provided by this 
program can go a long way in rural areas, such as southeast 
Colorado, where the Southeast Colorado RC&D Council has 
developed programs to decrease contaminants in vital area 
watersheds and to implement renewable energy resources in area 
farms.
    I applaud President Obama's commitment to the veterans of 
the United States as demonstrated by his increasing the 
Department of Veterans Affairs fiscal year 2010 budget for 
health care and compensation. This budget includes concurrent 
receipt of benefits for highly disabled veterans, who will now 
be eligible to receive not only their disability benefits from 
the VA, but their military retirement as well.
    As a member of the Transportation and Infrastructure 
Committee and a proponent of public transportation, I am very 
pleased to see an increase in transit funding. Earlier this 
week, the New York Times reported that public transit usage is 
at its highest in 50 years, and that Americans took 10.7 
billion rides on public transportation in 2008. Fluctuating gas 
prices, coupled with the need to protect our environment, make 
public transit a necessity.
    Further, I am glad that the budget supports the Next 
Generation Air Transportation System. I supported the NextGen 
funding when the FAA reauthorization passed through my 
committee, and I know from talking with several air traffic 
controllers from Colorado how important this system is to both 
the Denver airport and national air traffic efficiency and 
safety.
    I do have concerns, however, about the way in which the 
funds would be allocated to the highway, transit, and airport 
programs. Although I understand and support the goal of 
increased transparency, I do not think that year-by-year 
appropriations are the best way to achieve this in the 
transportation sector. Transportation projects are multiyear 
endeavors, and consistency in funding is imperative. 
Uncertainty in funding impedes the ability of transportation 
departments to plan effectively, potentially jeopardizing 
safety and security.
    The President's proposed education funding reflects one of 
my top priorities, which is making college affordable for all 
students. With three children of my own around college age, I 
understand how challenging it is for families to balance 
college costs with household necessities. I also understand how 
complicated the process is for receiving financial aid.
    For this reason, I am very pleased to see that President 
Obama is determined to simplify the financial aid process and 
has supported a 5,500 Pell Grant maximum award. Additionally, I 
agree with the President's proposal to put the Pell Grant 
program on sure footing. Ensuring access to higher education 
for Americans of all income levels is essential to our Nation's 
future.
    The President's emphasis on national service epitomizes our 
core national values and the American spirit. When Americans 
give back to their communities, they benefit not only those 
around them, but themselves as well. I thank the President for 
fulfilling his promise to promote involvement in community 
service.
    I also support President Obama's plan to reduce the Federal 
Government energy bill by 25 percent. The building sector in 
the U.S. uses 45 percent of the Nation's energy, and the 
Federal Government should increase energy efficiency programs 
to lead by example. It is always cheaper to use less energy 
than to create more of it. This initiative will save taxpayer 
money in the long run and streamline green building 
implementation to reduce the costs of technology in the private 
sector.
    In addition, I support investment in smart grid technology 
development. Colorado State University has the largest physical 
grid simulator in North America. We need to continue to work to 
develop a more intelligent grid to make wind power a more 
stable and reliable source of energy for communities across the 
United States and around the world.
    Finally, I support President Obama's goal to increase the 
number of graduate fellowships in science, but I would also 
encourage the administration and Congress to invest in 
education for vocational and community college training in the 
field of renewable energy and energy efficiency. We need to 
invest in training a green workforce to create jobs and deploy 
new energy strategies. The men and women graduating from these 
institutions will be the technicians building wind turbine 
blades and servicing solar and geothermal installations. We 
need to invest in both innovation and implementation.
    I applaud the Obama administration for proposing to make 
the research and experimentation tax credit permanent, but I 
would also advocate making the production tax credit permanent. 
The production tax credit has expired on many occasions since 
its inception in 1992, and this uncertainty is a burden for 
renewable energy start-up companies.
    Mr. Chairman, I appreciate the time you have allowed me to 
speak before the committee. Thank you.
    Chairman Spratt. Thank you, Ms. Markey, for taking the time 
to testify.
    [The prepared statement of Betsy Markey follows:]

 Prepared Statement of Hon. Betsy Markey, a Representative in Congress 
                       From the State of Colorado

    Chairman Spratt and Ranking Member Ryan, Thank you for allowing me 
to share my thoughts before the Budget Committee on the proposed Fiscal 
Year 2010 Budget. I believe that the President's budget does take steps 
to put us on a sustainable path, and I am hopeful that we can have an 
open dialogue on programs I support, and on cuts to the budget that 
would have a negative impact on constituents in the 4th District of 
Colorado.
    First, President Obama has proposed the elimination of direct 
payments to farmers who have more than $500,000 in annual gross sales, 
a level that would cut off the typical full-time farmer without regard 
to their profit or loss in a given year. Farmers in Colorado have made 
it clear that the direct payment program is the best safety net 
available to help them meet the challenges of volatile diesel and 
fertilizer costs as well as potential costs associated with increasing 
environmental regulation. Direct payments are also the most economical 
because they allow farmers to plan according to market conditions and 
it are the least disruptive of trade.
    Under the president's proposal, a farmer could experience a net 
loss and still be ineligible for direct payments because the 
President's plan fails to take into account expenses. This change would 
affect over 1,700 Colorado farms, the majority of whom are located in 
my District.
    Further, I am concerned about the President's elimination of the 
Resource Conservation and Development Program from the budget. The RC&D 
Program provides support to authorized multi-county areas in the form 
of Natural Resource Conservation Service staff coordinators and 
technical advisors. These coordinators assist local conservation 
councils of private and public sectors volunteers in developing 
programs to conserve and develop natural resources, and improve 
economic and environmental conditions in rural America. The funding 
provided by this program can go a long way in rural areas, such as in 
Southeast Colorado, where the Southeast Colorado RC&D Council has 
developed programs to decrease contaminants in vital area watersheds 
and to implement renewable energy resources in area farms. The RC&D 
program should be continued because it fulfills these vital national 
goals through beneficial cooperation between local organizations and 
national agencies.
    I applaud President Obama's commitment to the Veterans of the 
United States as demonstrated by his increasing the Department of 
Veterans Affairs Fiscal Year 2010 Budget for health care and 
compensation. This budget includes concurrent receipt of benefits for 
highly disabled veterans, who will now be eligible to receive not only 
their disability benefits from the VA, but their military retirement 
pay as well.
    As a member of the Transportation and Infrastructure committee and 
a proponent of public transportation, I am very pleased to see an 
increase in transit funding. Earlier this week, the New York Times 
reported that public transit usage is at its highest in 50 years and 
that Americans took 10.7 billion rides on public transportation in 
2008. Fluctuating gas prices coupled with the need to protect the 
environment make public transit a necessity. Further, I am glad that 
the budget supports the Next Generation Air Transportation System. I 
supported the NextGen funding when the FAA reauthorization passed 
through my committee, and I know from talking with several air traffic 
controllers from Colorado how important this system is to both the 
Denver airport and national air traffic efficiency and safety. I do 
have concerns, however, about the way in which the funds would be 
allocated to the highway, transit and airport programs. Although I 
understand and support the goal of increased transparency, I do not 
think that year by year appropriations are the best way to achieve this 
in the transportation sector. Transportation projects are multi-year 
endeavors, and consistency in funding is imperative. Uncertainty in 
funding impedes the ability of transportation departments to plan 
effectively, potentially jeopardizing safety and security.
    The President's proposed education funding reflects one of my top 
priorities, which is making college affordable for all students. With 
three of my own children around college-age, I understand how 
challenging it is for families to balance college costs with household 
necessities. I also understand how complicated the process is for 
receiving financial aid. For this reason, I am very pleased to see that 
President Obama is determined to simplify the financial aid process and 
has supported a $5,550 Pell Grant maximum award. Additionally, I agree 
with the President's proposal to put the Pell grant program on ``sure 
footing.'' Ensuring access to higher education for Americans of all 
income levels is essential to our nation's future. The President's 
emphasis on national service epitomizes our core national values and 
the American spirit. When Americans give back to their communities, 
they benefit not only those around them, but themselves as well. I 
thank the President for fulfilling his promise to promote involvement 
in community service.
    I support President Obama's plan to reduce the federal government's 
energy bill by 25 percent. The building sector in the United States 
uses 45 percent of the nation's energy, and the federal government 
should increase energy efficiency programs to lead by example. It is 
always cheaper to use less energy than to create more of it. This 
initiative will save taxpayer money in the long run, and streamline 
green building implementation to reduce the cost of the technology in 
the private sector. In addition, I support investment in smart grid 
technology development. Colorado State University has the largest 
physical grid simulator in North America. We need to continue the work 
to develop a more intelligent grid to make wind power a more stable and 
reliable source of energy for communities across the United States and 
around the world.
    Finally, I support President Obama's goal to increase the number of 
graduate fellowships in science, but I would also encourage the 
Administration to invest in education for vocational and community 
college training in the fields of renewable energy and energy 
efficiency. We have a unique opportunity at this time to change the way 
we power this country, but we need to invest in training a green 
workforce to create jobs and deploy new energy strategies. The men and 
women graduating from these institutions will be the technicians 
building wind-turbine blades and servicing solar and geothermal 
installations. We need to invest in both innovation and implementation. 
I applaud the Obama Administration for proposing to make the research 
and experimentation tax credit permanent, but I would also advocate 
making the production tax credit permanent. The production credit has 
expired on many occasions since its inception in 1992 and this 
uncertainty is a burden for renewable energy startup companies.
    Mr. Chairman, I appreciate the time you have allowed me to speak 
before the Committee.

    Chairman Spratt. And before proceeding with Mr. Hare, let 
me announce a few housekeeping details for the remainder of the 
day.
    First of all, Members who have written statements, once 
again may submit the written statement for the record. They 
will be reproduced in full, and they can then orally summarize 
their testimony.
    Secondly, I am going to ask every Member to try to stay 
within the 5-minute limit. Without saying that before every 
Member's testimony, if you will simply try to stay within the 5 
minutes. And if there are questions following your testimony, 
they will be limited to no more than 5 minutes as well.
    And finally, I am going to pass the gavel at this point to 
a member of the committee, Allen Boyd of Florida, with the 
understanding and consent of everyone here who is a participant 
in this hearing that he, in turn, may designate his successor 
as the chairman of this meeting until we reach the conclusion 
of it at the end of today at 4:30 this afternoon.
    Thank you again for coming and testifying.
    Mr. Hare. Thank you, Mr. Chairman. I have enough on my 
plate.
    Chairman Spratt. Thank you very much.
    Mr. Boyd [presiding]. Thank you very much, Chairman Spratt. 
Thank you, Ms. Markey, for your testimony.
    Now I will turn to the gentleman from Arkansas, Mr. Berry, 
for questions.
    Mr. Berry. I have none.
    Mr. Boyd. Mr. Melancon? Mr. Schrader?
    Ms. Markey, thank you very much for your presentation.
    Ms. Markey. Thank you.
    Mr. Boyd. The next member to testify will be the gentleman 
from Illinois, Mr. Hare.
    Welcome, Mr. Hare. We are pleased that you are here to 
testify. Without objection, your full statement will be entered 
in the record. You are now recognized for 5 minutes.

 STATEMENT OF THE HON. PHIL HARE, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF ILLINOIS

    Mr. Hare. Thank you, Mr. Chairman, and thank you, members 
of the committee, for giving me the opportunity to be here to 
testify today.
    You know, currently we are facing the worst economic crisis 
since the Great Depression. Working families are struggling to 
hold onto their jobs, their homes, health care, their pensions. 
In several counties in my congressional district, the 
unemployment rate is over 11 percent, and nearly 4,000 homes 
will go into foreclosure this year.
    As you begin to craft the fiscal year 2010 budget, I 
encourage you to focus on job creation.
    One area of exceptional job growth potential lies in 
improving our Nation's aging and crumbling transportation 
infrastructure. The entire western border of my congressional 
district is formed by the Mississippi River. The series of 
locks and dams along the river move $12 billion worth of 
products to world ports every year. Sadly, this system is 
falling apart, literally. I toured the lock in Quincy, 
Illinois. With the lockmaster, I hit one of the abutments with 
my fist, and a piece of concrete the size of a football came 
off of the lock.
    In order to remain globally competitive, we have to 
modernize our locks and dams, which would also create 
construction jobs as well as sustain employment throughout the 
Mississippi basin.
    Additionally, every summer, my district is susceptible to 
flooding. We have had two 500-year floods in the past 15 years 
that have devastated towns, farmlands, and critical 
infrastructure. We must find comprehensive, long-term flood 
protection strategies, such as the Upper Mississippi River 
Comprehensive Plan.
    In the 110th Congress, we passed the Water Resources 
Development Act, WRDA, authorizing many core projects, but we 
have failed to produce the necessary appropriations because 
these projects are considered new starts. We must allow new-
start funding for locks and dams; the longer we wait to fix 
these ailing structures, the more expensive it will be. 
Furthermore, portions of the Mississippi system are so badly 
deteriorated that one ice storm or a minor flood could be 
catastrophic.
    We must also increase investment in passenger rail. 
Currently, there is no passenger rail service from the Quad 
Cities of Illinois and Iowa to Chicago. Intercity service along 
corridors such as this one will create jobs by linking and 
growing local communities, assisting commuters, and providing 
environmentally responsible transportation options. Another 
area of concern is America's energy future.
    In my district, we have taken advantage of carbon capture 
and sequestration pilot programs, applied advanced biofuel 
technologies, built hydroelectric and wind energy projects, and 
constructed corn ethanol plants. However, there are several 
shovel-ready projects that cannot move forward due to 
insufficient funds in the energy appropriations.
    I strongly urge the committee to provide a robust funding 
increase for the Department of Energy, especially loan 
guarantees as incentives for private companies to create 
renewable fuels.
    Improving rural education is also critical to our economic 
recovery. More than a quarter of public schools are located in 
rural areas that educate approximately 20 percent of the total 
United States student population, yet these schools are plagued 
by limited financial resources, difficulty recruiting and 
retaining highly qualified teachers, and deteriorating school 
buildings.
    The Rural Education Achievement Program, the only funding 
system dedicated to meeting the needs of rural schools, has 
delivered critical funds to rural districts. I ask that you 
fully fund this program, which is authorized at $300 million.
    Additionally, please provide $20 million for rural 
development grants to rural-serving colleges and universities, 
as authorized in the Higher Education Opportunity Act. These 
grants would help higher education institutions, in partnership 
with K-through-12 schools, businesses and education service 
agencies, increase the enrollment of graduates from rural high 
schools into higher education programs, create employment 
pipelines to local jobs, and provide training for professionals 
in needy rural areas.
    With record job loss nationwide, economists across the 
board agree that the key to jump-starting our economy is to 
putting Americans back to work, and quickly. The American 
Recovery and Reinvestment Act puts $5 billion in job training 
programs. I urge the committee to continue this investment in 
fiscal year 2010, as well as extending and increasing 
unemployment insurance.
    And, finally, we must make sure that our veterans are taken 
care of so that they can continue to contribute to the strength 
of our Nation. Ensuring that the Department of Veterans Affairs 
has sufficient, timely, and predictable funding is one of my 
highest priorities as a Member of Congress. I fully support the 
advanced appropriation initiative being led by the House and 
Senate Veterans Affairs Committees and all the major veterans 
service organizations.
    In closing, I once again urge the committee to craft a 
budget that focuses on job creation, with specific emphasis on 
modernizing our transportation infrastructure, improving rural 
education, supporting workforce investment, and helping our 
veterans rejoin the workforce.
    Let me thank you, Mr. Chairman, and members of the 
committee for allowing me to share the needs of my constituents 
today. I want to commend you all for the leadership that you 
have shown in addressing the challenges facing our Nation, and 
I would be happy to answer any questions that you may have.
    Once again, thank you so much for allowing me to be here 
this morning.
    Mr. Boyd. Thank you, Mr. Hare, for your testimony.
    I will now recognize Mr. Melancon. DO you have anything?
    Mr. Schrader?
    Mr. Schrader. No, sir.
    Mr. Boyd. We thank you for your testimony.
    Mr. Hare. Thank you, Mr. Chairman.
    [The prepared statement of Phil Hare follows:]

Prepared Statement of Hon. Phil Hare, a Representative in Congress From 
                         the State of Illinois

    Chairman Spratt, Ranking Member Ryan and Members of the Committee, 
thank you for the opportunity to testify today about the budget 
priorities of my Congressional district, and where I believe we should 
focus our spending. Currently, we are facing the worst economic crisis 
since the Great Depression. Working families are struggling to hold 
onto their jobs, homes, health care, and pensions. In several counties 
of the Illinois 17th Congressional District, the unemployment rate is 
almost 11%, and nearly 4,000 homes will go into foreclosure this year. 
Your Committee has the difficult job of crafting a FY2010 Budget that 
addresses these many challenges. As you begin this process, I encourage 
you to focus on job creation and relief for families severely impacted 
by the economic situation. We have an unparalleled opportunity to make 
both short- and long-term investments in getting Americans back to 
work. However, with a finite amount of money we need to diligently 
focus our investments where it makes the most sense.
    We also must commit to making this process transparent and 
accountable--no longer will we allow American taxpayers to subsidize 
spa retreats, private jets, Superbowl parties, and $14,000 trash cans.
                          economic development
    Locks and Dams: One area of exceptional job growth potential lies 
in improving our nation's aging and crumbling transportation 
infrastructure. As supportive as I am of the American Recovery and 
Reinvestment Act, I am disappointed that it did not include more 
funding for transportation infrastructure.
    The entire western border of my Congressional district is formed by 
the Mississippi River. The series of locks and dams along the river 
facilitate commerce and are vital to the local, national and global 
economies. More than one billion bushes of grain (or 60% of the bulk 
agriculture exports), nearly 22% of domestic petroleum/petroleum 
products, and 20% of coal used for electrical generation (approximately 
$12 billion worth or products every year) are moved to the world ports 
by the Upper Mississippi River System, impacting agricultural, 
commercial and labor interests across the state. Sadly, the locks and 
dams are falling apart. I went to a lock near Quincy, IL and hit it 
with my fist; chunks of concrete literally fell off. It is of upmost 
importance that the Army Corps of Engineers (the ``Corps'') has 
sufficient funding to maintain and improve locks and dams throughout 
the Mississippi and Illinois Rivers. Modernizing the system will create 
construction and maintenance jobs, as well as sustain employment 
throughout the Mississippi basin and in other segments of the economy. 
A modern system is also critical to our global competitiveness.
    Additionally, every spring and summer, my district, along with most 
of the Midwest is susceptible to flooding. We have had two 500-year 
floods in the past 15 years that have devastated entire towns, farmland 
and critical infrastructure. It is impossible to overstate the economic 
damage this has on the communities along the river and on our country 
as a whole. We must fund comprehensive, long-term flood-protection 
strategies such as the Upper Mississippi River Comprehensive Plan. 
Developed in response to the great flood of 1993, the Plan calls for 
building 100-year levels of protection for agricultural areas and 500-
year levels for critical infrastructure such as water treatment plants, 
roads, and bridges along the Upper Mississippi Valley. The 
Comprehensive Plan will increase public safety and provide economic 
growth throughout the Midwest. It will create jobs, protect our 
critical transportation infrastructure, and ultimately save lives.
    In the 110th Congress, we passed significant authorization bills, 
such as the Water Resources Development Act (WRDA), to provide the 
Corps with the resources to upgrade the river systems. But, we failed 
to procure the necessary appropriations for WRDA projects because they 
are considered ``new starts,'' which historically have not been funded. 
While I understand the exorbitant costs associated with Army Corps of 
Engineers projects, for all the reasons I mentioned above, primarily 
the economic, we must allow ``new start'' funding for locks and dams. 
The longer we wait to fix these ailing structures, the more expensive 
it will be. Further, portions of the Mississippi system are so badly 
deteriorated that one ice storm or a minor flood could be catastrophic.
    Passenger Rail: My district and the state of Illinois is covered 
with railroad tracks, but there is no passenger rail service from the 
Quad Cities of Illinois and Iowa to Chicago. Intercity passenger rail 
service along corridors such as this one will create countless jobs by 
linking and growing local economies, assisting commuters and providing 
environmentally responsible transportation options. Ensuring that there 
is sufficient funding for expanding intercity passenger rail is a high 
priority of mine.
    Rural Broadband: It is essential that we are committed to 
continuing to invest in modern telecommunications technologies. 
Extending high-speed Internet access to rural and underserved 
communities is vital to stimulating the economy and improving the 
quality of life for millions of Americans. Investing in rural broadband 
will not only improve the quality of healthcare and education services 
in rural areas, but it will also create construction jobs and increase 
the connectivity of rural businesses. Not to mention it would ensure 
that those living in rural areas are not disadvantaged compared to 
their urban counterparts because they do not have access to the same 
information.
    In addition, I must ask that you consider increasing funding for 
the Corporation for Public Broadcasting. Unfortunately, the current 
allocated amount of $400 million for fiscal year 2009 is insufficient. 
Created by Congress over forty years ago, this important non-profit 
corporation ensures that the thousands of public television and radio 
stations nationwide will continue to operate, delivering high-quality 
programs to millions of viewers.
    With these investments, we will increase the economic development 
of rural areas and ensure that all Americans are connected to the 
information and programming they need.
                                 energy
    I hope that when it becomes available in the next few weeks, the 
Administration's full budget proposal will continue to build on the 
energy initiatives provided in the American Recovery and Reinvestment 
Act. Now is the time to make substantial investments in clean and 
alternative energy sources and technologies.
    In my congressional district, we have taken advantage of carbon 
capture and sequestration pilot programs, applied advanced biofuel 
technologies, built hydroelectric and wind energy projects, and 
constructed corn ethanol plants. However, there are several ``shovel-
ready'' projects that cannot move forward due to insufficient funds in 
energy appropriations. One year ago, Congress wisely passed the budget 
resolution with $2 billion dedicated to creating green-collar jobs in 
America. I strongly urge the Committee to help bring America closer to 
energy independence by providing a robust funding increase for the 
Department of Energy, especially loan guarantees as incentives for 
private companies to create renewable and alternative fuels.
                               education
    More than a quarter of public schools in the United States are 
located in rural areas and educate more than 10 million students--
approximately 20% of the total U.S. student population. In fact, 
student enrollment in rural communities with less than 2,500 residents 
increased by 15% between the 2002-03 and 2004-05 school years.
    As a member of the House Education and Labor Committee and a 
representative of rural schools, I have a strong interest in the lives 
of children living in rural communities and the education provided to 
them. Rural regional superintendents, teachers and other practitioners 
often tell me about the challenges they face to provide their students 
with a quality education. Limited financial resources, difficulty 
recruiting and retaining highly qualified teachers, and deteriorating 
school buildings are major obstacles towards high student achievement.
    Given these and other challenges, strong support from the federal 
government is critical to ensuring our nation's rural children are not 
left behind.
    The Rural Education Achievement Program (REAP) has delivered 
critical funds to rural districts while Title I money has been 
insignificant. In fact, many rural school districts receive double the 
amount of REAP funding compared to Title I funds. Authorized at $300 
million, REAP is the only funding stream directly dedicated to meeting 
the needs of rural schools. The program has been flat funded for years 
and is currently at $168.9 million. The President's FY2010 budget 
provides no increases in rural education funding to support growing 
school enrollments. Without additional REAP dollars rural districts 
will struggle to compete educationally and professionally with larger 
suburban and urban districts. I ask that you fully fund this critical 
program.
    As you know, Title I money is intended to target funds to districts 
with the highest poverty rates. However, some of the current funding 
formulas used in Title I discriminate against small rural districts--in 
fact, in some formulas, there is an explicit bias that favors districts 
with large concentrations of impoverished students. As a result, 
support for a Title I student in a large school district is greater 
than the support for a Title I student in a smaller district with the 
same poverty rate and the same cost of education.
    Title I formulas that place small rural districts at a disadvantage 
should be changed and/or eliminated. Title I funds should be focused on 
percentages of students in poverty; not number. Additionally, all 
school districts participating in Title I should receive a minimum 
amount of assistance. Rural America is the lifeline of our country, and 
investing in rural education will be the foundation for our future 
economic growth and prosperity.
    Finally, I ask the Committee to provide $20 million for Rural 
Development Grants for Rural-Serving Colleges and Universities as 
authorized in the Higher Education Opportunity Act (P.L. 110-315). 
These grants would help rural-serving higher education institutions, in 
partnership with K-12 schools, businesses, education service agencies, 
and other social and economic engines address the challenges and 
realities uniquely facing the rural workforce and economic development. 
Specifically, these grants would ensure federal partnership in 
strengthening rural America by: (1) increasing the enrollment of 
graduates from rural high schools into higher education programs; (2) 
creating employment pipelines to local jobs; and (3) enhancing 
educational programs to provide training for professions of need in 
rural areas.
                                 labor
    With record job loss nationwide, economists across the board agree 
that the key to jumpstarting our economy is putting Americans back to 
work quickly. Now more than ever, the nation's job training programs 
must be improved to give workers the skills they need as the economy 
starts to recover.
    The American Recovery and Reinvestment Act put $5 billion in job 
training programs to help put Americans back to work. I urge the 
Committee to continue this investment in FY2010. These programs are 
essential to professional development opportunities and job placement 
for workers.
    In addition, we need increased support for the unemployed until 
they find new work--I encourage the Committee to extend and increase 
unemployment insurance. Furthermore, to help workers maintain their 
health coverage while they are between jobs, the American Recovery and 
Reinvestment Act provided a 65% reduction in the premiums payable by 
involuntarily terminated workers and their families for health care 
continuation coverage under the Department of Labor's Consolidated 
Omnibus Budget Reconciliation Act (COBRA). This premium reduction will 
last for up to 9 months. We need to continue to invest in programs that 
help laid-off workers receive the health care they need.
    I also ask the Committee to support the Manufacturing Extension 
Partnership (MEP). Manufacturing is critical to our economy; small and 
midsized manufacturers employ nine million workers in the U.S., but the 
economic situation is causing layoffs and plant closings. Assisting the 
nation's small and midsized manufacturers through an additional 
investment in MEP funding will maintain jobs in the near-term and drive 
America's competitiveness in 2010 and beyond. In my Congressional 
district, MEP funds help 65 clients with 175 projects, generating 
$126.8 million in sales and creating/retaining 836 jobs. The 
President's budget blue print for FY2010 includes $125 million for MEP 
and calls for a doubling of the program in five years. I ask the 
Committee to support the $125 million proposal but shorten the timeline 
for doubling MEP to FY2012 so that manufacturers can make a quick and 
effective contribution to the nation's economic recovery. With these 
additional resources, MEP could double the number of manufacturers 
served and save 100,000 jobs.
    Finally, as our economy recovers, jobs are created and new 
industries are built it is critically important that workers' rights to 
organize and collectively bargain are protected. Thirty eight 
economists, including two Nobel Prize winners, signed a letter to 
Congress on February 25, 2009 arguing that labor organizing is ``a 
critically important step in rebuilding our economy and strengthening 
our democracy by enhancing the voice of working people in the 
workplace.'' Workers need greater bargaining power to benefit from 
productivity gains that employers failed to pass along through 
increased wages.
                                veterans
    We must not fail to make sure that our veterans are well taken care 
of so that they can continue to contribute to the strength of our 
nation. Ensuring that the Department of Veterans Affairs (VA) has 
sufficient, timely and predictable funding is one of my highest 
priorities as a Member of Congress. I fully support the advanced 
appropriations initiative being led by the House and Senate Veterans 
Affairs Committees in partnership with all the major Veterans Service 
Organizations. This type of appropriation will ensure that the VA has 
the resources and the foresight it needs to make programmatic 
decisions, hire, and fulfill its mission so that no veteran is left out 
in the cold. Doing so will ensure that our heroes have the ability to 
serve again as leaders in our workforce here at home.
    In closing, I once again urge the Committee to craft a budget that 
focuses on job creation with specific emphasis on modernizing our 
transportation infrastructure, including our locks and dams, passenger 
rail and rural broadband; improving rural education; supporting 
workforce investment programs and manufacturing; and providing the 
support our veterans need to re-enter the workforce.
    Again, thank you Chairman Spratt and Members of the Committee for 
allowing me to share the concerns and needs of my constituents today. I 
commend your leadership in developing a budget that addresses the 
challenges facing our nation in these difficult economic times. I would 
be more than happy to answer any questions you may have for me. Thank 
you.

    Mr. Boyd. The next Member to testify will be the gentleman 
from the Northern Mariana Islands, Mr. Sablan.
    Mr. Sablan, you are recognized for 5 minutes. Welcome.

 STATEMENT OF THE HON. GREGORIO SABLAN, A DELEGATE TO CONGRESS 
     FROM THE COMMONWEALTH OF THE NORTHERN MARIANA ISLANDS

    Mr. Sablan. Thank you, Mr. Chairman. And good morning, 
members of the committee. Thank you for the opportunity to 
testify before the House Committee on the Budget on the 
administration's proposal for fiscal year 2010 and the budget 
priorities for the Northern Mariana Islands.
    This is the first time in history that the people of the 
Northern Mariana Islands, a United States commonwealth since 
1978, have had a representative in Congress to speak on their 
behalf before this committee; and for this, I am grateful, 
humbled, and very privileged. At the same time, I feel the 
terrible responsibility of being the lone voice in Congress to 
try and raise awareness of the gulf between my constituents and 
the rest of the Nation. I am not speaking of the vast Pacific 
Ocean that separates us; I am speaking of the great gulf in the 
standard of living that separates us.
    For so much of what Americans here on the continent take 
for granted in their everyday lives, it is not available to my 
constituents--Americans, too--8,000 miles away. And I want to 
discuss two of those deficits today--drinking water and 
wastewater.
    For such a simple thing as turning on the kitchen faucet 
and having water flow out any time of the day or night, water 
that you can put in a glass and drink down without having a 
second thought, this is an experience that the people I 
represent mostly do not have. There are workarounds, of course. 
At my house and the homes of many of my neighbors, we have 
water storage tanks; that is something that you build when you 
build your house. And so for the few hours--sometimes 2 hours a 
day, if you are lucky--that each day the municipal water pipes 
come in, we can collect water to wash our clothes and bathe.
    You don't use this water to drink or cook with. And it is 
as if every household has their own little utility company. But 
the system doesn't provide potable water; the water that is 
stored in the tanks is unfit for human consumption. It is 
brackish because aquifers are pumped beyond capacity, or it is 
water laden with bacteria that seeps through cracked mains 
because the municipal system is not fully pressurized, and 
because chlorination facilities are lacking.
    So, instead, virtually every household has to buy water 
from private vendors for cooking and drinking on a daily basis 
for years now. So according to EPA, the island of Saipan in the 
Marianas, with a population of some 50,000, is the only 
municipality of its size in the Nation without 24-hour potable 
municipal water.
    That is the water side.
    On the wastewater side of the equation, we are equally 
lacking. And let me just give you one example. On the island of 
Saipan, there is a homestead development of about 700 homes. 
Because there is no sewer system on that part of the island, 
each of these homes collects its wastewater in a private septic 
tank, which slowly leaches onto the land. The problem is that 
these 700 septic tanks sit over one of the best aquifers on our 
little island, further endangering the limited water supply, 
and putting human health at risk. What is today an 
infrastructure problem for us could very soon, in the very near 
future, become a health epidemic for the entire island.
    And we are not alone in our woes. Our sister U.S. 
territories in the Pacific islands are likewise in need, also. 
EPA has estimated that there are about $150 million worth of 
water and sewer projects that need to be built and are ready to 
be built in these islands.
    In the Marianas, these projects include distribution lines, 
large-scale reservoirs, and treatment plants, estimated to cost 
$65 to $66 million. And that may not be a large amount for a 
committee that handles outlays of over $3 trillion, but for a 
place where there are 80,000 individuals living, with a 
government revenue of no more--and probably much less--than 
$150 million a year, an investment of $65-66 million is just 
beyond our reach; and much more so because the median household 
income in the Marianas is 45 percent of the average U.S. median 
household income.
    And so together, you know, with the other territories, we 
hope that under ARRA we could use this once-in-a-lifetime 
opportunity to address our needs for water and sewer 
infrastructure.
    We proposed that under the State Fiscal Stabilization Fund 
that all the moneys that will be available to us for broadband 
deployment be bundled together in an infrastructure fund to be 
disbursed and managed by the Department of Interior and focused 
on our basic needs. Unfortunately, we were not successful. So, 
together, we tried to change the percentage of funds available 
to us through EPA's State and Territory Assistance Grants, 
STAG.
    Currently, the outlying areas, as we are called, receive a 
maximum of 0.25 percent of any single appropriation to the 
Clean Water State Revolving Fund, and a maximum of 0.33 percent 
of any single appropriation to the Drinking Water State 
Revolving Fund.
    These set-asides leave us with less per capita funding than 
any other jurisdiction. We tried raising this percentage in 
ARRA, but we were again not successful. So now I come before 
you and ask for your consideration of this fundamental problem: 
Americans who do not have municipal water systems that provide 
water around the clock safe for human consumption.
    And my solution is simple. I am asking the committee to 
accept the list of water and sewer projects that EPA has 
compiled, and which I include with my testimony; accept the 
price tags that EPA has placed on this list; and provide 
budgetary authority sufficient to permit the Department of 
Interior to meet this need.
    Again, thank you for the opportunity to speak with this 
committee. We continue as we always have and hope for the best. 
Thank you very much.
    Mr. Boyd. Thank you, Mr. Sablan. We appreciate your 
testimony.
    Do we have any questions?
    I might ask. I understand your problem being one of the 
city areas and the rural areas, if I understand your testimony 
correctly.
    Mr. Sablan. Yes. I represent an area with 14 separate 
islands. I understand that they are all urban. They are not 
rural.
    Mr. Boyd. Okay. That was my question. So it would be a 
easier problem to solve, since they are urban people, are 
collected closer together in urban areas?
    Mr. Sablan. In three separate locations, yes, sir.
    Mr. Boyd. I understand. And those urban areas consist of--
the population of each would be what?
    Mr. Sablan. The island of Saipan may have 50,000, Rota may 
have 20 or 15, and Tinian may have 15 right now.
    Mr. Boyd. We thank you very much for your testimony. And I 
know that you will be working with other Members of Congress to 
find a way to solve this problem.
    Thank you for bringing it to the attention of the Budget 
Committee.
    Mr. Sablan. Thank you very much.
    [The prepared statement of Gregorio Sablan follows:]

 Prepared Statement of Hon. Gregorio Kilili Camacho Sablan, a Delegate 
    in Congress From the Commonweath of the Northern Mariana Islands

    Good morning Chairman Spratt, Ranking Member Ryan, and Members of 
the Committee. Thank you for the opportunity to testify before the 
House Committee on the Budget on the Administration's budget proposal 
for Fiscal Year 2010 and the budget priorities of the Northern Mariana 
Islands on this Member's Day.
    This is the first time in history that the people of the Northern 
Marianas--a United States Commonwealth since 1978--have had a 
representative in Congress to speak on their behalf before this 
Committee. For this I am grateful, humbled, and privileged.
    At the same time I feel the terrible responsibility of being the 
lone voice in Congress to try to raise awareness of the gulf between my 
constituents and the rest of our Nation. I am not speaking of the vast 
Pacific Ocean that separates us. I am speaking of the great gulf in 
standard of living. For so much of what Americans here on the continent 
take for granted in their every day lives is not available to my 
constituents--Americans, too--8,000 miles away in the Marianas.
    I want to discuss two of those deficits today: drinking water and 
wastewater.
    Such a simple thing as turning on the kitchen tap and having water 
flow out--any time of day or night--water that you can put in a glass 
and drink down without a second thought--this is an experience that the 
people I represent mostly do not have.
    There are workarounds. At my house and the homes of many of my 
neighbors we have water storage tanks. So, for the few hours each day 
the municipal water pipes run with water, we can collect enough to wash 
our clothes and bathe. It's as if every household and every business is 
its own little utility.
    But this system doesn't provide potable water. The water that is 
stored in the tanks is unfit for human consumption. It's brackish, 
because aquifers are pumped beyond capacity. Or it's laden with 
bacteria that seep through cracked mains, because the municipal system 
is not fully pressurized and because chlorination facilities are 
lacking. So, instead, virtually every household has to buy water from 
private vendors for cooking and drinking.
    Indeed, according to the Environmental Protection Agency, Mr. 
Chairman, the island of Saipan in the Marianas, with a population of 
some 50,000, is the only municipality of its size in our Nation without 
24-hour, potable, municipal water.
    On the wastewater side of the equation we are equally lacking. Let 
me give one example: On the island of Saipan is a homestead development 
of about 700 homes. Because there is no sewer system in that part of 
the island, each of those homes collects its wastewater in a private 
septic tank, which slowly leach into the land. The problem is that 
these 700 septic tanks sit over one of the best aquifers on our little 
island, furthering endangering the limited water supply and putting 
human health at risk.
    The Northern Mariana Islands are not alone in our water woes. Our 
sister U.S. territories in the Pacific are, likewise, in need. The 
Environmental Protection Agency has reckoned that there are 
$151,000,000 worth of water and sewer projects that need to be built--
and are ready to be built--in these U.S. islands. In the Marianas these 
projects include distribution lines, large-scale reservoirs, and 
treatment plants estimated to cost $65,800,000.
    Now $65,800,000 may not seem such an insurmountable amount to a 
Committee with responsibility for a outlays of $3 trillion. But for a 
community of some 80,000 souls, for a territorial government with 
revenues of $150,000,000 (and declining), an investment of $65,800,000 
is beyond our reach. Even more so because--and here is another gulf 
that separates us from much of the rest of America--our incomes are so 
low. The median household income in the Marianas is 45% below the U.S. 
average.
    We, together with the other U.S. territories, had hoped that the 
American Recovery and Reinvestment Act might be a once-in-a-lifetime 
opportunity to address our need for water and sewer and other 
infrastructure crucial to maintaining a basic standard of human 
welfare. We had proposed that all of the State Fiscal Stabilization 
Fund and all of the money that would be available to us for broadband 
deployment be bundled together into an infrastructure fund to be 
disbursed and managed by the Department of the Interior and focused on 
our basic needs. We were not successful.
    We, together with the other U.S. territories, likewise tried to 
change the percentage of funds available to us through EPA State and 
Territorial Assistance Grants. Currently, the four ``outlying areas,'' 
as we are called, receive a maximum of .25% of any single appropriation 
to the Clean Water State Revolving Fund and a maximum of .33% of any 
single appropriation to the Drinking Water State Revolving Fund. But 
these set-asides leaves us with less funding per-capita than any other 
U.S. jurisdiction. We tried raising these percentages in ARRA to 
squeeze out more money for our water and sewer needs. But we were not 
successful.
    So, now, today, I come before you to ask your consideration of this 
fundamental problem: Americans who do not have municipal water systems 
that provide water around the clock fit for human consumption.
    My solution is this: accept the list of water and sewer projects 
that the Environmental Protection Agency has compiled--and which I 
include with my testimony. Accept the price tag EPA has placed on this 
list. And provide budgetary authority sufficient to permit the 
Department of Interior to meet this need.
    Mr. Chairman, thank you for the opportunity to speak this morning. 
I think we all understand that our Nation stands at a crossroads. We 
can continue as we always have and hope for the best. Or we can strike 
out boldly in a new direction and do our best to ensure every American 
a basic standard of living. Thank you.
us pacific islands priority water & wastewater projects--implementable 
                 in 2009 if funding were available----
American Samoa
            Wastewater
    Project: Aua Wastewater System
    Description: Construction of force main, SPS, WWTF improvements, 
service laterals.
    Purpose: To elimate the discharge of raw sewage to the coastal 
shoreline and coral reef; eliminate household pit privies that 
contaminate groundwater and streams.
    Cost: $17 million
    Project: Aunu'u Wastewater System
    Description: Construction of sewage collection system, SPS, and 
constructed wetland treatment system
    Purpose: To eliminate the discharge of raw sewage to the coastal 
shoreline and coral reef; eliminate household pit privies that 
contaminate groundwater.
    Cost: $7 million
    Project: Tualauta Wastewater Collection System
    Description: Construction of interceptors and service laterals
    Purpose: To eliminate on-site systems (pit privies) that are 
contaminating groundwater and streams and causing public health 
problems.
    Cost: $2 million
    Project: Installation of On-Site Systems for Villages that cannot 
be connected to Wastewater Collection and Treatment System
    Description: Installation of 1,000 on-site septic tank (EPA 
approved) systems in villages.
    Purpose: Eliminated inadequate on-site disposal systems that 
contaminate groundwater and streams.
    Cost: $1 million
    Total: $27,000,000
            Water
    Project: Fagali'i-Malota-Fagamalu Water Supply System
    Description: Construction of transmission and distribution lines, 
storage tank, booster station for water supply to three villages that 
do not have safe drinking water
    Purpose: Compliance with EPA R9 Administrative Orders to provide 
safe drinking water; elimination of serious public health concern from 
drinking untreated water.
    Total Cost: $2 million
    Project: LBJ Hospital--Faga'alu Water System Improvement
    Description: Construction of water storage tank and transmission 
lines.
    Purpose: LBJ Hospital experiences serious low pressure during time 
of high demand and threatens safe drinking water supply.
    Cost: $800,000
    Project: Replacement of Tramway (Water Storage) Tank
    Description: Construction of two (2) water storage tanks with SCADA 
and security fence; transmission lines and appurtenances, access road.
    Purpose: Existing welded steel tank in advanced state of 
deterioration (constructed in 1970). Tank important to operation of 
central system
    Cost: $1,300,000
    Project: Afono Well/Tank to Aua Tank
    Description: Construction of new well and booster station.
    Purpose: Provide service to existing customers that do not receive 
a reliable (daily) source of safe drinking water
    Cost: $600,000
    Total: $4,700,000
    American Samoa Total: $31,700,000
Guam
            Wastewater
    Project: Central Guam Wastewater Collection System Improvements
    Description: Address aged sewer collection and pump station 
capacity issues for the central area of Guam.
    Importance: Prevent sewer system overflows to public areas and 
marine environment.
    Cost:
    <bullet> New Chaot Pressure Pipeline: $3,400,000
    <bullet> Pump Station Upgrades (Agana, Chaot, Mamajanao) and 
Forcemain extension: $600,000
    <bullet> Tumon Improvements (Fujita Pump Station and New 
Forcemain): $3,500,000
    <bullet> New Tamuning area Collection, Forcemain and Pump Station 
Improvements: $20,000,000 (est)
    Project: Old Agat Sewer Collector Line Replacement
    Description: Replacement of aged, deteriorated sewer collector 
lines to prevent sewer system overflows and address hydraulic capacity 
issues.
    Importance: Prevent sewer system overflow to public areas and 
marine environment.
    Cost: Project Cost: $4,500,000
    Project: Agat Route 2 Sewer Line Replacement
    Description: Replacement of the old Route 2 sewer line to prevent 
sewer system overflows and address hydraulic capacity issues.
    Importance: Prevent sewer system overflow to public areas and 
marine environment.
    Cost: $500,000
    Project: Leyang Sewer Collection Line Installation
    Description: New sewer line in Leyang area to connect unsewered 
residental housing
    currently on septic systems.
    Importance: Source water protection of sole source aquifer.
    Cost: $400,000
    Total: $32,900,000
            Water
    Project: Water System Reservoir Replacements
    Description: Replace aged, structurally unsound, deteriorated water 
system reservoirs in the central area of Guam.
    Importance: Public safety and health.
    Cost: <bullet> Replacement of three reservoirs $10,000,000
    Project: Water Distribution System Line Replacement
    Description: Replace undersized water distribution system lines to 
address inadequate water flow and pressure areas of the system.
    Importance: Public health
    Cost: $5,000,000
    Project: Water Booster Pump Station Improvements
    Description: Provide adequate pumping capacity and water supply to 
areas in the southern portion of Guam.
    Importance: Public health
    Cost: $1,200,000
    Project: Installation of new Water Wells
    Description: Provide water supply for construction phase workers 
supporting
Guam
            Military Buildup
    Importance: Public health
    Cost:
    <bullet> Installation of water wells $5,000,000
    Total: $21,200,000
    Guam total: $54,100,000
Commonwealth of the Northern Mariana Islands (CNMI)
            Wastewater
    Project: Upgrade/Rehabilitation of the Agingan and Sadog Tasi WWTPs
    Description: Upgrade and rehabilitation of deteriorated main 
process components and equipment
    Importance: Rehabilitation is necessary to prevent discharge of 
partially treated sewage, protection of public health and marine 
environment.
    Cost: $1,500,000
    Project: Upgraded of Sewer Lift Stations and Rerouting of 
Collection Lines
    Description: Renovation of lift stations (A-7, S-1 and S-9) and 
reroute gravity sewer collection line to address flow constrictions and 
decomissioning of two lift stations.
    Importance: Increase pump station and sewer collection system 
reliability to mitigate sewer system overflows during peak flow 
periods. Project would protect public health and marine environment.
    Cost: $800,000
    Project: Upgrade of Sewer Lift Stations
    Description: Renovate and upgrade CUC's main lift stations S-3, A-
16 and A-1 to address operational and reliability problems.
    Importance: Prevent sewer system overflows and protect public 
health and marine environment.
    Cost: $500,000
    Project: Kagman Wasterwater Treatment Plant (Saipan)
    Description: New wastewater collection system and treatment plant 
for unsewered Kagman homestead area.
    Importance: Prevention contamination of groundwater source
    Cost: $15,000,000(est)
    Project: Tinian Wastewater Treatment Plant (Tinian)
    Decription: New wastewater collection system and treatment plant to 
eliminate aged residental septic systems
    Importance: Prevention contamination of groundwater source
    Cost: $15,000,000(est)
    Total: $32,800,000
            Water
    Project: Saipan Water System Reservoir Replacements/Improvements
    Description: Replace aged, structurally unsound, deteriorated water 
system reservoirs on Saipan.
    Importance: Public safety and health and provide 24 hour water.
    Cost:
    <bullet> Replacement of two reservoirs $5,000,000
    Project: Saipan Water Distribution System Line Replacement
    Description: Replace undersized water distribution system lines to 
address inadequate water flow, supply and pressure in the system.
    Importance: Public health and provide 24 hour water.
    Cost: $5,000,000
    Project: Saipan Water Wells Rehabilitation/Improvements
    Description: Improve water well sites to ensure proper 
disinfection/chlorination of water supply.
    Importance: Public health and water quality
    Cost: $1,000,000
    Project: Tapochao Waterline (Saipan)
    Description: Connect waterline to Tapochao water well.
    Importance: Public health, water quality and quantity.
    Cost: $1,000,000
    Project: New Water Wells at Sablan, San Vicente and Gualo Rai 
(Saipan)
    Description: Establish new wellfield for improved water supply
    Importance: Public health, 24 hour water.
    Cost: $5,000,000
    Project: New Water Reservoir and Waterline (Saipan)
    Decription: Connect new wellfield and water supply reservoir
    Importance: 24 hour water.
    Cost: $5,000,000
    Project: Saipan Water Distribution System Improvement
    Decription: Connect Northern and Southern water systems to improve 
distribution
    Importance: 24 hour water
    Cost: $5,000,000
    Project: Rota Water Reservoir Rehabilitation
    Description: Rehabilitation of aged, deteriorated water system 
reservoirs (2) on Rota.
    Importance: Public health
    Cost: $1,000,000
    Project: Rota Water Treatment System
    Description: New water filtration treatment plant to address 
untreated surface water source
    Importance: Public health
    Cost: $8,000,000
    Project: Tinian Reservoir
    Description: New water system reservoir to provide adequate system 
pressure and supply
    Importance: Public health
    Cost: $2,000,000
    Total: $33,000,000
    CNMI Total: $65,800,000
    US Pacific Islands Total: $151,000,000

    Mr. Boyd. Our next witness is Mr.--Mr. Lujan is not here?
    The committee will stand in recess until Mr. Lujan arrives.
    Mr. Schrader [presiding]. Thank you, Mr. Lujan, for 
showing.
    The next member to testify will be the gentleman from New 
Mexico, Mr. Lujan.
    Welcome. We are pleased to have you testify before us here 
today. You are recognized for about 5 minutes; and without 
objection, your full statement will be entered into the record. 
Please proceed.

   STATEMENT OF THE HON. BEN RAY LUJAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF NEW MEXICO

    Mr. Lujan. Mr. Chairman, thank you very much.
    Distinguished members of the Committee on the Budget, thank 
you for allowing me to provide testimony before you about the 
priorities of my constituents in the fiscal year 2010 budget.
    At this time of economic uncertainty, creating a 
comprehensive and strong budget is extraordinarily important. 
While our national budget must fund the operations of our 
government, it also reflects our priorities and our shared 
vision of the direction of our country.
    For 8 years we have been on the wrong track and have 
avoided confronting the realities of a changing world. We need 
to invest in innovative sources of renewable energy production 
and ensure our workforce is trained to seize the opportunities 
of a new clean energy economy.
    Although we are facing tough times, we must not forget that 
this budget represents a great opportunity to rebuild our 
Nation. Through perseverance and innovation, we can get the 
economy moving in the right direction towards a clean energy 
future.
    We must invest in new electric grids, new wind turbines, 
new solar panels, and cleaner cars. These investments should be 
designed to promote green jobs, jobs that can help ensure the 
future of our economy and our planet.
    We need innovation, courage, and a commitment to develop 
and improve clean energy technology more now than ever before. 
Our ability to get our country back on track relies on our 
ability to change the way our country generates and uses 
energy.
    We must harness the incredible innovation of the great 
national laboratories in my home State of New Mexico. By 
directing investments towards the research and development 
projects done by the labs at Los Alamos and Sandia, we will 
reap enormous benefits down the line. The technologies under 
development by the labs include new ways to transport and store 
renewable electricity more efficiently, as well as smart grid 
electric networks that will allow us to use it more 
effectively.
    If our goal is a stronger, better economy, education is how 
we get there. The Americans who will drive our clean energy 
economy must be well educated in science, technology, 
engineering, and mathematics. Many schools across the Third 
Congressional District of New Mexico are already training 
students for the jobs of the future in clean energy generation, 
in towns like Espanola, Farmington, Santa Fe, Rio Rancho, Taos, 
Portales, Las Vegas, and Tucumcari. Our budget must support 
these children beginning with Head Start, but also in K-
through-12 and beyond.
    Schools like Northern New Mexico College Solar and Energy 
Research Park and Academy, the North American Wind Research 
Center at Mesalands Community College in Tucumcari, and San 
Juan College are providing students with workforce training in 
green jobs. Our budget needs to support and promote these 
innovative programs to create a Nation of highly trained 
workers ready to build a clean energy infrastructure for our 
Nation and provide a career for themselves.
    We must make a commitment to restore science and innovation 
as the keys to a new American economy. Innovation is the future 
for my great State, and it is up to us to ensure that those new 
solar panels, chips for computers, and a workforce for the 21st 
century are built right here in the United States. This budget 
must ensure that New Mexicans will make America a cleaner, more 
prosperous, and safer place for us all.
    Finally, we must remember the unique needs of our returning 
veterans. About a third of Iraq and Afghanistan veterans are 
estimated to have a serious mental health problem such as 
depression or post-traumatic stress disorder. As many as 7,000 
New Mexico veterans are homeless. Many have lost their jobs, 
and after extended deployments are forced to start over again 
once they return home.
    They need not only the health care they are entitled to, 
but we need to provide them with access to higher education, 
job training, and offer the resources to help them successfully 
reintegrate with their families and their communities.
    In recognition of the service provided by our veterans, 
this Congress must generously support the Veterans Health 
Administration and the Centers of Excellence for Veteran 
Student Success.
    It is important for rural veterans to have access to care. 
Often they have to travel long distances to receive the care 
they need. Our veterans deserve access to local and rural 
clinics for their health care needs and reimbursements by the 
Veterans Administration for miles traveled.
    Our returning troops deserve mandatory mental health 
screening and a program to better monitor their mental and 
physical health, Mr. Chairman, as we move forward with 
universal health care, making sure we do not forget our 
veterans and addressing the disparities that exist in 
communities across our country, namely, minority communities.
    My congressional district represents a vast area of tribal 
lands and native nations. We cannot forget them as we move 
forward with putting together this very important budget as we 
move forward in moving our country back in the right direction. 
Thank you, Mr. Chairman.
    Mr. Schrader. Thank you very much.
    [The prepared statement of Ben Ray Lujan follows:]

Prepared Statement of Hon. Ben Ray Lujan, a Representative in Congress 
                      From the State of New Mexico

    Chairman Spratt, distinguished members of the Committee on the 
Budget, thank you for allowing me to provide testimony before you about 
the priorities for my constituents in the Fiscal Year 2010 budget.
    At this time of economic uncertainty, creating a comprehensive and 
strong budget is extraordinarily important. While our national budget 
must fund the operations of our government, it also reflects our 
priorities and our shared vision of the direction of our country. For 
eight years, we've been on the wrong track and have avoided confronting 
the realities of a changing world. We need to invest in innovative 
sources of renewable energy production and ensure our workforce is 
trained to seize the opportunities of a new clean energy economy.
    Although we are facing tough times, we must not forget that this 
budget represents a great opportunity to rebuild our nation. Though 
perseverance and innovation, we can get the economy moving in the right 
direction towards a clean energy future.
    We must invest in new electric grids, new wind turbines, new solar 
panels, and cleaner cars. These investments should be designed to 
promote green jobs--jobs that can help ensure the future of our economy 
and our planet.
    We need innovation, courage and a commitment to develop and improve 
clean energy technology more now than ever before. Our ability to get 
our country back on track relies on our ability to change the way our 
country generates and uses energy.
    We must harness the incredible innovation of the great National 
Laboratories in my home state of New Mexico. By directing investments 
towards the research and development projects done by the labs at Los 
Alamos and Sandia, we will reap enormous benefits down the line. The 
technologies under development by the labs include new ways to 
transport and store renewable electricity more efficiently as well as 
smart grid electric networks that will allow us to use it more 
effectively.
    If our goal is a stronger, better economy--education is how we get 
there. The Americans who will drive our clean energy economy must be 
well-educated in Science, Technology, Engineering and Mathematics 
careers.
    Many schools across the third Congressional District of New Mexico 
are already training students for the jobs of the future in clean 
energy generation, in towns like Espanola, Farmington, Santa Fe, Rio 
Rancho, Taos, Portales, Las Vegas and Tucumcari. Our budget must 
support these children beginning with Head Start, but also in K-
through-12 and beyond.
    Schools like Northern New Mexico College Solar Energy Research Park 
and Academy, the North American Wind Research Center at Mesa Lands 
Community College, and San Juan College are providing students with 
workforce training in green jobs. Our budget needs to support and 
promote these innovative programs to create a nation of highly-trained 
workers ready to build a clean energy infrastructure for our nation and 
a productive career for themselves.
    We must make a commitment to restore science and innovation as the 
keys to a new American Economy. Innovation is the future for my great 
state, and it is up to us to ensure that those new solar panels, chips 
for computers, and a workforce for the 21st century are built right 
here in the United States. This budget must ensure that New Mexicans 
will make America a cleaner, more prosperous, and safer place for all 
of us.
    Finally, we must remember the unique needs of our returning 
veterans. About a third of Iraq and Afghanistan veterans are estimated 
to have a serious mental-health problem such as depression or Post-
Traumatic Stress Disorder. As many as 7,000 New Mexico veterans are 
homeless. Many have lost their jobs after extended deployments and are 
forced to start over once they return home.
    They not only need the health care they are entitled to, but we 
need to provide them with access to higher education and job training 
and offer the resources to help them successfully reintegrate into 
their families and communities. In recognition of the service provided 
by our veterans, this Congress must generously support the Veterans' 
Health Administration and the Centers of Excellence for Veteran Student 
Success.
    It is important for rural veterans to have access to care. Often, 
they have to travel long distances to receive the care they need. Our 
veterans deserve access to local and rural clinics for their health 
care needs and reimbursements by the Veterans Administration for miles 
traveled. Our returning troops deserve mandatory mental-health 
screening and a program to better monitor their mental and physical 
health.
    As we push on towards a universal health care system, it is of 
vital importance that we remember the needs of our veterans and that 
they receive the care that they have earned. It is also important that 
we remember to meet the needs of the rural communities that make up so 
much of my District.
    Thank you, Mr. Chairman for this opportunity.

    Mr. Schrader. Well, we'll welcome Mr. Griffith then, a 
colleague of ours from Alabama. We'll be entering your 
testimony. You have 5 minutes. If you could please keep us on 
time since we're so full here today; and, without objection, 
your written statement will be entered into the record.
    Please proceed.

  STATEMENT OF THE HON. PARKER GRIFFITH, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ALABAMA

    Mr. Griffith. Mr. Chairman, thank you for allowing me to be 
here today. I thank the Budget Committee for this.
    I'm here on behalf of missile defense. We in the fifth 
district are integrally involved in that. A great deal of our 
community is involved in that, but, more importantly, we 
believe that the international situation is going to demand 
that we have ground-based missile defense at the ready.
    The international situation, whether it be Afghanistan, 
that is really a country in geography only, with a marginal if 
a government at all, abuts up against Pakistan, which has a 
failing government but is a nuclear power. We know that Iran 
has launched a satellite. With that satellite capability comes 
intercontinental ballistic missile capability.
    We know that North Korea has the capability now, or we 
believe that it does. We believe that the only real defense 
against that is a ground-based mid-course missile defense.
    We do know that on February 2 Iran launched its own Omid 
satellite into orbit aboard a Safir-2 rocket. This proves Iran 
is on the path of developing an intercontinental missile. Also, 
we can't forget that North Korea tested a Taepodong 2 missile 
in 2006 which has the capability of lofting a one-ton nuclear 
warhead into Alaska and the west coast of the United States.
    We recognize the instability of our international 
situation. We know that we have been at war for 7 and a half, 
going on 8 years in Iraq. We know that we're going to be in 
action for some undetermined period of time.
    Whether we deploy our ground-based missiles in Poland, 
whether we do our early warning radar in the Czech Republic, 
regardless of what decisions our leaders make, we are going to 
need to continue to improve and make ready our ground-based 
missile defense.
    In the Huntsville, Alabama, area and in the fifth district 
which I represent, we have a major installation called the 
Redstone Arsenal. At the Redstone Arsenal, we have 35,000 
employees. We have a hundred thousand plus retirees there, but 
more importantly than who we employ is that we are integrally 
involved in the national defense of the country.
    The improvement in the ground-based missile defense 
program--hitting a bullet with a bullet seemed almost 
impossible 15 years ago. We're now proving every day that it's 
a proven technology, it's a needed technology, it's a 
technology that is essential to America's national defense and 
its international allies.
    We hope that the budget process will keep us funded at a 
level or even increased, because we do not see the threat 
disappearing on the international situation.
    So I thank you for allowing me to be here and would welcome 
an opportunity to come back or answer any questions that might 
be concerning missile defense.
    Mr. Schrader. Thank you very much, Mr. Griffith.
    [The prepared statement of Parker Griffith follows:]

    Prepared Statement of Hon. Parker Griffith, a Representative in 
                   Congress From the State of Alabama

    I would first like to thank the Committee on the Budget for 
allowing me to testify here today. As I am sure everyone in this 
hearing is aware, funding the Department of Defense is one of the most 
important parts of our budget. Our safety is directly related to a 
functional and efficient Defense Department that must be ready to 
deploy troops, aircraft, ships or missiles to protect our homeland and 
international allies. According to President Obama's Budget outline, 
the Department of Defense will have $533.7 billion for its base budget 
for 2010, which is a four percent increase from FY2009 funding. While 
this is a moderate increase, we must keep in mind that we are spending 
billions of that increase on the wars in Afghanistan and Iraq. As the 
Obama Administration and the 111th Congress look to prioritize defense 
projects for FY2010, we should not be remiss and forget about the 
importance of missile defense.
    World news continues to confirm the importance for missile defense, 
as the military technological advancements occurring in Iran and North 
Korea exhibit the threat in that region of the world is real. On 
February 2, Iran launched its own Omid Satelite into orbit aboard a 
Safir-2 rocket. This proves Iran is on a path to developing satellite 
guided long-range ballistic missiles, while its nuclear program 
continues to progress. Also, let's not forget North Korea tested a 
Taepodong 2 missile in 2006, which is capable of lofting a 1 ton 
nuclear warhead 3,500 miles to Alaska, Hawaii and the west coast. Both 
of these countries are rogue nations in control of very powerful 
technology that could harm the United States. In order to protect our 
nation, we must fully fund our missile defense projects. Missile 
defense ensures that would-be proliferators are denied the opportunity 
to hold America or its allies hostage. For these reasons, it 
complements our nation's diplomatic efforts to roll-back North Korea's 
and Iran's nuclear and ballistic missile capabilities.
    In addition to being a deterrent to these rogue nations, our 
missile defense creates jobs in Huntsville Alabama, which is in my 
district. Redstone Arsenal has more than 32,000 jobs military jobs, 
78,000 military retirees and 118,000 family members depending on this 
industry for their livelihood. Huntsville is also has one of the 
highest concentration of scientists and engineers in the world. This 
community is slated to continue to grow and as the manufacturing, 
service, bio-tech, and bio and homeland defense industries develop we 
should not stunt the growth of this region of the country. We should 
continue to research ways to ensure the safety of Americans through 
producing sound missile defense technology.
    Should deep funding cuts to a system like the Ground-based 
Midcourse Defense (GMD) program occur, we do not know what impact they 
will have on the operational readiness and availability of the system. 
GMD is the United States' only defense against the threat of long-range 
ballistic missiles. Members of the Budget Committee have the authority 
to make decisions that will keep our country strong from a national 
security and economic perspective, and I urge them to continue to do 
so.

    Mr. Schrader. Just one question then. Are you supportive of 
the President's level in his budget for missile defense?
    Mr. Griffith. I have not seen that level yet. The total 
defense budget I think is up by 4 percent, but I have not seen 
the breakout of the defense--of the ground-based missile 
defense.
    Mr. Schrader. Make sure that you do.
    Mr. Griffith. I am going to do that.
    Mr. Schrader. Thank you very much.
    We'll stand in recess for a few moments until Mr. Foster 
gets here.
    [Recess.]
    Mr. Schrader. Thank very much for joining us, Mr. Klein. 
We've a packed room for you. Welcome. Pleased to receive your 
testimony.
    You are recognized you for 5 minutes, and your written 
statement will be entered in the record without objection.

 STATEMENT OF THE HON. RON KLEIN, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF FLORIDA

    Mr. Klein. Thank you, Mr. Chairman; and thank you for 
inviting me to testify before the budget committee today.
    This budget, as we all know, will serve as a blueprint for 
our future, and it's a commitment to a long-term vision for 
what is most important to our country. Under your leadership, 
we are returning to a culture of fiscal discipline, which I 
strongly believe in; and particularly in these economic times 
nothing is more important.
    Mr. Chairman, for the first time, the American people will 
have an honest and transparent budget to evaluate. I know that 
many of us felt that for too long the government was not being 
completely open by running two wars and other expenditures off 
the books. No American family or business runs their budget 
that manner, and the government has no right to do so either.
    Hundreds of billions of dollars later, the American people 
will now finally be able to see the serious financial 
consequences that we face today. Restoring honesty and fiscal 
discipline is an important step to reestablishing trust in 
government.
    Mr. Chairman, whether we support or oppose the war, and 
there are differences of opinions in Iraq, we certainly all 
agree that when Americans who wear the military uniform return 
from service they deserve to be treated with the highest level 
of respect and dignity that they have earned. This includes 
making sure that they receive the necessary benefits to make 
sure that they come back and are treated properly both 
medically and otherwise.
    Last year, I testified before your committee about the 
backlog in disability claims. We have seen some progress but 
not enough. As of September, 2008, 330,000 Iraq and Afghanistan 
war veterans have filed disability claims with the VA, and yet 
54,000 of them are still waiting for confirmation that the VA 
received their claims. The average wait for disability claim is 
more than 6 months.
    I come before you today to speak on behalf of the veterans 
of Palm Peach and Broward Counties in south Florida where I 
live. From World War II to Operation Enduring Freedom and 
Operation Iraqi Freedom, we ask that we keep our promise to our 
Nation's veterans and ensure that they get the benefits in an 
easy and efficient manner. America is at its best when we honor 
those who have served us, and I know that this budget that you 
are working on will reflect those priorities.
    Our budget must also include funding for Priority 8 
veterans. Many veterans in south Florida make too much to be 
eligible for VA health care but make too little to be able to 
pay for quality health insurance. In the last administration, 
those veterans were not able to get the benefits that they 
earned. This must change. We must act quickly to get our 
Priority 8 veterans the service they deserve.
    I'm also alarmed, as I know you are, by the recent rise in 
military suicides. A recent RAND Study indicated that 20 
percent of the service members who are returning from combat 
suffer from posttraumatic stress disorder and major depression. 
We have learned that the VA suicide hotline took about 55,000 
calls during its first year in operation. Florida was among the 
highest in number of calls to the hotline. With this in mind, 
Mr. Chairman, we must expand mental health screenings and 
provide our military with the resources to research the effects 
of war when our servicemen and women come home.
    Mr. Chairman, another important area of the budget that 
deserves a high level of support is medical and scientific 
research. It is clear that research and technology and that 
technological progress can help save lives and advance our 
country's priorities. We also know that some of the best 
scientists, engineers, and doctors are working in the most 
premier research institutions in the world right here in the 
United States.
    When I served in the Florida legislature, I helped bring 
the Scripps Research Institute to Palm Beach County to jump-
start the biotech industry in south Florida. Scripps Florida 
opened last week, and it couldn't have come at a better time. 
It is this innovative spirit that brings these great research 
scientists together that makes America strong; and when 
Florida's economy is hurting, as it is in other parts of the 
country as well, jobs in research and technology could help 
expand employment in our communities.
    On the national level, institutes like the National 
Institutes of Health and the National Science Foundation 
deserve our robust commitment. I believe that this budget 
should double cancer funding over the coming years and heavily 
invest in research on Parkinson's, diabetes, and Alzheimer's. 
And as a long-time proponent of embryonic stem cell research, I 
believe that our budget should enable our scientists to pursue 
every reasonable path to successfully pursue life-saving 
research.
    Mr. Chairman, as we face critical challenges ahead, we must 
work together, Democrats and Republicans. All of us are 
committed to providing the best opportunity for the American 
people, and I know that this budget is a first step in 
redefining the priorities that we have and share in the future.
    There's one provision in the budget, Mr. Chairman, that I 
would like to discuss today. Our community in south Florida 
faces distinct challenges. Unemployment in our State of Florida 
has risen to 8.6 percent; and, as of the end of last year, 20 
percent of home loans in Florida were past due or in default.
    Many in our community have reached out their hand for help, 
sometimes to the government and other times to charities, 
charities like Covenant House Florida in Fort Lauderdale. They 
have provided shelter to over 30,000 homeless young people 
since they were created in 1985. They have helped young people 
find jobs, and they have taught young women to care for their 
children. But, despite their successes, the need for their 
services has only grown.
    Their Executive Director, Jim Gress, came to my office last 
week to talk about their predicament. He told us that last 
month, for the first time since 1990, Covenant House Florida 
ran out of beds. Our tough economy makes their job even 
tougher.
    Fund-raising for these charities is not easy either. In 
south Florida, many philanthropists can't afford to be as 
generous as they have been in the past. Charities, 
unfortunately, have also lost some of their great supporters 
due to being victims of Bernie Madoff's Ponzi scheme. Without 
the support of these benefactors, just when we thought times 
couldn't get worse, nonprofits like the south Florida Picower 
Foundation are closing their doors, no longer to assist with 
food banks, health care, education, and job training.
    It is under these circumstances, Mr. Chairman, in south 
Florida that I come to ask this committee to reconsider a 
provision in the prosed budget. Under current law, a 
philanthropist or any charitable giver can make a contribution 
and write off 35 percent of his or her contributions to a 
charity. This allows charities to grow and, even more 
importantly, can help in our local needs in the economy.
    But there's a proposal in the budget that's discussed to 
cap that charitable deduction at 28 percent. I've heard from 
several charitable organizations in my district that their 
services depend greatly on the generosity of their benefactors. 
They've told me that their contributions to these charities are 
greatly under stress right now and will decline further if this 
provision goes into effect.
    I would like to just briefly cite an e-mail I received from 
Mr. Anthony Middleton, who's the Treasurer of his church, 
Sonfest Chapel of Boynton Beach, Florida. He says, and I quote, 
many contributions received by faith-based institutions are 
used in a benevolent manner to help needy families and 
individuals and the homeless. If the allowance for charitable 
contributions is reduced, it will severely impact and threaten 
the existence of the church and other charities, as well as 
spending by these organizations that aid the poor and the 
homeless. When people donate to a charity or through their 
church, at least they know who they are directly supporting.
    Mr. Chairman, I strongly believe in a balanced budget, as 
you do. I'm a deficit hawk; and I believe that we must pay for 
what we spend, just like any American family. Mr. Chairman, I 
hope we can continue to work together on this budget bill and 
find an alternative to this reduction of the tax deduction for 
charitable contributions so that we can meet our goals of 
fiscal discipline and responsibility to the American taxpayer.
    Mr. Chairman, I ask unanimous consent to place in the 
record letters that I have received from a number of 
organizations, including Covenant House Florida, the Union of 
Orthodox Jewish Congregations of America, and the Jewish 
Federation of South Palm Beach County, asking for opposition to 
this particular provision and, of course, asking for an 
alternative.
    Mr. Chairman, as I conclude, while challenges abound, I am 
confident that we will get through this together. We always do. 
We're the most resilient people on this planet. We have many 
opportunities ahead to strengthen our great country, and I look 
forward to working with you and all of your colleagues in the 
Congress and the President to ensure that we have a budget that 
prioritizes America's working families and makes America 
stronger.
    Our future holds great opportunities for America, and this 
budget should reflect and will reflect the vision of the 
American people.
    Mr. Chairman, I thank you for your time today and look 
forward to working with you on this very important budget.
    Mr. Schrader. Thank you very much, Mr. Klein. Appreciate 
your testimony. And since I don't think there will be any 
objection, we'll enter that document into our record for you. 
Thank you.
    Mr. Klein. Thank you so much.
    [The prepared statement of Ron Klein follows:]

Prepared Statement of Hon. Ron Klein, a Representative in Congress From 
                          the State of Florida

    Thank you, Mr. Chairman for inviting me to testify before the 
Budget Committee today. This budget will serve as a blueprint for the 
future--a commitment to our long term vision of what is most important 
to our country. Under your leadership, we are returning to a culture of 
fiscal discipline. In these economic times, nothing is more important.
    Mr. Chairman, for the first time, the American people will have an 
honest and transparent budget to evaluate. For too long, the government 
was not being completely open by running two wars and other 
expenditures off the books. No American family or business can run its 
budget in that manner, and the government shouldn't either. Hundreds of 
billions of dollars later, the American people will finally be able to 
see the serious financial consequences that we face today. Restoring 
honesty and fiscal discipline is an important step in re-establishing 
trust in government.
    Whether you support or oppose the war, we all agree that when 
Americans who wear the military uniform return from service, they 
deserve to be treated with the highest level of respect and dignity 
that they have earned. This includes making sure that they receive the 
necessary benefits. Last year, I testified before your committee about 
the backlog in disability claims. We have seen some progress, but not 
enough. As of September 2008, 330,000 Iraq and Afghanistan war veterans 
have filed disability claims to the VA. Yet, 54,000 are still waiting 
for confirmation that the VA received their claims. The average wait 
for a disability claim is more than six months. I come before you again 
this year to speak on behalf of the veterans of Palm Beach and Broward 
Counties in South Florida, from World War II to Operation Enduring 
Freedom and Operation Iraqi Freedom, and ask that we keep our promise 
to our nation's veterans and ensure that they get their benefits in an 
easy and efficient manner. America is at its best when we honor those 
who have served us, and I know that this budget will reflect those 
priorities.
    Our budget must also include funding for Priority 8 veterans. Many 
veterans in South Florida make too much to be eligible for VA 
healthcare, but make too little to be able to pay for quality health 
insurance. In the last administration, those veterans were not able to 
get the benefits that they earned. This must change. We must move 
quickly to get our Priority 8 veterans the services they deserve.
    I am also alarmed by the recent rise in military suicides. A recent 
RAND study indicated that 20% of the servicemembers who are returning 
from combat suffer from post-traumatic stress disorder or major 
depression. We have learned that the VA suicide hotline took about 
55,000 calls during its first year in operation. Florida was among the 
highest in number of calls to the hotline. With this in mind, we must 
expand mental health screenings and provide our military with the 
resources to research the effects of war when our servicemen and women 
come home.
    Mr. Chairman, another important area of the budget that deserves a 
high level of support is medical and scientific research. It is clear 
that research and technological progress can help save lives and 
advance our country's priorities. We also know that some of the best 
scientists, engineers and doctors are working in the most premiere 
research institutions in the world, right here in the United States. 
When I served in the Florida State legislature, I helped bring The 
Scripps Research Institute to Palm Beach County to jumpstart the 
biotech industry in South Florida. Scripps Florida opened last week, 
and it couldn't have come at a better time. It is this innovative 
spirit that makes America strong. When Florida's economy is hurting, 
jobs in research and technology could help expand employment in our 
communities.
    On a national level, institutions like the National Institute of 
Health and the National Science Foundation deserve our robust 
commitment. I believe that this budget should double cancer funding 
over the coming year and heavily invest in research on Parkinson's, 
diabetes and Alzheimer's. And, as a longtime proponent of embryonic 
stem cell research, I believe that our budget should enable our 
scientists to pursue every reasonable path to successfully complete 
lifesaving research.
    Mr. Chairman, as we face critical challenges ahead, we must work 
together. Democrats and Republicans alike are committed to providing 
the best opportunities for the American people, and this budget is a 
first step in redefining our priorities for the future.
    There is one provision in the budget that I would like to discuss 
today.
    Our community in South Florida faces distinct challenges. 
Unemployment in the State of Florida has risen to 8.6%. As of the end 
of 2008, 20% of home loans in Florida were past due or in default.
    Many in our community have begun to reach out their hand for help * 
* * sometimes to the government and other times to charities--charities 
like Covenant House Florida in Fort Lauderdale. They have provided 
shelter to over 30,000 homeless young people since they were founded in 
1985. They have helped young men find jobs and have taught young women 
to care for their children. But, despite their successes, the need for 
their services has only grown. Their executive director, Jim Gress came 
to my office last week to talk about their predicament. He told us that 
last month, for the first time since 1990, Covenant House Florida ran 
out of beds. The tough economy makes their job that much harder.
    Fundraising for these charities is not easy either. In South 
Florida, many philanthropists can't afford to be as generous as they 
were in the past. Charities have also found that some of their 
supporters were victims of Bernie Madoff's Ponzi scheme. Without the 
support of benefactors, just when we thought times couldn't get worse, 
our community found that non-profits like South Florida's Picower 
Foundation, were closing their doors, no longer able to assist in food 
banks, healthcare, education and job training.
    It is under these circumstances in South Florida that I come to you 
to ask that you reconsider a provision in the proposed budget. Under 
current law, a philanthropist can write off 35% of his or her 
contributions to a charity. This allows charities to grow, even more 
importantly in this economy. But, there is a proposal to cap the 
charitable deduction at a 28% rate.
    I have heard from several charitable organizations in my district 
that their services depend on the generosity of their benefactors. They 
have told me that contributions to their charities currently under 
stress, will decline further if this provision goes into effect.
    I would like to read an email I received from Mr. Anthony 
Middleton, who is the treasurer of his church, Sonfest Chapel of 
Boytnon Beach, Florida.
    ``Many contributions received by faith-based institutions are used 
in a benevolent manner to help needy families and individuals and the 
homeless. If the allowance for charitable contributions is reduced, it 
will severely impact and threaten the existence of churches and 
charities, as well as spending by these organizations to aid the poor 
and homeless. When people donate to a charity or through their church, 
at least they know what they are directly supporting.''
    Mr. Chairman, I strongly believe in a balanced budget, as you do. I 
am a deficit hawk, and I believe that we must pay for what we spend, 
just like any American family. Mr. Chairman, I hope that as we continue 
to work on the budget bill, we can work together to find an alternative 
to this reduction of the tax deduction for charitable contributions so 
that we can meet our goals of fiscal discipline and responsibility to 
the American taxpayer.
    I ask unanimous consent to place in the record letters that I have 
received from Covenant House Florida, the Union of Orthodox Jewish 
Congregations of America and the Jewish Federation of South Palm Beach 
County, asking me to oppose this provision.
    Though challenges abound, I am confident that we will get through 
this together. We have many opportunities ahead to strengthen our great 
country, and I look forward to working with you, Mr. Chairman, our 
colleagues in the Congress and the President, to ensure that we have a 
budget that prioritizes America's working families and makes America 
stronger. Our future holds great opportunities for America, and this 
budget should reflect the vision of the American people.

    Mr. Schrader. We will put our committee into recess as 
we're now voting and be back at a future time.
    [Recess.]
    Mr. McGovern [presiding]. The Budget committee will come to 
order, and the next Member to testify is Mr. Peters from 
Michigan. We welcome you here and look forward to your 
testimony.

   STATEMENT OF THE HON. GARY C. PETERS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Peters. Thank you, Mr. Chairman. It's good to be here 
and have an opportunity to testify before you and the 
committee.
    Of the 4.4 million jobs lost so far in this recession, 1.3 
million have been lost in the manufacturing sector. A healthy 
manufacturing base is critical to ensure the security and 
prosperity of the American middle class and is critical to our 
overall economic recovery. In order to maintain competitiveness 
in the global marketplace, U.S. manufacturers must adapt to new 
technological developments and economic changes. They must 
retool and retrain as they implement the next generation of 
manufacturing practices and green technologies.
    The State of Michigan, the domestic auto manufacturers, and 
many other companies in the State and across the country are 
investing heavily in new technologies that will help renew our 
manufacturing sector and auto industry. Leaders in the private 
sector and in our States are determined to maintain America's 
place as a world leader in manufacturing technologies, and I 
believe that this determination must be matched at the Federal 
level to achieve the technological change being demanded.
    President Obama and many in Congress have called for our 
domestic auto industry to transition into new green 
technologies, using advanced battery and full cell 
technologies. If building the next generation of clean 
automobiles here in America is truly a priority, we need to 
make stronger Federal investments in the automotive research 
and development arena.
    There is a lot of exciting technology being developed right 
now--traditional hybrids, plug-in hybrids, clean diesels, 
ethanol--and we're going to need to invest in all of them if we 
are to achieve energy independence. At the Federal level, there 
are several programs in place to put significant resources 
behind efforts to renew the domestic automobile industry, but 
funding levels are not currently adequate for these programs to 
achieve their stated goals.
    Section 135 of the Advanced Battery Loan Guarantee and 
Grants Program was authorized by energy legislation passed in 
Congress in 2007. This program authorizes both loan guarantees 
and grants for the construction of manufacturing facilities for 
advanced vehicle batteries and battery systems. However, this 
critical job-creating, fuel-saving program has yet to receive 
any funding. Congress needs to fund and implement this program.
    Section 136 of the Advanced Technology Vehicles 
Manufacturing Loan Program provides up to $25 billion in direct 
loans that will be made available to eligible applicants for 
the cost of re-equipping, expanding, and establishing 
manufacturing facilities in the U.S. to produce advanced 
technology vehicles and vehicle components.
    However, based on the number of applications already 
submitted to the 136 program, it is likely more funding will be 
necessary to accommodate worthy projects. With credit markets 
frozen, Federal loans are virtually the only means through 
which auto companies can secure the financing to continue this 
critical research and development. This is another job-creating 
program crucial to our industry, and we should double its 
funding.
    The economic recovery package President Obama recently 
signed into law includes $2 billion for advanced vehicle 
manufacturing, and this is a great first step. But $2 billion 
more is still not enough when compared to the tens of billions 
of dollars that the Japanese, Chinese, and Korean governments 
are investing into these technologies.
    The global race to create the ultra-efficient cars of the 
21st century has begun, and the United States is already giving 
other nations a tremendous head start. All of these programs to 
help develop the next generation of clean cars need more 
Federal support if we are to ensure that we will not trade our 
dependence on foreign oil for our dependence on foreign 
batteries.
    The Department of Energy's Office of Energy Efficiency and 
Renewable Energy has additional programs performing R&D of 
hydrogen fuel cells, batteries, and other advanced 
technologies. The 21st Century Truck Partnership and FreedomCAR 
are prime examples of programs that partner with our domestic 
automakers and which need more Federal support in order to move 
these technologies out of the laboratory and into the showroom.
    The FreedomCAR and Fuel Partnership's ultimate objective is 
a clean and sustainable energy future that reduces the Nation's 
dependence on foreign oil and minimizes regulated emissions and 
CO2, yet preserves freedom of mobility and vehicle choice for 
consumers. The goal of the 21st Century Truck Partnership is 
for our Nation's trucks and buses to safely and cost 
effectively move larger volumes of freight and greater numbers 
of passengers while emitting little or no pollution, with 
dramatic reduction in dependence on foreign oil.
    Commercial trucks and buses are some of the least efficient 
vehicles on the road; and I know there are companies in my 
district developing new, innovative technologies to make these 
vehicles run cleaner and greener and more cost effectively. 
Imagine what else could be possible with more Federal R&D 
spending.
    Big three automakers have been active in participating in 
the EERE programs, and we should encourage their research and 
collaboration with the industry in developing these 
technologies. Without a systemic investment in the long term of 
these programs, we will not see the results at which these 
programs aim.
    And, finally, support for the Manufacturing Extension 
Partnership, or MEP, and Technology Innovation Program under 
the National Institute of Standards and Technology must be 
maintained.
    The Manufacturing Extension Partnership is a national 
program that provides technical services and assistance to 
increase productivity and efficiency of small- and medium-sized 
manufacturers. MEP services are available at 443 locations in 
all 50 States. The MEP was credited with creating or retaining 
52,000 jobs in 2006 and stimulating $1.65 billion in economic 
growth. Participants in the program reported sales increases of 
$6.8 billion and more than $1 billion in cost savings. The 
success of these programs is uncontested, and they should 
continue to be part of our domestic manufacturing strategy 
moving forward.
    Thank you again for the opportunity to testify today. The 
United States has begun making investments into batteries and 
other advanced technologies, but it is not enough. If we want 
to maintain our economic competitiveness, create jobs and truly 
become energy independent, we must support our manufacturing 
sector and auto industry at the same pace as other countries. 
Other nations have committed billions of dollars to support new 
manufacturing technologies because they know they represent the 
jobs of the future. Our country and our government need to do 
the same or we will be left behind.
    [The prepared statement of Gary Peters follows:]

Prepared Statement of Hon. Gary C. Peters, a Representative in Congress 
                       From the State of Michigan

    Mr. Chairman, Thank you for the opportunity to testify today. Of 
the 4.4 million jobs lost so far in this recession, 1.3 million have 
been lost from the manufacturing sector. A healthy manufacturing base 
is critical to ensure the security and prosperity of the American 
middle class and critical to our overall economic recovery. In order to 
maintain competitiveness in the global marketplace, U.S. manufacturers 
must adapt to new technological developments and economic changes. They 
must retool and retrain as they implement the next generation of 
manufacturing practices and green technologies.
    The State of Michigan, the domestic auto manufacturers, and many 
other companies in the state and across the country are investing 
heavily in new technologies that will help renew our manufacturing 
sector and auto industry. Leaders in the private sector and in our 
states are determined to maintain America's place as a world leader in 
manufacturing technologies. I believe that determination must be 
matched at the federal level to achieve the technological change being 
demanded.
    President Obama and many in Congress have called for our domestic 
auto industry to transition into producing new green vehicles, using 
advanced battery and fuel cell technologies. If building the next 
generation of clean automobiles here in America is truly a priority, we 
need to make stronger Federal investments in the automotive research 
and development arena.
    There is a lot of exciting technology being developed right now--
traditional hybrids, plug in hybrids, clean diesels, ethanol--and we're 
going to need to invest in all of them if we are to achieve energy 
independence. At the federal level there are several programs in place 
to put significant resources behind efforts to renew the domestic 
automobile industry, but funding levels are not currently adequate for 
these programs to achieve their stated goals.
    Section 135 of the Advanced Battery Loan Guarantee and Grants 
Program was authorized by Energy legislation passed by Congress in 
2007. This program authorizes both loan guarantees and grants for the 
construction of manufacturing facilities for advanced vehicle batteries 
and battery systems. However, this critical job-creating, fuel-saving 
program has yet to receive any funding. Congress needs to fund and 
implement this program.
    Section 136 of the Advanced Technology Vehicles Manufacturing Loan 
Program (ATVMLP) provides up to $25 billion in direct loans that will 
be made available to eligible applicants for the costs of reequipping, 
expanding, and establishing manufacturing facilities in the U.S. to 
produce advanced technology vehicles and vehicle components. However, 
we know that the 136 program has already received more applications 
than the program will be able to fund, and many companies are still 
working to submit new applications. With credit markets frozen, federal 
loans are virtually the only means through which auto companies can 
secure the financing to continue this research and development. This is 
another job-creating program crucial to our industry and we should 
double its funding.
    The economic recovery package President Obama recently signed into 
law includes $2 billion for advanced vehicle manufacturing. But $2 
billion more is still not enough when compared to the tens of billions 
of dollars that the Japanese, Chinese, and Korean governments are 
investing into these technologies.
    The global race to create the ultra-efficient cars of the 21st 
Century has begun, and the United States is already giving other 
nations a tremendous head start. All of these programs to help develop 
the next generation of clean cars need more Federal support if we are 
to ensure that we do not trade our dependence on foreign oil for a 
dependence on foreign batteries.
    The Department of Energy's office of Energy Efficiency and 
Renewable Energy (EERE) has additional programs performing R&D of 
hydrogen fuel cells, batteries, and other advanced technologies. The 
21st century truck partnership and FreedomCAR are prime examples of 
programs that partner with our domestic automakers and which need more 
federal support in order to move these technologies out of the 
laboratory and into the showroom.
    The FreedomCAR and Fuel Partnership's ultimate objective is a clean 
and sustainable transportation energy future that reduces the nation's 
dependence on foreign oil and minimizes regulated emissions and CO2, 
yet preserves freedom of mobility and vehicle choice for consumers. The 
goal of the 21st Century Truck Partnership is for our nation's trucks 
and buses to safely and cost-effectively move larger volumes of freight 
and greater numbers of passengers while emitting little or no 
pollution, with dramatic reduction in dependence on imported oil. 
Commercial trucks and buses are some of the least fuel efficient 
vehicles on the road, and I know there are companies in my district 
developing new innovative technologies to make these vehicles run 
cleaner and greener, and more cost effectively. Imagine what else could 
be possible with more federal R&D backing.
    Big 3 automakers have been active in participating in the EERE 
programs, and we should encourage their research and collaboration with 
the industry in developing these technologies. Without a systematic 
investment in the long term for these programs, we will not see the 
results at which these programs aim.
    Finally, support for the Manufacturing Extension Partnership, or 
MEP, and Technology Innovation Program under National Institute of 
Standards and Technology must be maintained.
    The Manufacturing Extension Partnership is a national program that 
provides technical services and assistance to increase productivity and 
efficiency of small and medium sized manufacturers. MEP services are 
available at 443 locations in all 50 states. The MEP was credited with 
creating or retaining 52,000 jobs in 2006 and stimulating $1.65 billion 
in economic growth. Participants in the program reported sales 
increases of $6.8 billion and more than $1 billion in cost savings. The 
success of these programs is uncontested and they should continue to be 
part of our domestic manufacturing strategy moving forward.
    Thank you again for the opportunity to testify today. The United 
States has begun making investments into batteries and other advanced 
technologies, but it is not enough. If we want to maintain our economic 
competitiveness, create jobs and truly become energy independent, we 
must support our manufacturing sector and auto industry at the same 
pace as other countries. Other nations have committed billions of 
dollars to support new manufacturing technologies because they know 
they represent the jobs of the future. Our country and our government 
need to do the same or we'll get left behind.

    Mr. Melancon [presiding]. Thank you, Mr. Peters. I 
appreciate your presentation and ask members if they have 
questions.
    Mr. Peters. Thank you, Mr. Chairman.
    Mr. Melancon. Thank you.
    Next, I would like to recognize Mr. McGovern for 5 minutes.

 STATEMENT OF THE HON. JAMES P. McGOVERN, A REPRESENTATIVE IN 
            CONGRESS FROM THE STATE OF MASSACHUSETTS

    Mr. McGovern. Thank you very much, Mr. Chairman; and I want 
to commend Mr. Peters for his testimony. I want to associate 
myself with his remarks. We need to do more to support our 
manufacturing base in this country.
    Mr. Chairman, I am a very strong supporter of President 
Obama's commitments to end child hunger in America by 2015 and 
to cut in half global poverty and hunger by 2015. I want to 
make sure that the resources are in the fiscal year 2010 budget 
so that we start out on the right path and we can achieve these 
goals within the 5-year window that the President has outlined.
    Given the way the President's budget was presented, it is a 
little hard to know whether those funds are there; and it is 
critical for the committee and the budget resolution that they 
ensure that the funds required to accomplish these mandates are 
clearly included.
    I respectfully ask that the fiscal year 2010 budget 
resolution include a robust Function 150 International Affairs 
Account and include report language that explicitly references 
the President's commitment to reduce by half global hunger and 
poverty by the year 2015, including increased resources for the 
State Department, USDA, and USAID to address global hunger and 
food security.
    I further request that the funding levels for Function 600 
Income Security has the necessary resources to eliminate child 
hunger in America and that explicit reference be made in the 
report supporting the President's commitment to eliminate child 
hunger in America by 2015, with particular emphasis on the 
importance of fully funding food stamps, early childhood 
nutrition, school breakfast and lunch programs, and summer 
meals programs.
    I ask unanimous consent to enter materials in the record.
    [The information follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. McGovern. Let me just conclude, Mr. Chairman, by saying 
that hunger is a political condition. We have all the 
resources, we have the infrastructure, we have the food, we 
have everything that it takes to end hunger both in the United 
States and around the world. What we have lacked is the 
political will to actually fund the programs necessary to bring 
about an end to this terrible scourge.
    I think this is an incredible opportunity for this 
committee to present a budget that will do great things, and I 
can't think of any more important challenge or any more 
important moral challenge, I should say, than ending hunger. So 
I thank the chairman for the time and giving me an opportunity 
to present my case.
    Thank you.
    Mr. Melancon. I thank the gentleman from Massachusetts for 
his testimony and look how much time you saved us. Thank you.
    [The prepared statement of James McGovern follows:]

   Prepared Statement of Hon. James P. McGovern, a Representative in 
                Congress From the State of Massachusetts

    Mr. Chairman--I am a very strong supporter of the President's 
commitments to end child hunger in America by 2015--and to cut in half 
global hunger and poverty by 2015.
    I want to make sure that the resources are in the FY 2010 budget so 
we start out on the right path and can achieve these goals within this 
five-year window.
    Given the way the President's budget was presented, it's a little 
hard to know whether those funds are there, and it is critical for the 
Committee and the Budget Resolution to ensure that the funds required 
to accomplish these mandates are clearly included.
    I respectfully ask, Mr. Chairman, that the FY 2010 Budget 
Resolution include a robust Function 150 International Affairs Account 
and include report language that explicitly references the President's 
commitment to reduce by half global hunger and poverty by 2015, 
including increased resources for the State Department, USDA and USAID 
to address global hunger and food security.
    I further request that the funding level for Function 600 Income 
Security has the necessary resources to eliminate child hunger in 
America and that explicit reference be made in the report supporting 
the President's commitment to eliminate child hunger in America by 
2015, with particular emphasis on the importance of fully funding early 
childhood nutrition, school breakfast and lunch programs, and summer 
meals programs.
    I ask unanimous consent to enter materials into the Record.

    Mr. Melancon. The Chair would like to recognize 
Representative Walz for 5 minutes.

  STATEMENT OF THE HON. TIMOTHY J. WALZ, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MINNESOTA

    Mr. Walz. Thank you, Mr. Chairman, and thanks to this 
committee for, first of all, the incredible work that you do, 
and thank you for the opportunity to come and express our 
support of the budget and some suggestions that we think will 
improve on. I am very appreciative of that opportunity.
    This year, we are crafting a budget in the worst economic 
crisis any of us have ever seen, which gives us an incredibly 
difficult task. The budget has to reflect the reality of 
today's world, which means it must be focused on short-term 
economic recovery, but, at the same time, it must bring about 
long-term economic transformations that leave this country 
stronger than ever; and we must do this all by putting us back 
on a path of fiscal responsibility.
    I am very much encouraged by the President's commitment in 
his budget outline to making gains on all these fronts, not 
just to tackle the current crisis but do so in a transformative 
way on education, energy, working towards the future. I am also 
impressed by the President's commitment to reduce this budget 
deficit in half by his first 4 years; and, for that, that will 
mean teamwork with those of us here in Congress and this 
committee.
    First, I am very pleased with the President's commitment on 
clean energy technologies. This is both a crucial and 
sustainable investment over the long term and one that will 
create many jobs, helping spur our economic recovery. The time 
has come for us to harness innovation and ingenuity of the 
American people to develop long-term solutions to our energy 
crisis. By developing renewable sources such as wind, solar, 
biofuels, geothermal heat, we can move beyond fossil fuels to 
an energy policy that is sustainable, renewable, and produced 
in America by American workers.
    At the same time, investments in clean energy technology 
create millions of good-paying jobs right here. In my southern 
Minnesota district, our wind industry is particularly poised to 
reap huge benefits from a serious funding commitment to 
renewable energy. And all over America we will reap the 
benefits from those jobs in the development of new industries 
and an environmental sustainability that will lead to national 
security.
    The President's budget makes a serious commitment to 
research and development. Whether it be solar, wind, biomass, 
geothermal, or others, we have to invest in the future, a 
future that will really help us fuel an economic recovery and 
no longer a bubble-based economy on fossil fuels. The President 
has made that, and it will help all of us.
    Second, our veterans' issues. As a member of the House 
Veterans Affairs Committee and a 24-year veteran myself, I 
spend a lot of time focused on veterans issues; and I believe 
we have to provide the highest quality of care to our veterans, 
not just as a moral responsibility but as a national security 
responsibility to keep faith with our newest generation who are 
willing to serve this Nation. You very seldom hear anybody say 
anything negative about veterans, and every time they get an 
opportunity they will stand in front of them. But the real test 
is, will they stand behind them?
    This budget stands behind them. It is a 10 percent increase 
in veterans' discretionary funding over fiscal 2009. This is 
now three budgets in a row that have met the independent 
budgets of our veterans' service organizations in the care of 
our veterans. That is a commitment that has never been made. 
Last year's budget was simply the best in the 77-year history 
of the VA, and our veterans are benefiting for it, and our 
Nation is benefiting for it. I take great pride in that the 
President has stood behind this. And while we differ on certain 
things, one being third-party billing on some of the insurance 
issues, we will come to a consensus to make sure that we all 
know that care of our veterans is an issue that transcends 
politics.
    I did want to mention just a couple of areas that I hope 
the VA does not forget, one to improve the care of our veterans 
but also to be more efficient with our scarce resources.
    One of the things is that VA care is the best in the world. 
It is the best care anywhere. One of the problems is entering 
into the system and keeping track of some of the records; and 
one thing that our new VA Secretary, General Shinseki, has 
expressed a commitment to is expanding the use of electronic 
medical records. I hope the VA gets the funding out of this 
budget that is necessary to do exactly that.
    More importantly, we need to make sure interoperability 
between the Department of Defense and the VA is one where we 
use our innovation and use our technology to make sure there is 
truly a seamless transition. I am committed to making sure that 
when a soldier's time, when an airman's time, a Marine's time 
is done, they are able to transfer seamlessly with their 
records, their personnel records and their medical records, 
into the VA system and into civilian life. And everything that 
I have heard from General Shinseki, his cooperation with 
Secretary Gates to cooperate and what they are putting 
together, uniform registration is what they are calling it, 
should accomplish this. When a young American raises their hand 
and pledges an oath to the Constitution to defend this Nation, 
they are immediately enrolled in the VA system; and we will 
make sure that we care for them in the way this Nation should.
    So I wanted to thank this committee for the work that they 
do, again reminding people and reminding everyone the 
President's budget is a suggestion. It is here that we 
legislate these. The President set us on to a good path. This 
committee, as it does every year, will refine that, reflect the 
values of Americans in 435 congressional districts. And I want 
to thank you, Mr. Chairman, for allowing those voices of 
southern Minnesota to be heard in front of you today.
    Mr. Melancon. Mr. Walz, thank you for your testimony. I 
appreciate you taking the time.
    [The prepared statement of Timothy Walz follows:]

    Prepared Statement of Hon. Timothy J. Walz, a Representative in 
                  Congress From the State of Minnesota

    Chairman Spratt, Ranking Member Ryan, members of the Committee on 
the Budget, thank you. I appreciate the very important work that you 
do, and it is an honor to be able to contribute in a small way to that 
work by testifying before you about some of the issues that I have 
focused on as they relate to the Budget Resolution for Fiscal Year 
2010.
    This year, Congress is crafting the budget in the midst of the 
worst economic crisis most of us have ever seen, which gives us an 
incredibly difficult task. The budget has to reflect the reality of 
this crisis, which means it must be focused on short-term economic 
recovery while at the same time start to bring about a long-term 
economic transformation that will leave us stronger than ever. And it 
must do this while also putting us on a path of fiscal responsibility.
    I was certainly encouraged by the commitments the President's 
budget outline makes on these fronts, not just to tackle our current 
crisis, but to do so in a thoughtful way that will transform our 
economy in the long term. And I was impressed by the President's 
commitment to reduce the budget deficit in half by the end of his first 
term. I hope that we can work with him to accomplish these goals.
    Of course, when it comes to the budget, the President suggests, and 
Congress legislates. In that regard, I want to address a couple of 
areas where I think the President has made important, good suggestions, 
and make a couple of suggestions of my own.
    First, I'm very please with the President's commitment to funding 
for clean energy technologies. This is both a crucial, sustainable 
investment over the long term and one that will create many jobs, 
helping to spur economic recovery in the short term. The time has come 
for us to harness the innovation and ingenuity of the American people 
to develop the long-term solutions that will help make America energy 
independent. By developing renewable sources of energy such as wind and 
solar power, biofuels, and geothermal heat, we can move beyond fossil 
fuels to an energy policy which is sustainable, renewable and produced 
in America by American workers.
    At the same time, investments in clean energy technologies help 
create millions of good-paying American jobs in the renewable energy 
industry and can begin to break the grip that foreign oil has over 
America. In my district in Southern Minnesota, our wind industry in 
particular is poised to reap huge benefits from a serious funding 
commitment to renewable energy. And all over America, we will reap the 
benefits in jobs, in the development of new industries, and in our 
environmental as well as our national security.
    The President's budget makes a serious commitment to research, 
development, demonstration, deployment, and commercialization of clean 
energy technologies. Whether it be solar, wind, biomass, geothermal or 
other, we have to invest in the future of our energy production--a 
future that will really help to fuel an economic recovery that is no 
longer bubble-based. The President's budget also includes loan 
guarantees that are meant to spur and sustain the early commercial 
deployment of innovative clean energy--something we can certainly 
capitalize on in my district.
    Second, veterans' issues. As a member of the House Veterans' 
Affairs Committee and a 24-year veteran myself, I have spent a lot of 
time focused on veterans issues and I believe we have to provide the 
highest quality of benefits and care to our veterans. You will never 
hear anyone say anything negative about our veterans. So the budget, 
funding priorities, is really where you have to look--it is the test of 
whether we put our money where our mouth is. Are we fulfilling our 
moral obligations to our veterans?
    In his budget, the President shows his incredible commitment to our 
nation's veterans. For FY2010, the President proposes a 10 percent 
increase in veterans discretionary funding over Fiscal Year 2009, which 
represents the second of two years of historic increases in VA funding 
since Democrats regained the majority in Congress. I applaud him for 
taking this strong stand in support of our veterans--as we deal with 
third-party medical collections and other issues, we may in fact have 
to propose an even larger increase in discretionary VA spending than 
the Administration to arrive at the same overall total, but again, it 
is so refreshing to see this strong commitment from President Obama.
    I do want to mention a few areas of focus at VA that I hope will 
not be forgotten as Congress and the President work out the details of 
the budget. First, we know that one of the things that has made VA 
health care the best care anywhere is VA's innovative use of electronic 
medial records. And I know that Secretary Shinseki has expressed his 
commitment to the expansion of the use of electronic records. I hope 
that VA gets the funding it needs in that regard. Second, on a related 
note, those records need to be interoperable with the Department of 
Defense. This is one of the keys to an issue I care very deeply about: 
making sure that our returning servicemen and women make that seamless 
transition from military to civilian life, which requires real 
cooperation and coordination between DoD and VA. Everything I have 
heard from Secretary Shinseki indicates a real determination on his 
part and on Secretary Gates' part to cooperate together in an 
unprecedented way to make sure that our servicemen and women get the 
best possible care, and make the easiest possible transition from 
military to civilian life. We need to support those efforts. As I 
understand it, they are working on what they call uniform registration 
in VA--making it possible for service members to be enrolled in VA when 
they enter service. We must do whatever we can to help make that 
happen.
    At the same time, I do just want to make sure that with all of the 
new priorities VA faces, which the Secretary is quite right to focus 
on, we are still properly funding VA's core, existing services. If VA 
health care is to remain the best care anywhere, our VA Medical Centers 
need to remain adequately funded to provide that care.
    Again, I thank you for the opportunity to testify here today, and I 
want to thank you again for your efforts on behalf of our nation.

    Mr. Melancon. Ms. Giffords from Arizona I think is the next 
person.

 STATEMENT OF THE HON. GABRIELLE GIFFORDS, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    Ms. Giffords. Thank you, Mr. Chair. I appreciate the 
opportunity to be here today.
    I know that this is an exceptionally difficult budget cycle 
for all of us. Our constituents back home are feeling the 
negative effects of the current economic crisis, and this is 
resulting in a flurry of activity as a wide variety of 
interests compete for Federal resources. We hear that certainly 
every single day here on the Hill.
    But I believe that this crisis also has presented itself an 
open door of opportunity. In particular, I believe that by 
making critical investments in clean energy, but particularly 
solar energy, we can take a big step towards putting our Nation 
back on a strong economic footing and for a higher quality life 
for all Americans. Far from being a distraction from today's 
economic problems, solar and other renewables provide a means 
of addressing the economic crisis head on. Indeed, even though 
renewable power sources currently account for just a small 
fraction of our overall electricity production, they accounted 
for over 50 percent of the additional electrical generating 
capacity that came online during 2008. With strong support in 
this budget, that number could reach 100 percent by 2012.
    But more than that, a robust solar industry is an economic 
engine that could help us revive our struggling economy. Solar 
power creates jobs for electricians, for construction workers, 
plumbers, line workers, roofers, engineers, and high-paying 
manufacturing positions. With effective national policy, solar 
can create tens of thousands of jobs across the entire country 
and spur billions of dollars worth of economic growth and tax 
revenue.
    Solar technologies are already being manufactured or 
installed in every corner of America, from Oregon to Florida, 
from the deserts of Arizona to the heartland of Ohio. Solar is 
good for our entire Nation, and I would like to give a couple 
of examples:
    In Alamosa, Colorado, Sun Edison recently built an 8.2 
megawatt solar farm. In the process, they retrained over 40 
workers in the region, some who were recently laid off from the 
mining industry.
    Leading national businesses such as Wal-Mart, Costco, 
Kohl's, Staples, Target, Macy's and others have made 
significant commitments to the installation of solar energy on 
their own rooftops, alleviating electricity congestion in the 
neighborhoods.
    In the Arizona desert, my State's largest utility, Arizona 
Public Service, has teamed up with a Spanish company called 
Abengoa. They have plans to build one of the largest solar 
power plants in the world. When complete, it will be able to 
power over 70,000 homes.
    On Nellis Air Force Base in Nevada, the Air Force has 
installed a 14-megawatt solar array. It is reducing their long-
term energy costs while increasing the energy security of the 
base. This last example illustrates one of my favorite issues, 
renewable energy adoption by our armed services. I am pleased 
that the military is taking the lead--the Army, the Air Force, 
the Navy, and the Marines--on many renewable energy 
technologies; and I believe that we need a budget that 
encourages them to do even more.
    Action has happened at the local level, too.
    In my hometown of Tucson, George Villec of the solar 
installation company reports that Federal incentives have 
stimulated demand for alternative energy. As a result, just 
this year they have hired four full-time employees.
    Another Tucson solar installer, Kevin Cook, tells the 
following story: Last year at this time, we were employing 
eight people, with a backlog of 6 to 8 weeks. We now employ 15 
people. I need to hire two to three more, for our backlog now 
extends to 12 weeks. While the rest of the construction 
industry is in dire straits, we are growing as fast as we can 
find and train smart, sincere, and skilled members of our 
community. Best of all, we are installing more systems per week 
than ever before, which is reducing our Nation's dependence on 
fossil fuels and the negative effects associated with them. In 
fact, now that the $2,000 cap on the investment tax credit has 
been lifted, more of our customers are choosing to produce 80 
to 100 percent of their power from solar energy.
    According to SEIA, the Solar Energy Industries Association, 
solar installations in 2007 increased by more than 40 percent 
over 2006. In the process, solar energy companies created 6,000 
new jobs, 265 megawatts of generation capacity, and pumped more 
than $2 billion of investment into our U.S. economy. And we 
have just scratched the surface in terms of this economic 
potential.
    Solar technologies are rapidly becoming cost competitive 
with traditional sources of power. Most solar experts estimate 
that solar technologies will reach grid parity by around 2012. 
That is just right around the corner. But to get to there from 
here, solar must have our support today.
    I urge you to develop a fiscal year 2010 budget that will 
continue to level the playing field for solar and other clean 
energy technologies.
    During the Presidential campaign, then-Senator Obama 
promised to invest $15 billion per year over the next 10 years 
in developing clean, renewable energy technologies. In his 
fiscal year 2010 budget proposal, President Obama has again 
called for heavy investment into renewables.
    I urge the committee to follow the President's lead and set 
aside significant funding for research and development, 
demonstration projects, loan guarantees, and tax-free bonding 
authority for solar and other renewable energy projects.
    In addition, I urge this committee to provide the means for 
the Federal Government to install 2,000 megawatts of solar on 
Federal buildings by the end of 2010.
    Our Nation faces grave challenges in the years ahead, but 
there are solutions. Those solutions will require us to embrace 
bold new ideas. Solar power's benefits are proven, and they are 
real. I urge the committee to give solar its full support in 
developing the fiscal year 2010 budget.
    Thank you for your attention.
    Mr. Melancon. I would like to thank the gentlelady from 
Arizona, and I think I will put her down in favor of solar. 
Thank you, ma'am. I appreciate it.
    [The prepared statement of Gabrielle Giffords follows:]

  Prepared Statement of Hon. Gabrielle Giffords, a Representative in 
                   Congress From the State of Arizona

    Thank you, Chairman Spratt, for hearing from me today. I appreciate 
the opportunity to be here.
    I know that this will an exceptionally difficult budget cycle. Many 
Americans are feeling the negative effects of the current economic 
crisis and this is resulting in a flurry of activity as a wide variety 
of interests compete for federal resources.
    However, I believe that this crisis has opened a door of 
opportunity. It has given us a compelling reason to pause for a moment 
to assess where we are going, where we really want to go, and how we 
are going to get there.
    At home in Southern Arizona, folks feel it is time to stop making 
excuses. They are looking to us for leadership and want us to reject 
distractions that have kept us from focusing on what we need to do 
today to secure our future. The good news is that there are things that 
we can do that will help us not just weather today's storm, but lay a 
foundation for a brighter tomorrow.
    In particular, I believe that by making critical investments in 
clean energy, especially solar energy, we can take a big step toward 
putting our nation back on a strong economic footing and a higher 
quality of life. Far from being a distraction from today's economic 
problems, solar and other renewables provide a means of addressing the 
economic crisis head on.
    I have heard some colleagues in Congress say it is impossible for 
solar and other renewable energy technologies to make a significant 
contribution to our energy challenges, that solar, wind, and biomass 
will never be more than niche players in our energy mix. With all due 
respect, these colleagues have been misinformed. Solar and other 
renewables can actually contribute significantly to meeting our energy 
needs. Indeed, renewable power sources provided over 50 percent of our 
nation's incremental energy in 2008.
    But more than that, a robust solar industry is an economic engine 
that will help revive our struggling economy. Solar power creates jobs 
for electricians, construction workers, plumbers, line workers, 
roofers, engineers and high-paying manufacturing positions. With 
effective national policy, solar can create tens of thousands of jobs 
across the entire country and spur billions of dollars in economic 
growth and tax revenue.
    Solar technologies are already being manufactured or installed in 
every corner of America, from Oregon in the soggy northwest to Florida 
in the sunny southeast, from the deserts of Arizona to the heartland of 
Ohio. Solar is good for our entire nation. Here are just a few 
examples:
    <bullet> In Alamosa Colorado, Sun Edison recently built an 8.2 MW 
solar farm. In the process, they re-trained over 40 workers in the 
region, some of whom were recently laid off from the mining industry.
    <bullet> Leading national businesses such as Wal-Mart, Costco, 
Kohls, Staples, Target, Macy's and others have all made significant 
commitments to installing solar energy on their own rooftops, 
alleviating electricity congestion in their neighborhoods.
    <bullet> In the Arizona Desert, Arizona Public Service and Abengoa 
are planning to build the Solana project, one of the largest solar 
power plants in the world. When complete, it will be able to power 
70,000 homes.
    <bullet> On Nellis Air Force Base in Nevada, the Air Force has 
installed a 14 MW solar array, reducing their long-term energy costs 
while increasing the energy security of the base. This last example 
illustrates one of my favorite issues: renewable energy adoption by our 
armed services. I am pleased that the military is taking the lead on 
many renewable energy technologies, and I believe they should be doing 
even more.
    According to the Solar Energy Industries Association, solar 
installations in 2007 increased by more than 40 percent over 2006. In 
the process, solar energy companies created 6,000 new jobs, 265 
megawatts of generation capacity and pumped more than $2 billion of 
investment in the U.S. economy. And we have just scratched the surface 
of the economic potential.
    Solar energy is versatile: it can be used to heat water or generate 
electricity, provide heating and cooling, and of course lighting. Solar 
can be deployed on individual homes and businesses, or it can be 
developed on a utility scale to serve entire cities. In places with 
limited transmission infrastructure, people are embracing solar as the 
most viable option. It provides clean, long-term source of power that 
will continue to shine for millennia.
    Solar technologies are rapidly becoming cost competitive with 
traditional sources of power. Most solar experts estimate that solar 
technologies will reach ``grid parity'' around 2012. But to get from 
here to there, solar needs our support today. I urge you to develop a 
Fiscal Year 2010 budget that will continue to level the playing field 
for solar and other clean energy technologies.
    During the presidential campaign, then-Senator Obama promised to 
invest $15 billion per year over the next ten years in developing 
clean, renewable energy technologies. In his FY2010 budget proposal, 
President Obama has again called for investment in renewables.
    I urge the committee to follow the President's lead and set aside 
significant funding for research and development, demonstration 
projects, loan guarantees and tax-free bonding authority for solar and 
other renewable projects. In addition, I urge the committee to provide 
the means for the federal government to install 2000 megawatts of solar 
on federal buildings by the end of 2010.
    Our nation faces grave challenges in the years ahead, but there are 
solutions. But those solutions will require us to embrace new ways of 
doing things--the old ways will no longer suffice. Solar power a new 
way of doing things, but its benefits are proven and real. I urge the 
committee to give solar its full support in developing the FY2010 
budget.
    Thank you for your attention.

    Mr. Melancon. We will recess for a few minutes until we get 
the next Member.
    [Recess.]
    Mr. Blumenauer [presiding]. The committee will reconvene. 
We welcome Congressman Cohen.

STATEMENT OF THE HON. STEVE COHEN, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF TENNESSEE

    Mr. Cohen. Thank you, Mr. Chairman; and I apologize for 
being a bit tardy.
    I appreciate the opportunity to address the Budget 
Committee with some concerns I have concerning this budget.
    I am heartened that we have a new President for many 
reasons and that we have a budget that prioritizes our funding 
to areas of great importance to my district--health care, 
education, and veterans--and in many ways skewed toward the 
people who need help the most, which my district does.
    It is my hope the funding in the budget will address our 
Nation's infant mortality rate. That is a serious issue in my 
district. The ZIP Code in my district is I think the leading 
infant mortality region in the country, and it challenges 
third-world nations as far as a rate. It is a very serious 
condition and crisis in our community.
    I would also like to hope that the budget would do more to 
sustain our Historically Black Colleges and Universities, of 
which LeMoyne-Owen, which is in the district, is an 
Historically Black College and University that has had problems 
with funding over the years but serves a vital role for 
education for people in the inner cities. Some would think 
HBCUs no longer serve a function since we are at post-Brown v. 
Board of Education, but Historically Black Colleges and 
Universities serve a tremendous role in the country and 
particularly in the South, and LeMoyne-Owen does it, and a 
group of students who might not otherwise get the opportunity 
for graduate education.
    I also wish that the budget would do more to expand 
services for our Nation's veterans. I know that the Obama 
budget has done more for veterans than any other budget in 
history, but there is a particular need in my district which I 
wanted to address.
    The funding includes much-needed investments in 
weatherization and LIHEAP, as well as tax cuts for 95 percent 
of American families; and I indeed applaud this, because those 
weatherization and LIHEAP funds are most important in my 
district. We have many houses and apartment units that are not 
insulated well. People are poor, landlords don't necessarily 
look after the folks as well as they should, and so much of the 
utilities are going out into the environment rather than 
heating people. And it is just a waste of energy and precious 
resources. So weatherization funds could be most important, and 
people can't afford the utility bills. So LIHEAP is important, 
and the more funds that go into that the better it is for my 
district.
    The budget would cut the deficit the President inherited by 
at least half at the end of his first term; and that is an 
important factor, too.
    The smaller deficits result in part from reduced war costs 
over time and not extending the tax cuts to people who have 
incomes over a quarter of a million dollars. Indeed, things I 
concur in and so does my district.
    In addition, the President's budget proposes to restore 
statutory pay-as-you-go rules, which were critical, and that 
can get us back to fiscal responsibility.
    In the area of health care I am especially supportive of 
the health care portion of our budget. It seeks to improve 
quality and efficiency, saving $316 billion over 10 years. It 
makes a significant down payment on reform by having the 
changes in records, emergency, and medical records; and that 
will help control health costs over a period of time.
    In the year 2007, the ZIP Code 38108, which I mentioned in 
my earlier remarks, which is part of North Memphis in my 
district, 38108, it is a predominantly low-income African 
American neighborhood. And I say ``predominantly''. I don't 
think there is anybody living in that ZIP Code that is anything 
but low income. It is a very poor area. It has an infant 
mortality rate of 31 deaths per 1,000 live births. That is 
almost five times the rate of the Nation of 6.78 deaths per 
1,000 live births, five times the national rate of infant 
mortality in that particular ZIP Code. So the 38108 ZIP Code is 
worse than the developing nations of Iran, Indonesia, 
Nicaragua, El Salvador, Syria, and Vietnam in infant mortality. 
And there are other countries that it is worse than. That is 
unacceptable in America, and I think we should do something 
about it.
    The budget also fully funds the Special Supplemental 
Nutrition Program for Women, WIC program, Women, Infants, and 
Children; and that is important in the district and is going to 
be helpful.
    In education, our high school graduates and undergraduate 
students are in need of additional funding and help. The budget 
expands access to college by increasing the maximum Pell Grant 
to $5,500 in 2010 and spending $116 billion in increases over 
the period through mandatory funding rather than through annual 
appropriations.
    I have long been a proponent of college scholarships and 
making it available, and Tennessee did so through Hope 
scholarships and a lottery that I worked 20 years to pass and 
now funds over a billion dollars in college scholarships.
    The budget provides $2.5 billion over 6 years for a new 
College Access and Completion Fund to help low-income students, 
and it overhauls the Perkins Loan program to make loans 
available to more students, with projected savings of $6.5 
billion over 10 years.
    These provisions, such as the American Opportunity Tax 
Credit, making it permanent will help sustain enrollments in 
Historically Black Colleges and Universities such as LeMoyne-
Owen.
    Congressman Cooper and I sponsored an increase in 
expenditures for the HBCUs in the last Congress. We passed it 
in the House. It didn't get through the Senate. Congressman 
Cooper has Tennessee State and Meharry Medical School and Fisk 
in his district, and I have LeMoyne Owen. Of course it is 
personal. Tip O'Neill, all politics is local, provisions make 
it more important for us. But Spelman and Morehouse and 
colleges throughout the South are important, and they should be 
important for us in the South as well as people from the coasts 
and all over the country. The HBCUs need help with their 
capital programs and low-cost loans.
    There was a movie I think a couple of years ago, last year 
maybe, about the college that had the great debating team from 
Texas. And they were successful in beating I think in the movie 
Harvard but in reality USC. But, either way, it was pretty 
significant. And we had hoped that that school and others could 
take advantage of certain low-cost loan pools to help the 
capital costs of those schools which have historic campuses but 
they are also old and in need of repairs and that we could help 
them with that.
    Veterans, we have got an increase in funding for veterans 
by $25 billion over the next 5 years; and that is indeed 
encouraging. We have a lot of veterans' needs in my district. 
The funding hopefully will also increase the number of regional 
offices available to assist our veterans.
    I am hoping to open a regional office in Memphis. Right 
now, the veterans' benefit office is in Nashville. And that is 
the State capital, it is the center of the State, but it is 210 
miles from Memphis.
    While much of our programs are State-oriented, and this is 
one, too, I think it would be a good thing if we could do some 
spending on a regional basis. Memphis serves the mid-South. We 
touch Mississippi to the south and Arkansas to the west, and a 
lot of veterans don't get services very close by because they 
have to go to the State capital in Nashville. If there could be 
a regional center in Memphis, then there could be access for 
veterans from Mississippi and Arkansas as well. We are going to 
ask for funds in the budget for a regional benefits office in 
the City of Memphis to serve those people. The tri-State has an 
area which we call Memphis, the mid-South. Other places call 
themselves the mid-South, but we are the mid-South, just as we 
are the barbecue capital of the Nation.
    Mr. Blumenauer. Out on a limb there.
    Mr. Cohen. Yes. We have 86,000 veterans in the tri-State 
area, and yet the closest regional office is 200 miles outside 
of the region.
    The energy budget would weatherize low-income homes, saving 
working families an average of $350 per year.
    We have $3.2 billion for LIHEAP for 2010 and a new 
mechanism to increase funding when energy prices rise 
significantly.
    And, of course, the tax cuts are important. The Making Work 
Pay tax cuts for 95 percent of Americans is important.
    So those are the different issues in the budget. The main 
things I would like to see in the budget that aren't there 
would be funding for the regional veterans' benefits center in 
Memphis to help serve people, and also increased funding for 
infant mortality projects in efforts to reach out there, and 
for the Historically Black Colleges and Universities.
    With that, I appreciate the time and the process by which 
this committee allows Members to express themselves. I have 
never had the opportunity to be in this committee room to the 
best of my knowledge, unless it was during my first week, which 
was all a blur. So thank you, Mr. Chairman.
    Mr. Blumenauer. You are welcome. We deeply appreciate your 
comments, and they are part of the record. Thank you, sir.
    [The prepared statement of Steve Cohen follows:]

 Prepared Statement of Hon. Steve Cohen, a Representative in Congress 
                      From the State of Tennessee

    I am pleased to be here today to testify on the President's Fiscal 
Year 2010 Budget request.
    I am heartened that we now have a presidential budget request that 
prioritizes funding towards areas that are of great importance to 
Tennessee's Ninth Congressional District: Healthcare, Education and 
Veterans. It is my hope that the funding in the budget will address our 
nation's infant mortality rate, sustain our Historically Black Colleges 
and Universities as well as expand service for our nation's veterans.
    This funding also includes much-needed investments in 
weatherization and LIHEAP as well as tax cuts to 95 percent of American 
families.
    This budget would cut the deficit the President inherited by at 
least half by the end of his first term. The inherited deficit for 2009 
is $1.3 trillion and will fall to $533 billion by 2013. The smaller 
deficits result in part from reduced war costs over time and not 
extending tax cuts for people with incomes above $250,000.
    In addition, the President's budget proposes to restore statutory 
Pay-As-You-Go rules, which were critical to turning the budget around 
in the 1990s.
                               healthcare
    I am especially supportive of the healthcare portion of the budget. 
It seeks to improve quality and efficiency in health care, saving 
$316.0 billion over ten years.
    The budget makes a significant down payment on health reform by 
putting these savings, along with $317.8 billion from a tax policy 
change on upper-income taxpayers, into a $634 billion ``Health Reform 
Reserve Fund'' to help pay for an initiative to make health coverage 
affordable and accessible for all Americans.
    It is important that we use this funding to improve access to 
healthcare and address infant mortality. In 2007, the 38108 zip code in 
North Memphis, which is a predominantly low-income, African-American 
neighborhood, has an infant mortality rate of 31 deaths per 1,000 live 
births. That's almost five times the nation's rate of 6.78 deaths per 
1,000 live births. This ranks the 38108 area worse than the developing 
nations of Iran, Indonesia, Nicaragua, El Salvador, Syria and Vietnam 
in infant mortality rate.
    The budget also fully funds the Special Supplemental Nutrition 
Program for Women, Infants, and Children (WIC) to serve all eligible 
individuals.
                               education
    For our nation's high school graduates and undergraduate students, 
the budget expands access to college by increasing the maximum Pell 
grant to $5,550 for 2010 and by spending $116.8 billion on increases 
over the ten-year period through mandatory funding rather than through 
annual appropriations.
    The budget also provides $2.5 billion over six years for a new 
College Access and Completion Fund to help low-income students, and it 
overhauls the Perkins Loan program to make loans available to more 
students, with projected savings of $6.5 billion over ten years. It 
makes the $2500 American Opportunity Tax Credit permanent to help kids 
afford college. These provisions will be key to sustaining enrollment 
in Historically Black Colleges and Universities such as LeMoyne-Owen 
College.
                                veterans
    The president's budget increases funding for Veterans Affairs (VA) 
by $25 billion over the next five years. This funding will hopefully 
increase the number of regional offices available to assist our 
veterans. I am pushing for one to be opened in Memphis. The Memphis 
tri-state area has a dense veterans' population of more than 88,000, 
yet the closest regional office in Tennessee is more than 200 miles 
outside the region.
                                 energy
    The budget would weatherize low-income homes, saving working 
families on average $350 per year. It provides $3.2 billion for the 
Low-income Home Energy Assistance Program (LIHEAP) for 2010 and 
includes a new mechanism to increase funding when energy prices rise 
significantly.
                                tax cuts
    The budget makes permanent the $800 ``Making Work Pay'' tax cut for 
95 percent of America's working families while preserving all dedicated 
payroll taxes that go to Social Security and Medicare. It continues to 
cut taxes for the families of millions of children through an expansion 
and continuation of the Child Tax Credit.

    Mr. Blumenauer. Congressman Green?

STATEMENT OF THE HON. GENE GREEN, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF TEXAS

    Mr. Green. Thank you, Mr. Chairman.
    Like my colleague, this is I think my ninth term in 
Congress, first time I have testified before the Budget 
Committee, and I appreciate it.
    I am pleased to be here today to provide views on the 
importance of developing a budget resolution that would help us 
address health care reform, global climate change, and our 
energy and economic security. This is no easy task. The United 
States is facing one of the largest fiscal crises in a 
generation. The economy is faltering, unemployment is rising, 
and our national debt continues to skyrocket. This committee 
and Congress must balance these demands to create a budget 
blueprint that will help us meet the challenges of our time.
    On health care provisions, reviewing the President's budget 
I am pleased the President will be addressing our current 
health care crisis by setting aside a reserve fund of more than 
$630 billion over 10 years that will be dedicated toward 
financing health reform and providing health care coverage for 
everyone in our country.
    I am a Member who represents a State that has the highest 
number of uninsured in the U.S. and a medically underserved 
working class district where most individuals never have access 
to health care because they work in low-wage jobs.
    The Texas Medical Center is a premiere medical center, but 
most of the folks in my district cannot access the care there 
because they have no health insurance. All individuals in the 
country deserve health care coverage no matter where they work, 
which is why I fully support efforts in the budget to provide 
health care coverage for all Americans.
    The energy provisions are the ones that give me some 
concern. The budget also includes several provisions aimed at 
America's natural gas and oil producers, with the purported 
goals to end our addiction to oil and address the global 
climate crisis and create new American jobs. Unfortunately, the 
proposed budget could unintentionally undermine each of these 
efforts and must be carefully reevaluated to actually support 
our economic, environmental, and energy security needs.
    According to the President's own budget, over 3.5 million 
jobs have been lost over the past year and an additional 8.8 
million Americans in part-time jobs are unable to find full-
time employment.
    Now is not the time to weaken economic opportunities in our 
domestic energy industry with punitive tax hikes. Far from the 
misconception that the domestic energy industry is run by big 
oil companies, America's independent producers are responsible 
for 90 percent of the wells drilled in America. They produce 82 
percent of the American natural gas and 68 percent of the 
American oil.
    The average independent producer company has 12 employees, 
the definition of a true small business. Almost 2 million jobs 
are attributed to American natural gas and oil production and 
its closely related industries. Increasing costs on the energy 
industry and on the U.S. companies operating abroad would 
jeopardize those small business jobs, export production 
overseas, and increase our reliance on foreign sources of 
energy.
    Without increasing supply from our own vast North American 
natural gas resources, or if we make it more expensive or 
difficult to produce natural gas domestically, it will hinder 
our ability to meet any potential climate change goals, while 
also increasing natural gas prices for American consumers and 
businesses.
    Any climate change policy will inevitably demand or rely on 
clean natural gas, which emits half the carbon dioxide 
emissions of coal, as a short-term bridge fuel while our 
economy transforms to low carbon energy sources.
    Last year, the Natural Gas Council produced a model that 
predicted demand for natural gas would increase by as much as 
10 trillion cubic feet per year under climate change 
legislation.
    Natural gas is also required to make energy efficient 
products. They make wind turbine blades and solar panels, 
provide backup power for the intermittent renewable energy 
sources and to run biomass facilities. Simply put, without 
additional American natural gas supplies, we will fail to 
reduce our short-term carbon emissions and instead dramatically 
raise the cost of energy.
    High natural gas prices over the past years have already 
led to higher heating and cooling bills and power bills for 
consumers, in addition to the loss of approximately 100,000 
manufacturing jobs. And, as a footnote, that typically comes 
from the chemical industry, because the chemical industry 
actually uses natural gas as a feedstock. And when the price of 
natural gas is high in our country, those jobs will be 
overseas; and we will end up importing whatever products we 
could be making here.
    Unfortunately, the President's budget proposal includes 
certain provisions which unfairly target and penalize the oil 
and natural gas industry with tax hits totaling over $30 
billion. This does not include the budget's proposed new fees 
on so-called nonproducing leases, royalty rate adjustments, the 
repeal of the general accounting rules which can 
disproportionally impact refineries, and the cost of complying 
with any cap and trade program.
    Mr. Chairman, I too share the President's goal to end our 
addiction to oil, address the global climate change, and create 
new American jobs. However, raising taxes on one industry will 
not end our addiction to foreign oil. In fact, it would 
increase our reliance on cheaper foreign imports. And I say 
that because in our country per MCF in Libya it is a dollar per 
MCF. We can't produce natural gas in our country with our cost 
structure for a dollar per MCF to be able to use in our 
industry and our homes.
    If we do not address the global climate crisis, we will 
fail to provide the natural gas needed to meet our short-term 
carbon reduction targets of providing affordable and reliable 
supplies energy to all American consumers and businesses. It 
will not create new Americans jobs, as small businesses will 
curtail production.
    Mr. Chairman, I hope the Budget Committee looks at this. A 
number of us from energy producing areas, and particularly I 
have an industrial area that has a lot of refinery jobs and 
chemical plant jobs that could be directly impacted in the 
negative by this budget resolution or by the President's 
budget.
    Thank you.
    Mr. Blumenauer. Thank you very much, sir. I appreciate your 
sharing your information with us. It will be made a part of the 
record.
    Mr. Green. Thank you.
    [The prepared statement of Gene Green follows:]

  Prepared Statement of Hon. Gene Green, a Representative in Congress 
                        From the State of Texas

    Chairman Spratt, Ranking Member Ryan and Members of the Committee: 
I am pleased to be here today to provide views on the importance of 
developing a budget resolution that will help us address health care 
reform, global climate change, and our energy and economic security.
    This is no easy task. The United States is facing one of the 
largest fiscal crises in a generation. The economy is faltering, 
unemployment is rising, and our national debt continues to skyrocket.
    This committee and Congress must balance these demands to create a 
budget blueprint that will help us meet the challenges of our time.
                         health care provisions
    In reviewing the President's budget, I am pleased the President 
will be addressing our current health care crisis by setting aside a 
reserve fund of more than $630 billion over 10 years that will be 
dedicated towards financing health reform and providing health care 
coverage for everyone in this country.
    I am a member who represents a state that has the highest number of 
uninsured in the US and a medically underserved working class district 
where most individuals never have access to health care because they 
work in low wage jobs.
    The Texas Medical Center is a premier medical center, but most of 
the folks in my district cannot access care there because they do not 
have health insurance.
    All individuals in this country deserve health care coverage no 
matter where they work, which is why I fully support efforts in the 
budget to provide health care coverage for all Americans.
                           energy provisions
    The budget also includes several provisions aimed at America's 
natural gas and oil producers with the purported goals to ``* * * end 
our addiction to oil, address the global climate crisis, and create new 
American jobs * * *''
    Unfortunately, the proposed budget could unintentionally undermine 
each of these efforts and must be carefully re-evaluated to actually 
support our economic, environmental and energy security goals.
America's Natural Gas and Oil Producers
    According the President's own budget, over 3.5 million jobs have 
been lost over the past year, and an additional 8.8 million Americans 
in part-time jobs are unable to find full time employment.
    Now is not the time to weaken economic opportunities in our 
domestic energy industry with punitive tax hikes.
    Far from the misconception of a domestic industry run by ``Big 
Oil'' companies, America's independent producers are responsible for 
90% of the wells drilled in America, and they produce 82% of American 
natural gas and 68% of American oil.
    The average independent producer company has 12 employees--the 
definition of a true small business.
    Almost 2 million jobs are attributed to American natural gas and 
oil production and its closely related industries.
    Increasing costs on the energy industry and on U.S. companies 
operating abroad will jeopardize these small business jobs, export 
production overseas, and increase our reliance on foreign sources of 
energy.
Importance of Natural Gas to Meet Our Climate Goals
    Without increasing supply from our vast North American natural gas 
resources, or if we make it more expensive or difficult to produce 
natural gas domestically, it will hinder our ability to meet any 
potential climate change goals while also increasing natural gas prices 
for American consumers and business.
    Any climate change policy will inevitably rely on clean natural 
gas--which emits half the carbon dioxide emissions of coal--as a short-
term ``bridge'' fuel while our economy transforms to lower-carbon 
energy sources.
    Last year, the Natural Gas Council produced a model that predicted 
demand for natural gas will increase by as much as 10 trillion cubic 
feet per year under climate change legislation.
    Natural gas is also required to make energy-efficient products, 
make wind turbine blades and solar panels, provide back-up power for 
intermittent renewable energy sources, and to run biomass facilities.
    Simply put, without additional American natural gas supplies, we 
will fail to reduce our short-term carbon emissions and instead 
dramatically raise the cost of energy.
    High natural gas prices over the past few years have already led to 
higher heating, cooling, and power bills for consumers, in addition to 
the loss of approximately 100,000 manufacturing jobs.
    Unfortunately, the President's budget proposal includes certain 
provisions which unfairly target and penalize the oil and natural gas 
industry with tax hits totaling over $30 billion.
    This does not include the Budget's proposed new fees on so-called 
``non-producing'' leases, royalty rate adjustments, the repeal of 
general accounting rules which can disproportionally impact refineries, 
and the cost of complying with any cap and trade program.
                                closing
    Mr. Chairman, I too share the President's goal to ``* * * end our 
addiction to oil, address the global climate crisis, and create new 
American jobs * * *''
    However, raising taxes on one industry will not ``end our addiction 
to foreign oil;'' in fact, it will increase our reliance on cheaper 
foreign imports.
    It will not ``address the global climate crisis'', as we will fail 
to provide the natural gas needed to meet our short-term carbon 
reduction targets while providing affordable and reliable supplies of 
energy to American consumers and business.
    And it will not ``create new American jobs'' as small businesses 
will curtail domestic production and shift operations abroad.
    Mr. Chairman, I believe Congress should instead develop a climate 
and energy policy that maximizes greenhouse emission reductions while 
minimizing negative impacts to the economy.
    Thank you Mr. Chairman. I look forward to any questions the 
committee may have.

    Mr. Blumenauer. Congresswoman Woolsey.

  STATEMENT OF THE HON. LYNN C. WOOLSEY, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Woolsey. Thank you, Mr. Chairman. Thank you for 
allowing me to be here to testify on the fiscal year 2010 
budget.
    Actually, no one can envy the job of this committee that 
you are faced with in this Congress, because it is going to be 
so hard to make a budget work with the numbers that confront us 
with this continuing financial crisis.
    Thank you for taking on this immense challenge.
    I am here today to ask for some common-sense adjustments to 
the budget, adjustments which the Congressional Progressive 
Caucus has been advocating for the last few years. And these 
are changes that are more critical now than ever, because we 
are looking for ways to strengthen the economy and cut out 
wasteful spending.
    Defense spending, for example, needs to be brought under 
control; and now is the time to do it. The United States 
doesn't just lead the world in defense spending; we almost 
outspend the rest of the world combined. That is right. A full 
43 percent of the world defense spending comes from the United 
States and the United States alone. And when you add what our 
NATO allies spend, we are well over 50 percent. Our annual 
Defense budget dwarfs that of our biggest rivals. We spend four 
times as much as China and eight times as much as Russia.
    The President himself said during his address to Congress 
that we need to, and I quote him, reform our Defense budget so 
that we are not paying for Cold War-era weapons systems that we 
don't use, unquote.
    I couldn't agree with him more, Mr. Chairman. For the past 
two Congresses, the Progressive Caucus, which I co-Chair, has 
been working to do just that; and it is going to be the center 
of this year's congressional caucus alternative budget.
    Our budget includes immediate savings by eliminating over 
$60 billion in unneeded spending at the Pentagon, much of which 
is spent on weapons designed to fight the Soviet Union--not 
Russia, the Soviet Union. We can save $15 billion a year by 
reducing the number of nuclear warheads in our arsenal from 
10,000 to 1,000. One thousand is still more than we will ever 
need and more than enough firepower to blow up the world many, 
many times over.
    We can save $6 billion a year by getting rid of the F-22 
Raptor and the Virginia-class submarine, which were built to 
fight the next generation of Soviet weapons.
    Mr. Chairman, we are building to beat the weapons that have 
never been built. Missile defense has never been proven and 
just doesn't make sense in facing our current military 
challenges. So we recommend that we save another $8 billion by 
drastically scaling back that program.
    The V-22 Osprey needs to be scrapped after almost 30 years 
of overruns and unproven tests. We have lost too many 
servicemen in accidents during testing of this thing and 
shouldn't lose any more.
    The Cold War has been over, Mr. Chairman, for almost 20 
years. It is time these weapons programs are ended. Current 
events and modern warfare have passed these weapons by. It is 
time that the Department of Defense take stock with a critical 
eye and spend money on only what they need, not what they want.
    Along with scrapping these weapons, we can achieve a 25 
percent reduction in the Pentagon's budget by ending the 
occupation of Iraq. By bringing our troops home now, we can 
save $105 billion this year alone.
    The initial invasion of Iraq made no sense, and with the 
current financial problems we are facing it makes even less 
sense. We have already spent over $600 billion in Iraq, and the 
cost is estimated to be $3 trillion, even if we act now.
    The time of unquestioned spending, Mr. Chairman, at the 
Pentagon must come to an end. That is why Congresswoman Barbara 
Lee and I have been working with the Government Accounting 
Office to have the Department of Defense implement the over 
2,000 recommendations that GAO has made to reduce waste, fraud, 
and abuse at the Pentagon. In the last 7 years since these 
recommendations have been made, those that have been 
implemented have saved taxpayers over $89 billion. 
Unfortunately, there are still almost 800 recommendations that 
need to be addressed that could save over $8 billion a year.
    To this point, Mr. Chairman, I thank this committee. I 
thank you so much for the language included in last year's 
budget instructing the GAO to continue its work at the Pentagon 
to implement these recommendations, and I look forward to 
continuing to work on this issue with the committee.
    So, Mr. Chairman, we must get Defense spending under 
control if we are going to turn our economy around. Please 
consider making the aforementioned Defense spending cuts as 
part of your budget for fiscal year 2010.
    I thank you again for allowing me to come before your 
committee today. Thank you.
    Mr. Blumenauer. Thank you. We deeply appreciate your 
testimony and look forward to working with you.
    [The prepared statement of Lynn Woolsey follows:]

    Prepared Statement of Hon. Lynn C. Woolsey, a Representative in 
                 Congress From the State of California

    Chairman Spratt, Ranking Member Ryan and Members of the Budget 
Committee, thank you for allowing me to be here to testify on the 
Fiscal Year 2010 Budget. No one can envy the job that you all have in 
making a budget work, with the dismal numbers that confront us with the 
continuing financial crisis in this country. So thank you for taking on 
this immense challenge.
    I'm here today to ask for some common sense adjustments to the 
Budget, for which the Congressional Progressive Caucus (CPC) has been 
advocating for the last few years, but are now more critical than ever 
as we look for ways to strengthen the economy and cut out wasteful 
spending.
    Defense spending needs to be brought under control, and now is the 
time to do it. The United States doesn't just lead the world in defense 
spending; we almost outspend the rest of the world combined. That's 
right, a full 43% of the world defense spending comes from the U.S., 
and the U.S alone, and, when you add in what our NATO allies spend, we 
are well over 50%. Our annual defense budget dwarfs that of our biggest 
rivals * * * we spend four times as much as China, and eight times as 
much as Russia.
    The President himself said during his address to Congress, that we 
need to ``reform our defense budget so that we're not paying for Cold 
War-era weapons systems we don't use.''
    And I couldn't agree more. For the past two Congresses, the 
Progressive Caucus, which I Co-Chair, has been working to do just that.
    We can see immediate savings by eliminating over $60 billion in 
unneeded spending at the Pentagon, much of which is spent on weapons 
designed to fight the Soviet Union.
    We can save $15 billion a year by reducing the number of nuclear 
warheads in our arsenal from 10,000 to 1,000 * * * which is still more 
than we'll ever need, and, more than enough fire power to blow up the 
world many times over.
    We can save $6 billion a year by getting rid of the F-22 Raptor and 
Virginia Class submarine which were built to fight the next generation 
of Soviet weapons. Mr. Chairman, we're building weapons to beat weapons 
that have never even been built.
    Missile Defense has never been proven and just doesn't make sense 
in facing our current military challenges. We can save another $8 
billion by drastically scaling back this program.
    The V-22 Osprey needs to be scrapped after almost 30 years of 
overruns and unproven tests. We've lost too many servicemen in 
accidents during testing of this thing, and shouldn't lose any more.
    The Cold War has been over for almost twenty years, it's time these 
weapons programs are ended. Current events and modern warfare have 
passed these weapons by. It's time that the DoD take stock with a 
critical eye and spend money on only what they need, not what they 
want.
    Along with scrapping these weapons, we can achieve a 25% reduction 
in the Pentagon's Budget by ending the occupation of Iraq. By bringing 
our troops home now, we can save $105 billion this year alone.
    The initial invasion of Iraq made no sense, and with the current 
financial problems we are facing it makes even less sense. We've 
already spent over $600 billion in Iraq, and the cost is estimated to 
be $3 trillion even if we act now.
    The time of unquestioned spending at the Pentagon must come to an 
end. That's why Congresswoman Barbara Lee and I have been working with 
the Government Accountability Office (GAO) to have the DOD implement 
the over 2,000 recommendations the GAO has made to reduce waste, fraud, 
and abuse at the Pentagon. In the last 7 years since these 
recommendations have been made, those that have been implemented have 
saved taxpayers over $89 billion dollars. Unfortunately, there are 
still almost 800 more recommendations that need to be addressed that 
could save over $8 billion a year. To this point, Mr. Chairman, I thank 
this committee for the language included in last year's budget, 
instructing the GAO to continue its work at the Pentagon to implement 
these recommendations, and I look forward to continuing to work on this 
issue with the Committee.
    Mr. Chairman, we must get defense spending under control if we are 
going turn our economy around. Please consider making the 
aforementioned defense spending cuts a part of your Budget for Fiscal 
Year 2010. Thank you again for allowing me to come before your 
committee to express my views. I look forward to any questions you or 
our colleagues may have.

    Mr. Blumenauer. Congressman Rodriguez.

 STATEMENT OF THE HON. CIRO D. RODRIGUEZ, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Rodriguez. Thank you very much; and, Mr. Chairman, let 
me take this opportunity to thank you for allowing us the 
opportunity to testify and talk about our individual districts 
and some of our individual needs.
    First, I would like to just describe to you a little bit 
about my district and then talk to you about some of the 
projects that I think are important.
    My district is extremely large. It is one of the largest in 
the Nation. It spans 785 miles on the border with Mexico. I 
also represent both the south and northwest areas of San 
Antonio. San Antonio is the seventh largest city in the Nation. 
My district is both urban as well as rural. It has a variety of 
different types of economies that I have and that I represent. 
The budget that has been presented by the administration does 
not reflect the many priorities and needs of my constituency, 
and I hope that this committee under your leadership will be 
able to help out in addressing some of our needs.
    First of all, I wanted to address the issue of the Base 
Realignment and Closure, which is referred to as BRAC. We need 
to continue to move on that. Military installations in San 
Antonio are expected to bring an unprecedented economic boom as 
a result of that. We need to make sure that those resources are 
out there as quickly as possible. Otherwise, those programs and 
projects will cost a lot more. So I respectfully request that 
the committee not only provide full funding for the BRAC 
recommendations but also to provide legislative language 
prioritizing any BRAC construction, especially the health 
programs and the DOD health facilities as a priority.
    Secondly, Mr. Chairman, we need the funding of the VA to be 
directly in advance. Late funding negatively impacts the 
operations of the VA and can lead to the reduction and 
elimination of viable programs and mental health services that 
are needed by our veterans. So I strongly urge advanced funding 
for the VA, which would essentially fund the VA 1 year ahead of 
time. It is one of the few agencies that continues to be at the 
discretion of the Congress instead of getting funded directly.
    Third, as I mentioned, I represent a large part of the 
border. We have law enforcement on the border, which is 
extremely important. I recommend that this committee look 
toward to prioritizing local law enforcement officers in the 
border. We have resources for the local cities, counties, and 
tribal groups on the border. I would ask that you continue to 
look at those as a priority area.
    Fourth, U.S.-Mexico border program. The U.S.-Mexico Border 
Program at the Environmental Protection Agency funds the 
Project Development Assistance Program as well as the Border 
Environment Infrastructure Fund, BEIF. These are U.S.-Mexico 
programs that have been drastically cut by $25 million. They 
had received at one time over $100 million. So I strongly urge 
the committee and recommend that we go back to that $100 
million for EPA U.S.-Mexico border programs as they had been 
funded in the past.
    And, fifth, the International Boundary Water Commission, 
which is also funded by the U.S., I request that--that also has 
been defunded. It is a new program that requires--has the 
language but no funding whatsoever, and so I request the 
committee recommend $30 million to the IBWC construction 
account and the needs of that particular program.
    And, sixth, the Southwest Border Regional Commission. The 
Southwest Border Regional Commission was established under the 
2008 farm bill. This is a particular piece of legislation that 
hasn't been funded at all; and we request, Mr. Chairman, $30 
million in funding for this particular commission that would 
look at border economic development and which is important. The 
language is already there. The resources are the ones that are 
not there. We are asking for 2010 that you look at funding $30 
million for that particular program.
    Let me also quickly mention a couple of other areas.
    The Cattle Fever Tick Eradication Program, it impacts 
everyone who eats beef in this country. It seems like a program 
that--but it can be something extremely serious if you start 
quarantining our beef. So the tick eradication program is 
something that is extremely important. So I would ask that you 
look at that as a way of funding it. So I respectfully request 
that the committee consider $12 million for the Cattle Fever 
Tick Eradication Program under USDA.
    Finally, I would like to thank the committee for the time 
that I have had to be able to testify before you; and I want to 
also once again congratulate you for allowing me the 
opportunity to be able to talk about my district and some of my 
needs. So Mr. Chairman, I look forward to working with you and 
thank you very much. I see that I leave a little extra of the 
seconds are left for you. Thank you very much.
    Mr. McGovern [presiding]. You still have 3 seconds.
    Thank you very much. I appreciate your thoughtful 
testimony, and this committee will certainly give it every 
consideration. Thank you.
    Mr. Rodriguez. Thank you very much.
    [The prepared statement of Ciro Rodriguez follows:]

   Prepared Statement of Hon. Ciro D. Rodriguez, a Representative in 
                    Congress From the State of Texas

    Mr. Chairman, Ranking Member Ryan and Members of the Committee: I 
would like to begin by telling you a bit about the district I 
represent, the 23rd District of Texas. My district is very large, 
spanning 785 miles of border with Mexico. I also represent South and 
Northwest San Antonio. My district is both very urban in San Antonio 
and very rural in West Texas. We have farming and ranching and we have 
state of the art military and biotech research. And just like the 
district itself, the needs of the district are very diverse.
    As you well know, the President released his budget requests last 
month. That budget does not reflect the many priorities and needs of my 
constituents and I hope this committee, under the leadership of 
Chairman Spratt and Ranking Member Ryan, will provide a budget 
blueprint that better suits the needs of my district.
    The budget recently submitted by the President shows a definite 
shift in priorities and shows much promise to begin to set a new course 
for our economy. I would like to talk specifically about programs that 
are important to my constituents.
                  base realignment and closure (brac)
    Military installations in San Antonio are expected to bring an 
unprecedented economic boom to the entire region. San Antonio will 
provide much of healthcare as well as the medical training for the 
entire Department of Defense as a result of BRAC. Funding to implement 
BRAC recommendations is widely supported in Congress. Any delay or 
under funding can increase future construction costs. I respectfully 
request the committee not only provide for full funding of the BRAC 
recommendations but also provide legislative language to prioritize any 
BRAC construction related to Defense Health Programs.
                         advance funding for va
    I am a member of the House Appropriations Committee. The VA budget 
is one of the 12 major appropriations bills that we are tasked to pass 
every year. But the VA has only received one on-time budget in the past 
12 years. Late funding negatively impacts operations, and can lead to 
the reduction or elimination of vital programs, such as mental health 
and traumatic brain injury research and treatment, or recruitment 
programs for doctors, nurses and other healthcare providers. The health 
care and services of our veterans should not be subject to delays cause 
by the annual struggle to pass appropriations bills. I strongly support 
advance funding for the VA, which would essentially fund the VA one 
year ahead of time in order to be more efficient.
                     law enforcement on the border
    As I mentioned I represent the longest stretch of border with 
Mexico. Our law enforcement is tasked with securing our homeland and 
protecting our people. This mission is not just the mission of our able 
federal law enforcement on the border. Our local police and sheriff's 
department dedicate much time and resources to keeping our communities 
safe. Local law enforcement on the border for the most part are small 
agencies in very poor, and rural areas. While they do the best with 
what they have, they often do not have the resources to adequately deal 
with drug smuggling and trafficking that is on going along the border. 
Just like we have the obligation to adequately train and equip our 
federal law enforcement, we should do our best to not leave our police 
and sheriff's deputies behind on the border. I recommend this committee 
look toward prioritizing local law enforcement to our officers on the 
border.
                        us-mexico border program
    The US-Mexico Border Program at the Environmental Protection Agency 
funds the Project Development Assistance Program (PDAP) and Border 
Environment Infrastructure Fund (BEIF). The US Mexico Program account 
received $25.5 million in FY08, a $24.5 million cut from FY07. Recent 
budget requests have been as low as $10 million in FY09 that would have 
lead to fulfilling only 5% of the program needs. This program has 
received as much as $100 million in annual appropriations. From FY03 to 
FY06 the US-Mexico Border Program received $50 million. The US-Mexico 
Border program leverages $2 additional dollars for every $1 of federal 
funds. This is a great program. Many small, rural, low income 
communities rely on programs like this to provide the most basic 
necessities such as water and wastewater infrastructure. In most cases 
this is the only source of federal funding for water and wastewater 
programs on the border. I strongly urge the committee recommend $100 
million for EPA's US-Mexico Border Program.
           international boundary and water commission (ibwc)
    Last year, a small border town in my district suffered a major 
disaster after storms and multiple water releases from rear by Mexican 
Dams cause levees along the Rio Grande to break. This inundated this 
community and displaced many residents. The International Boundary and 
Water Commission, is in charge of maintaining infrastructure and 
enforcing water treaties with Mexico. The IBWC has to virtually replace 
18 miles of levee at a cost of over $57 million. Additionally, a recent 
routine safety inspection found that four dams operated and maintained 
by IBWC were all found to be unsafe. IBWC does not believe there is 
immediate danger, but continued neglect could lead to disrepair and 
danger. IBWC has estimated the U.S. costs to rehabilitate dam 
infrastructure to be around $30 million. The largest and most in need 
of repair is the Amistad Dam also in my district. The water reservoir 
created by the dam is the Amistad National Recreation Area. This unit 
of the National Parks system hosts over a million tourists a year and 
is home to some of the best bass fishing in the world. Despite these 
extensive infrastructure challenges, this agency remain severely under 
funded. The agency was able to receive emergency funding after the 
flood and additional some economic stimulus funding. There are still 
lots of improvements to be made and issues to be addressed. A 
significant commitment to maintaining and rehabilitating our 
infrastructure is needed. I request this committee recommend $30 
million for IBWC's construction account.
                  southwest border regional commission
    Southwest Border Regional Commission (SBRC) was established under 
the 2008 Farm Bill. The Commission was modeled after the successful 
Appalachian Regional Commission to help develop economically-distressed 
regions.
    The SBRC would be an enormous boost to local economies and 
infrastructure along the border. This commissions would help the 
economically-distressed southwest border communities create and 
implement regional economic development plans to reduce chronic poverty 
and improve the quality of life for border residents. The SBRC is 
authorized to receive $30 million in funding but has yet to be 
budgeted. This should be a major funding priority for FY10.
                 cattle fever tick eradication program
    Animal and Plant Health Inspection Services (APHIS) operates a 
program to eradicate cattle fever ticks from cattle in South and West 
Texas. Fever ticks, which are native to Mexico and spread from white-
tailed deer to cattle, are a devastating to the cattle industry along 
the border. The president requested $9.674 million for FY2007, but the 
program received only $7.653 million. Funding levels have been stagnant 
while the need has increased. USDA dedicated an additional $513,000 in 
contingency funds for the program during FY2007 due to increased tick 
presence. Maverick County and other counties in my district have been 
hit hard and a cut in resources means a greater strain on both local 
resources and the cattle industry of Texas. I respectfully request that 
the committee consider $12 million for the Cattle Fever Tick 
Eradication Program at USDA.
                               conclusion
    I would like to thank the committee for the time. As I mentioned, 
these are only a few programs that are important to the communities of 
the 23rd district of Texas. This committee's leadership in creating a 
funding blueprint by which the Congress provides appropriations is 
vital to the process. I strongly urge you to consider the needs of my 
constituents. Thank you for your time and I'll be glad to answer any 
questions you may have.

    Mr. McGovern. Without objection, the committee stands in 
recess, subject to the call of the chair.
    [Recess.]
    Mr. McGovern. The Budget Committee will come to order.
    We are happy to welcome the Honorable Bob Goodlatte from 
Virginia. We are happy you are here and anxious to hear your 
testimony. You may proceed.

   STATEMENT OF THE HON. BOB GOODLATTE, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF VIRGINIA

    Mr. Goodlatte. Mr. Chairman, thank you very much for 
allowing me to testify before you today.
    Thomas Jefferson once wrote: ``To preserve the independence 
of the people, we must not let our rulers load us with 
perpetual debt. We must make our election between economy and 
liberty or profusion and servitude.''
    Unfortunately, it increasingly appears that Congress has 
chosen the latter path.
    We have a spending addiction in Washington, D.C., and it 
has proven to be an addiction that Congress cannot control on 
its own. We have gone in a few short years from a deficit of 
billions of dollars to a deficit of trillions of dollars. We 
are printing money at an unprecedented pace, which presents 
risks of inflation the likes of which we have never seen. Our 
debt is mounting rapidly, and so is the waste associated with 
paying the interest on that debt. Yet Congress has so far 
refused to address these unsettling problems.
    This is not a partisan addiction. It reaches across the 
aisle and afflicts both parties, which is why neither party has 
been able to master it. We need outside help. We need pressure 
from outside Congress to force us to rein in this out of 
control behavior. We need a balanced budget amendment to our 
Constitution.
    Families all across our Nation understand what it means to 
make tough decisions each day about what they can and cannot 
afford. According to a recent Zogby interactive survey, 
approximately 70 percent of Americans said they had reduced 
spending on entertainment in the past year. Forty percent have 
limited or cancelled vacation plans due to the economic 
environment. Forty percent have decreased spending on food or 
groceries. Almost 10 percent have either changed their 
education plans or have chosen not to pursue education plans at 
all. Most troubling, 16 percent have foregone medical treatment 
or prescription drugs. These numbers show how sobering our 
economic recession is, but they also show something more. They 
demonstrate a basic principle that honest, hardworking American 
citizens understand. When your income drops, your spending must 
drop one way or the other.
    Yet far too frequently this fundamental principle has been 
lost on a Congress that is too busy spending to pay attention 
to the bottom line. If Americans must exercise restraint with 
their own funds, then government officials must be required to 
exercise an even higher standard when spending other peoples' 
hard-earned income.
    On the first day of the 111th Congress, I reintroduced 
legislation to give Congress the necessary pressure to rein in 
spending. My legislation would amend the United States 
Constitution to require a balanced Federal budget each year. 
Over one-third of the Members of the House of Representatives 
have joined this effort already. It would require that total 
spending for any fiscal year not exceed total receipts and 
require the President to propose budgets to Congress that are 
balanced each year. It would provide an exception in times of 
war and during military conflicts that pose imminent and 
serious military threats to national security, as well as in 
other emergency situations, like the one we face right now. It 
would make it harder to increase taxes by requiring that 
legislation to increase revenue be passed by a true majority of 
each Chamber and not just a majority of those present and 
voting. Furthermore, the bill requires a three-fifths majority 
vote for any increases in the debt limit.
    Our Nation faces many difficult decisions in the coming 
years, and Congress faces great pressure to spend beyond its 
means rather than to make difficult decisions about spending 
priorities. Unless Congress is forced to make the decisions 
necessary to create a balanced budget in most years, it will 
always have the all-too-tempting option of shirking this 
responsibility. The balanced budget constitutional amendment is 
a common-sense approach to ensure that Congress is bound by the 
same fiscal principles that America's families face each day.
    I urge the committee to demonstrate leadership by proposing 
that the Federal Government's budget be balanced at the end of 
the time that is currently provided for in the budget that you 
will propose or sooner, and I urge support of a balanced budget 
constitutional amendment to ensure that no future Congress is 
allowed to continue to saddle our children and grandchildren 
with debt that is not their own.
    Mr. Chairman, I thank you very much for the opportunity to 
testify before you and urge the committee to examine the 
importance of requiring that the budget of our country be 
balanced in most years. In the last 40 years, it has only been 
balanced four times. Really, I think it should be the opposite. 
There are times of national crisis like today when you could 
not expect the budget to be balanced immediately. But I think 
if we had the budget under control over that period of time 
that our economy has done well and Presidents of both political 
parties had generated surpluses to pay down the debt as we were 
successful in doing for a few years in the late 1990s and 
beginning of the 2000s, we would be in much better shape today 
to address the problems that we face right now and I think 
those problems would be lesser in their nature.
    So I thank you again, Mr. Chairman, for the opportunity.
    Mr. McGovern. Thank you very much for your testimony, and 
you can be assured that this committee will consider every word 
that you said today. So thank you very much.
    Mr. Goodlatte. Thank you, Mr. Chairman.
    [The prepared statement of Bob Goodlatte follows:]

Prepared Statement of Hon. Bob Goodlatte, a Representative in Congress 
                       From the State of Virginia

    Thank you for allowing me to testify before you today.
    Thomas Jefferson once wrote: ``To preserve [the] independence [of 
the people,] we must not let our rulers load us with perpetual debt. We 
must make our election between economy and liberty, or profusion and 
servitude.'' Unfortunately, it increasingly appears that Congress has 
chosen the latter path.
    We have a spending addiction in Washington, D.C., and it has proven 
to be an addiction that Congress cannot control on its own. We have 
gone in a few short years from a deficit of billions of dollars to a 
deficit of trillions of dollars. We are printing money at an 
unprecedented pace, which presents risks of inflation the likes of 
which we have never seen. Our debt is mounting rapidly and so is the 
waste associated with paying the interest on that debt. Yet, Congress 
has so far refused to address these unsettling problems.
    This is not a partisan addiction. It reaches across the aisle and 
afflicts both parties, which is why neither party has been able to 
master it. We need outside help. We need pressure from outside Congress 
to force us to rein in this out-of-control behavior. We need a balanced 
budget amendment to our Constitution.
    Families all across our nation understand what it means to make 
tough decisions each day about what they can and cannot afford. 
According to a recent Zogby Interactive survey, approximately 70% of 
Americans said they have reduced spending on entertainment in the past 
year. 40% have limited or canceled vacation plans due to the economic 
environment. 40% have decreased spending on food or groceries. Almost 
10% have either changed their education plans or have chosen not to 
pursue education plans at all. Most troubling, 16% have foregone 
medical treatment or prescription drugs. These numbers show how 
sobering our economic recession is, but they also show something more. 
They demonstrate a basic principle that honest, hard-working American 
citizens understand--when your income drops, your spending must drop, 
one way or the other.
    Yet far too frequently this fundamental principle has been lost on 
a Congress that is too busy spending to pay attention to the bottom 
line. If Americans must exercise restraint with their own funds, then 
government officials must be required to exercise an even higher 
standard when spending other peoples' hard-earned income.
    On the first day of the 111th Congress, I re-introduced legislation 
to give Congress the necessary pressure to rein in spending. My 
legislation would amend the United States Constitution to require a 
balanced federal budget each year. Over one-third of the Members of the 
House of Representatives have joined this effort to date. It would 
require that total spending for any fiscal year not exceed total 
receipts and require the President to propose budgets to Congress that 
are balanced each year. It would provide an exception in times of war 
and during military conflicts that pose imminent and serious military 
threats to national security, as well as in other emergency situations. 
It would make it harder to increase taxes by requiring that legislation 
to increase revenue be passed by a true majority of each chamber and 
not just a majority of those present and voting. Furthermore, the bill 
requires a \3/5\ majority vote for any increases in the debt limit.
    Our nation faces many difficult decisions in the coming years, and 
Congress faces great pressure to spend beyond its means rather than to 
make difficult decisions about spending priorities. Unless Congress is 
forced to make the decisions necessary to create a balanced budget, it 
will always have the all-too-tempting option of shirking this 
responsibility. The Balanced Budget Constitutional amendment is a 
common sense approach to ensure that Congress is bound by the same 
fiscal principles that America's families face each day.
    I urge this committee to demonstrate leadership by balancing the 
federal budget for 2010 and each year thereafter, and I urge support of 
a balanced budget Constitutional amendment to ensure that no future 
Congress is allowed to continue to saddle our children and 
grandchildren with debt that is not their own.

    Mr. McGovern. Happy to welcome Congresswoman Titus from 
Nevada. Welcome. You have 5 minutes, and we appreciate you 
being here.

STATEMENT OF THE HON. DINA TITUS, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF NEVADA

    Ms. Titus. Thank you, Mr. Chairman, for this opportunity to 
express my views on the President's budget before you and your 
committee.
    During this time of economic uncertainty, it has never been 
more important than now to closely examine each and every 
dollar of Federal spending. I appreciate the work that you all 
are doing to ensure that all points of view are considered 
throughout this budget process.
    While I am pleased by much of the President's requests, 
particularly the investments in clean energy technology, I have 
some concerns about some of the tax provisions that are 
included in the budget outline.
    The President's budget outline indicates important 
investments in the research, development, and deployment of 
renewable energy technologies. I have heard from many of the 
businesses in my congressional district that the credit crisis 
has caused the renewable energy industry to come to a 
screeching halt. I strongly supported provisions in the 
economic recovery package that will make it easier for solar, 
wind, and other renewable energies to gain access to the 
capital necessary to deploy these new technologies at speed and 
scale; and I am pleased now that the President's budget builds 
on that recovery package and supports the loan guarantee 
program for innovative technologies, including renewable energy 
projects and transmission projects.
    I also strongly support investments in research, 
development, and deployment of renewable energy technologies 
and investment in the electric grid, as outlined in the 
President's request.
    And, lastly, I applaud and I applaud loudly the President 
for scaling back the Yucca Mountain program. For years, 
Nevadans have fought against this disastrous plan to store 
nuclear waste in our backyard. Nevada is not a wasteland, and 
the President's budget is a significant step in the right 
direction.
    Now I recognize that we have to make difficult choices in 
order to reduce the deficit and improve the economy. However, I 
remain concerned about President Obama's proposal to reduce the 
itemized deduction rate for families with incomes over 
$250,000. I am particularly concerned with the impact this 
provision could have on housing and charitable giving.
    The Mortgage Interest Deduction is an important incentive 
that encourages Americans all over the country to buy homes. 
Many consider the MID to be the single most important tax 
incentive facilitating home ownership in this country. I am 
concerned that reducing the value of this incentive would lead 
to the further deterioration of the housing market. It has 
become evident over the past few years that the housing market, 
of course, is tied closely to the national economy as a whole; 
and with the economy in its current state, we simply cannot 
afford to make changes to the Tax Code that could lead to a 
further decline in home prices.
    The housing market in Congressional District Three in 
Nevada, previously one of the fastest-growing markets in the 
Nation, is currently in shambles. Today, nearly 58.2 percent of 
Las Vegas homes have negative equity. We can't afford to let 
prices drop any further by making it less attractive to buy a 
home.
    I am similarly concerned about the impact the proposal to 
reduce the itemized deduction rate could have on charitable 
giving. The tax deduction for charitable giving encourages 
Americans to make contributions to philanthropic organizations, 
many of which have been hard hit by the economic crisis. With 
so many people in need, the services many charities provide are 
in high demand. I believe it is the wrong time to make changes 
to the Tax Code that could make charitable contributions less 
attractive and less available.
    So thank you again, Mr. Chairman, for the opportunity to 
express my views about the President's fiscal year 2010 budget 
request. I have stated some of the things that I like and 
pointed out some of the things I have concerns about, and I 
look forward to working with you all to ensure that the 
Congress passes a responsible budget that puts our economy back 
on track.
    Mr. McGovern. Thank you very much. We appreciate your 
views. This is the beginning of an interesting process, so all 
of your testimony will be carefully considered by this 
committee. And thank you very much.
    Ms. Titus. Thank you.
    [The prepared statement of Dina Titus follows:]

  Prepared Statement of Hon. Dina Titus, a Representative in Congress 
                        From the State of Nevada

    Thank you, Chairman Spratt, for the opportunity to express my views 
on the President's budget before your committee. During this time of 
economic uncertainty, it has never been more important to closely 
examine each and every dollar of federal spending. I appreciate the 
work you are doing to ensure that all points of view are considered 
throughout this budget process. While I am pleased by much of the 
President's request, particularly the investments in clean energy 
technology, I have concerns about some of the tax provisions included 
in the budget outline.
    The President's budget outline indicates important investments in 
the research, development and deployment of renewable energy 
technologies. I have heard from many of the businesses in my 
Congressional District that the credit crisis has caused the renewable 
energy industry to come to a screeching halt. I strongly supported 
provisions in the economic recovery package that will make it easier 
for solar, wind and other renewable industries to gain access to the 
capital necessary to deploy these new technologies at speed and scale. 
I am pleased that the President's budget builds on the recovery package 
and supports the loan guarantee program for innovative technologies, 
including renewable energy projects and transmission projects. I also 
strongly support investments in research, development and deployment of 
renewable energy technologies and investment in the electric grid, as 
outlined in the President's request. And lastly, I applaud the 
President for scaling back the Yucca Mountain program. For years, 
Nevadans have fought against this disastrous plan to store nuclear 
waste in our backyard. The President's budget is a significant step in 
the right direction.
    I recognize that we must make difficult choices in order to reduce 
the deficit and improve the economy. However, I remain concerned about 
President Obama's proposal to reduce the itemized deduction rate for 
families with incomes over $250,000. I am particularly concerned with 
the impact this provision could have on housing and charitable giving.
    The Mortgage Interest Deduction (MID) is an important incentive 
that encourages Americans all over the country to buy homes. Many 
consider the MID to be the single most important tax incentive 
facilitating home ownership in the United States. I am concerned that 
reducing the value of this incentive would lead to the further 
deterioration of the housing market. It has become evident over the 
past few years that the housing market is closely tied to the national 
economy as a whole. With the economy in its current state, we simply 
cannot afford to make changes to the tax code that could lead to a 
further decline in home prices. The housing market in my Congressional 
District in Nevada--previously one of the fastest growing markets in 
the nation--is currently in shambles. Today, nearly 58.2 percent of Las 
Vegas homes have negative equity. We can't afford to let prices drop 
any further by making it less attractive to buy a home.
    I am similarly concerned about the impact the proposal to reduce 
the itemized deduction rate could have on charitable giving. The tax 
deduction for charitable giving encourages Americans to make 
contributions to philanthropic organizations, many of which have been 
hard hit by the economic crisis. With so many people in need, the 
services many charities provide are in high demand. I believe that it 
is the wrong time to make changes to the tax code that could make 
charitable contributions less attractive.
    Thank you again, Mr. Chairman, for the opportunity to express my 
views about the President's FY 2010 budget request. I look forward to 
working with you to ensure that Congress passes a responsible budget 
that puts our economy back on the right track.

    Mr. McGovern. The committee is now pleased to welcome the 
honorable Ann Kirkpatrick of Arizona. We appreciate you being 
here and look forward to your testimony.

  STATEMENT OF THE HON. ANN KIRKPATRICK, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mrs. Kirkpatrick. Thank you, Mr. Chairman, and members.
    I appreciate this opportunity to be here today and to speak 
to our budget priorities. The district I represent spans more 
than 58,000 square miles and contains an incredible diversity, 
both in climate and culture. There are common connections 
between the dozens of rural communities that I represent, and 
that is what I want to focus on in our discussion about the 
budget for 2010.
    The first thing that unites my district is concern for our 
security. Especially in the southwest, violence on the U.S. and 
Mexican border is of utmost concern. Though the worst of the 
violence has so far occurred on the Mexican side of the border, 
it remains a daily threat to our community, and related 
criminal activity has already been documented hundreds of miles 
from the actual border.
    I strongly support the President's proposed increase of 
$400 million for Immigrations and Customs Enforcement, or ICE. 
These are efforts to identify and remove immigrants who have 
broken our laws. However, this funding must not come at the 
expense of other ICE priorities, such as dealing with the 
pressing problems at our border.
    In addition to important funding for Homeland Security, our 
local law enforcement, including the men and women who face the 
consequences of increased violence at the border, need our 
help. I support the proposal to hire an additional 50,000 
officers, and I strongly support sustaining resources for our 
local communities to help them keep these law officers on their 
staffs.
    The second common tie across these communities I represent 
is concern for our Nation's veterans. Folks in my district are 
acutely aware of the great service our veterans have offered us 
and are very mindful that we respect them accordingly. My 
district is home to one of two veterans hospitals in Arizona, 
and in our region, like in many rural areas of the country, 
access to medical and other benefits is a top priority for our 
veterans and their families.
    As a member of the House Veterans' Affairs Committee, I 
have followed closely the independent budget, a set of budget 
and program recommendations assembled by the leading veterans 
service organizations. For the first time ever, the VA's 
discretionary resources in this proposed budget will exceed the 
amount recommended by the independent budget. That is no small 
feat.
    However, I want to be clear about my opposition to a 
concern raised by my constituents in Arizona and in a recent 
Veterans' Affairs Committee hearing. I strongly oppose any 
proposal that would allow the VA to bill a veteran's private 
insurance for treatment of a service-connected disability. 
Though I have not seen details of such a proposal in this 
budget, I cannot stress enough how devastating this would be 
for veterans and their families in my district and across the 
country.
    Finally, I want to touch briefly on the small businesses 
that are the economic engine of our country. In the rural areas 
of northern Arizona, every business is a small business, and I 
am committed to helping those small business owners succeed, 
especially in this difficult economy when every bit of help is 
needed.
    More than ever our small businesses need help accessing the 
capital that allows them to thrive. Fully funding programs like 
7(a) loans through the Small Business Administration and 
reducing fees that increase the cost of loans can only help our 
rural economies that depend on family-owned small businesses.
    I strongly support proposals extending the elimination of 
the capital gains tax for small businesses and addressing the 
estate tax, which would otherwise dramatically increase in 
2011. Proposals such as these move us toward a fairer, simpler 
Tax Code, something we sorely need.
    But I am opposed to budget proposals that would increase 
taxes for small business owners and working families. We need a 
responsible budget and one that gets us closer to eliminating 
the deficit but not at the expense of working Americans.
    Thank you for your consideration of my testimony. I look 
forward to working with the Budget Committee as our work 
continues.
    Thank you, Mr. Chairman.
    [The prepared statement of Ann Kirkpatrick follows:]

    Prepared Statement of Hon. Ann Kirkpatrick, a Representative in 
                   Congress From the State of Arizona

    Mr. Chairman and Members of the Committee, thank you for this 
opportunity to be here today and to speak to our Budget priorities. The 
district I represent spans more than 58, 000 square miles and contains 
an incredible diversity--both of climate and culture. There are common 
connections between the dozens of rural communities that I represent, 
and that is what I want to focus on in our discussion about the Budget 
for 2010.
    The first thing that unites my district is concern for our 
security. Particularly in the Southwest, violence on the U.S. and 
Mexican border is of utmost concern. Though the worst of the violence 
has so far occurred on the Mexican side of the border, it remains a 
daily threat to our communities and related criminal activity has 
already been documented hundreds of miles from the actual border.
    I strongly support the President's proposed increase of $400 
million for Immigrations and Customs Enforcement--or ICE--efforts to 
identify and remove immigrants who have broken our laws. However, this 
funding must not come at the expense of other ICE priorities, such as 
dealing with the pressing problems at our border.
    In addition to important funding for Homeland Security, our local 
law enforcement--including the men and women who face the consequences 
of increased violence near the border--need our help. I support the 
proposal to hire an additional 50,000 police officers, and I strongly 
support sustaining the resources our local communities need to keep 
these officers on staff.
    The second common tie across the communities I represent is concern 
for our Nation's Veterans. Folks in my district are acutely aware of 
the great service our Veterans have offered us and are very mindful 
that we respect them accordingly. My district is home to one of two 
Veterans Hospitals in Arizona, and in our region--like in any rural 
area--access to medical and other benefits is a top priority for 
Veterans and their families.
    As a Member of the House Veterans Affairs Committee, I have 
followed closely the Independent Budget, a set of Budget and program 
recommendations assembled by the leading Veteran's Service 
Organizations. For the first time ever, the VA's discretionary 
resources in this proposed Budget will exceed the amount recommended by 
the Independent Budget. That is no small feat.
    However, I want to be clear about my opposition to a concern raised 
both by my constituents in Arizona and in a recent Veterans Affairs 
Committee hearing. I strongly oppose any proposal that would allow the 
VA to bill a Veteran's private insurance for treatment of a service-
connected disability. Though I have not seen details of such a proposal 
in this Budget, I cannot stress how devastating this would be for 
Veteran's and their families in my district and across the country.
    Finally, I want to touch briefly on the small businesses that are 
the economic engine of our country. In the rural areas of Northern 
Arizona, every business is a small business. And I am committed to 
helping those small business owners succeed, especially in this 
difficult economy, when every bit of help is needed.
    More than ever, our small businesses need help accessing the 
capital that allows them to thrive. Fully funding programs like 7(a) 
loans through the Small Business Administration and reducing fees that 
increase the cost of loans can only help our rural economies that 
depend on family-owned small businesses.
    I strongly support proposals extending the elimination of the 
capital gains tax for small businesses and addressing the Estate Tax, 
which would otherwise dramatically increase in 2011. Proposals such as 
these move us toward a fairer, simpler tax code--something we sorely 
need.
    But I am opposed to Budget proposals that will increase taxes for 
small business owners and working families. We need a responsible 
Budget, and one that gets us closer to eliminating the deficit, but not 
at the expense of working Americans.
    Thank you for your consideration of my testimony. I look forward to 
working with the Budget Committee as work continues.

    Mr. McGovern. Thank you very much for your testimony, and 
we will consider your testimony very carefully. Appreciate your 
time.
    The Budget Committee will stand in recess subject to the 
call of the chair.
    [Recess.]
    Ms. Tsongas [presiding]. Good afternoon.
    The next Member to testify will be the gentleman from 
Florida, Mr. Grayson.
    Welcome. We are pleased to receive your testimony. You are 
recognized for 5 minutes. Without objection, your full 
statement will be entered into the record.

    STATEMENT OF THE HON. ALAN GRAYSON, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF FLORIDA

    Mr. Grayson. Well, good afternoon.
    Thank you and the members of the committee. It is an honor 
to address you and testify on behalf of programs and 
initiatives within President Obama's budget targeted at 
addressing waste, fraud, and abuse in the Federal Government, 
and meeting the human needs of my constituents and our Nation.
    I am troubled, however, by the $250 billion contingent fund 
set aside by the President to assist with further troubled 
assets relief.
    The United States taxpayers have made a tremendous 
sacrifice in these times of economic hardship to bail out the 
financial industry, not once but twice, already. Bad banks must 
be held accountable for their incompetence or we will all go 
broke.
    I can no longer sit back and watch our constituents be 
exploited by failed banks dangling desperately needed access to 
credit and capital over the heads of small businesses and 
individuals in order to get Uncle Sam to hand them a blank 
check.
    I realize that the $250 billion is not a direct request for 
funds. However, it represents the potential for another bad 
bank bailout, and for me, that is unacceptable.
    The President must be applauded for making a serious 
effort, though, to address waste, fraud, and abuse in the 
Defense and health accounts. This budget has eliminated costly 
and effective programs that do not work and increases funds for 
the programs that do.
    But we must go beyond reducing funds for individual 
programs. We have to reform the procurement process by 
emphasizing cost in source selection and by insisting that 
contractors pay a share of cost overruns that they cause. 
Cutting these wasteful programs and changing the way that the 
government spends money, will save the American taxpayer 
billions of dollars and redirects our energy and attention to 
programs serving the needy.
    I am also glad to see that the costs of the wars in Iraq 
and Afghanistan are finally exposed for what they are in the 
budget process, because now is the time to be completely 
transparent and accountable for the billions of dollars that we 
are spending in Iraq and Afghanistan at a time when our needs 
at home are so great.
    I care much more about the well-being of Floridians than I 
do about the well-being of Shiites, Sunnis and Kurds.
    The Iraq War has cost America at least $1.5 trillion in tax 
dollars, and for that money that we have doled out to pay for 
the war, we could have provided health care coverage to every 
American who doesn't have it. In fact, for a tiny fraction of 
what we have paid, we could have hired every single adult Iraqi 
for the past 6 years, which would have done a lot more to 
rebuild Iraq than KBR ever has.
    Regardless of that, I am pleased to see that the 
President's priorities are to take care of needs here at home. 
Although I would prefer to draw down our troops immediately in 
Iraq and transfer those billions of dollars to domestic 
programs long neglected by President Bush, I am pleased to see 
that President Obama will champion increases in spending in 
health care, education, and expanded benefits for our veterans, 
the elderly, and our children and to do this while reducing 
taxes on a great majority of Americans.
    Despite this, however, I remain gravely concerned about 
taxes in the President's budget, and in fact, I remain 
concerned about our overall tax policy. With our economy in 
deep recession, this does not seem to be a good time to raise 
taxes on anyone. I would ask my colleagues to consider these 
times and do our best to avoid or postpone any tax increases in 
any way, shape, or form, because now is not the time for that.
    Thank you. I appreciate this opportunity, and I yield to 
any questions the committee may have.
    [The prepared statement of Alan Grayson follows:]

 Prepared Statement of Hon. Alan Grayson, a Representative in Congress 
                       From the State of Florida

    Good morning Chairman Spratt, Ranking Member Ryan, and Members of 
the Committee. It is an honor to address you and testify on behalf of 
programs and initiatives within President Obama's budget targeted at 
addressing waste, fraud and abuse in the federal government and meeting 
the human needs of my constituents and our nation.
    I am, however, troubled by the $250 billion contingent fund set 
aside by the President to assist with further troubled asset relief.
    Mr. Chairman, the United States taxpayers have made a tremendous 
sacrifice in these times of economic hardship to bailout the financial 
industry TWICE already. Bad banks must be held accountable for their 
incompetence, or we will all go broke.
    I can no longer sit back and watch our constituents be exploited by 
failed banks--dangling desperately-needed access to capital and credit 
over the heads of small businesses and individuals in order to get 
Uncle Sam to hand them a blank check.
    I realize that the $250 billion is not a direct request for funds; 
however, it represents the potential of another bad bank bailout, and 
for me that
    is unacceptable.
    Mr. Chairman, the President must be applauded for making a serious 
effort to address waste, fraud and abuse in the defense and health 
accounts. This budget has eliminated costly, ineffective programs that 
do not work and increases funds for programs that do.
    But we must go beyond reducing funds for individual programs. We 
have to reform the procurement process, by emphasizing cost in source 
selection, and by insisting that contractors pay a share of cost 
overruns that they cause.
    Cutting these wasteful programs and changing the way that the 
Government spends money will save the American taxpayer billions of 
dollars, and redirect our energy and attention to programs serving the 
needy.
    Mr. Chairman, I am also glad to see the cost of the wars in Iraq 
and Afghanistan are finally exposed in the budget process.
    Now is the time to be completely transparent and accountable for 
the BILLIONS of dollars we are spending in Iraq and Afghanistan, at a 
time when our needs at home are so great.
    I care much more about the well being of Floridians then I do about 
Shiites, Sunnis and Kurds.
    Mr. Chairman, the Iraq War, has cost America at least $1.5 trillion 
in tax dollars. For the money we have doled out to pay for the war, we 
could have provided:
    1. Health care coverage to every American without it.
    In fact, for a tiny fraction of that, we could have hired every 
adult Iraqi for the past six years, which would have done a lot more to 
rebuild Iraq than KBR ever has.
    Regardless of that, I am pleased to see that the President's 
priorities to take care of the needs here at home.
    Although I would prefer to draw our troops down immediately from 
Iraq and transfer those billions of dollars to domestic programs long-
neglected by President Bush; I am pleased to see that President Obama 
will champion increases in spending for healthcare, education, and 
expanded benefits for our veterans, the elderly and our children.
    While reducing taxes on the great majority of Americans despite 
this, however, I remain gravely concerned about taxes in the 
President's budget and overall tax policy.
    Mr. Chairman, with our economy in deep recession, this does not 
seem a good time to raise taxes on anyone.
    I would ask my colleagues to consider the times, and do our best to 
avoid or postpone tax increases in any way, shape or form. Thank you 
Mr. Chairman, I yield to any questions the Committee may have.

    Ms. Tsongas. There being no questions, I want to thank you 
for your testimony.
    Mr. Grayson. Thank you very much, Madam Chair.
    Ms. Tsongas. Without objection, the committee stands in 
recess subject to the call of the Chair.
    [Recess.]
    Mr. Larsen [presiding]. I call the Committee on Budget back 
into session to continue hearing from Members on the budget 
priorities.
    The next Member to testify will be the gentleman from 
Puerto Rico, Mr. Pierluisi.
    Welcome. We are pleased to receive your testimony. You are 
recognized for 5 minutes, and without objection, your full 
statement will be entered into the record.

     STATEMENT OF THE HON. PEDRO R. PIERLUISI, A RESIDENT 
   COMMISSIONER IN CONGRESS FROM THE TERRITORY OF PUERTO RICO

    Mr. Pierluisi. Thank you very much, Mr. Chairman, and 
distinguished members of the committee.
    Thank you for the opportunity to comment on the fiscal year 
2010 budget. I will begin with a general remark on the 
President's budget as outlined to Congress and then briefly 
highlight several matters of particular importance to the 4 
million U.S. citizens I represent. I respectfully ask that you 
address these issues in your report and funding allocations.
    I believe President Obama's submission to Congress 
represents a sound plan to jump-start the national economy in 
the short term and to lay a new foundation for growth over the 
long term. In my view, the budget resolution should embrace the 
President's plan in its broad contours.
    Moving from the general to the specific, I urge the 
committee to consider the following issues that are unique to 
Puerto Rico or that concern both Puerto Rico and the other U.S. 
territories.
    The first issue I would like to address is health care. The 
President's budget reflects his commitment to fundamentally 
reform our health care system to provide quality care to all 
Americans. For Puerto Rico, true reform will be impossible 
unless changes are made to the way the island is treated under 
the Medicaid and Medicare programs.
    Recognizing this fact, President Obama has pledged most 
recently in a letter to our Governor, Luis Fortuno, to ``seek 
equal coverage of Puerto Rico'' under these two programs.
    With respect to Medicaid, Puerto Rico is subject to a cap 
that limits the amount the Federal Government can contribute to 
the island's Medicaid program each year. No such cap applies in 
the States. Because Puerto Rico's cap is so low, the actual 
Federal contribution to the island's Medicaid program, its 
effective FMAP, is about 22 percent. The Puerto Rico government 
is responsible for the remaining 78 percent.
    By contrast, the minimum Federal share for any State is 50 
percent, and Medicaid programs in the poorest States can 
receive more than three-quarters of their funding from the 
Federal Government. The harm caused to patients in Puerto Rico 
and to the local government's finances is difficult to 
overstate. For this reason, President Obama has promised ``to 
continually raise the cap and Federal contributions to Medicaid 
in Puerto Rico until it disappears.'' I respectfully request 
that the budget resolution honor this commitment.
    President Obama has also pledged to provide equal treatment 
to Puerto Rico under Medicare. Although island residents pay 
the same Medicare payroll taxes as their fellow citizens in the 
States, Puerto Rico is treated worse than the States under this 
Federal program in at least four respects:
    First, Puerto Rico is the only jurisdiction under the 
prospective payment system, PPS, where hospitals do not receive 
100 percent of the national payment rates. Instead, payments to 
island hospitals are derived from a unique formula based on 75 
percent national rates and 25 percent local costs. This formula 
yields per-patient payments to Puerto Rico hospitals that are 
considerably lower than the payments made to State-side 
hospitals.
    Second, Puerto Rico hospitals serving large numbers of low-
income patients do not receive their DSH reimbursement because 
SSI, a major factor in calculating such payments, has not been 
extended to the island. A commonsense short-term solution, to 
simply adjust the DSH formula to account for Puerto Rico's 
particular situation, has not been adopted by the Congress to 
date.
    Third, Puerto Rico is the only U.S. jurisdiction where 
individuals enrolled in Part A are not automatically enrolled 
in Part B. The result is that Puerto Rico has the lowest Part B 
participation in the country, and Puerto Rico seniors pay 
millions of dollars in recurring late enrollment fees each 
year.
    Finally, whereas the States receive Federal subsidies based 
on need to help their low-income residents purchase 
prescription drugs under Part D, Puerto Rico receives only a 
limited block grant for this purpose.
    In light of these disparities as well as President Obama's 
stated intentions, I respectfully ask that the budget 
resolution provide equal treatment for Puerto Rico under 
Medicare.
    The second issue I wish to raise is Federal assistance to 
working families and students. Let me first address the 
Refundable Child Tax Credit program. Workers in Puerto Rico 
with three or more children are eligible for CTC assistance 
based on payroll taxes, but island workers with one or two 
children are not. President Obama has expressed support for 
including low-income Puerto Rico workers with one or two 
children in the city program. The final Federal budget should 
reflect this extension.
    In addition, both the Making Work Pay credit for workers 
and the refundable portion of the American Opportunity Credit 
for students have been extended to Puerto Rico through block 
grants that will enable the island's local treasury to provide 
this assistance. Since the President's budget would make both 
forms of assistance permanent, I respectfully request that the 
final budget account for these grants to Puerto Rico.
    Furthermore, I note that the President's budget would 
expand the Earn Earned Income Tax Credit program. Under current 
law, working families in Puerto Rico are not eligible to 
receive the EITC. The 2008 Democratic National Platform 
specifically pledged to provide ``equitable treatment to the 
U.S. citizens in Puerto Rico under programs providing 
refundable tax credits to working families.'' I respectfully 
ask that the final budget reflect this commitment.
    The last topic I would like to raise with this committee 
involves two other tax-related programs, Mr. Chairman. For over 
90 years, a percentage of the excise tax collected by the 
Federal Government on rum produced in Puerto Rico and imported 
to the United States has been transferred back to the island's 
treasury. Current law provides for $13.25 of the $13.50 per-
proof-gallon tax collected by the Federal Government to be 
covered over in this manner. The law providing for $2.75 of 
this amount to be transferred will expire at the end of this 
fiscal year. That provision has been regularly extended in the 
past, and I would ask that the final budget account for a 
further extension.
    Lastly, Section 199 of the Internal Revenue Code provides a 
tax deduction for domestic manufacturing. The deduction applies 
to income from domestic subsidiaries in Puerto Rico of 
companies based in the States. This deduction expires at the 
end of this fiscal year. In order to provide parity with the 
States, the final Federal budget should include a permanent 
extension of this deduction in Puerto Rico.
    Mr. Chairman, and members of the committee, thank you very 
much for your consideration of my requests.
    [The prepared statement of Pedro Pierluisi follows:]

Prepared Statement of Hon. Pedro R. Pierluisi, a Resident Commissioner 
             in Congress From the Territory of Puerto Rico

    Chairman Spratt, Ranking Member Ryan, and distinguished Members of 
the Committee: Thank you for the opportunity to comment on the Fiscal 
Year 2010 Budget. I will begin with a general remark on the President's 
Budget as outlined to Congress and then briefly highlight several 
matters of particular importance to the four million U.S. citizens I 
represent. I respectfully ask that you address these issues in your 
report and funding allocations.
    I believe President Obama's submission to Congress represents a 
sound plan to jump-start the national economy in the short term and to 
lay a new foundation for growth over the long term. In my view, the 
Budget Resolution should embrace the President's plan in its broad 
contours.
    Moving from the general to the specific, I urge the Committee to 
consider the following issues that are unique to Puerto Rico--or that 
concern both Puerto Rico and the other U.S. territories.
                           health care reform
    The first issue I would like to address is health care. The 
President's Budget reflects his commitment to fundamentally reform our 
health care system to provide quality care to all Americans. For Puerto 
Rico, true reform will be impossible unless changes are made to the way 
the Island is treated under Medicaid and Medicare. Recognizing this 
fact, President Obama has pledged--most recently in a letter to 
Governor Luis Fortuno--to ``seek equal coverage of Puerto Rico'' under 
these two programs.
                                medicaid
    With respect to Medicaid, Puerto Rico is subject to a cap that 
limits the amount the federal government can contribute to the Island's 
Medicaid program each year. No such cap applies in the states. Because 
Puerto Rico's cap is so low, the actual federal contribution to the 
Island's Medicaid program--its effective FMAP--is about 22%. The Puerto 
Rico government is responsible for the remaining 78%. By contrast, the 
minimum federal share for any state is 50%, and Medicaid programs in 
the poorest states can receive more than three-quarters of their 
funding from the federal government. The harm caused to patients in 
Puerto Rico and to the local government's finances is difficult to 
overstate. For this reason, President Obama has promised ``to 
continually rais[e] the cap on federal contributions to Medicaid in 
Puerto Rico until it disappears.'' I respectfully request that the 
Budget Resolution honor this commitment.
                                medicare
    President Obama has also pledged to provide equal treatment to 
Puerto Rico under Medicare. Although Island residents pay the same 
Medicare payroll taxes as their fellow citizens in the states, Puerto 
Rico is treated worse than the states under this federal program in at 
least four respects.
    First, Puerto Rico is the only jurisdiction under the Prospective 
Payment System where hospitals do not receive 100% of the national 
payment rates. Instead, payments to Island hospitals are derived from a 
unique formula based on 75% national rates and 25% local costs. This 
formula yields per patient payments to Puerto Rico hospitals that are 
considerably lower than the payments made to stateside hospitals.
    Second, Puerto Rico hospitals serving large numbers of low-income 
patients do not receive fair DSH reimbursement because SSI, a major 
factor in calculating such payments, has not been extended to the 
Island. A commonsense short-term solution--to simply adjust the DSH 
formula to account for Puerto Rico's particular situation--has not been 
adopted by Congress to date.
    Third, Puerto Rico is the only U.S. jurisdiction where individuals 
enrolled in Part A are not automatically enrolled in Part B. The result 
is that Puerto Rico has the lowest Part B participation in the country 
and Puerto Rico seniors pay millions of dollars in recurring late 
enrollment fees each year.
    Finally, whereas the states receive federal subsidies--based on 
need--to help their low-income residents purchase prescription drugs 
under Part D, Puerto Rico receives only a limited block grant for this 
purpose.
    In light of these disparities, as well as President Obama's stated 
intentions, I respectfully ask that the Budget Resolution provide equal 
treatment for Puerto Rico under Medicare.
              assistance to working families and students
    The second issue I wish to raise is federal assistance to working 
families and students.
    Let me first address the refundable child tax credit program. 
Workers in Puerto Rico with three or more children are eligible for CTC 
assistance based on payroll taxes, but Island workers with one or two 
children are not. President Obama has expressed support for including 
low-income Puerto Rico workers with one or two children in the CTC 
program. The final federal budget should reflect this extension.
    In addition, both the Making Work Pay credit for workers and the 
refundable portion of the American Opportunity credit for students have 
been extended to Puerto Rico through block grants that will enable the 
Island's local treasury to provide this assistance. Since the 
President's budget would make both forms of assistance permanent, I 
respectfully request that the final budget account for these grants to 
Puerto Rico.
    Furthermore, I note that the President's Budget would expand the 
Earned Income Tax Credit. Under current law, working families in Puerto 
Rico are not eligible to receive the EITC. The 2008 Democratic National 
Platform specifically pledged to provide ``equitable treatment to the 
U.S. citizens in Puerto Rico [under] programs providing refundable tax 
credits to working families.'' I respectfully ask that the final budget 
reflect this commitment.
                     other tax issues and programs
    The last topic I would like to raise with this Committee involves 
two other tax-related programs.
    For over 90 years, a percentage of the excise tax collected by the 
federal government on rum produced in Puerto Rico and imported to the 
states has been transferred to the Island's treasury. Current law 
provides for $13.25 of the $13.50 per proof gallon tax collected by the 
federal government to be ``covered over'' in this manner. The law 
providing for $2.75 of this amount to be transferred will expire at the 
end of this fiscal year. That provision has been regularly extended in 
the past, and I would ask that the final budget account for a further 
extension.
    Lastly, Section 199 of the Internal Revenue Code provides a tax 
deduction for domestic manufacturing. The deduction applies to income 
from domestic subsidiaries in Puerto Rico of companies based in the 
states. This deduction expires at the end of the fiscal year. In order 
to provide parity with the states, the final federal Budget should 
include a permanent extension of this deduction in Puerto Rico.
    Mr. Chairman and Members of the Committee: thank you very much for 
your consideration of my requests.

    Mr. Larsen. Thank you very much.
    I just have one question to clarify. The last point you 
made about Section 199, does that expiration date apply only to 
Puerto Rico?
    Mr. Pierluisi. You are right. It only applies to Puerto 
Rico, basically reduces the top tax rate from 35 to 32 percent, 
but in the case of Puerto Rico, it expires at the end of this 
fiscal year.
    Mr. Larsen. This is on the domestic manufacturers tax 
credit?
    Mr. Pierluisi. You are right, absolutely right. These are--
the manufacturing companies are structured in a way that their 
subs are operating in Puerto Rico.
    Mr. Larsen. Thank you, and thank you for your service to 
the island.
    Mr. Pierluisi. Thank you very much.
    Mr. Larsen. Next Member we have is Mr. Davis from Illinois.

   STATEMENT OF THE HON. DANNY K. DAVIS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Davis. Thank you very much, Mr. Chairman, and members 
of the committee. I want to thank you for holding today's 
hearing on President Obama's proposed fiscal year 2010 budget.
    I am indeed pleased to be here today and welcome this 
opportunity to testify and express my support for the 
administration's proposal to address a recession of great 
magnitude and a global economic downturn that is negatively 
impacting markets around the world.
    On a daily basis, Americans are reminded of economic 
meltdown with historical job losses, unemployment rates, and 
home foreclosures that are being felt in a very painful way. I 
commend President Obama for his forward-focused comprehensive 
approach to addressing inherited interconnected socioeconomic 
woes. And I indeed thank the President for having the audacity 
to propose a budget that invests in early childhood education, 
doubles funding for early Head Start programs, and reauthorizes 
child nutrition to provide much needed help.
    It extends TANF supplemental grants to subsidized families 
experiencing prolonged periods of unemployment and States that 
are experiencing rapid increases in TANF applications.
    It invests $1.0 billion over 6 years in a trust fund and 
enhances the Housing Choice Voucher Program to help States and 
communities develop and preserve affordable housing and help 
more than 2 million low-income families rent safe and decent 
housing.
    It expands Pell grants through mandatory funding and 
triples the number of graduate fellowships in science to 
provide lower-income students access to mainstream society and 
global demand for human capital.
    It transforms and modernizes the health care system by 
setting aside a reserve fund of more than $630 billion over 10 
years to hedge the impact of increasing health care costs being 
borne by families and businesses across America.
    And foremost, it expands Department of Justice prisoner 
reentry programs, including an additional $75 million for the 
Office of Justice Programs to expand grant programs authorized 
by the Second Chance Act to provide counseling, job training, 
drug treatment, and other transitional assistance to more than 
5 million people on parole and probation up from 1.6 million 
just 25 years ago.
    These issues are near and dear to my heart because they 
affect lower-income families that reside on the side streets 
across America, and I commend the President and stand firmly 
behind him for having the courage to address socioeconomic 
issues plaguing in a major way metropolitan areas like Chicago.
    Mr. Chairman, while I am in basic agreement with the budget 
approach, I am always concerned about the amount of money that 
we spend for our defense and other military purposes and that 
we never seem to allocate what I feel is appropriate and 
greatly needed for world hunger and medical needs, especially 
in so-called underdeveloped or Third World Nations.
    Mr. Chairman, I want to finish up by expressing my great 
concern that we are not adequately investing in social 
rehabilitation programs in the Department of Justice. We are 
not adequately funding training opportunities for disadvantaged 
individuals. And we are not adequately attacking the core 
problems associated with poverty and criminal justice issues, 
such as substance abuse prevention and treatment.
    The President's proposed $75 million for implementation of 
the Second Chance Act is greatly appreciated. However, with 
more than 2 million people languishing in our jails and 
prisons, with more than 650,000 returning home each year, and 
more than 5 million on parole and probation, we need at least 
$150 million to meaningfully implement these program activities 
in all 50 of the States and territories.
    Unfortunately, these are large numbers of young people who 
did not complete high school and are in need of contained 
environments where they can receive remedial instruction as 
well as job training and skill development. Therefore, we need 
to adequately fund our job corps centers, so that these 
individuals can be prepared for entry into the world of work.
    Again, Mr. Chairman, I thank you for the opportunity to 
share some of my views, and I am hopeful that at the end of the 
process, we will have a document and the resources to more 
closely reflect my views on the budget.
    I thank you very much and yield back the balance of my 
time.
    [The prepared statement of Danny Davis follows:]

Prepared Statement of Hon. Danny K. Davis, a Representative in Congress 
                       From the State of Illinois

    Chairman Spratt, Ranking Member Ryan and members of the 
Subcommittee I thank you for holding today's hearing on President 
Obama's proposed FY 2010 Budget.
    I am indeed pleased to be here today and welcome this opportunity 
to testify and express my support for the administration's proposal to 
address a recession of great magnitude and a global economic downturn 
that is negatively impacting markets around the world. On a daily basis 
Americans are reminded of economic meltdown with historical job losses, 
unemployment rates and home foreclosures that are being felt in a very 
painful way.
    I commend President Obama for his forward-focused comprehensive 
approach to addressing inherited interconnecting socio-economic woes.
    Indeed, thank you Mr. President for having the audacity to propose 
a budget that:
    <bullet> Invests in early childhood education, doubles funding for 
Early Head Start program and reauthorizes Child Nutrition to provide 
much needed ;
    <bullet> Extends TANF supplemental grants to subsidize families 
experiencing prolonged periods of unemployment and states experiencing 
rapid increases in TANF applications;
    <bullet> Invests $1.0 billion over six years in a trust fund and 
enhances the Housing Choice Voucher Program to: help states and 
communities develop and preserve affordable housing; and more than two 
million low-income families rent safe and decent housing;
    <bullet> Expands Pell Grants through mandatory funding and triples 
the number of graduate fellowships in science to provide lower-income 
students access to mainstream society and global demand for human 
capital;
    <bullet> Transforms and modernizes the health care system by 
setting aside a reserve fund of more than $630 billion over 10 years to 
hedge the impact of increasing health care costs being borne by 
families and businesses across America; and foremost
    <bullet> Expands Department of Justice prisoner reentry programs, 
including an additional $75 million for the Office of Justice Programs 
to expand grant programs authorized by the Second Chance Act to provide 
counseling, job training, drug treatment, and other transitional 
assistance to more than 5 million people on parole and probation, up 
from 1.6 million just 25 years ago.
    These issues are near and dear to my heart because they affect 
lower-income families that reside on ``side-streets'' across America. 
And I commend the President and stand behind him 100% for having the 
courage to address socioeconomic issues plaguing in a major way, 
metropolitan areas like Chicago.
    Mr. Chairman, while I am in basic agreement with the budget 
approach, I am always concerned about the amount of money that we spend 
for defense and other military purposes and that we never allocate what 
I feel is appropriate and greatly needed for world hunger and medical 
needs, especially in so called under developed or third world nations.
    Mr. Chairman, I want to finish up by expressing my great concern 
that we are not adequately investing in social rehabilitation programs 
in the Department of Justice, we are not adequately funding training 
opportunities for disadvantaged individuals and we are not adequately 
attacking the core problems associated with poverty and criminal 
justice issues such as substance abuse prevention and treatment.
    The President's proposed $75 million dollars for implementation of 
Second Chance Act is greatly appreciated; however, with over 2 million 
people languishing in our jails and prisons, with more than 650,000 
returning home each year and more than 5 million on parole and 
probation, we need at least $150 million to meaningfully implement 
these program activities in all fifty of the states and territories.
    Unfortunately, these are large numbers of young people who did not 
complete high school and are in need of contained environments where 
they can receive remedial instruction, as well as job training and 
skills development. Therefore, we need to adequately fund our job corps 
centers so that these individuals can be prepared for entree into the 
world of work.
    Again, Mr. Chairman, I thank you for the opportunity to share some 
of my views and I am hopeful that at the end of the process we will 
have a document and the resources to more closely reflect my views on 
the budget.
    Thank you very much and I yield back the balance of my time.

    Mr. Larsen. Thank you, Mr. Davis.
    There are no questions.
    We will move on to the next Member. The next Member to 
testify will be the gentleman from Pennsylvania, Mr. Carney.
    We are pleased to receive your testimony. You will be 
recognized for 5 minutes, and without objection, your full 
statement will be entered into the record.

 STATEMENT OF THE HON. CHRISTOPHER CARNEY, A REPRESENTATIVE IN 
            CONGRESS FROM THE STATE OF PENNSYLVANIA

    Mr. Carney. Thank you, Mr. Chairman, and thank you for the 
opportunity to appear before you today to discuss the fiscal 
year 2010 budget.
    Since I last appeared before the committee, I have met with 
countless Pennsylvanians from across the 10th District and 
identified a number of issues that are paramount to families, 
businesses and communities in northeast and central 
Pennsylvania.
    I respectfully request you take into consideration the 
following budget priorities: the Clean Water State Revolving 
Fund; salaries and expenses and buildings and facilities for 
the Federal Bureau of Prisons; cancer research at the National 
Institutes of Health; and the Department of Energy's Office of 
Science.
    I urge you to increase funding for the Clean Water State 
Revolving Fund so that municipalities in northeastern and 
central Pennsylvania have the resources to make necessary 
sewage upgrades.
    The administration has proposed a $3.9 billion fiscal year 
2010 budget, but every year there is a gap of up to $11.1 
billion between wastewater infrastructure needs and actual 
spending.
    I continually hear from municipalities, townships, boroughs 
and villages across northeast and central Pennsylvania that 
they are facing a tremendous burden to upgrade their wastewater 
infrastructure. While they want to make the repairs as 
efficiently and economically as possible, they must also do so 
in a way that does not harm or pollute the natural beauty of 
one of our Nation's great rivers, the Susquehanna, which 
ultimately feeds the Chesapeake.
    The Clean Water State Revolving Fund, or SRF, provides 
grants to all 50 States to be distributed as low or zero-
interest loans for high-priority activities, water-quality 
activities, with an emphasis on sewage treatment plant 
upgrades. These are the precise needs that so many Pennsylvania 
communities are facing. In fact, SRF loans are the primary 
source of capital for sewage treatment plant upgrades 
throughout the Nation.
    On a different topic, I encourage you to provide more 
funding for the Federal Bureau of Prisons. Of the 18 high-
security U.S. penitentiaries nationwide, three are in 
Pennsylvania's 10th district: Lewisburg, Allenwood, and New 
Canaan. The district is also home to medium- and low-security 
facilities co-located at the Allenwood complex. Additionally, 
there are a number of BoP guards from FCI Schuylkill and FCI 
Otisville who I have the pleasure of representing.
    The administration request for BoP is $6 billion, which is 
less than that BoP ultimately was appropriated for fiscal year 
2009 by almost $200 million.
    I have been to all three of these penitentiaries in the 
10th, and I can assure you that there is an urgent need for 
significantly more dollars than the Federal prison system 
receives. The system is shockingly overpopulated and woefully 
understaffed, all at a time when our other Federal law 
enforcement efforts are more effective than ever at 
investigating, prosecuting and locking up criminals.
    Violent attacks on guards across the country are now 
considered isolated incidents but happen fairly frequently. 
Staffing is typically at 85 percent compared to when these 
attacks were so isolated that they actually drew attention.
    And I hope we don't lose another guard this year like we 
did last year at U.S.P. Atwater. We must ensure that the BoP 
has adequate funding to hire additional guards instead of 
building just another electric fence in their place.
    On another topic, as a cancer survivor, I am heartened by 
the administration's promise to double the amount of funding 
for cancer research over the next few years. The President has 
proposed funding $6 billion for cancer research at the NIH for 
fiscal year 2010.
    Cancer touches all Americans. In 2008, the American Cancer 
Society estimates that over 1.4 million people were diagnosed 
with cancer and over 560,000 people lost their lives fighting 
some form of the disease. These victims and survivors are our 
children, our brothers, our sisters, our parents and our 
grandparents.
    We owe it to them to do everything we can to defeat this 
terrible disease. Unfortunately, from 2004 to 2009, funding for 
cancer research at the NIH remained virtually flat.
    While I was pleased to see that the American Recovery and 
Reinvestment Act and this year's omnibus bill increased funding 
for cancer research, we must sustain and expand on this effort.
    If we are going to win the battle against cancer, our 
scientists and researchers must have the tools they need to 
improve cancer prevention, treatments and, ultimately, to find 
a cure.
    I strongly encourage the Budget Committee to meet the 
President's request regarding cancer research funding.
    And finally, the United States must become a leader in 
renewable energy. Our continued dependence on foreign sources 
of oil threatens our economic, environmental, and national 
security.
    In 2007, the Congress passed the American COMPETES Act, 
bipartisan legislation that authorized the doubling of funding 
for the Department of Energy's Office of Science by 2016. The 
Office of Science provides more than 40 percent of total 
funding for basic research in physical science. It manages and 
supports research in basic energy sciences, biological and 
environmental sciences, computational science, climate change, 
geophysics, genomics, and life sciences, all of which can truly 
bring our energy options into the 21st century.
    That is why I am calling on the Budget Committee to 
increase funding for the Office of Science.
    And Mr. Chairman, I respectfully thank you for the time you 
have given me, and I appreciate what you have done, and I hope 
you take these under consideration at the Budget Committee.
    Thank you. I yield back.
    [The prepared statement of Christopher Carney follows:]

 Prepared Statement of Hon. Chris Carney, a Representative in Congress 
                     From the State of Pennsylvania

    Chairman Spratt, Ranking Member Ryan and Members of the Committee: 
Good afternoon.
    I appreciate the opportunity to appear before you today to discuss 
the Fiscal Year 2010 budget.
    Since I last appeared before the committee, I've met with countless 
Pennsylvanians from across the 10th district and identified a number of 
issues that are paramount to families, businesses and communities in 
northeast and central Pennsylvania.
    I respectfully request you to take into consideration the following 
budget priorities: the Clean Water State Revolving Fund; salaries and 
expenses and buildings and facilities for the Federal Bureau of 
Prisons; cancer research at the National Institutes of Health (NIH); 
and the Department of Energy's Office of Science.
    I urge you to increase funding for the Clean Water State Revolving 
Fund so that municipalities in northeastern and central Pennsylvania 
have the resources to make necessary sewage upgrades.
    The administration has proposed $3.9 billion for FY2010, but every 
year, there is a gap of up to $11.1 billion between wastewater 
infrastructure need and actual spending.
    I continually hear from municipalities, townships, boroughs and 
villages across northeast and central Pennsylvania that they are facing 
a tremendous burden to upgrade their wastewater infrastructure. While 
they want to make the repairs as efficiently and economically as 
possible, they must also do so in a way that does not harm or pollute 
the natural beauty of one of our nation's great rivers, the 
Susquehanna, which ultimately feeds the Chesapeake.
    The Clean Water State Revolving Fund (SRF) provides grants to all 
50 states to be distributed as low- or zero-interest loans for high-
priority water quality activities--with an emphasis on sewage treatment 
plant upgrades. These are the precise needs that so many Pennsylvania 
communities are facing. In fact, SRF loans are the primary source of 
capital for sewage treatment plant upgrades throughout the nation.
    I encourage you to provide more funding for the federal Bureau of 
Prisons.
    Of the 18 high-security U.S. penitentiaries nationwide, three are 
in Pennsylvania's 10th district: Lewisburg, Allenwood, and New Canaan. 
The district is also home to medium low security facilities co-located 
at the Allenwood complex. Additionally, there are a number of BoP 
guards from FCI Schuylkill and FCI Otisville who I have the pleasure of 
representing.
    The administration request for BoP is $6 billion, which is less 
than what BoP ultimately was appropriated for FY09 by almost $200 
million.
    I've been to all three pens in the 10th and I can assure you that 
there's an urgent need for significantly more dollars than the federal 
prison system receives. The system is shockingly overpopulated and 
woefully understaffed--all at a time when our other federal law 
enforcement efforts are more effective than ever at investigating, 
prosecuting and locking up criminals.
    Violent attacks on guards across the country are now considered 
``isolated incidents,'' but happen fairly regularly. Staffing is 
typically at 85 percent compared to when these attacks were so isolated 
that they actually drew attention.
    I hope we don't lose another guard this year like we did last year 
at USP Atwater. We must ensure that the BoP has adequate funding to 
hire additional guards instead of just building electric fences in 
their place.
    As a cancer survivor, I am heartened by the Administration's 
promise to double the amount of funding for cancer research over the 
next few years. The president has proposed funding $6 billion dollars 
for cancer research at the National Institutes of Health for FY10.
    Cancer touches all Americans.
    In 2008, the American Cancer Society estimates that over 1.4 
million people were diagnosed with cancer and that over 560,000 people 
lost their lives fighting some form of the disease. These victims and 
survivors are our children, brothers, sisters, parents, and 
grandparents.
    We owe it to them to do everything we can to defeat this terrible 
disease.
    Unfortunately, from 2004 to 2009, funding for cancer research at 
the NIH remained virtually flat.
    While I was pleased to see that the American Recovery and 
Reinvestment Act and this year's omnibus bill increased funding for 
cancer research, we must sustain and expand on this effort.
    If we are going to win the battle against cancer, our scientists 
and researchers must have the tools they need to improve cancer 
prevention, treatments and, ultimately, to find a cure.
    I strongly encourage the Budget Committee to meet the President's 
request regarding cancer research funding.
    Finally, the United States must become a leader in renewable 
energy. Our continued dependence on foreign sources of oil threatens 
our economic, environmental, and national security.
    In 2007, the Congress passed the America COMPETES Act--bipartisan 
legislation that authorized the doubling of funding for the Department 
of Energy's Office of Science by 2016.
    The Office of Science provides more than 40 percent of total 
funding for basic research in physical science. It manages and supports 
research in basic energy sciences, biological and environmental 
sciences, computational science, climate change, geophysics, genomics, 
and life sciences, all of which can truly bring our energy options into 
the 21st century.
    That is why I am calling on the Budget Committee to increase 
funding for the Office of Science. Not only will increased funding help 
fuel our nation's economic recovery by supporting high-tech, high-
paying jobs, but it will help lead to the development of viable 
alternative sources of energy and help our nation become the global 
supplier of energy, instead of the global consumer.
    As the budget process moves forward, I look forward to working with 
you to ensure that Congress adopts a budget that makes necessary 
investments in the areas I've discussed.
    Thank you for your consideration.

    Mr. Larsen. Thank you, Mr. Carney.
    Just a question about cancer. I just had--my own father 
died after a long battle last October, and I know that you said 
you yourself, you are a cancer survivor as well. So what we can 
do to put dollars to NIH and continue that long trek to untie 
that knot of how to solve the cancer riddle is very important.
    Mr. Carney. It certainly is, and I appreciate your 
attention to that, sir.
    Mr. Larsen. Thank you.
    The next Member to testify will be the gentleman from New 
Mexico, Mr. Teague.
    Welcome. We are pleased to receive your testimony. You will 
be recognized for 5 minutes, and without objection, your full 
statement will be entered into the record.

    STATEMENT OF THE HON. HARRY TEAGUE, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF NEW MEXICO

    Mr. Teague. Thank you, Chairman Spratt, Ranking Member 
Ryan, and Congressman Larsen, for inviting me here today to 
testify before your committee. I appreciate the opportunity to 
share my concerns about the impact the President's proposed 
fiscal year 2010 budget will have on our Nation's veterans and 
to express my strong views that we in Congress must do 
everything that we can to ensure that we are sufficiently 
funding the Veterans Administration.
    I would first like to applaud the administration for 
proposing a budget that for the first time exceeds the amount 
requested by the Independent Budget of Veterans Service 
Organizations by at least $1 billion. That shows the serious 
and long overdue commitment to those who have sacrificed so 
much for our Nation.
    Like many of you, I think it is about time that we start 
doing as much for our veterans as they have done for us. And 
this budget will help us do that. It will help us eliminate the 
shameful backlog of 400,000 veterans benefits claims and 
finally get those veterans the services and support they 
deserve.
    As we are well aware, with so many new veterans entering 
the VA system's issues are arising, and it is clear that the VA 
system is not yet ready to properly address all of these needs.
    That is why I am particularly pleased that the President's 
proposed budget prioritizes the mental health needs of our 
veterans, with a great emphasis on care for those suffering 
from PTSD, traumatic brain injury, and substance abuse. We know 
the number of PTSDs and TBI cases are on the rise, and the 
effects can be catastrophic. That is why we should be screening 
all returning service members for PTSD and traumatic brain 
injuries and then doing all that we can to support those who 
need help.
    This budget allows us to do that, and it also enhances the 
VA Suicide Prevention Campaign, an increasingly important 
program.
    While the budget does do many great things for our 
veterans, it is disappointing that President Obama has opted 
not to include an advanced appropriations for the VA. Funding 
the VA with advanced appropriations rather than just every year 
doesn't cost any additional money. It just allows hospitals and 
clinics in the VA system to plan ahead. Right now, VA 
caregivers don't know what their budget is for next year, and 
when funding bills are approved late as they usually are, care 
gets rationed.
    When VA budgets are delayed, veterans pay the price. While 
President Obama has shown that he has many of the right 
priorities in this VA budget, the VA funding system itself is 
down right broken. Advance appropriations is a commonsense 
solution to that problem. It should be in the budget.
    On another subject, I would like to bring to the 
committee's attention what I believe are some misinformed 
decisions by the Obama administration to eliminate certain tax 
provisions that the oil and gas industry needs. I applaud 
President Obama for his proposals to build on the work of the 
American Recovery and Reinvestment Act, and point our Nation 
toward a renewable energy future, but this investment in green 
energy cannot take place on the back of a fuel source that we 
will need for the next few decades at the least.
    I do not say this as a cheerleader for the oil and gas 
industry. Rather, I come before you as someone who knows the 
industry inside and out and would like to provide members of 
the committee with information about how these changes would 
affect the production of American oil and gas.
    First, the President's budget repeals the expensing of 
intangible drilling costs. Intangible drilling costs generally 
include any cost incurred that has no salvage value and is 
necessary for the drilling of wells or the preparation of wells 
for the production. Only independent producers can fully 
expense IDC on American production. Eliminating IDC expensing 
would remove over $3 billion that would have been invested in 
new American production.
    Second, the President proposes repealing the percentage 
depletion for oil and gas. Natural gas and oil percentage 
depletion is available only for American production. Only 
available to independent producers, only available for the 
first thousand barrels per day of production, limited to the 
net income of a property, and limited to 65 percent of the 
producer's net income. Percentage depletion provides capital 
primarily for small independents and is particularly important 
for marginal well operators.
    And third, the President's budget wipes out the marginal 
well tax credit. This credit provides a safety net for what we 
call stripper wells during periods of low prices. These wells 
account for 20 percent of American oil and 12 percent of 
American natural gas production and are the most vulnerable to 
shutting down forever when prices fall to new lows.
    It is important for the committee to know that the repeal 
of these needed tax provisions would not take place in a void. 
The proposals I have addressed would mean that wells would shut 
down, the bread winners in families in districts like mine 
would lose their jobs, and there would be that much more oil 
and gas that we would need to import from foreign sources.
    In New Mexico specifically, there would be impacts on 
critical State services like law enforcement and education. 
Between 17 and 22 percent of the State's General Fund Budget 
comes from the oil and gas revenues, and up to 65 percent of 
the education budget is paid for by receipts from oil and gas. 
If the proposed repeals are enacted, one of the effects you 
will see is fewer resources in New Mexico classrooms.
    I thank the committee, and I am happy to take any 
questions. Thank you.
    [The prepared statement of Harry Teague follows:]

 Prepared Statement of Hon. Harry Teague, a Representative in Congress 
                      From the State of New Mexico

    Thank you, Chairman Spratt and Ranking Member Ryan, for inviting me 
here to testify before your Committee today. I appreciate the 
opportunity to share my concerns about the impact the President's 
proposed Fiscal Year 2010 Budget will have on our nation's veterans, 
and to express my strong views that we in Congress must do everything 
that we can to ensure that we are sufficiently funding the Veterans 
Administration.
    I would first like to applaud the Administration for proposing a 
budget that, for the first time, exceeds the amount requested by the 
Independent Budget of Veteran Service Organizations by at least $1 
billion. That shows a serious and long overdue commitment to those who 
have sacrificed so much for our nation.
    Like many of you, I think it's about time that we start doing as 
much for our veterans as they have done for us. And this Budget will 
help us do that--it will help us eliminate the shameful backlog of 
400,000 veterans benefits claims and finally get those veterans the 
services and support they deserve.
    As we are all well aware, with so many new veterans entering the VA 
system, issues are arising and it is clear that the VA system is not 
yet ready to properly address all of these needs.
    That is why I am particularly pleased that the President's proposed 
budget prioritizes the mental health needs of our veterans, with a 
great emphasis on care for those suffering from PTSD, traumatic brain 
injury and substance abuse. We know the number of PTSD and TBI cases 
are on the rise and the effects can be catastrophic. That's why we 
should be screening all returning service members for PTSD and 
traumatic brain injuries and then doing all that we can to support 
those who need help. This Budget allows us to do that and it also 
enhances the VA's suicide prevention campaign, an increasingly 
important program.
    While the budget does do many great things for our veterans, it is 
disappointing that President Obama has opted not to include advance 
appropriations for the VA. Funding the VA with advanced appropriations 
rather than every year doesn't cost any additional money. It just 
allows hospitals and clinics in the VA system to plan ahead. Right now, 
VA caregivers don't know what their budget is for the next year, and 
when funding bills are approved late, as they usually are, care gets 
rationed.
    When VA budgets are delayed, veterans pay the price. While 
President Obama has shown that he has many of the right priorities in 
this VA budget, the VA funding system itself is downright broken. 
Advance appropriations is a common-sense solution to that problem. It 
should be in the budget.
    On another subject, I would like to bring to the committee's 
attention what I believe are some misinformed decisions by the Obama 
administration to eliminate certain tax provisions that the oil and gas 
industry needs. I applaud President Obama for his proposals build on 
the work of the American Recovery and Reinvestment Act and point our 
nation toward a renewable energy future, but this investment in green 
energy cannot take place on the back of a fuel source that we will need 
for the next few decades at least.
    I do not say this as a cheerleader for oil and gas. Rather, I come 
before you as someone who knows the industry inside and out and would 
like to provide members of the committee with information about how 
these changes would affect the production of American oil and gas.
    First, the President's Budget repeals the expensing of intangible 
drilling costs. IDC generally include any cost incurred that has no 
salvage value and is necessary for the drilling of wells or the 
preparation of wells for the production. Only independent producers can 
fully expense IDC on American production. Eliminating IDC expensing 
would remove over $3 billion that would have been invested in new 
American production.
    Second, the President proposes repealing percentage depletion for 
oil and gas. Natural gas and oil percentage depletion is available only 
for American production, only available to independent producers, only 
available for the first 1000 barrels per day of production, limited to 
the net income of a property and limited to 65 percent of the 
producer's net income. Percentage depletion provides capital primarily 
for smaller independents and is particularly important for marginal 
well operators.
    And third, the President's Budget wipes out the marginal well tax 
credit. This credit provides a safety net for what we call stripper 
wells during periods of low prices. These wells account for 20 percent 
of American oil and 12 percent of American natural gas production, and 
are the most vulnerable to shutting down forever when prices fall to 
low levels.
    It is important for the committee to know that the repeal of these 
needed tax provisions would not take place in a void. The proposals I 
have addressed would mean that wells would shut down, the breadwinners 
in families in districts like mine would lose their jobs, and there 
would be that much more oil and gas we would need to import from 
foreign sources.
    In New Mexico, specifically, there would be impacts on critical 
state services like law enforcement and education. Between 17 and 22 
percent of the state's general fund budget comes from oil and gas 
revenues, and up to 65 percent of the education budget is paid for by 
receipts from oil and gas. If the proposed repeals are enacted, one of 
the effects you'll see is fewer resources in New Mexico classrooms.
    I thank the committee and am happy to take questions.

    Ms. Schwartz [presiding]. I thank the gentleman from New 
Mexico for his testimony, and we will certainly consider it as 
we move forward with the budget.
    So thank you very much for your input.
    Mr. Teague. Thank you.
    Ms. Schwartz. Next I would like to recognize the 
gentlewoman from New York, Ms. McCarthy.
    We are pleased to receive your testimony, and you are 
recognized for 5 minutes. And without objection, your full 
statement will be entered into the record.

  STATEMENT OF THE HON. CAROLYN MCCARTHY, A REPRESENTATIVE IN 
          CONGRESS FROM THE STATE OF CAROLYN MCCARTHY

    Mrs. McCarthy. Thank you, Chairwoman. I appreciate you 
allowing me to speak in front of you.
    I am here to speak about funding in the fiscal year 2010 
budget resolution on the Department of Justice Community 
Oriented Policing Services to implement H.R. 2640, the NICS 
Improvement Amendments Act of 2007, Public Law 110-180.
    H.R. 2640 was signed into law on January 8, 2008, after 
passing both the House and the Senate unanimously.
    I know the budget is tight, Madam Chairwoman, but fully 
funding this program is so important because currently, the 
National Instant Criminal Background Check System, or NICS, is 
deeply flawed.
    NICS is a national database system that flags individuals 
precluded under current law from purchasing and possessing 
firearms. Millions of criminal records are currently missing 
from the databases that make up NICS due to funding 
restrictions and technology issues at the State level.
    Many States have not automated individuals' records 
concerning mental illness, restraining orders, or misdemeanor 
convictions for domestic violence. Simply put, NICS must be 
updated on a State level so that it can properly function on 
the Federal level.
    The shooting that just occurred this past Sunday at First 
Baptist Church in Merryville, Alabama, reminds me of a similar 
shooting that took place in my own district at Our Lady of 
Peace Church in Lynbrook. That is where this bill actually 
started.
    Peter Troy, who was the perpetrator at that time, purchased 
a 22-caliber semiautomatic rifle. He had a history of mental 
illness problems, and his own mother had a restraining order 
against him as a result of his violent background. Those are 
two reasons why he should have never been able to buy a gun.
    Four days later, Mr. Troy walked into Our Lady of Peace 
Church in Lynbrook, New York, and opened fire, killing Reverend 
Lawrence Penzes. It was illegal for him to purchase a gun, but 
for many reasons, he was able to slip through the NICS system.
    The breakdown in the system is further underscored by the 
circumstances surrounding the shootings that took place at 
Virginia Tech in April of 2007. The shooter at the Virginia 
Tech massacre was also prohibited legally from buying a 
firearm. Unfortunately, flaws in the NICS system allowed his 
record to slip through the cracks, and he was able to purchase 
two handguns and used them to brutally murder 32 individuals. 
He passed a Brady background check because NICS did not have 
the necessary information.
    Sadly, this same scenario happens every day across our 
country. The NICS Improvement Amendments Act requires all 
States to provide NICS with the relevant records needed to 
conduct effective background checks. It is the State's 
responsibility to ensure this information is current and 
accurate. They must update their records to ensure violent 
criminals do not have access to firearms, and then they must 
share the information with NICS.
    However, I recognize many State budgets have already been 
overburdened, the same as our budget. This law distributes 
grants to States to update their records and provide those 
records to NICS. States will receive the funds they need to 
make sure relevant records are up to date.
    While NICS has its flaws, the NICS Improvement Amendments 
Act 2007 corrects the primary flaw and will prevent thousands 
of individuals precluded from purchasing firearms from doing 
so.
    Approximately 916,000 people that should be in the system 
are not in the system. They are precluded from purchasing a 
firearm for failing a background check between November 30th, 
1998, when NICS began operating, and December 31st, 2004. 
During this same period, nearly 49 million Brady background 
checks were processed through NICS.
    These numbers prove that NICS works and will continue to 
work. However, since NICS is only as good as the information it 
contains, we must ensure that NICS has the most up-to-date 
records to stop criminals, those adjudicated as mentally ill, 
and those under a restraining order from purchasing firearms.
    It has been estimated that more than 40 million records are 
missing from the various databases that make up NICS. By 
providing this funding, we will move one step closer to 
bringing the records of millions of barred individuals into 
NICS.
    This law imposes no new restrictions on gun owners and does 
not infringe on Second Amendment rights of law-abiding 
citizens. It simply makes improvements to a program that saves 
lives.
    I respectfully request that you include $375 million in the 
fiscal year 2010 budget resolution under the Department of 
Justice Community Oriented Policing Services in order to fully 
fund the NICS Improvement Amendments Act of 2007.
    I thank you for your time, and I will be happy answer any 
questions.
    [The prepared statement of Carolyn McCarthy follows:]

   Prepared Statement of Hon. Carolyn McCarthy, a Representative in 
                  Congress From the State of New York

    <bullet> Thank you Chairman Spratt, Ranking Member Ryan, and 
Members of the Budget Committee.
    <bullet> I appreciate your allowing me to testify today in support 
of including necessary funding in the Fiscal Year 2010 Budget 
Resolution under the Department of Justice Community Oriented Policing 
Services to implement H.R. 2640, the NICS Improvement Amendments Act of 
2007, Public Law Number 110-180.
    <bullet> H.R. 2640 was signed into law on January 8, 2008, after 
having passed both the House and Senate unanimously.
    <bullet> I know the budget is tight, Mr. Chairman, but fully 
funding this program is so important because currently the National 
Instant Criminal Background Check System, or NICS, is deeply flawed.
    <bullet> NICS is a national database system that flags individuals 
precluded under current law from purchasing and possessing firearms.
    <bullet> MILLIONS of criminal records are currently missing from 
the databases that make up NICS due to funding restrictions and 
technology issues at the state level.
    <bullet> Many states have not automated individuals' records 
concerning mental illness, restraining orders, or misdemeanor 
convictions for domestic violence.
    <bullet> Simply put, NICS must be updated on the state level so 
that it can properly function on the federal level.
    <bullet> The shooting that just occurred this past Sunday at First 
Baptist Church in Merryville Illinois, reminds me of a similar shooting 
that took place in my district at Our Lady of Peace Church in Lynbrook 
NY in 2002.
    <bullet> Peter Troy purchased a twenty-two caliber semi-automatic 
rifle. He had a history of mental health problems and his own mother 
had a restraining order against him as a result of his violent 
background.
    <bullet> 4 days later, Mr. Troy walked into Our Lady of Peace 
Church in Lynbrook New York and opened fire, killing Reverend Lawrence 
Penzes.
    <bullet> It was illegal for him to purchase a gun, but for many 
reasons he was able to slip through the NICS system.
    <bullet> The breakdown in the system is further underscored by the 
circumstances surrounding the shootings that took place at Virginia 
Tech in April of 2007
    <bullet> The shooter in the Virginia Tech massacre was also 
prohibited from legally purchasing a firearm.
    <bullet> Unfortunately, flaws in the NICS system allowed his record 
to slip through the cracks and he was able to purchase two handguns, 
and used them to brutally murder THIRTY TWO individuals.
    <bullet> He passed a Brady background check because NICS did not 
have the necessary information.
    <bullet> Sadly, this same scenario happens every day.
    <bullet> The NICS Improvement Amendments Act requires all states to 
provide NICS with the relevant records needed to conduct effective 
background checks.
    <bullet> It is the state's responsibility to ensure this 
information is current and accurate. They must update their records to 
ensure violent criminals do not have access to firearms. And then, they 
must share the information with NICS.
    <bullet> However, I recognize many state budgets are already 
overburdened.
    <bullet> This law distributes grants to states to update their 
records and provide those records to NICS.
    <bullet> States will receive the funds they need to make sure 
relevant records are up-to-date.
    <bullet> While NICS has flaws, the NICS Improvement Amendments Act 
of 2007 corrects the primary flaw and will prevent thousands of 
individuals precluded from purchasing firearms from doing so.
    <bullet> Approximately NINE-HUNDRED AND SIXTEEN THOUSAND 
individuals were precluded from purchasing a firearm for failing a 
background check between November 30, 1998, when NICS began operating, 
and December 31, 2004.
    <bullet> During this same period, nearly FORTY NINE MILLION Brady 
background checks were processed through NICS.
    <bullet> These numbers prove that NICS works and will continue to 
work. However, since NICS is only as good as the information it 
contains, we must ensure that NICS has the most up-to-date records to 
stop criminals, those adjudicated as mentally ill, and those under a 
restraining order from purchasing firearms.
    <bullet> It has been estimated that more than 40 million records 
are missing from the various databases that make up NICS.
    <bullet> By providing this funding, we will move one step closer to 
bringing the records of millions of barred individuals into NICS.
    <bullet> This law imposes no new restrictions on gun owners and 
does not infringe on the 2nd Amendment rights of law-abiding citizens. 
It simply makes improvements to a program that saves lives.
    <bullet> I respectfully request that you include $375 million in 
the Fiscal Year 2010 Budget Resolution under the Department of Justice 
Community Oriented Policing Services in order to fully fund the NICS 
Improvement Amendments Act of 2007.
    <bullet> Thank you for your time and I would be happy to answer any 
questions you may have.

    Ms. Schwartz. I thank you for your testimony, and certainly 
the Congresswoman is well-known for your tremendous work in 
ensuring reduction in gun violence and keeping guns out of the 
hands of those who shouldn't have them. So thank you for your 
work on this and for your leadership.
    Mrs. McCarthy. Thank you, Ms. Chairwoman.
    Ms. Schwartz. And thank you. Next Member to testify is the 
gentleman from Utah, Mr. Matheson.
    And I welcome you, and I am pleased to receive your 
testimony and recognize you for 5 minutes. Without objection, 
your full statement will be entered into the record.

    STATEMENT OF THE HON. JIM MATHESON, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF UTAH

    Mr. Matheson. Thank you, Madam Chair.
    I thought that what I would do today, as the Budget 
Committee goes about drafting the budget resolution for the 
House to consider, I thought I would talk about a couple of 
items in the President's budget that were of concern to me and 
that I would encourage the House to take a look at and maybe 
pursue an alternative path.
    First, I would like to talk about the components of the 
President's budget relative to health care. The concern I have 
is there is a large, large amount of money that is placed in 
the budget kind of as a place-holder without the policy having 
been defined, without Congress having legislated for health 
care reform. I am concerned about putting a cart before the 
horse in terms of how we go about engaging the health care 
reform, which by the way is an issue we have got to engage in.
    Madam Chair is on the Ways and Means Committee. I am on 
Energy and Commerce. Both of our committees are going to be 
actively involved in the health care reform debate, and it is a 
debate that needs to take place. The fact this country spends 
more than anyone in the world on health care right now tells me 
there are massive opportunities for a more efficient system 
than what we have got, more than anyone in the world per 
capita, and I am concerned about just the large additional cost 
being thrown in the budget without knowing what it means.
    Specifically in the President's budget I want to mention 
two items that I think we ought to be very careful about. 
First, the President's budget assumes that we eliminate 
Medicare Advantage. Now, there are issues with Medicare 
Advantage, not the least of which is, by various different 
studies, it costs about 114 percent of the cost of traditional 
Medicare. I don't think that is appropriate. The whole idea 
behind Medicare Advantage was that it could compete with 
traditional Medicare, perhaps even provide more services at the 
same cost or maybe save costs.
    To the extent it hasn't worked out that way, I think we 
ought to take a look at Medicare advantage. We ought to hold 
that program's feet to the fire, if you will, in terms of 
competing with traditional Medicare as opposed to costing 14 
percent more.
    With that being said, I don't think we should completely 
eliminate the program.
    Secondly on health care in the President's budget, there is 
a suggestion for allowing the reimportation of prescription 
drugs. This is an issue that has got a lot of emotion 
associated with it, and it has had a lot of discussion here in 
Congress. None of us are really happy with the price we pay for 
prescription drugs here in the United States of America, but 
again, we should acknowledge that the Food and Drug 
Administration is unable to verify that drugs that are 
reimported into this country are safe. And in fact, there is 
ample amount of evidence that occurs, if you look at our postal 
system and get data from the postal system, about significant 
amounts of counterfeit medications that are attempted to be 
sent into this country as we speak.
    We all care about costs. There is no question about that. 
But we also should care about the fact that consumers in this 
country when they take medication are actually taking the 
medication that is indicated on the label of the container.
    Those are issues in the health care arena that I would 
encourage as the House Budget Resolution is drafted that you 
consider taking a bit of a different approach than the 
President in maybe creating more definition in the overall 
plan.
    Second area I want to talk about beyond health is energy. 
In the President's budget, there is a significant amount of 
assumed revenue from a cap-and-trade program, over $600 billion 
I believe over 10 years; again, a program that does not exist 
today, that has not been legislated by Congress yet, and it has 
certain assumptions associated with that revenue number that 
have not even been considered in Congress. And I don't think 
that is responsible budgeting, to go ahead and assume that this 
type of program is going to exist in that form with that level 
of revenue.
    Climate change is a critical issue. I think it is something 
we have to deal with in Congress. I look forward to engaging in 
that debate, but I do not think our budget should already make 
an assumption about how that debate is going to turn out.
    Even more disturbing to me is that the President's budget 
assumes that some of these revenues from a cap-and-trade 
program will be dedicated to fund something outside of the 
impacts of cap and trade. It is really going to fund the middle 
class tax cut. Now, we all like the middle class tax cut, and 
we want that to be paid for, but we should acknowledge that a 
cap-and-trade program is going to cause transitional issues in 
our economy and for individuals, and in my opinion, any 
revenues derived from that program ought to be dedicated to 
mitigating the impact of that transitional period to allow that 
to happen in as least a disruptive manner to consumers as 
possible.
    So with that, Madam Chair, those are really the two items I 
thought I would mention. I encourage the Budget Committee to 
look for more clarity and more reasonable efforts on those two 
issue areas, and I yield back the balance of my time.
    Ms. Schwartz. I appreciate the gentleman's comments, and 
those are some issues that I know some other Members have as 
well.
    I know that, as a member of the Budget Committee, we are 
very interested and appreciate the President putting forward a 
more honest budget and anticipating that, if we do take action, 
that there will be dollars set aside to do that.
    But certainly you raise some very important points, and as 
a Member of the Energy and Commerce and certainly in my role as 
well, on a more personal note, I expect we are going to spend 
some time debating this and having a thorough discussion. But 
your point is well taken, and certainly it will be part of the 
testimony for the budget and really appreciate your taking time 
to testify.
    And with that, the Budget Committee is adjourned.
    [Whereupon, at 4:16 p.m., the committee was adjourned.]





                          MEMBERS' DAY PART II

                              ----------                              


                       WEDNESDAY, MARCH 18, 2009

                          House of Representatives,
                                   Committee on the Budget,
                                                    Washington, DC.
    The committee met, pursuant to call, at 2:11 p.m. in room 
210, Cannon House Office Building, Hon. Gwen Moore presiding.
    Present: Representatives Doggett, Tsongas, Etheridge, 
McCollum, and Moore.
    Ms. Moore. The meeting is called to order. I would like to 
welcome you to the second part of our annual members day 
hearing where the Budget Committee has a chance to receive 
input from our House colleagues about the budget resolution. I 
am filling in for Chairman Spratt, who could not be here but 
wanted us to proceed without him. Others of the Budget 
Committee colleagues will take over the chair later. As you 
know, last Wednesday we held the first part of this hearing, 
but had to cut it short before everyone had the opportunity to 
testify. So I appreciate your flexibility in rescheduling and 
look forward to hearing testimony today.
    Today the committee welcomes the gentlewoman from Maine Ms. 
Chellie Pingree. Welcome. We are pleased to receive your 
testimony, and you are recognized for 10 minutes. Without 
objection, your full statement will be entered into the record. 
Before you start Ms. Pingree, I would like to just take care of 
a little business. I ask unanimous consent that all members be 
allowed to submit an opening statement for the record at this 
point. Hearing no objection so ordered. Will you proceed with 
your testimony. Thank you. For 10 minutes.

  STATEMENT OF THE HON. CHELLIE PINGREE, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF MAINE

    Ms. Pingree. Thank you very much, Madam Chair. I will 
submit my full testimony into the record, and I will read you a 
few of the highlights that are of concern to the people home in 
my home district. And I appreciate the chance to both be before 
you and to be with the Chair of my own committee, Ms. 
Slaughter, from the Rules Committee, so I am honored to go 
first. So Madam Chair, and to all of the members of the Budget 
Committee, thank you very much for having me here today. Over 
the coming weeks you will be leading the reprioritization of 
our budget and finding the right balance between jump starting 
our economy and fiscal responsibility. I know that we all agree 
that our number one goal is to get our economy back on track 
and get Americans back to work.
    Today I want to talk about two things that must be done to 
achieve that goal. We need to fix our broken health care system 
and make a real and significant commitment to developing clean 
energy. I am pleased to see that the proposed budget reflects a 
serious commitment to health care reform. I strongly believe 
that the time has come for guaranteed affordable access to 
quality health care for every American. Health care reform is 
the single most effective investment that we can make to bring 
economic relief to workers and families, particularly small 
business owners who are struggling in Maine and across the 
country.
    All too frequently I hear from my constituents who are 
struggling to provide for their families in the face of soaring 
health care costs and despite the fear of looming job loss. 
Many hard working Mainers have full-time jobs but are still 
uninsured or underinsured. And far too many of them are just 
one illness or accident away from bankruptcy. For a long time 
now, we have known that out-of-pocket health care costs are a 
major factor in personal bankruptcy. The challenge of finding 
quality affordable health care is particularly daunting to 
small businesses that make up the heart of Maine's economy.
    As a small business owner myself, I know firsthand how 
difficult be to pay the ever increasing health care costs of my 
employees, and for many small business owners, it is the cost 
of health care that finally makes it possible to make ends 
meet. For this and many more reasons, I am pleased that for the 
first time in a long time, the President's proposed budget 
represents a serious down payment on health care reform. By 
starting to provide the Department of Health and Human Services 
with the necessary funding to achieve its mission, President 
Obama has demonstrated that he will live up to his promise to 
work with us to make affordable quality health care for all 
Americans a reality. But this is just the beginning of the long 
road head of us. After years of inattention to this country's 
health care needs, there is much work to be done to put us on 
the path of a more efficient cost effective system.
    I look forward to reviewing additional details in the 
President's proposed budget as they become available and to 
working with my colleagues and this Congress to create and 
support a health care system that we can all be proud of. I 
would also like to express my support for serious significant 
investment in energy efficiency and renewable energy. By 
developing new sources of clean energy we will create 
sustainable jobs, lessen our dependence on foreign oil and 
begin to meet the greatest environmental challenge our planet 
has ever faced. America can and should be a leader in 
developing the energy technology that will support the world's 
economy in the 21st century.
    I am particularly proud of the work on developing clean 
energy that has taken place already in Maine. We have over 100 
megawatts of wind power on line with another 1,000 megawatts in 
the planning stages and a goal of 3,000 megawatts on line by 
2020. Meanwhile, the University of Maine, small businesses and 
others are undertaking groundbreaking research on wind blade 
efficiency and composite technology. And our wind and tidal 
power resources are among the best in the country. Maine's 
offshore wind resource is estimated to be over 100 gigawatts or 
10 percent of the total electric production in the United 
States. But without significant investments, we won't be able 
to realize the full potential to develop clean energy in Maine 
or around the country. Investing in the research and 
infrastructure hastens the development of renewable energy.
    Without significant investment, we will miss the 
opportunity to develop good paying sustainable jobs and the new 
sources of energy that will power our economy in the 21st 
century. Finally, while it is important to invest in health 
care and clean energy, we must do so wisely and carefully. 
While investing in the future, we must also commit ourselves to 
reducing the deficit, eliminating wasteful spending and finding 
ways to do more with less. To this end, and as a member of the 
House Armed Services Committee, I am pleased that President 
Obama is practicing truth in budgeting, particularly when it 
comes to the cost of wars in Iraq and Afghanistan and the 
increasing transparency in our budget process.
    If we are to build a budget that reflects our priorities, 
it is essential to put all of the true costs on the table to 
begin with. And I am looking forward to taking a close look at 
the budget and vigilantly seeking out any wasteful spending 
where we can achieve savings and make changes that reflect our 
shared priorities.
    Madam Chair, I greatly appreciate the opportunity to 
testify in front of your committee and sincerely hope that the 
committee keeps these thoughts in mind throughout the budget 
process. I am looking forward to working with all the members 
on this committee throughout the budget process. Thank you very 
much.
    Ms. Moore. And thank you so much.
    [The prepared statement of Chellie Pingree follows:]

    Prepared Statement of Hon. Chellie Pingree, a Representative in 
                    Congress From the State of Maine

    Mr. Chairman, Members of the Budget Committee, thank you very much 
for having me here today. Over the coming weeks you will be leading the 
reprioritizing of our budget, and finding the right balance between 
jumpstarting our economy and fiscal responsibility.
    I think we all agree that our number one goal is to get our economy 
back on track and get Americans back to work. Today I want to talk 
about two things that must be done to achieve that goal: we need to fix 
our broken health care system and make a real and significant 
commitment to developing clean energy.
    I am pleased to see that the proposed budget reflects a serious 
commitment to health care reform. I strongly believe that the time has 
come for guaranteed, affordable access to quality health care for every 
American. Health care reform is the single most effective investment 
that we can make to bring economic relief to workers and families, 
particularly small business owners, who are struggling in Maine and 
across the country.
    All too frequently I hear from my constituents who are struggling 
to provide for their families in the face of soaring health care costs 
and despite the fear of looming job loss.
    Many hard working Mainers have full time jobs but are still 
uninsured or underinsured. And far too many of them are just one 
illness or one accident away from bankruptcy. For a long time now, we 
have known that out of pocket health care costs are a major factor in 
many bankruptcies.
    The challenge of finding quality, affordable health care is 
particularly daunting to the small businesses that make up the heart of 
Maine's economy. As a small business owner myself, I know firsthand how 
difficult it can be to pay the ever increasing health care costs of my 
employees and for many small business owners, it is the cost of health 
care that finally makes it impossible to make ends meet.
    For this and many more reasons, I am pleased that for the first 
time in a long time the President's proposed budget represents a 
serious down payment on health care reform. By starting to provide the 
Department of Health and Human Services with the necessary funding to 
achieve its mission, President Obama has demonstrated that he will live 
up to his promise to work with us to make affordable, quality health 
care for all Americans a reality.
    But this is just the beginning of the long road ahead of us. After 
years of inattention to this country's health care needs, there is much 
work to be done to put us on the path to a more efficient, cost-
effective system. I look forward to reviewing additional details in the 
President's proposed budget as they become available, and to working 
with my colleagues in this Congress to create and support a health care 
system that we can all be proud of.
    I would also like to express my support for serious, significant 
investment in energy efficiency and renewable energy. By developing new 
sources of clean energy, we will create sustainable jobs, lessen our 
dependence on foreign oil and begin to meet the greatest environmental 
challenge our planet has ever faced. America can and should be a leader 
in developing the energy technology that will support the world's 
economy in the 21st Century.
    I am particularly proud of the work on developing clean energy that 
has taken place in Maine. Already we have over 100 megawatts of wind 
power online, with another 1,000 megawatts in the planning stages and a 
goal of 3,000 megawatts online by 2020. Meanwhile, the University of 
Maine, small businesses and others are undertaking groundbreaking 
research on wind blade efficiency and composite technology. And our 
wind and tidal power resources are among the best in the country. 
Maine's offshore wind resource is estimated to be over 100 gigawatts, 
or 10% of the total US electric production.
    But without significant investments, we won't be able to realize 
the full potential to develop clean energy in Maine or around the 
country. Investing in the research and infrastructure hastens the 
development of renewable energy. Without significant investment, we 
will miss the opportunity to develop good-paying, sustainable jobs and 
the new sources of energy that will power our economy in the 21st 
century.
    Finally, while it is important to invest in health care and clean 
energy, we must do so wisely and carefully. While investing in the 
future we must also commit ourselves to reducing the deficit, 
eliminating wasteful spending and finding ways to do more with less. To 
this end, and as a member of the House Armed Services Committee, I am 
pleased that President Obama is practicing ``truth in budgeting,'' 
particularly when it comes to the costs of the wars in Iraq and 
Afghanistan and increasing transparency in our budget process. If we 
are to build a budget that reflects our priorities, it's essential to 
put all of the true costs on the table to begin with, and I am looking 
forward to taking a close look at the budget and vigilantly seeking out 
any wasteful spending where we can achieve savings and make changes 
that reflect our shared priorities.
    Mr. Chairman, I greatly appreciate the opportunity to testify in 
front of this committee and sincerely hope that the committee keeps 
these thoughts in mind throughout the budget process. I am looking 
forward to working with this committee throughout the budget process. 
Thank you.

    Ms. Moore. I want to remind everyone that your entire 
written testimony will be made a part of the permanent record.
    Ms. Pingree. Thank you.
    Ms. Moore. I am so pleased to welcome the Chair of the 
Rules Committee, the Honorable Louise Slaughter from upstate 
New York for her testimony at this time. We are yielding 5 
minutes, and we offer you an opportunity to enter your entire 
testimony for the record. And welcome to the committee, but 
before you proceed let me just mention that all committee 
members who are not here may submit written questions for the 
record.
    Ms. Pingree. Thank you.
    Ms. Moore. Thank you. And so with that we have the 
Honorable Louise Slaughter who has joined us.

  STATEMENT OF THE HON. LOUISE SLAUGHTER, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Ms. Slaughter. Madam Chairman, thank you. It is such a 
pleasure to see you sitting in that chair. It becomes you. I do 
thank you for the opportunity to address you today on an issue 
of great importance I think to the entire Nation. As a co-chair 
of the Congressional Great Lakes Task Force, I am here to 
discuss critical funding for the restoration and protection of 
the Great Lakes. Lake Erie, Huron, Michigan, Ontario and 
Superior contain more than 18 percent of the world's fresh 
water, more than 90 percent of North America's surface fresh 
water and supply drinking water to more than 35 million people. 
Millions of people benefit from the commerce and business that 
depend on the waters of the Great Lakes. The Lakes are not only 
a prized natural resource but a significant economic engine for 
our country.
    This committee has the opportunity to create jobs, revive 
many regional economies and to bolster communities, businesses 
and industries by funding the protection and restoration of the 
Great Lakes. The Brookings Institute released a report in 2007 
finding that a $26 billion investment to restore the Great 
Lakes will create $50 billion in economic gains, a two for one 
return on our investment. That is a net gain of at least $24 
billion from increases in tourism, the fishing industry, 
recreational activity and home values, and again, of course, 
keeps that valuable supply of fresh water available to our 
citizens.
    Restoring the Lakes will also put people to work 
immediately. The recommendation to fix old sewers in the 
region, $7.65 billion in Federal investment, will create at 
least 265,000 jobs according to the U.S. Department of 
Transportation statistics. We must protect the Great Lakes in 
order to ensure that we and future generations continue to reap 
its many benefits. Every day the Lakes are threatened by 
serious problems, such as sewage contamination and invasive 
species. More than 24 billion gallons of sewage contaminate the 
Lakes every year, closing beaches and threatening the public's 
health. The EPA estimates that the Nation must invest $390 
billion to fix old sewers to prevent the combined sewer 
overflows and storm sewer overflows, many of which occur in the 
Great Lakes and northeast regions of the country.
    New York alone needs $36.2 billion over the next 20 years 
to repair failing infrastructure that leads to billions of 
gallons of sewage in the New York waterways every year. 
Nonnative aquatic invasion species continue to reek havoc on 
our economy and way of life. A new nonnative aquatic invasive 
species is discovered in the Lakes every 28 weeks. Invasive 
species like the zebra mussel cause more than $200 million in 
damage, and costs are borne by people, cities, industries and 
the businesses. I am happy to say that the Coast Guard 
reauthorization bill, which passed last April and is still 
stalled in the Senate, was a good first step to creating a 
strong balanced water management program. We should never have 
been on the buddy system or the good faith system to have 
shipping interests from other parts of the world simply state 
no ballast on board, then get into the Great Lakes and dump it.
    Unless action is taken, the problems will only get worse 
and solutions will cost more. To underscore the point, leading 
scientists released a report in 2005 that found a cumulative 
impact of these threats is pushing the Lakes toward a tipping 
point. That is critical information and it is already 4 years 
old. In short, deterioration of the ecosystem is accelerating 
dramatically and if not addressed, now the damage might be 
irreversible.
    Unfortunately Federal efforts tor restore the Lakes have 
not kept pace with the threats to the Lakes. In 2002, a 
Government Accountability Office report found that efforts to 
restore the Great Lakes had been stymied by a lack of 
coordination and clear strategy. The GAO found that a lack of 
funding and strategies similar to the other restoration 
efforts, such as the Chesapeake Bay and the Florida Everglades 
for instance, have impeded the restoration efforts of the Great 
Lakes. And the report also, of course, indicated lack of 
funding because we put very little funding since I have been in 
Congress to help the Great Lakes. The report recommended that 
the EPA administrator charge EPA's Great Lakes National Program 
Office with developing an overarching Great Lakes strategy, 
submitting a proposal to Congress for funding the plan and 
developing most importantly a way to measure progress.
    In 2005 Federal leaders took a major step forward in the 
effort to restore the Great Lakes when the EPA spearheaded a 
broad stakeholder process to craft a multiyear plan to restore 
this great natural resource. More than 1,500 stakeholders 
participated in the one year effort representing industry, 
business, State and local government, tribes, advocacy 
organizations and State and Federal agencies.
    Ms. Slaughter. And in conclusion, I appreciate that 
President Obama has put $475 million in this budget, 
recognizing the great need to restore the Great Lakes. And I am 
here to humbly ask you to protect that investment that 
President Obama wants to make. And I thank you all very much.
    [The prepared statement of Louise Slaughter follows:]

Prepared Statement of Hon. Louise McIntosh Slaughter, a Representative 
                 in Congress From the State of New York

    Thank you for this opportunity to discuss an issue of great 
importance not only to communities like mine that border the Great 
Lakes but to our country as well.
    As a Co-Chair of the Congressional Great Lakes Task Force, I am 
here to discuss critical funding for the restoration and protection of 
the Great Lakes.
    Lakes Erie, Huron, Michigan, Ontario and Superior contain more than 
18 percent of the world's, and more than 90 percent of North America's, 
fresh surface water. Combined, they supply drinking water to more than 
35 million people.
    What's more, millions of people benefit from the commerce and 
business that depend on the waters of the Great Lakes.
    The Lakes are not only a prized natural resource, but also a 
significant economic engine for our country.
    This Committee has the opportunity to create jobs, revive many 
regional economies, and bolster communities, businesses and industries 
by funding the protection and restoration of the Great Lakes.
    The Brookings Institution released a report in 2007 which found 
that a $26 billion investment to restore the Great Lakes would create 
$50 billion in economic gains for the region, a two-to-one return on 
investment.
    That is a net gain of at least $24 billion from increases in 
tourism, the fishing industry, recreational activity and home values.
    Restoring the lakes will also put people to work immediately.
    The recommendation to fix old sewers in the region--$7.65 billion 
in federal investment--will create at least 265,000 jobs, according to 
the U.S. Department of Transportation.
    We must protect the Great Lakes in order to ensure that we, and 
future generations, continue to reap its many benefits.
    Every day, the Lakes are threatened by serious environmental 
problems such as sewage contamination and invasive species.
    More than 24 billion gallons of sewage contaminate the Lakes every 
year, closing beaches and threatening public health.
    The Environmental Protection Agency (EPA) estimates that we must 
invest $390 billion to fix old sewers to prevent combined sewer 
overflows and storm sewer overflows--many of which occur in the Great 
Lakes and Northeast regions of the country.
    New York alone needs $36.2 billion over the next twenty years to 
repair failing infrastructure that leads to billions of gallons of 
sewage in New York waterways every year.
    Moreover, non-native aquatic invasive species continue to wreak 
havoc on our economy and way of life.
    A new non-native aquatic invasive species is discovered in the 
Lakes every 28 weeks. Invasive species like the zebra mussel cause more 
than $200 million in damage and control costs to people, cities, 
industry and businesses.
    The Coast Guard Reauthorization Act, which passed the House last 
April and stalled in the Senate, was a first step to creating a strong 
ballast water management program.
    This program sets a tough new standard for treating ballast water 
discharges, finally closes the ``No Ballast on Board'' loophole, and 
sets a goal of getting treatment on board vessels as quickly as 
possible.
    Unless action is taken, these problems will get worse, and the 
solutions will cost more.
    To underscore that point, leading scientists released a report in 
2005 that found the cumulative impact of these threats is pushing the 
Lakes toward a tipping point.
    In short, deterioration of the ecosystem is accelerating 
dramatically, and if not addressed now, the damage could be 
irreversible.
    Unfortunately, federal efforts to restore the Lakes have not kept 
pace with the threats to the Lakes.
    A 2002 Government Accountability Office (GAO) report found that 
efforts to restore the Great Lakes have been stymied by a lack of 
coordination and a clear strategy.
    The report also indicated that lack of funding hampered clean-up 
efforts.
    The report recommended that the EPA Administrator charge EPA's 
Great Lakes National Program Office with developing an overarching 
Great Lakes strategy, submitting a proposal to Congress for funding the 
plan, and developing a way to measure progress.
    In 2005, federal leaders took a major step forward in the effort to 
restore the Great Lakes when the EPA spearheaded a broad stakeholder 
process to craft a multi-year plan to restore this great national 
resource.
    More than 1,500 stakeholders participated in the one-year effort, 
representing industry, business, state and local government, tribes, 
advocacy organizations, and state and federal agencies.
    The result was the Great Lakes Regional Collaboration Strategy to 
Restore and Protect the Great Lakes.
    In the Great Lakes region, chambers of commerce, mayors, governors, 
industry and non-governmental organizations, have united behind a 
plan--and for good reason: Great Lakes restoration is an economic 
driver and key to the economic recovery of the region and our nation.
    I commend President Barack Obama for recognizing the urgent need to 
restore the Great Lakes and the tremendous economic benefit healthy 
Lakes will bring to communities, businesses and industries. I applaud 
him for including $475 million to restore the Lakes in his proposed 
fiscal year 2010 budget.
    These federal dollars represent the most serious commitment to 
Great Lakes restoration ever by a President.
    This is new money for some of the most successful and important 
Great Lakes restoration efforts, like the Great Lakes Legacy Act. This 
commitment is a serious down-payment on the multi-year effort to 
restore the lakes.
    I respectfully request that you include $475 million for Great 
Lakes restoration and economic recovery.
    Thank you for your time.

    Ms. Moore. And thank you. I will recognize myself for a 
moment for a question, Congresswoman Slaughter. You mentioned 
that the Coast Guard Reauthorization Act is held up in the 
Senate.
    Ms. Slaughter. Yes.
    Ms. Moore. Can you share with the committee what the stated 
problems are with the bill in the Senate.
    Ms. Slaughter. I probably would have to be a psychic to be 
able to answer that. The ways of the Senate are an enigma to 
me. And having been here for, this my 23rd year, I have never 
been able to decide for what it is they do over there and by 
what rhyme or reason they do it. But this is critically 
important. And since this money is in the budget--but you are 
absolutely right, to stop other countries from dumping ballast 
and bringing us invasive species is probably the most important 
thing that we can do, so that bill has to pass the Senate.
    Ms. Moore. Well, I certainly agree with you, living on 
great Lake Michigan. Besides loving the people of Milwaukee, 
Wisconsin, I love that lake. It is a constituent of mine. I 
would like to now yield to my colleague Mr. Doggett for 
questions that he may have of you. And I also may offer him an 
opportunity to question Ms. Pingree who testified earlier, Mr. 
Doggett, about the need for a guaranteed health care program in 
the budget, and also the urgency of energy. And so I will yield 
now to Mr. Doggett.
    Mr. Doggett. Thank you very much. And thank you Chairwoman 
Slaughter. And I think it is very important to have that 
provision in the budget and to assure that I have time on every 
rule that is coming up this year on your end of that.
    Ms. Slaughter. You do know the way to my heart.
    Mr. Doggett. And Congresswoman Pingree, you touch on one of 
the issues that I think is the most critical for us. We all 
know the stories of families across the country that face 
personal bankruptcy, the largest cause of credit card debt, 
because of the neglect and indifference to the growing health 
care crisis in our country. And having a significant amount in 
this budget as a reserve, giving us the opportunity to deal 
with health care, I hope immediately this year, I think is very 
important. I think that is probably the way we will handle it, 
is with a reserve fund, so that we can begin then to really 
just be assured we have the opportunity to approve health care 
this year, and then we can work through the details of what we 
can get passed to do the most we can under the circumstances we 
have. Your State has certainly been a leader in this area at a 
time that the Federal Government, under the Bush 
administration, did nothing for families facing a health care 
crisis. Do you think that the State of Maine has some 
experience that will be insightful as we try to develop a 
national health system?
    Ms. Pingree. Thank you very much for your question, and for 
the opportunity to address the committee on budget priorities. 
And I am glad to know this is a concern of yours, as I think it 
will be of many of the members of this committee, and I 
appreciate it as well that the President has both set aside 
some financial resources for this, and clearly made it a 
priority. So yes, I concur on that. And I have to say, sitting 
right behind me is actually my daughter, who is the Speaker of 
the House in Maine, who happens to be here for a legislative 
conference.
    And I probably don't have to tell you that I receive 
frequent calls from her saying when are you going to help out 
States like ours. She is a former chair of the Health and Human 
Services Committee, where I also served as a State legislator. 
Maine has been an innovator in trying to expand access to care 
and hold down the costs of prescription drugs. So you can 
imagine that all of our legislative leaders who are visiting 
from all around the country for the next couple of days to talk 
about these issues will be putting that as their high priority.
    And I know speaking from the State of Maine, where we have 
tried very hard to be innovative with a high level of need and 
a very low level of cash resources, we need the Federal 
Government to step in and level the playing field and help out 
states like ours.
    Mr. Doggett. Thank you for your leadership and that of your 
daughter.
    Ms. Pingree. Thank you.
    Ms. Moore. And thank you. I see that we have the Honorable 
Paul Tonko from New York here. And we also have the Honorable 
Representative Wolf from Virginia here with us as well. The 
Chair recognizes Mr. Tonko for 5 minutes. We welcome you before 
the committee. And your entire written testimony will be made 
part of the record. And we do welcome your summary of your 
statements. We know you have much more to say than you can say 
in 5 minutes. And after you we will recognize Mr. Wolf, and 
then we will recognize Representative Schrader after that.

STATEMENT OF THE HON. PAUL TONKO, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF NEW YORK

    Mr. Tonko. Thank you very much, Madam Chair, to you and 
Chair Spratt and Ranking Member Ryan and members of the 
committee. I offer my sincere thank you for giving me an 
opportunity to speak here today. I represent the 21st 
Congressional District of New York State, the area is also 
known as the capital region. The area is home to many towns 
which saw a boom during the first industrial revolution. 
However, since those times, the area has seen a dwindling 
population in response to more and more companies closing or 
moving overseas. In recent years, the area has been heavily 
involved with luring research companies and fundings to help 
revive these surrounding communities. However, we still have 
work to do with regard to our education system and our 
infrastructure in help us lure even more investments into our 
communities. Education is the foundation on which our country 
can grow, but it is often one of the first areas states cut in 
their budgets when facing fiscal crises.
    The Federal Government has not traditionally had a role in 
school construction as you know, but the American Recovery and 
Reinvestment Act invested heavily in school infrastructure, 
especially those with green energy efficient components. Many 
of our Nation's schools are crumbling and children's ability to 
learn in these environments does indeed suffer. I hope to see 
increased education funding in our fiscal year 2010 budget, and 
especially hope to see more flexibility granted to States in 
their ability to use this money for green renovation for repair 
for modernization and construction similar to the flexibility 
accorded to states for the use of education related State 
fiscal stabilization funds in the Recovery Act. I also consider 
the arts a very important part of not only the education of our 
children but also our American culture.
    This sector of the economy has traditionally been supported 
by philanthropic donations as well as by State and Federal 
dollars. Unfortunately because of the economic downturn many 
art programs have seen their donations plummet forcing them to 
lay off employees and reduce services. The Recovery Act 
demonstrated the importance of the arts in job creation and 
retention by investing some $50 million in the National 
Endowment for the Arts, and I hope to see increased funding for 
NEA, as well as the National Endowment for the Humanities and 
other arts funding.
    Foreign language instruction, in my opinion, starts from 
the earliest of ages and is a key component to ensuring that 
the next generation of American workers is equipped to function 
in an increasingly globalized economy. I advocate a greater 
emphasis balanced on the importance of foreign language 
instruction, especially in our elementary schools. Also vitally 
important for American workers entering the global economy is 
increased funding for the America Competes Act. The science, 
technology, engineering and math, or STEM education programs 
authorized in the Competes Act, will help the next generation 
of workers to compare to compete globally, advance our efforts 
to become energy dependent and compete new jobs and new exports 
also to inspire those atypical students, be it minority or 
female, to search forward in the opportunities for science and 
tech as a major some day in their career advancements.
    Full funding for these programs is essential in reaching 
these goals. It is time that Washington fully invest in the 
sciences and work to truly promote an energy agenda. It is 
often quoted that a crisis is a terrible thing to waste. Madam 
Chair we have a crisis in this country. Our country's energy 
system is in shambles and it is time for us to lay out the 
blueprint for a new bold vision here in the United States. I 
believe that the budget should do much more to provide funding 
to agencies like DOE for programs such as clean cities to 
promote ways for our urban cores to stop using petroleum based 
modes of transportation.
    Here I would insert the value of high speed rail to 
communities across the northeast. Certainly in upstate New 
York, we need high speed rail investment to bring back our 
economic recovery. We need to drill and mine energy efficiency 
like we currently drill for oil and mine for coal. We need 
investments focused on demand side energy solutions rather than 
simply through supply side solutions. We need to diversify our 
energy portfolio and carry out increased funding in areas such 
as energy efficient block grant programs. As we did during the 
space race so many years ago we must turn toward innovation and 
leadership on the energy front to lead the world again. We can 
effectively become the standard bearer in energy policy and 
energy sources by ensuring that we increase funding for our 
research and development to put investments toward advanced 
energy programs, programs like renewable generation, 
transmission upgrades, carbon capture, methane and allowing for 
more demonstration projects that could deploy to the commercial 
sector.
    For decades, upstate urban cores, once the center for 
bustling economic and manufacturing activity in the New York 
State have been slowly eroding away. Urban areas in my 
district, such as Albany, Troy, Schenectady, and Amsterdam, to 
name a few, served as the engine for our upstate's economy and 
growth. However for decades these cities have sat in a State of 
disrepair as the population moves away and businesses dwindle 
to nothing. For the sake of our economy, environment and the 
preservation of culture and architecture we must commit money 
to better and advance our urban agenda.
    In the fiscal year 2010 budget I support increased funding 
for heritage corridors and areas of historical preservation to 
improve building facades, demolition of unsalvageable buildings 
and the replacement and retrofitting of our buildings to levels 
of lead certification. Such resources will not only beautify 
our downtown corridors, but also encourage efficient energy 
usage and be a model for modernization in blending old 
buildings with new ideas and giving us a much stronger sense of 
placed esteem, which I think is as critical as self-esteem. We 
must also target investments toward waterfront development in 
waterfront communities.
    Mr. Tonko. And in conclusion, Madam Chair, in addition to 
that water and sewer infrastructure a huge need in this budget. 
I have over 80-year old structures that need to be, 
infrastructures that need to be repaired and improved or 
replaced. And finally we must not allow ourselves to fall 
further behind in today's global economy, broadband 
opportunities for our rural districts and for my core neediest 
neighborhoods need to see that sort of investment for 
communications purposes that can link us to the outside world. 
I do thank you Madam Chair, the Chair and ranking member and 
members of the Budget Committee, and it is a great opportunity 
to be able to share these thoughts with you.
    [The prepared statement of Paul Tonko follows:]

Prepared Statement of Hon. Paul D. Tonko, a Representative in Congress 
                       From the State of New York

    Chairman Spratt, Ranking member Ryan, respected members of the 
committee, I want to sincerely thank you for giving me the opportunity 
to speak here today. I represent the twenty first congressional 
district of New York, the area is also known as the Capital Region. The 
area is home to many towns which saw a boom during the first industrial 
revolution. However, since those times the area has seen a dwindling 
population in response to more and more companies closing or moving 
overseas. In recent years, the area has been heavily involved with 
luring research companies and funding to help revive the surrounding 
communities. However, we still have work to do in regard to our 
education system and our infrastructure to help us lure even more 
investments into our communities.
    Education is the foundation on which our country can grow, but it 
is often one of the first areas states cut in their budgets when facing 
fiscal crises. The federal government has not traditionally had a role 
in school construction, but the American Recovery and Reinvestment Act 
(ARRA) invested heavily in school infrastructure, especially those with 
green, energy efficient components. Many of our nation's schools are 
crumbling, and children's ability to learn in these environments 
suffers. I hope to see increased education funding in the fiscal year 
2010 budget, and especially hope to see more flexibility granted to 
states in their ability to use this money for green renovation, repair, 
modernization and construction, similar to the flexibility accorded to 
states for the use of education related State Fiscal Stabilization 
Funds in the ARRA.
    I also consider the arts a very important part of not only the 
education of our children, but also our American culture. This sector 
of the economy has traditionally been supported by philanthropic 
donations, as well as by state and federal dollars. Unfortunately, 
because of the economic downturn, many art programs have seen their 
donations plummet, forcing them to lay off employees and reduce 
services. The ARRA demonstrated the importance of the arts in job 
creation and retention by investing $50 million in the National 
Endowment for the Arts (NEA). I hope to see increased funding for the 
NEA, as well as the National Endowment for the Humanities and other 
arts funding.
    Foreign language instruction, starting from the earliest ages, is a 
key component to ensuring that the next generation of American workers 
is equipped to function in an increasingly globalized economy. I 
advocate a greater emphasis balanced on the importance of foreign 
language instruction, especially in our elementary school.
    Also vitally important for American workers entering the global 
economy is increased funding for the America COMPETES Act. The science, 
technology, engineering and math (STEM) education programs authorized 
in the COMPETES Act will help the next generation of workers prepare to 
compete globally, advance our efforts to become energy independent, and 
create new jobs and new exports. Full funding for these programs is 
essential in reaching these goals.
    It is time that Washington fully invests in the sciences and works 
to truly promote an energy agenda. It is often quoted that ``a crisis 
is a terrible thing to waste.'' Mr. Chairman, we have a crisis in this 
country. Our country's energy system is in shambles and it is time for 
us to lay out the blueprint for a new bold vision here in the United 
States.
    I believe that the budget should do much more to provide funding to 
agencies like the DOE for programs such as Clean Cities, to promote 
ways for our urban centers to stop using petroleum based modes of 
transportation. We need to drill and mine energy efficiency like we 
currently drill for oil and mine for coal; investment focused on 
demand-side energy solutions rather than simply through supply-side, 
diversify our energy portfolio and can be carried out by increased 
funding in areas such as the Energy Efficient Block Grant Program.
    As we did during the Space Race so many years ago, we must turn 
towards innovation and leadership on the energy front to lead the world 
again. We can effectively become the standard bearer in energy policy 
and energy sources by ensuring that we increase funding for Research & 
Development to put investments towards advanced energy programs--
including renewable generation, transmission, carbon capture, methane 
and allowing for more demonstration projects.
    For decades, upstate urban cores, once the center of bustling 
economic and manufacturing activity, have been slowly eroding away. 
Urban areas in my district, such as Albany, Troy, Schenectady and 
Amsterdam to name a few served as the engine for our upstate's economy 
and growth. However, for decades these cities have sat in a state of 
disrepair as the population moves away and businesses have dwindled to 
nothing. For the sake of our economy, environment and the preservation 
of culture and architecture, we must commit money to better and advance 
our urban agenda.
    In the fiscal year 2010 budget I support increased funding for 
heritage corridors and area's of historical preservation to improve 
building facades, demolish unsalvageable buildings and replace and 
retrofit our buildings to levels of LEED certification. Such resources 
will not only beautify our downtown corridors but also encourage 
efficient energy usage and be a model for modernization in blending old 
buildings with new ideas.
    We must also target investments towards waterfront development in 
waterfront communities. Increasing river access in our downtowns 
encourages economic development and environmental stewardship. This 
type of involvement has a high success rate nationally in revitalizing 
urban communities.
    Also, water and sewer infrastructure investments are crucial to 
redevelop our urban centers. Many of the towns in my district have 
water and sewer infrastructure which is over 80 years old. For safety, 
security and developmental needs it is critical that we replace these 
systems. Local taxpayers cannot bear the entire burden of upgrading 
this infrastructure but it is essential. Its implementation will 
encourage economic and population growth in urban areas.
    Finally, we must not allow ourselves to fall further behind in 
today's global economy. We must make a push to increase funding to the 
rural utility service programs which is run through the USDA. This will 
provide broadband services in areas which desperately need it and allow 
our rural citizenry the access to information and commerce they need to 
compete in today's economy.
    Again, I want to thank Chairman Spratt, Ranking Member Ryan and the 
rest of the committee for allowing me to come in today.

    Ms. Moore. Well, Mr. Tonko, you are not without ideas, I 
can tell you that. One question with respect to the green 
renovation of schools, the arts programs, foreign languages, 
which I had the privilege in my younger years to study four 
foreign languages at public schooling. And of course STEM 
education. The criticism that we often hear is that these 
programs are the responsibility of local school jurisdictions. 
And I guess, I just want to give you a moment to defend why you 
think, particularly with respect to a bricks and mortar sort of 
project, I want to give you a moment to try to explain to the 
committee why we ought to consider at least expanding our 
commitment to education in this regard.
    Mr. Tonko. Certainly. I think that as we see more and more 
local opportunities dwindling with a tax base declining in 
several of my communities, it is very difficult for them to 
come up with a local match, or for States that have been 
impacted by this devastating economy, to go forward with 
advanced commitments in education. Many of them are holding the 
line. I think that it is so critically important that we not 
allow or ask our children to go to schools that are unsafe. 
There are many inner city areas where there have not been 
investments in that infrastructure. They deserve the same sort 
of opportunity that children going to school in wealthier 
settings have, and that is a haven, a safe place, a comfortable 
place and a green bit of space that enables them to have the 
same environmental benefits that any lead certified education 
structure has.
    In addition, with the foreign language study, I think those 
are part of a global economy retrofit. And we should encourage 
our children. Any language instructor will tell you the best 
time to reach a student is in that K through 6 sector. I think 
that we should not only provide for funds for that opportunity 
to prepare our workforce of the future in a global context, but 
also to offer those atypical languages that aren't often taught 
in our schools, from African and Asian and South American 
cultures.
    We have had a European-based model, and I think we need to 
go forward with all the other languages and dialects that will 
enable them to be language literate. I think there is too much 
of an emphasis at times by some in this society to think only 
English, which I think sets our students back and creates a 
sense of lack of commitment to educational development.
    Ms. Moore. Well, thank you so much for your very sage 
testimony. And I will remind you that members who did not have 
the opportunity to ask you questions have 7 days to submit 
questions, and they may indeed do that. Thank you so much for 
your testimony.
    Mr. Tonko. I thank you Madam Chair.
    Ms. Moore. We are now going to hear from the very Honorable 
Frank Wolf. My able assistant in my office said to me with a 
smile that this is her member. So I suppose we will have to 
treat him with kid gloves. And we welcome you to the committee, 
Mr. Wolf. We will make your full testimony a part of the 
record, and we encourage you to give summary remarks.

STATEMENT OF THE HON. FRANK WOLF, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF VIRGINIA

    Mr. Wolf. Thank you, Mr. Chair. I will be brief, very, very 
brief. The American people are frankly experiencing a crisis of 
confidence in this institution and in government. Our 
unemployment rate is 8.1 percent. Factories are closing. We 
have got the biggest deficit for as far as the eye can see. 
National debt on yesterday at 6:43 a.m. went to $11 trillion. 
The country is broke. China holds our debt. Secretary Clinton 
went to China with a tin cup begging never wanting to offend 
the dictators of Beijing because they want us to borrow money, 
and never speaking out on the issue of the genocide taking 
place in Darfur because they just did not want to offend the 
Chinese. Jim Cooper and I put a bill in yesterday. We had it in 
last year. We put it in yesterday; 26 Republicans, 26 
Democrats. It puts every spending program on the table on tax 
policy.
    I was the author of the Iraq study group where we got the 
Baker-Hampton Commission. We have taken that same concept and 
added the Base Closure Commission. We put every spending 
program and tax policy on the table. They take a period of 
time. They go around the country holding public hearings, come 
back, and the Congress is required to vote up or down, 
supported by the Heritage Foundation, the Brookings Foundation, 
Alice Rivlin, former vet of OMB during the Clinton 
Administration, Pete Peterson, on and on and on, David Broder, 
David Brooks. This institution is broken. The people have no 
confidence. I don't think this institution is going to fix it. 
And it is so partisan, it is so bitterly mean. I have been here 
for 28 years. I have never seen a more hostile bitter partisan 
divided Congress than I have.
    So I don't think the committee will do what I am asking. We 
are just asking to get a vote on it. Jim, I don't know, Jim was 
on the committee. I know Jim will make his own case. It is 
partisan. There is enough blame to go around. I have said 
publicly the Bush administration missed their opportunity. Here 
is an opportunity here.
    And so with that, I think I have said enough. If you can 
get this in. Whatever comes out of here I would very much 
appreciate it. Basically on the table up or down. And in 
closing, he is talking about all these closing factories. The 
economists believe if we will do this, we will bring about a 
renaissance in this Nation. More jobs, more economic 
development. When you are out of shape to get back in shape and 
also to put more money into math and science and physics and 
chemistry, biology and cancer research, autism, Alzheimer's, 
and right now we are just, we are broke.
    So with that I hope you can put it in the bill. I doubt you 
will, but I wanted to come here. Woody Allen said just showing 
up is 80 percent of the game, and I wanted to show up. And I am 
going to offer this to every appropriation bill that comes out. 
I am going to offer it in subcommittee in Appropriations, I am 
going to offer it in full committee in Appropriations, I am 
going offer it on the floor. I will offer this until we 
eventually pass it, because I am not going to stand by and 
allow this country to collapse simply because this Congress 
can't come together and work together with Republicans and 
Democrats, as Jim Cooper and I have done. And I yield back the 
balance of my time, Madam Chair.
    Ms. Moore. Thank you so much for yielding back the balance 
of your time.
    [The prepared statement of Frank Wolf follows:]

Prepared Statement of Hon. Frank R. Wolf, a Representative in Congress 
                       From the State of Virginia

    Chairman Spratt, Ranking Member Ryan, last February I testified 
before you and opened by pointing out the enormous challenge this 
committee has before it crafting our nation's budget. I believe that 
challenge is even more formidable today and appreciate your giving me 
the opportunity to address the committee again this year.
    Look around. Main Street USA is suffering. It doesn't take an 
economic expert to know that the country is in trouble. The American 
people are experiencing a crisis of confidence. While there was a 
modest rally last week, the Dow dipped below 7,000 the week before--a 
12 year low--while the unemployment rate has jumped to 8.1 percent for 
the month of February.
    The American people believe that elected officials will work 
together to solve the nation's most pressing matters, but this 
confidence is dwindling with every piece of bad news that factors into 
the country's economic narrative.
    Our nation's long-term fiscal health is also in serious jeopardy. 
The statistics are staggering--we have over $56 trillion in unfunded 
obligations through Social Security, Medicare, and Medicaid. The 
national debt is nearing $11 trillion. China has surpassed Japan as the 
largest foreign holder of U.S. Treasury debt, owning over $1 trillion 
in such securities as of December, marking a massive 52 percent 
increase from the previous year.
    Meanwhile, the federal deficit has reached $765 billion in the 
first five months of the budget year. President Obama's budget request 
projects a $1.8 trillion deficit for this year and a $533 billion 
deficit in FY 2013, a number many private forecasters believe are based 
on optimistic assumptions. Anyway you look at it, the budget request 
amounts to red ink as far as the eye can see.
    We are in crisis mode today and the window of opportunity is before 
us. If we don't get our country's financial house in order and make the 
sacrifices necessary today, the future for our children and 
grandchildren will be bleak.
    The bipartisan commission Jim Cooper and I have proposed with every 
spending program and tax policy on the table is the approach that will 
lead to a solution. Congress would be forced to vote on the 
commission's recommendations. Over 111 members of this House pledged 
their support last session, and Senate Budget Chairman Kent Conrad and 
ranking member Judd Gregg have authored similar legislation.
    The Brookings Institution supports this bill. So does the Heritage 
Foundation, the Concord Coalition, the Committee for a Responsible 
Federal Budget, AEI, and a host of others.
    Last week the Peter G. Peterson Foundation, headed by former U.S. 
Comptroller General David Walker, released the results of a survey 
conducted by Peter Hart Research Associates and Public Opinion 
Strategies which looked specifically at public attitude toward 
America's fiscal policies.
    According to this survey, by a significant margin--56 percent to 30 
percent--registered voters prefer a bipartisan commission to the 
regular congressional process as the best means to begin tackling our 
growing budget deficit and national debt.
    It's time for Congress to deliver on its responsibilities to the 
American people and have an honest conversation about the state of our 
finances and come together--Democrats and Republicans--to help turn 
things around.
    I have little faith that this Congress will act through regular 
order and believe it will take a commission with teeth for Congress to 
act. Adopting the bipartisan SAFE Commission process would renew the 
confidence of Americans in the economy and in the ability of our 
elected leaders to act. It would provide a brighter future for the next 
generation of Americans and ensure we have discretionary dollars for 
education, cutting edge technology and medical research, 
infrastructure, and other critical programs that Americans care so much 
about.
    The committee's budget resolution and any substitute should have a 
general provision establishing such a panel so that we can deal with 
America's future and help give some hope to our children and 
grandchildren.

    Ms. Moore. I am going to ask you again, perhaps I wasn't 
listening well enough, but you are going to offer an amendment 
that, evaluates every spending bill and every tax----
    Mr. Wolf. No, ma'am. It doesn't evaluate. What it does is 
it puts them all the table. And this bipartisan panel then 
crafts a legislative proposal and sends it up to Congress and 
the Congress will require to vote it up or down. Right now the 
Ways and Means Committee has neglected to deal with this issue. 
So some in your party would only put one thing on, some in my 
party would say we don't put any tax policy. We put everything 
on and we come together as a bipartisan way. The Pete Peterson 
Institute just did a survey. 56 percent of the people, 
bipartisan, in every part of the country favored this concept 
because they felt if you go through the normal rules and order 
it will never happen.
    Ms. Moore. I will recognize myself for questions now. I 
really appreciate your spirit of bipartisanship in saying that 
everything ought to be on the table. Because typically what we 
hear, Mr. Wolf, is an argument that we ought to just simply cut 
spending as if it were true, that we could just cut every 
spending program to the bare bones and still balance our budget 
or reduce our deficit, which is not the case.
    Or that we could simply somehow create some sort of Houdini 
prospects for our country by simply giving more tax breaks and 
that somehow this will trickle down and repair our proposal.
    So with the bill that you have, do you have any metrics 
that give us some sort of general sense that we could balance 
the budget and still maintain essential services, Social 
Security funded, or is your proposal simply to put it on the 
table, put it before this bipartisan commission and see where 
it goes. I mean, if it means that we have to tax people at a 
higher rate, then so be it. If it means that we have to cut 
things to the bare bones, then so be it. Do you have a sense of 
where this will go, or is your proposal to let us see where 
this thing goes.
    Mr. Wolf. This is supported by Alice Rivlin, Reischauer, I 
think, who was maybe the budget director here, the former heads 
of the CBO, I think the last five former heads of CBO, 
Democrats and Republicans. They believe that we can do this now 
in a very systematic way, whereas if you let it go for 4 or 5 
or 6 more years in the year 2012 when President Obama will be 
running for reelection, Moody's says we lose our triple A bond 
rating in 2012. That will bring about an economic impact on 
this country like we will not even imagine. So we put 
everything on the table. We do it in a bipartisan way.
    If you just do it one way or the other way. There is a 
movie out called IOUSA that Pete Peterson is funding. Some 
people, if you ask them what the answer is, they say the answer 
to this problem is to cut waste, fraud and abuse. Well, there 
is not a line item for waste and there is not one for fraud and 
there is not one for abuse. So we just say good people coming 
together, as we did in the Iraq Study Group. We have got Jim 
Baker and Lee Hamilton, both good men, different political 
views. We had Leon Panetta, and we had Ed Meese, chief of staff 
for Clinton, chief of staff for Ronald Reagan. They never 
politicized it. They came together. And I will tell you that 
the recommendation of the Iraq Study Group, as you know, 
Secretary Gates was on the Iraq Study Group, really led to 
where we are today. So I think it is good people coming 
together for the best interest of this country. And some of the 
best minds have said this will work.
    Ms. Moore. Thank you so much, Mr. Wolf, for your very sage 
testimony. And as you know, this has been a very provocative 
testimony, and so we will let you know that members have up to 
seven days to ask you questions regarding your testimony. Thank 
you so much. I can see that we have been joined by the 
Honorable Donna Christensen. But before we hear from her, we 
are going to recognize the Honorable Kurt Schrader, who has 
been waiting for quite a while from Oregon. Certainly, your 
remarks, your entire remarks will be submitted in the record. 
And we offer you the opportunity to summarize. We know you have 
much more to say than the 5 minutes that we are yielding. And 
so with that, welcome to the committee.

   STATEMENT OF THE HON. KURT SCHRADER, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. Schrader. Thank you very much, Madam Chairwoman. I 
would like to thank you for the opportunity to testify before 
the House Committee on Budget today. And take the opportunity 
not to ask for more spending, but rather express my support for 
President Obama's commitment to honest budgeting, deficit 
reduction and performance management. The fiscal challenge that 
the Obama administration and we in Congress face today is 
daunting. Eight years ago, President Clinton left President 
Bush a projected ten-year budget surplus of about $5.6 
trillion. This past January, President Bush left President 
Obama an effective national debt in excess of $10 trillion, a 
projected 10-year budget deficit of $9 trillion, $1.3 trillion 
in this year alone, and an economy badly in need of repair 
operating $1 trillion below its potential capacity. We have an 
obligation to restore this economy and return the United States 
to a fiscally responsible course.
    Many changes are needed, and the Obama administration's 
budget respects and understands that. The deficit inherited for 
fiscal year 2009 constitutes about 12.3 percent in GDP. In 
fiscal year 2010, as the economy economic recovery takes hold, 
President Obama's proposed budget will bring the budget deficit 
down to 8 percent of GDP. By 2013 the hope is to reduce it to 3 
percent of GDP or $533 billion. These estimates are made 
honestly. They account for the cost of military operations here 
and overseas, fixing the AMT, and numerous other things that 
are off budget in the previous administration. And they also 
include opportunities for health care reform, energy 
independence and the economic recovery.
    In 4 years, President Obama's projected budgets reduces 
that deficit by 9 percent to $1.2 trillion. This will be 
substantial progress moving the level of the deficit to a point 
where we will allow for the normal operation of our economy. 
However, continued deficit spending is not a sustainable fiscal 
course. I would like to see the deficit reduction continue past 
2013 when deficits are currently projected to plateau at that 3 
percent level. I am particularly concerned about realizing the 
projected deficits as a percentage of GDP when the 
Congressional Budget Office is expected to release more 
conservative estimates this Friday. We need to return to budget 
surpluses and pay down on this national debt.
    Borrowing from foreign governments and the Federal trust 
funds have their limits. We are rapidly approaching and may be 
beyond them right now. The Federal Government needs to be 
working on cost containment and performance sustainability. I 
look forward to working with this administration, this 
committee and my Democrat and Republican colleagues to develop 
these budgets in future years that will continue to reduce our 
deficits.
    I also believe there are things we can do right now to help 
reduce the deficits even more. The proposed budget will save 
$48.5 billion between 2010 and 2019 by eliminating waste and 
inefficiency through program integrity savings. The President 
is creating the new position of chief performance officer with 
the directive to establish and monitor performance targets 
across Federal Government. I support these and the President's 
other efforts. But we can do more. For example, each year, $345 
billion in taxes is not paid to the Treasury. The IRS collects 
about $55 billion of that money, leaving a tax gap of $290 
billion. Of that the administration's program integrity project 
garners about $16.6 billion over the next 10 years.
    We can do better. There are billions of dollars that can be 
saved through this program integrity and performance-based 
management, not just in our Federal agencies, but with our 
State and local partners. Fiscal responsibility is a tough 
challenge in these very difficult times, but it is a challenge 
we can and must meet. Extraordinary challenges require 
extraordinary efforts. I look forward to working with this 
administration.
    Chairman Spratt, Ranking Member Ryan and the rest of my 
colleagues on both sides of the aisle that want our government 
to return to true fiscal responsibility and instill confidence 
in the American people. We can preserve the future of this 
country through fiscal stability that comes with more balanced 
budgets and a positive account balance. We in Congress are 
charged by the Constitution with the power and the purse, and 
it is our duty to exercise that power responsibly.
    I would like to thank my colleagues on the committee for 
hearing me today, and I look forward to working with each and 
every one of you to secure our future. Thank you.
    [The prepared statement of Kurt Schrader follows:]

Prepared Statement of Hon. Kurt Schrader, a Representative in Congress 
                        From the State of Oregon

    Mr. Chairman, thank you for the opportunity to testify before the 
House Committee on the Budget today. I want to take this opportunity to 
express my support for President Obama's commitment to honest 
budgeting, deficit reduction, and pursuing performance based 
management. This budget also makes the necessary investments in our 
health care, education, energy, and transportation systems that will 
provide for the future strength of the United States.
    The fiscal challenge the Obama Administration and we in Congress 
face today is daunting. Eight years ago, President Clinton left 
President Bush a projected ten-year budget surplus of $5.6 trillion. 
Had the policies of the Clinton Administration been carried forward, 
the National Debt would have been retired in 2013. This past January, 
President Bush left President Obama a National Debt in excess of $10 
trillion, a projected ten-year budget deficit of $9 trillion, $1.3 
trillion in this year alone, and an economy badly in need of repair, 
operating a trillion dollars below potential capacity.
    We have an obligation to restore the economy and return the United 
States to a fiscally responsible course. Many changes are needed. The 
Obama Administration's budget proposal asks for much of this change, 
and it is our responsibility to help them achieve it and to push it 
further.
    The deficit inherited for fiscal year 2009 will exceed $1.7 
trillion and constitutes 12.3 percent of GDP. In fiscal year 2010, as 
economic recovery takes hold, President Obama's proposed budget will 
bring the deficit down to 8 percent of GDP. By 2013, the hope is to 
reduce the deficit to 3 percent of GDP, or $533 billion. These 
estimates were made honestly; they account for the cost of military 
operations, fixing the AMT, and contain a place holder for future 
economic recovery efforts.
    In four years, President Obama's projected budget reduces the 
deficit by 9 percentage points GDP, or $1.2 trillion. This would be 
substantial progress, moving the level of deficit to a point that will 
allow for the normal operation of our economy.
    However, continued deficit spending is not a sustainable fiscal 
course. I want to see deficit reduction continue past 2013, when 
deficits are currently projected to plateau around 3 percent of GDP. I 
am particularly concerned about realizing the projected deficits as a 
percent of GDP when the Congressional Budget Office is expected to 
release more conservative estimates on Friday. We need to return to 
budget surpluses and begin to pay down the National Debt. Borrowing 
from foreign governments and Federal trust funds each have their 
limits, which we are rapidly approaching. Rather than making the final 
payment to retire the principle of the National Debt in 2013, the 
Federal Government will instead waste hundreds of billions of dollars 
making interest payments on the National Debt. This is an unsustainable 
and unacceptable course.
    I look forward to working with the Administration, this Committee, 
and my Democratic and Republican colleagues to develop budgets in 
future years that will continue to reduce deficits and return the 
Federal government to budget surpluses.
    I believe there is more we can do presently to help the 
Administration reduce deficits now and in the future. The proposed 
budget will save $48.5 billion between 2010 and 2019 by eliminating 
waste and inefficiency through program integrity. The President is 
creating the new position of Chief Performance Officer with the 
directive to establish and monitor performance targets across the 
Federal Government. I support these and the President's other efforts, 
but we can do more.
    For example, each year $345 billion in taxes are not paid to the 
Treasury. The IRS is currently able to collect about $55 billion of 
that money, leaving an annual tax gap of $290 billion. Of that money, 
the Administration's budget for IRS program integrity will save the 
Treasury $16.6 billion over the next ten years. We can do more. The 
problem is large and we cannot get every dollar due the Federal 
Government, but we can help the Administration ensure that Federal 
contractors pay their taxes and corporations are not allowed to hide 
money in off shore accounts. There are billions of dollars that we can 
save through program integrity and performance based management.
    The National Debt concerns me greatly. It is a difficult challenge, 
but a challenge that we can and must meet. Extraordinary challenges 
require extraordinary efforts. I look forward to working with the 
Administration, Chairman Spratt, Ranking Member Ryan, and the rest of 
my colleagues on both sides of the aisle who want to return the 
government to fiscal responsibility. We can secure the future of the 
United States through the fiscal stability that comes with balanced 
budgets and positive account balances. We in Congress are charged by 
the Constitution with the power of the purse, and it is our duty to 
exercise that power responsibly.
    I thank my colleagues on the Committee for hearing me today, and I 
look forward to working with all of you to secure our future.

    Ms. Moore. The gentleman yields back his time. Thank you so 
very much. I can see that we have been joined by the Honorable 
Carol Shea-Porter from New Hampshire. Very, very nice to have 
you here. I am going to yield myself a couple of seconds to ask 
you a question, Congressman Schrader. Very well prepared 
testimony. I think I am going to ask you a very provocative 
question. Do you think that sort of measuring the progress or 
lack thereof by whether by the percentage of the deficit that 
we reduce is in toto a way to determine our progress. And I say 
this because I think many people forget--and I want you to 
respond to what I am going to say--many people forget that 
deficit spending, as it were, is part of the gross domestic 
product. That, in fact, it is the only tool that governments 
have in their tool kit in times like recessions.
    In fact, back in the Great Depression one of the criticisms 
of Hoover at that time, and of course FDR ran on, I am going to 
reduce or eliminate the deficit, and he, in fact, found that in 
order to stimulate the economy, he had to institute the new 
deal. And in fact, by 1945, even though the deficit was 100 
percent of GDP, it was a very strong economy because of the 
investments that had been made. And so a concern that I have is 
that when you have this very narrow view of progress, just 
measuring our progress in terms of deficit reduction, that we 
might find ourselves in a pickle as it relates to doing some of 
the bigger bolder things that I do think can carry us to that 
next generation of energy, that next generation of health care 
coverage and so on. Your response, sir.
    Mr. Schrader. Actually, I totally agree with you, Madam 
Chair. I think you have hit the nail on the head. And I think 
this administration, and hopefully this Congress, understands 
that deficit spending in times of great economic stress, like 
we are enduring right now, is acceptable. As a matter of fact, 
top economists across this country who were rather cool perhaps 
to fiscal response to this economic crisis, after spending much 
time, effort and pretty much every monetary tool in their tool 
chest to stimulate the economy, having had that fail, now have 
supported, almost universally, this economic stimulus package 
that this Congress voted on, and I would like to think a lot of 
the elements are in this President's budget.
    You make another good point that the future and the 
confidence building in the future is not just measured by the 
percentage of GDP as it relates to the deficit. It also has a 
lot to do, confidence has a lot to do with what sort of cost 
containment there are for the cost drivers that got us into 
this problem to start with, such as health care, such as being 
dependent on foreign sources of oil, such as not having a 21st 
century education system in our great country like we used to.
    This administration recognizes it and puts these elements 
on the table in his current budget. I am fully supportive of 
that, I know you are Madam Chair, and I would like to think 
most Members of Congress are. However, as we get out into the 
out years, hopefully past this economic crisis, I think it 
behooves us to continue to instill confidence in the American 
people, and particularly foreign governments that do own a 
substantial part of our debt, that we are also committed to 
looking at the deficit and is it the appropriate deficit that 
we should have as economic good times return, and as hopefully 
our private enterprise partners regain their ability to help 
drive that economy.
    So for now I totally agree, I hope there is an opportunity 
for also more recent discussion on measuring the results of 
this recovery and every program and service that we put out in 
the future so American taxpayers can feel that they are getting 
the biggest bang for their buck. And I think they will be 
surprised they are getting some good results.
    Ms. Moore. Thank you so much for your testimony, and I have 
appreciated this dialogue. I can see that we have been joined 
by my great friend and colleague, the representative from 
Buffalo, New York, Brian Higgins in the background. Let me 
announce to you that I think we are expecting some votes coming 
up. So we are going to hear from the Honorable Donna 
Christensen and then we are going to hear from the Honorable 
Carol Shea-Porter. And I fear that we will have to take a break 
at that point. And so I think another colleague of mine will be 
taking over the chair at that point. And so we are eager to 
hear your testimony, but not at this time, sir. And so with 
that I want to welcome the Honorable Donna Christensen from the 
Virgin Islands, Dr. Honorable Christensen here.
    I hear the bell ringing, but I would let her know that her 
entire testimony will be entered into the record. And she is 
welcome to summarize for us at this time.

STATEMENT OF THE HON. DONNA CHRISTENSEN, A DELEGATE IN CONGRESS 
            FROM THE TERRITORY OF THE VIRGIN ISLANDS

    Ms. Christensen. Thank you, Chairwoman Moore, and thank you 
for the opportunity to testify before this committee again. On 
behalf of the Congressional Black Caucus Health and Wellness 
Task Force and communities of color poor territorial rural 
residents across the country, I want to focus on the health 
care portion of the President's budget and to underscore that 
because of the grave differences in health care access, the 
quality and health outcomes that are experienced by people of 
color, it is time for this country to intervene through a 
budget like this to save the 100,000 or more lives that are 
lost unnecessarily prematurely from preventible causes every 
year.
    Despite the deficit the debt and the dire economic 
circumstances that exist in this country today we have the 
opportunity in this budget to right the wrongs of hundreds of 
years of unequal treatment of racial and ethnic minorities, 
women, rural and territorial Americans. The President's budget 
in total provides a fully integrated blueprint for wellness, 
because it addresses health care issues in specific, but at the 
same time it also addresses improving the social determinants 
of health.
    Today disparities are not any longer only a racial and 
ethnic minority health issue, they are an American issue. We 
need to understand the universal coverage alone will not 
eliminate them and that the elimination of health disparities 
needs to be a central part of health care reform. So we ask 
that the $334 billion health care budget be left intact, but 
also that we be prepared to add to it when the pay-fors are 
found to support the increases that will likely be needed. But 
we should also be prepared to add to it for the tens of 
millions of people who need health care and have no access even 
when there is no immediate offset.
    I agree with our President, this is something we cannot 
afford not to do. In addition to the $643 billion that are 
included as a down payment on the health care reform, the 2010 
budget does include a number of provisions that supports the 
following CBC health priorities. One, the passage of an Health 
Equity and Accountability Act. We are preparing to introduce it 
for a fourth time in a few weeks. The President's budget, at 
least in part, supports many of the provisions, such as those 
for the Indian health service, the health professions, HIV and 
AIDS, rural health, preventing teen pregnancy in the zero to 
five program, all of which are included in some way in that 
legislation.
    We also have, as a priority, the creation of health 
empowerment zones to help communities, communities that are 
impacted by high health disparities to become their own agents 
of wellness. Third, a third priority is the national 
comprehensive strategic plan to eliminate HIV and AIDS, one 
which will include Ryan White, the Ryan White Care Act, the 
minority AIDS initiative and the National Minority AIDS, 
Education and Training Center with adequate funding to meet the 
needs of today's epidemic where more than half of the 
infections and disease are in people of color. The fourth 
priority is the elevation of the National Center For Health 
Disparity and Minority Health Research to an institute at the 
National Institutes of Health with a $1 billion annual budget 
which reflects a significant increase.
    While we want to ensure that funding is available for these 
priorities, it is also important that I state that we support 
the entire budget outline because we see it as an attempt at an 
integrated approach. We can't achieve wellness and reduce the 
escalation of the cost of health care for everyone or stop the 
drain on the health care system across our communities by 
disparities and uninsurance without addressing the defects of 
deficiencies in our interdependent system. But just to go a 
step further, I think we should also require that every 
department considers the health impact of their programs and 
their policies.
    Madam Chairwoman, we not only have a distinct opportunity 
to develop a budget that allows us to build a health care 
system for the 21st century, but also to get it right. Together 
we can develop and pass a budget that meets all of the unmet 
needs of Americans, we can achieve health equity and we can 
improving the health and well being of all Americans, and 
together make this Nation by one person and one community at a 
time healthier, stronger and better prepared for tomorrow. 
Thank you.
    Ms. Moore. And thank you so much. And I can tell you that 
as a physician and as a member of the Energy and Commerce 
Committee I certainly trust and look forward to your hammering 
out the details of this health care plan for the 21st century. 
Thank you so much for your testimony.
    Ms. Christensen. Thank you for the opportunity to testify.
    [The prepared statement of Donna Christensen follows:]

 Prepared Statement of Hon. Donna Christensen, a Delegate in Congress 
                From the Territory of the Virgin Islands

    Thank you, Chairwoman Moore, and thank you for the opportunity to 
testify before this committee again. On behalf of the Congressional 
Black Caucus Health and Wellness Task Force and communities of color 
poor territorial rural residents across the country, I want to focus on 
the health care portion of the President's budget and to underscore 
that because of the grave differences in health care access, the 
quality and health outcomes that are experienced by people of color, it 
is time for this country to intervene through a budget like this to 
save the 100,000 or more lives that are lost unnecessarily prematurely 
from preventible causes every year.
    Despite the deficit the debt and the dire economic circumstances 
that exist in this country today we have the opportunity in this budget 
to right the wrongs of hundreds of years of unequal treatment of racial 
and ethnic minorities, women, rural and territorial Americans. The 
President's budget in total provides a fully integrated blueprint for 
wellness, because it addresses health care issues in specific, but at 
the same time it also addresses improving the social determinants of 
health.
    Today disparities are not any longer only a racial and ethnic 
minority health issue, they are an American issue. We need to 
understand the universal coverage alone will not eliminate them and 
that the elimination of health disparities needs to be a central part 
of health care reform. So we ask that the $334 billion health care 
budget be left intact, but also that we be prepared to add to it when 
the pay-fors are found to support the increases that will likely be 
needed. But we should also be prepared to add to it for the tens of 
millions of people who need health care and have no access even when 
there is no immediate offset.
    I agree with our President, this is something we cannot afford not 
to do. In addition to the $643 billion that are included as a down 
payment on the health care reform, the 2010 budget does include a 
number of provisions that supports the following CBC health priorities. 
One, the passage of an Health Equity and Accountability Act. We are 
preparing to introduce it for a fourth time in a few weeks. The 
President's budget, at least in part, supports many of the provisions, 
such as those for the Indian health service, the health professions, 
HIV and AIDS, rural health, preventing teen pregnancy in the zero to 
five program, all of which are included in some way in that 
legislation.
    We also have, as a priority, the creation of health empowerment 
zones to help communities, communities that are impacted by high health 
disparities to become their own agents of wellness. Third, a third 
priority is the national comprehensive strategic plan to eliminate HIV 
and AIDS, one which will include Ryan White, the Ryan White Care Act, 
the minority AIDS initiative and the National Minority AIDS, Education 
and Training Center with adequate funding to meet the needs of today's 
epidemic where more than half of the infections and disease are in 
people of color. The fourth priority is the elevation of the National 
Center For Health Disparity and Minority Health Research to an 
institute at the National Institutes of Health with a $1 billion annual 
budget which reflects a significant increase.
    While we want to ensure that funding is available for these 
priorities, it is also important that I state that we support the 
entire budget outline because we see it as an attempt at an integrated 
approach. We can't achieve wellness and reduce the escalation of the 
cost of health care for everyone or stop the drain on the health care 
system across our communities by disparities and uninsurance without 
addressing the defects of deficiencies in our interdependent system. 
But just to go a step further, I think we should also require that 
every department considers the health impact of their programs and 
their policies.
    Madam Chairwoman, we not only have a distinct opportunity to 
develop a budget that allows us to build a health care system for the 
21st century, but also to get it right. Together we can develop and 
pass a budget that meets all of the unmet needs of Americans, we can 
achieve health equity and we can improving the health and well being of 
all Americans, and together make this Nation by one person and one 
community at a time healthier, stronger and better prepared for 
tomorrow. Thank you.
    Thank you for the opportunity to testify.

    Ms. Moore. We have plenty of time to hear from our good 
friend, the Honorable Carol Shea-Porter before we go off to 
vote, and I would like to welcome her to the committee. I want 
to let her know that we offer the opportunity to summarize, 
because I know she has a great deal to say, and to reassure her 
that her entire testimony will be submitted for the record and 
that members will have up to seven days to question you. So 
with that we recognize the Honorable Carol Shea-Porter.

 STATEMENT OF THE HON. CAROL SHEA-PORTER, A REPRESENTATIVE IN 
            CONGRESS FROM THE STATE OF NEW HAMPSHIRE

    Ms. Shea-Porter. Thank you. Thank you for holding this 
hearing today and for the opportunity to highlight just a few 
of the fiscal year 2010 policy highlights for my First District 
of New Hampshire. The budget that the President will present 
and the Congress will consider for fiscal year 2010 will 
reflect some very difficult choices as we know. These choices 
must be made in the face of an economic crisis and years of 
harmful cuts and inadequate funding for critical programs by 
the previous administration. Over the past 8 years, we have 
seen cuts to programs like the National Institutes of Health 
and the Centers for Disease Control, a war in Iraq that has 
cost the country hundreds of billions, if not trillions of 
dollars, and budgeting gimmicks that hit the true cost of a 
failed fiscal policy.
    Now with the new administration and a new President, we 
have the opportunity to develop a budget that is both honest in 
our assessment of the country's finances and adequately 
reflects the need of our great country. The LIHEAP program is 
one of the most crucial support structures for millions of 
families throughout the country. Every winter, tens of 
thousands of New Hampshire households, over 40,000 each of the 
past two years alone, apply to our fuel assistance program for 
help with their heating bills. The committed people who run 
this program work long hours to deliver assistance to those who 
need it most. In 2006, the New Hampshire Fuel Assistance 
Program was able to provide an average benefit of $638 per 
applicant.
    In 2007, the average benefit fell to $533, obviously not 
enough. Last year in the face of skyrocketing oil prices 
Congress responded by fully funding the LIHEAP program, 
providing $5.1 billion. In 2008, thanks to Congress' work to 
increase funding for the program, the average benefit in New 
Hampshire is about $1,000. For the first time in many years, 
the program is able to provide a significant benefit. If oil 
prices go back up fully funding the program will be even more 
important.
    If prices stay low, continuing to fully fund the program 
will mean that next winter a meaningful benefit can be provided 
once again. In the President's summary of his budget $3.2 
billion was set aside for LIHEAP. This is a welcome change from 
proposed budgets of years past, but it does not fully fund the 
program. As you begin work on the fiscal year 2010 budget 
resolution, I urge you to include full funding of $5.1 billion 
for the LIHEAP program. Too many people in my State and around 
the county rely on LIHEAP to keep their heat on or their houses 
cool. There are many priorities that require Congress' 
attention in this budget process.
    As a member of the Armed Services Committee I would also 
like to talk briefly about the services we are going to provide 
to veterans. This committee in this Congress have made great 
strides over the past 2 years in improving veteran services. 
The historic funding levels approved by this Congress are 
helping the Veterans Administration tackle some of the long-
standing problems that have plagued the industry. Now with 
President Obama's and General Shinseki's pledges to increase 
funding for the VA and to improve VA benefits, our Nation's 
heroes stand to see even further progress.
    I urge you to work with the administration and the VA 
Secretary to provide funding that will further reduce the 
backlog and wait times that our veterans suffer while waiting 
for their claims to be approved. I also urge you to increase 
funding for the Veterans Health Administration and to provide 
the resources so that the VA can deliver more care in 
communities throughout the country.
    I want to speak particularly about New Hampshire and a 
problem that we face. New Hampshire remains the only State in 
the country without a full service VA hospital or access to a 
comparable facility in State. This is simply outrageous and 
intolerable. New Hampshire's veterans have fought as bravely 
and as honorably as the veterans in every other State. We must 
keep our promise to them and to their families. We must give 
them access to full service medical care in New Hampshire.
    I have been working to fix this inequity since I came to 
Congress 2 years ago, and I look forward to working with you to 
pass a budget that will give the VA the resources needed to 
provide more medical care to our New Hampshire veterans.
    We face incredibly difficult financial decisions that we 
must make over the next few months. While we must rein in 
spending where we can, these are two areas where I believe we 
must continue to invest.
    Again, thank you for the opportunity to appear before you. 
I look forward to working with you to pass a strong budget 
resolution that reflects the moral and the fiscal priorities of 
this Congress and those of the American people. Thank you very 
much.
    [The prepared statement of Carol Shea-Porter follows:]

   Prepared Statement of Hon. Carol Shea-Porter, a Representative in 
                Congress From the State of New Hampshire

    Chairman Spratt, Ranking Member Ryan and Members of the Budget 
Committee, thank you for holding this hearing today and for the 
opportunity to highlight just a few priorities for the Fiscal Year 2010 
budget on behalf of the First Congressional District of New Hampshire.
    The budget that the President will present and the Congress will 
consider for Fiscal Year 2010 will reflect very difficult choices. 
These choices must be made in the face of an economic crisis and years 
of harmful cuts and inadequate funding for critical programs by the 
previous Administration.
    Over the past eight years we have seen cuts to programs like the 
National Institutes of Health and the Centers for Disease Control, a 
war in Iraq that has cost the country hundreds of billions, if not 
trillions of dollars, and budgeting gimmicks that hid the true cost of 
a failed fiscal policy. Now, with a new Administration and President, 
we have the opportunity to develop a budget that is both honest in our 
assessment of the country's finances and adequately reflects the needs 
of the country.
    Mr. Chairman, the LIHEAP program is one of the most crucial support 
structures for millions of families throughout the country. Every 
winter, tens of thousands of New Hampshire households--over 40,000 each 
of the past two years--apply to our Fuel Assistance Program for help 
with their heating bills. The committed people who run this program 
work long hours to deliver assistance to those who need it most.
    In 2006, the New Hampshire Fuel Assistance Program was able to 
provide an average benefit of $638 per applicant. In 2007, the average 
benefit fell to $533.
    Last year, in the face of skyrocketing oil prices, Congress 
responded by fully funding the LIHEAP program--providing $5.1 billion. 
In 2008, thanks to Congress' work to increase funding for the program, 
the average benefit in New Hampshire is about $1,000. For the first 
time in many years, the program is able to provide a significant 
benefit.
    If oil prices go back up, fully funding the program will be even 
more important. If prices stay low, continuing to fully fund the 
program will mean that next winter a meaningful benefit can be provided 
once again.
    In the President's summary of his budget, $3.2 billion was set 
aside for LIHEAP. This is a welcome change from proposed budgets of 
years past, but it does not fully fund the program. Mr. Chairman, as 
you begin work on the Fiscal Year 2010 Budget Resolution, I urge you to 
include full funding of $5.1 billion for the LIHEAP program. Too many 
people in my state and across this country rely on LIHEAP to keep their 
heat on, or their houses cooled.
    There are many priorities that require Congress' attention in this 
budget process. As a Member of the Armed Services Committee, I would 
also like to talk briefly about the services we provide to our 
veterans.
    This Committee and this Congress have made great strides over the 
past two years in improving veterans services. The historic funding 
levels approved by this Congress are helping the Veteran's 
Administration tackle some of the long standing problems that have 
plagued that agency. Now, with President Obama's and General Shinseki's 
pledges to increase funding for the VA and to improve VA benefits, our 
nation's heroes stand to see even further progress.
    I urge you to work with the Administration and the VA Secretary to 
provide funding that will further reduce the back log and wait times 
that our veterans suffer while waiting for their claims to be approved. 
I also urge you to increase funding for the Veterans Health 
Administration and to provide the resources so that the VA can deliver 
more care in communities throughout the country.
    New Hampshire remains the only state in the country without a full-
service VA hospital or access to a comparable facility in-state. This 
is simply outrageous and intolerable. New Hampshire's veterans have 
fought as bravely and honorably as the veterans in every other state. 
We must keep our promises to them and their families. We must give them 
access to full-service medical care in New Hampshire. I have been 
working to fix this inequity since I came to Congress two years ago and 
I look forward to working with you to pass a budget that will give the 
VA the resources needed to provide more medical services to New 
Hampshire's veterans.
    Mr. Chairman we face incredibly difficult financial decisions that 
we must make over the next few months. While we must rein in spending 
where we can, these are two areas where I believe we must continue to 
invest.
    Again, thank you, Chairman Spratt and Ranking Member Ryan, for the 
opportunity to appear before you. I look forward to working with you to 
pass a strong budget resolution that reflects the moral and fiscal 
priorities of this Congress and the American people.
    Thank you.

    Ms. Moore. And the gentlelady yields back the balance of 
her time. But let me take that time to ask you a question.
    Did you find that even with the LIHEAP program being funded 
at a more adequate level, that there were many people that did 
not meet the eligibility criterion for the program, that 
suffered because of it?
    Ms. Shea-Porter. Absolutely. There are many families that 
really should receive this, must receive it, but they don't 
fall inside the strict eligibility program. The other problem 
that we have is that many people never even applied. They have 
heard that the money is not there. They hear stories about how 
difficult it is, but they just don't even know. So they don't 
apply.
    And one particular story that pushes me to keep fighting is 
a story about a young woman who was waitressing and I went into 
the restaurant and she recognized me. And she told me that they 
didn't have any money for heat for their two children but they 
were getting used to it. And this is as the winter was coming 
on. You cannot get used to being that cold. In New Hampshire at 
those temperatures, you can die from it.
    So this is really critical, and it is part of our moral 
responsibility when we look out across our great Nation to 
reach out for those who through no fault of their own have not 
been able to simply heat their homes or feed their children or 
those issues that make a budget a moral document. So I thank 
you again for the chance to talk about this
    Ms. Moore. And thank you so much for your testimony.
    The Chair, hearing no objection, will announce that the 
committee will stand in recess subject to the call of the 
Chair.
    [Whereupon, at 3:15 p.m., the committee was recessed, 
subject to the call of the Chair.]
    Mr. Etheridge [presiding]. The next member to testify will 
be the gentleman from Illinois, Mr. Foster. Welcome. We are 
pleased to receive your testimony. You are recognized for 5 
minutes. And without objection, your full statement will be 
entered into the record.

STATEMENT OF THE HON. BILL FOSTER, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF ILLINOIS

    Mr. Foster. I would like to thank Chairman Etheridge and 
Ranking Member Ryan, who is apparently not here, for the 
opportunity to speak here today.
    The decisions that we make in drawing up this budget will 
have tremendous impact on the lives of all Americans for years 
to come. The importance of our success in crafting this budget 
is magnified by our economic crisis and the series of high 
profile bills that just passed through the House. While it is 
necessary for our economic success, I am very conscious of the 
debts that have come along with these measures, as well as the 
deficit and long-term investments in recent years. We owe it to 
the American people to act responsibly as possibly in all of 
our future decisions.
    That is why I come before the committee today with several 
items that I support and concerns that I have about the current 
budget proposal.
    To itemize them briefly, one, many aspects of our financial 
policies are now seeming to have exacerbated the boom and bust 
cycle of our economy, particularly in real estate. I urge the 
committee to consider carefully the pro-cyclical and anti-
cyclical effects of any budget policies they adopt.
    Number two, budget projections should be based on 
conservative assumptions. In particular, I am concerned that 
interest rate expense in future years is being underestimated.
    Number three, I would like to voice my support for the 
proposal to enroll employees in 401(k) and IRA accounts by 
default.
    Number four, I would like to voice my support as well for 
the budget's proposed increases in basic science funding.
    Number five, I do not support the suggestion that the 
cutoff for the farm safety net should be placed at $500,000 of 
total sales.
    Number six, last, I offer my suggestion to the committee 
that we create and formalize a new system for scoring and 
tracking the long-term success or failure of our investments. 
In such critical policy areas as basic scientific research, 
education, and commercial infrastructure investments, we must 
plan and score performance over the same time scale that they 
demonstrate their value, in terms of decades rather than years.
    I will now elaborate on each of these points. Number one, 
pro-cyclicality. Many elements of our current financial 
policies now seem to have exacerbated the boom and bust cycle 
of our economy. We did our construction and real estate 
industries no favors by adopting policies that encourage the 
enormous overinvestment in residential real estate that is a 
major cause of our current financial crisis. Many elements of 
our Tax Code, including the treatment of mortgages, capital 
gains, and the level of progressivity or regressivity can exert 
a powerful damping or anti-damping effect on the business 
cycle. We must therefore proactively adopt policies that suck 
the energy out of asset bubbles of the future to reduce the 
human misery when these bubbles burst.
    Number two, interest expense. While I recognize the need 
for short-term spending for economic stimulation, I urge the 
committee to consider aggressive measures to reduce the 
national debt as soon as the economy is back on track. Budget 
projections should be based on conservative assumptions. In 
particular, I draw the committee's attention to the interest 
expense in future years. I am very concerned that as soon as 
the world economy recovers, there will be a flight from 
treasuries and our interest rate expense will be considerably 
higher than people are presently willing to talk about. 
Properly recognizing this risk will encourage us to minimize 
our debt and begin paying it down as soon as possible.
    Number three, IRA/401-k default enrollment. I would like to 
voice my strong support for the innovative and new proposal to 
boost employees' retirement savings by requiring employers to 
automatically enroll employees in 401(k) and IRA accounts. 
Undersaving by Americans has been a significant problem for 
years. This simple plan will encourage many, including those 
who would benefit most from years of compound interest, to 
prepare for a better retirement.
    Number four, doubling science funding over the next decade. 
I strongly support the budget's proposed increases in basic 
science funding. We cannot expect the United States to stay 
internationally competitive if we continue recent trends of 
reducing our R&D budget to a smaller and smaller fraction of 
the GDP. I support the goal of doubling basic science funding 
over the next decade.
    Number five, protect the farm safety net at current levels. 
I do not support the suggestion that the cutoff of the farm 
safety net should be placed at $500,000 of total sales. For a 
farmer in my district in a typical year, this corresponds to 
about $37,000 in income, hardly the big agribusiness that 
should be targeted in this kind of reform.
    Number six, scoring and tracking the long-term economic 
benefits of programs. As a scientist and a new Member of 
Congress, one of my frustrations is the tendency of politicians 
to consider all issues in terms of how they play out in the 
next election rather than evaluating what is in the long-term 
best interest of our country. An example of this was the recent 
debate over the GI Bill for the 21st century, which was 
portrayed on some sides as a budget buster despite the fact 
that over time the original GI Bill paid for itself many times 
over, both in terms of economic activity and revenue. I 
therefore offer my suggestion to the committee that we create 
and formalize a new system of scoring and tracking the long-
term success and budgetary impact of our investments. In such 
critical policy areas as education and basic scientific 
research, we must score performance in the same way that they 
demonstrate their value in terms of decades rather than years.
    In highlighting these concerns, I do not mean to assault 
the existing budget proposal. It is a vast improvement over the 
budgets in recent years, and I hope to support it in its final 
form.
    Thank you for your time and attention.
    [The prepared statement of Bill Foster follows:]

 Prepared Statement of Hon. Bill Foster, a Representative in Congress 
                       From the State of Illinois

    First, I want to thank Chairman Spratt and ranking member Ryan for 
the opportunity to speak here today. The decisions we make in drawing 
up this budget will have tremendous impact on the lives of all 
Americans for years to come.
    The importance of our success in crafting this budget is magnified 
by our economic crisis and the series of high profile bills just passed 
through the House. While necessary for our economic success, I am very 
conscious of the debts that have come along with these measures, as 
well as the deficit in long-term investments in recent years. We owe it 
to the American people to act as responsibly as possible in all our 
future decisions.
    That is why I come before the committee today with several items 
that I support and that I have concerns about in the current budget 
proposal. To name them briefly:
    1. Many aspects of our financial policies are now seen to have 
exacerbated the boom-and-bust cycle of our economy, particularly in 
real estate. I urge the committee to consider carefully the pro-
cyclical and anti-cyclical effects of any budget policies they adopt.
    2. Budget projections should be based on conservative assumptions. 
In particular, I am concerned that interest expense in future years is 
being underestimated.
    3. I would like to voice my support for the proposal to enroll 
employees in 401(k) and IRA accounts by default.
    4. I would like to voice my support as well for the budget's 
proposed increases in basic science funding.
    5. I do not support the suggestion that the cutoff for the farm 
safety net should be placed at $500k of total sales.
    6. Last, I offer my suggestion to the committee that we create and 
formalize a new system of scoring and tracking the long-term success or 
failure of our investments. In such critical policy areas as basic 
scientific research, education, and commercial infrastructure 
investments, we must plan and score performance over the same time 
scale they demonstrate their value--in terms of decades, rather than 
years.
    I will now elaborate on each of these points.
    1. Pro-cyclicality: Many aspects of our current financial policies 
are now seen to have exacerbated the boom-and-bust cycle of our 
economy. We did our construction and real estate industries no favors 
by adopting policies that encouraged the enormous over-investment in 
residential real estate that is a major cause of our current financial 
crisis. Many elements of our tax code, including the treatment of 
mortgages, capital gains, and the level of progressivity or 
regressivity, can exert a powerful damping or anti-damping effect on 
the business cycle. We must therefore proactively adopt policies that 
suck the energy out of the asset bubbles of the future, to reduce the 
human misery when the bubbles burst.
    2. Interest Expense: While I recognize the need for short term 
spending for economic stimulation, I urge the committee to consider 
aggressive measures to reduce the national debt as soon as the economy 
is back on track. Budget projections should be based on conservative 
assumptions. In particular, I draw the committee's attention to 
interest expense in future years. I am very concerned that as soon as 
the world economy recovers, there will be a flight from Treasuries, and 
our interest rate expense will be considerably higher than people are 
presently willing to talk about. Properly recognizing this risk will 
encourage us to minimize our debt and to begin paying it down as soon 
as possible.
    3. IRA/401(k) Default Enrollment: I would like to voice my support 
for the innovative new proposal to boost employee's retirement savings 
by requiring employers to automatically enroll employees in 401(k) and 
IRA accounts. Under-saving by Americans has been a significant problem 
for years. This simple plan will encourage many, including those who 
would benefit most from the years of compound interest, to prepare for 
a better retirement.
    4. Doubling Science Funding over the next Decade: I strongly 
support the budget's proposed increases in basic science funding. We 
cannot expect the United States to stay internationally competitive if 
we continue recent trends of reducing our R&D budget to a smaller and 
smaller fraction of the GDP. I support the goal of doubling basic 
science funding over the next decade.
    5. Protect the Farm Safety Net at Current Levels: I do not support 
the suggestion that the cutoff for the farm safety net should be placed 
at $500k of total sales. For a farmer in my district in a typical year, 
this corresponds to about $37,000 in income--hardly the ``Big 
Agribusiness'' that should be targeted in this kind of reform.
    6. Scoring and Tracking the Long-Term Economic Benefits of 
Programs: As a scientist and a new member of congress, one of my 
frustrations is the tendency of politicians to consider all issues in 
terms of how they play out in the next election, rather than evaluating 
what is in the long term best interests of our country. An example of 
this was the recent debate on the G.I Bill for the 21st Century, which 
was portrayed on some sides as a budget-buster despite the fact that 
over time the original GI bill paid for itself many times over, both in 
terms of economic activity and revenue. I therefore offer my suggestion 
to the committee that we create and formalize a new system of scoring 
and tracking the long-term success and budgetary impact of our 
investments. In such critical policy areas as education and basic 
scientific research, we must score performance in the same way they 
demonstrate their value--in terms of decades, rather than years.
    In highlighting these concerns I do not mean to assault the 
existing budget proposal. It is a vast improvement over the budgets in 
recent years, and I hope to support it in its final form.
    Thank you for your time and attention.

    Mr. Etheridge. I thank the gentleman for his testimony. And 
now I would recognize the gentleman from New York, Mr. Massa, 
for 5 minutes.

  STATEMENT OF THE HON. ERIC J.J. MASSA, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Mr. Massa. Thank you very much, and let me express my 
appreciation for being allowed to appear before the Budget 
Committee today. My remarks will be brief and will center on 
one point.
    I come before the Budget Committee today to express my 
strong opposition and concern to proposed changes in the 2008 
bill which would eliminate direct payments to all farms making 
over $500,000 in gross sales. Please do not imagine that we are 
speaking of fabled ``millionaire's farms'' made possible by 
making huge profits. The greed of these farms is incredible, 
and they truly lack oversight. Many of the farms that would be 
affected are the homes and livelihoods that have been 
supporting the same families for generations in my district. 
They are not a lavish lifestyle and, in fact, represent 
generations of investment.
    There are several things very wrong here. First, this 
proposal ignores completely the production costs required to 
create that level of sales. Depending on the farm type, size 
and production conditions, the input costs will vary enormously 
from year to year as we have seen just in the past yearly 
cycle. But this reality is not reflected in the current budget. 
Next, in contrast to the current payment limit plan that uses 
adjusted gross income, a measure which accurately portrays farm 
income in relation to input fluctuations, using gross sales 
does not account for the increasingly high cost of production. 
How can this possibly be fair? A farm making $500,000 is not 
keeping that money. Anyone who farms knows that. Increasing 
costs in fertilizer, energy, seeds, and equipment are forcing 
many producers and family farms to scale back planting and 
frankly pay more to produce less.
    So there are huge uncertainties of impact on individual 
farms here. We only know for sure what that impact will have 
been when it is too late, the farm is bankrupt and the family 
has moved away from what could have been a generation's 
homestead.
    Have any estimates actually been done on the number of 
farms to be launched in the United States, New York and in my 
district? And if they have been, is it possible to see that 
data? If not, then how can we dare to proceed? I stand with the 
administration with farmers in the hope that we will find a 
common solution to this problem.
    In these troubled times, they have seen the challenges of 
massive foreign subsidies, many of them in Europe. How can the 
American farm compete? Farmers on a limited income need the 
sort of stability that these payment programs are designed for 
and, in fact, provide. With agricultural input costs increasing 
by some 40 percent over the past 5 years, the net farming 
income is estimated to drop by some 20 percent this year alone, 
according to the USDA. Now is not the time to be putting a huge 
number of farmers at risk. Cutting this assistance, as proposed 
by the current administration, would potentially be 
devastating. Without help in maintaining struggling farm 
operations under current financial pressures and protecting 
against just these kinds of catastrophes, like the hailstorms 
that damaged fruit and vegetable crops throughout much of New 
York late last year, many of these producers won't last long.
    Finally, farms with the greatest sales over $500,000 
produce some 74 percent of the total value of agriculture 
production in our country and provide the majority of domestic 
food supply, according to a recent CRS report. These same farms 
receive 47 percent of government payments in the farm safety 
net. Without important Farm Bill programs, many of these 
producers will almost certainly have to close their doors, 
compromising our national food security and further damaging 
the national economy.
    I implore the Budget Committee not to rest the weight of 
recent fiscal catastrophes and carelessness on the shoulders of 
American farmers. In this harsh economic culture, our family 
farmers deserve the same attention and support as Wall Street 
bankers.
    I thank you for your time today and appreciate the 
opportunity to make this case for America's family farms.
    [The prepared statement of Eric Massa follows:]

    Prepared Statement of Hon. Eric J.J. Massa, a Representative in 
                  Congress From the State of New York

    I come before the Budget committee today to express my strong 
opposition to proposed changes in the 2008 Bill which would eliminate 
direct payments to all farms making over $500,000 in gross sales. 
Please do not imagine that we are speaking of the fabled 
``millionaire's farms'' made possible by huge profits, greed and a lack 
of oversight. Many of the farms that would be affected are the homes 
and livelihoods that have been supporting the same families for 
generations. These are not lavish.
    There are several things very wrong here. Firstly, it ignores 
completely the production costs required to create that level of sales. 
Depending on the farm type, size and production conditions, the input 
costs will vary enormously from one year to the next. But this reality 
is not reflected in this scheme. Next, in contrast to the current 
payment limit plan that uses Adjusted Gross Income--a measure which 
accurately portrays farm income in relation to input fluctuations--
using gross sales does not account for the increasingly high costs of 
production. How can this possibly be fair? A farm making $500,000 is 
not keeping most of that money. Increasing costs such as fertilizer, 
energy and equipment are forcing many producers to scale back planting 
and pay more to produce less.
    So there is huge uncertainty of impact on individual farms here. We 
will only know for sure what the impact will be when it is too late, 
the farm is bankrupt and the farm family has moved away. Have any 
estimates of the number of farms to be lost in New York or in my 
district been done? If yes, can I please have these numbers? If no, how 
can we dare to proceed? I stand with the Administration and with 
farmers in the hope that we can find a common solution.
    In these troubled economic times, facing the challenges of massive 
foreign subsidies, how can the American farm compete? Farmers on a 
limited income need the sort of stability that these payment programs 
provide. With agricultural input costs increasing 40% over the past 5 
years and net farm income estimated to drop this year by 20%, according 
to the USDA, now is not the time to be putting a huge number of farmers 
at risk. Cutting this assistance, as proposed by President Obama, would 
be devastating. Without help in maintaining struggling farm operations 
under current financial pressures and protecting against catastrophes 
like the hailstorms that damaged fruit and vegetable crops throughout 
much of New York last year, many producers won't last long.
    Finally, farms with gross sales over $500,000 produce 74% of the 
total value of agricultural production in our country, and provide the 
majority of domestic food supply, according to a recent CRS report. 
These same farms receive 47% of government payments. Without important 
Farm Bill programs, many of these producers will almost certainly have 
to close their doors, compromising our national food security and 
further damaging the national economy.
    I implore the budget committee not to rest the weight of recent 
fiscal carelessness on the shoulders of American farmers. In this harsh 
economic climate, our family farmers deserve the same attention and 
support as Wall Street's bankers.
    Thank you.

    Mr. Etheridge. Thank you very much. Mr. Perriello, you are 
recognized for 5 minutes.

 STATEMENT OF THE HON. THOMAS S.P. PERRIELLO, A REPRESENTATIVE 
             IN CONGRESS FROM THE STATE OF VIRGINIA

    Mr. Perriello. Thank you very much, and thank you for 
giving us this opportunity to speak.
    As one of the younger Members of Congress, I am one of the 
few who may actually have to end up paying for the deficits 
that we are currently running up, and therefore my main concern 
here is that of fiscal responsibility. And I want to emphasize 
in that regard the tremendous leadership and effort of the 
chairman of this committee throughout the past couple of 
decades to fight for that and the tremendous personal pain it 
must have caused to see all of the hard work that went in to 
turning record deficits into record surpluses only to see in 
the last 8 years those once again erode into record deficits. 
We must take very seriously the ideas of balancing this budget 
and not moving burdens on to future generations or in my case 
future earning years. This is a very, very important issue, and 
I appreciate the move to get the budget back down to 3 percent 
of GDP. And I realize that some economists estimate as much as 
a $10 trillion hangover in the deficit from the previous 
administrations.
    That having been said, we must do more. We must go beyond 
this to move ourselves towards fiscal sanity. Before I get to 
that, though, I just want to mention one other positive aspect 
or encouraging aspect of this budget, and that is its honesty.
    I think in addition to the irresponsibility of recent 
years, we have also--in terms of the sheer amount spent and the 
deficits run up, we have also had an irresponsibility in the 
lack of honesty of how much we were spending and how large 
these deficits were. The first step towards recovery in this 
case is to admit the problem that we have. And clearly in the 
case of this, there are some unprecedented moves towards being 
up front and honest about the situation in the budget. 
Unfortunately, that honesty means that it is a huge wakeup call 
of a possibility of a $1.7 trillion deficit in the current 
year. Now, given the $2 trillion contraction in the economy and 
us as the spender of last resort, there are some necessities at 
this time. And I think there are some important decisions made 
here to get us towards fiscal sanity. On the other hand, after 
3 or 4 years of that, we start to see an uptick again in the 
real dollars even though it continues to be a decrease in real 
GDP.
    So one of two concerns that I want to--one of a few 
concerns I want to raise. One is after making the difficult 
decisions to start to bring the deficit down dramatically 
within the President's first term, I hope we will continue that 
pace rather than move in the other direction, both in real 
dollars as well as percent of GDP.
    A second concern that I have is while I respect the honesty 
of including the possibility of a second or an additional 
bailout in this budget, I think the case against such a move is 
tremendous. And in our efforts to balance the budget rather 
than doing anything that might make it easier for us to move in 
the direction of such a bailout, we need to be moving in the 
opposite direction. There is currently, I believe, a $250 
billion contingency, which could translate into about $750 
billion in asset purchases based on the track record we have 
been on. I think it is dangerous to include that even if the 
motivation of honesty and planning for contingencies is a good 
one. I think we have already seen the way the first and second 
TARP were set up, that that is a move in a dangerous direction.
    The final thing is while there are some very positive moves 
made in terms of changes in agricultural policy, some that 
could actually be quite beneficial to the small farmers in my 
district, we do not see a requisite shift in support for small 
towns and rural communities that still make up 20 percent of 
this country's population and I believe an even greater 
percentage of our potential for energy independence. We have 
farmers ready to go in our area to be part of this, and I think 
we need to continue to build on the investments and energy 
independence with a particular emphasis on the small towns and 
rural communities that have been left out so much in recent 
years.
    So I again commend the chairman for his efforts over the 
years to move us towards a balanced budget and even a surplus. 
I hope we will continue in that direction. I believe there is 
much more that can be done than is in the current proposal to 
move us towards that fiscal stability.
    [The prepared statement of Thomas S.P. Perriello follows:]

 Prepared Statement of Hon. Thomas S.P. Perriello, a Representative in 
                  Congress From the State of Virginia

          return to fiscal responsibility; no more bailouts--
           eight years deficit spending, misplaced priorities
    <bullet> The President's Budget projects a deficit of more than $1 
trillion in Fiscal Year 2009, as high as $1.75 trillion. That is almost 
as high as total spending in Fiscal Year 2000, which was $1.79 
trillion. The deficit is now larger than total government spending just 
nine years ago.
    <bullet> Government spending increased at a 3.6 percent annual 
average rate between 2000 and 2008, compared to a 1.2 percent annual 
average rate between 1992 and 2000. Spending has been out of control, 
but * * *
    <bullet> Where Did the Money Go?--Not to the Middle Class!
    <bullet> Health care isn't more affordable, college isn't 
affordable, our food system isn't safer, our roads and bridges aren't 
safer, our economy isn't stronger, etc.
                            an honest budget
    <bullet> The President's Budget accurately reflects reality by 
ending accounting tricks that hide the real costs for the wars in Iraq 
and Afghanistan, disaster spending, and other expenditures.
    <bullet> Returns to Pay-As-You-Go.
           but not enough to return to fiscal responsibility
    <bullet> The President's Budget outlines some cuts and has promised 
to identify more cuts and savings in subsequent years, but we need big 
ideas, big changes now, not tomorrow.
    <bullet> The President's Budget outlines cutting the federal budget 
deficit in half by the end of his first term, from $1.75 trillion in 
2009 to $533 billion in 2013. But then the deficit is projected to 
increase in fiscal year 2014, and again in 2015, and again in 2016. Why 
not come up with a plan to half the deficit and then continue to shrink 
it down, returning to the surpluses we had in the 1990s?
    <bullet> The President's Budget projects that the national debt 
will almost double over 10 years, from $8.3 trillion in 2009 to $15.3 
trillion in 2019.
    <bullet> Future Generations will pay for this debt.
     more bailouts: ``reserve for financial stabilization efforts''
    <bullet> The President's Budget contains a $250 billion contingent 
reserve for further ``financial stabilization'' efforts. This reserve 
would enable a $750 billion bailout in asset purchases.
    <bullet> Last October, Congress authorized the $700 billion Trouble 
Asset Relief Program (TARP).
    <bullet> The Congressional Oversight Panel concluded in its January 
report that there was no evidence that TARP funds had been used to 
avoid preventable foreclosures and that there had been no demonstrable 
effect on lending. Transparency was still lacking in understanding how 
banks were using the money. Companies that have received bailout money 
continue to spend on lobbying and campaign contributions. Top 
executives continue to receive extravagant salaries and bonuses.
    <bullet> In January, the House passed overwhelmingly H.R. 384, the 
TARP Reform and Accountability Act, which would have strengthened 
oversight of the program. The Senate has failed to act.
    <bullet> Companies receiving TARP money continue to cross over the 
line of common sense and dole out excessive bonuses, luxury expenses, 
etc.
    <bullet> No More Bailouts.

    Mr. Etheridge. I thank the gentleman from Virginia and I 
can assure you this committee is going to work on that as time 
goes on and in this budget as well.
    The gentlelady now from Ohio, Ms. Sutton, is recognized for 
5 minutes.

    STATEMENT OF THE HON. BETTY SUTTON, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF OHIO

    Ms. Sutton. Thank you, Mr. Chairman, for the opportunity to 
testify today on budget issues of importance to Ohio's 13th 
District.
    The budget is a moral document that reflects the priorities 
and values of our Nation, and working families are facing 
skyrocketing education, energy, and health care costs. The 
country can no longer afford not to address these challenges. 
We must chart a new path in line with the needs of the American 
people, and President Obama and Congress have already taken 
bold action.
    Over the next few weeks communities across the country will 
begin to see the impact of the Recovery Act as construction and 
other renewal projects create jobs and help local economies. 
The 2010 budget builds on this package by focusing on economic 
recovery, strategic investments and fiscal responsibility.
    Today I want to discuss a few of the programs vital to the 
people I represent in Ohio. Our first responders are out in our 
communities every day providing important services to keep our 
families and communities safe. I urge the committee to support 
full funding for the assistance to firefighter grants and the 
community-oriented policing services program. Now more than 
every these grant opportunities are important to the cities 
that are faced with the difficult choices of having to lay off 
firefighters and to communities to help prevent the growth of 
crime during this economic downturn.
    We also need a budget that recognizes the need of job 
creation, provides funding for research and development, and 
supports programs to ensure our workers have the education and 
skills necessary for the jobs of the future.
    The University of Akron in my district is a world leader in 
polymer research and home to the National Polymer Innovation 
Center. The polymer industry accounts for annual shipments 
exceeding $5 billion, representing one-fourth of Ohio's 
manufacturing output and 12.4 percent of Ohio's gross State 
product. Investments and research in this area have led to job 
creation and new marketable technologies, largely in the areas 
of engineering and health care.
    The University of Akron has also developed an exciting 
program for research into corrosion mitigation. Preventing the 
forces of corrosion on equipment, technology and infrastructure 
could result in enormous cost savings to our government.
    The United States has also made significant progress in 
battery materials, including the development of new lithium ion 
batteries. However, advanced battery manufacturing is almost 
entirely done overseas, particularly in Pacific Rim countries. 
Robust funding for advanced battery manufacturing in the United 
States would help jump-start a new multi-billion dollar 
industry.
    I also urge the committee to support an additional $25 
billion for the Advanced Technology Vehicles Manufacturing 
Incentive Program. This program provides low cost loans to auto 
companies for investments in engineering, component production, 
and the retooling of existing factories to manufacture new 
advanced technology vehicles such as hybrids, plug-in hybrids, 
advanced diesel and fuel cell cars. Clean energy means American 
jobs now and in the future.
    Yesterday I introduced the CARS Act, H.R. 1550. This bill 
provides consumers with financial incentives to recycle older 
high emissions vehicles and replace them with new, cleaner and 
more fuel efficient vehicles. H.R. 1550 will benefit consumers, 
preserve jobs, improve the environment and stimulate our 
economy.
    And since manufacturing in the United States matters, I 
urge the committee to fully fund the Manufacturing Extension 
Partnership which has helped create or retain over 439 jobs in 
my district alone in the last 4 years. This program is the only 
national initiative to support, strengthen and grow U.S. 
manufacturing.
    During these challenging times, State and local 
organizations also need resources to invest in and expand 
economic opportunities for low-income families. And Community 
Development Block Grants provide those resources. I cannot 
stress enough the positive impact that these grants have had in 
my congressional district, and I urge the committee to support 
the President's request of $4.5 billion.
    I am also pleased to support an increase in funding for 
veterans by $25 billion over the next 5 years. The more than 
one million veterans in Ohio and 24 million nationwide deserve 
nothing less than our full support. We must remember that the 
full measure of what we owe our service members does not end 
after they leave the battlefield. Our responsibility extends to 
what we provide for our soldiers once they return home.
    On the issue of health care, I believe that quality 
affordable health care should be available to all Americans, 
regardless of income or employment. Over the past 8 years, the 
number of uninsured has jumped by 6.9 million and now totals 
45.7 million Americans. In Ohio alone, there are over 1.2 
million people without health insurance. And as more Americans 
lose their jobs, the number of individuals and families without 
health insurance continues to rise.
    Our system is broken and must be fixed. The President's 
budget makes tackling health care reform a priority, and we in 
Congress are already working on this to get it done. As a 
member of the Energy and Commerce Subcommittee on Health, I 
look forward to working with the administration and my 
colleagues to reform our health care system.
    Our food safety system also needs reform, and I support the 
administration's budget request of $1 billion--in excess of $1 
billion in food safety to increase and improve inspections, 
domestic surveillance, and domestic response to prevent and 
control food borne illnesses.
    On February 3, 2008, I reintroduced the Protect Consumers 
Act to give the FDA mandatory recall authority over food 
products. Mandatory recall is just one step in fixing our 
broken food inspection system. We also have to provide the 
funding.
    As one who has served on this esteemed committee, I know 
that it is difficult to balance the many competing priorities 
before you. However, I urge you to keep the needs of working 
families in mind as you make your decisions. We cannot afford 
to turn our backs on them during these difficult economic 
times.
    Thank you again for the opportunity to appear before you 
today.
    [The prepared statement of Betty Sutton follows:]

 Prepared Statement of Hon. Betty Sutton, a Representative in Congress 
                         From the State of Ohio

    Thank you for the opportunity to testify before your Committee 
today. I am very proud to have served on the Budget Committee in 2007, 
and I am pleased to join you today to speak on budget issues of 
importance to Ohio's 13th District.
    The budget is a moral document that reflects the priorities and 
values of our nation.
    Working families are facing skyrocketing education, energy, and 
healthcare costs. The country can no longer afford not to address these 
challenges.
    We must chart a new path--one that is in line with the needs of the 
American people.
    President Obama and Congress have already taken bold action to 
create and save 3.5 million jobs, keep families in their homes, and 
stabilize our financial markets.
    Over the next few weeks, communities across the country will begin 
to see the impact of the Recovery Act as construction and other renewal 
projects create jobs and help local economies.
    The 2010 budget builds on this package by focusing on economic 
recovery, strategic investments, and fiscal responsibility.
    Today, I would like to discuss a few of the programs that are vital 
to the people I represent in Ohio.
    Our first responders are out in our communities every day providing 
important services to keep our families and communities safe.
    As such, I urge the Committee to support full funding for the 
Assistance to Firefighter Grants and the Community Oriented Policing 
Services program.
    Now more than ever, these grant opportunities are important to 
cities that are faced with the difficult choice of having to lay off 
firefighters, and to communities to help prevent the growth of crime 
during this economic downturn.
    We need a budget that recognizes the need for job creation, 
provides funding for research and development, and supports programs to 
ensure our workers have the education and skills necessary for the jobs 
of the future.
    The University of Akron, for example, is a world leader in polymer 
research and home to the National Polymer Innovation Center.
    The polymer industry accounts for annual shipments exceeding $50 
billion, representing one-fourth of Ohio's manufacturing output and 
12.4 percent of Ohio's gross state product.
    Investments in research in this area have led to job creation and 
new marketable technologies, largely in the areas of engineering and 
healthcare.
    The University of Akron has also developed an exciting program for 
research in to corrosion mitigation. Preventing the forces of corrosion 
on equipment, technology and infrastructure could result in enormous 
cost savings to our government.
    The United States has also made significant progress in battery 
materials, including the development of new lithium-ion batteries. 
However, advanced battery manufacturing is almost entirely done 
overseas, particularly in Pacific Rim countries.
    Robust funding for advanced battery manufacturing in the United 
States will help jump-start a new, multibillion-dollar industry.
    I also urge the Committee to support an additional $25 billion for 
the Advanced Technology Vehicles Manufacturing Incentive Program.
    This program provides low-cost loans to auto companies for 
investments in engineering, component production, and the retooling of 
existing factories to manufacture new, advanced technology vehicles 
such as hybrids, plug-in hybrids, advanced diesel and fuel cell cars.
    Clean energy means American jobs now and in the future.
    Yesterday, I introduced the CARS Act, H.R.1550. This bill provides 
consumers with financial incentives to recycle older vehicles and 
replace them with new, cleaner and more fuel efficient vehicles.
    H.R. 1550 benefits consumers, preserves jobs, improves the 
environment, and stimulates our economy.
    And since manufacturing in the United States matters, I also urge 
the Committee to fully fund the Manufacturing Extension Partnership 
which has helped create or retain over 439 jobs in my district alone 
over the last four years.
    This program is the only national initiative to support, 
strengthen, and grow U.S. manufacturing.
    During these challenging times, state and local organizations need 
resources to invest in and expand economic opportunities for low-income 
families.
    And, Community Development Block Grants provide these resources.
    I cannot stress enough the positive impact these grants have had in 
my congressional district and I urge the Committee to support the 
President's request of $4.5 billion.
    I am also pleased to support increased funding for veterans by $25 
billion over the next five years.
    The more than one million veterans in Ohio and 24 million 
nationwide deserve nothing less than our full support.
    We must remember that the full measure of what we owe our service 
members does not end after they leave the battlefield. Our 
responsibility extends to what we provide for our soldiers once they 
return home.
    On the issue of healthcare, I believe that quality, affordable 
healthcare should be available to all Americans, regardless of income 
or employment.
    Over the past 8 years, the number of uninsured has jumped by 6.9 
million and now totals 45.7 million Americans.
    In Ohio alone, there are over 1.2 million people without health 
insurance. And, as more Americans lose their jobs, the number of 
individuals and families without health insurance continues to rise.
    Our system of healthcare is broken and must be fixed.
    The President's budget makes tackling healthcare reform a priority 
and we in Congress are already working this year to get it done.
    As a member of the Energy and Commerce Subcommittee on Health, I 
look forward to working with the Administration and my colleagues to 
reform our healthcare system.
    Our food safety system also needs reform. I support the 
Administration's budget request of over $1 billion in food safety to 
increase and improve inspections, domestic surveillance, and domestic 
response to prevent and control foodborne illness.
    On February 3, 2008, I reintroduced the ``Protect Consumers Act'' 
to give the FDA mandatory recall authority over food products. 
Mandatory recall is just one step in fixing our broken food inspection 
system.
    As one who has served on this esteemed Committee, I know that it is 
difficult to balance the many competing priorities before you.
    However, I urge you to keep the needs of working families in mind 
as you make your decisions.
    We cannot afford to turn our backs on them during these difficult 
economic times.
    Thank you for the opportunity to appear before you today.

    Ms. Tsongas [presiding]. Thank you, Ms. Sutton, for your 
testimony.
    The next member will be the gentleman from New York, who is 
Mr. Higgins. Welcome. We are pleased to receive your testimony. 
You are recognized for 5 minutes. And without objection, your 
full statement will be entered into the record.

   STATEMENT OF THE HON. BRIAN HIGGINS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Mr. Higgins. Thank you, Madam Chair. The Nation's budget is 
not only a spending plan, but it is also a statement of values. 
And in a $3\1/2\ trillion budget, there is a lot of room for a 
lot of statements. But I don't think that there is a more 
important statement in the President's proposed budget than 
that for cancer funding for research prevention and early 
detection. Thirty years ago if you were diagnosed with cancer, 
less than 50 percent of those lived beyond 5 years of their 
diagnosis. Today it is 65 percent for adults and 80 percent for 
kids. Between 1998 and 2003, cancer funding doubled. Then in 
2003, cancer funding was halted and there was about a 17 
percent reduction from that point to today.
    President Obama has proposed a doubling of cancer funding 
for each year from 6 to $12 billion. This will fund promising 
new research, the development of new smart drugs which target 
the cancer cells without damaging the healthy cells. This is an 
extraordinary time of hope and promise, providing that the 
money is available to the National Cancer Institute and the 
National Institutes of Health. An extraordinary time of 
discovery, of new drugs, of new treatments that will increase 
the survival rate in virtually every category of cancer and 
cancer funding.
    A couple of years ago, the American Cancer Society came to 
Capitol Hill, and they asked every Member of Congress to sign a 
resolution that supported the principles of the 2015 campaign. 
The 2015 Campaign was--the goal was to eliminate all human 
suffering is and death due to cancer by the year 2015. Now, 
there was a lot of controversy within the cancer community as 
to whether or not that goal was achievable. That is not 
important. What is important is that we are making progress 
toward the goal. And in virtually every measure, it is a 
confirmation that we are making progress toward that goal.
    But there was another thing, Madam Chair, and that was that 
in asking Members of Congress to sign this resolution and the 
resolution was voted on that night, it was called a nonbinding 
resolution of the congressional will. No force of law behind 
it, no force of budget. This changes that objective by putting 
a massive investment of dollars behind the fight against 
cancer. So the goal of 2015 Campaign to cure cancer in our 
time, to eradicate cancer in our lifetime, even if we don't 
meet the full objective of that goal, it should be to make 
progress toward the goal. It should be America's goal. And as a 
Nation, we should insist on a massive investment behind cancer 
research, prevention, and early detection. Thank you for 
listening.
    [The prepared statement of Brian Higgins follows:]

Prepared Statement of Hon. Brian Higgins, a Representative in Congress 
                       From the State of New York

    Chairman Spratt, Ranking Member Ryan, members of the Committee, 
thank you for allowing me to testify before the Committee today. Mr. 
Chairman, I'd like to make the case that the Budget Resolution for 
Fiscal Year 2010 should take the first step toward doubling funding for 
cancer research at the National Cancer Institute and the National 
Institutes of Health.
    President Obama, in his address to Congress on February 25th, 
announced his goal of doubling federal cancer research funding during 
his administration from $6 billion a year to $12 billion a year. I am 
proud to share the President's goal, and it is one that I think should 
be America's goal, to end suffering due to cancer in our lifetime.
    Simply put--we are not doing enough to fight cancer. After we 
doubled cancer research funding from 1998 to 2003, the Bush 
Administration proposed decreasing funding by $250 million, forcing 
research grants to dry up, labs to go dark, and making promising young 
researchers move overseas or leave the field altogether.
    These funding decreases, if factored for inflation, represent a 
devastating 17 percent cut in research funding for the National 
Institutes of Health since 2003. This is unacceptable, appalling, and 
offensive, and the cuts must stop.
    A doubling of cancer research funding over time will ultimately 
improve the quality of life for cancer patients. This funding will lead 
to new ways to treat cancer in a less invasive and more efficient way 
for both those undergoing treatment for cancer and survivors of cancer 
who live with the side-effects of cancer treatment every day. New 
research will lead to better ways to screen for cancerous cells as well 
as using the Human Genome Project to understand who is predisposed to 
getting cancer, so we can prevent cancer from spreading by treating it 
early.
    A doubling of funding will also have a stimulative economic effect 
on areas of the country like Western New York, which I represent. For 
example Roswell Park Cancer Institute in Buffalo, the first 
comprehensive cancer institute in our country, has a tremendous 
economic impact on my community and represents the future of what is 
good in our economy.
    Roswell is struggling due to the rising cost of research and 
stagnant federal funding. In these tough economic times, we need to 
provide institutions like Roswell with more support. With more support, 
Roswell can increase the number and size of research grants exploring 
the development of cancerous cells. This funding would also allow 
Roswell increase its translational research activities and create the 
next generation of biotechnology firms, creating high quality jobs.
    I strongly urge this Committee to produce a budget document that 
reflects the President's call to double cancer research funding with 
all immediate speed, and I thank the Committee for giving me the 
opportunity to come before you this afternoon.

    Ms. Tsongas. Thank you, Mr. Higgins, for your testimony.
    The next member to testify will be the gentlewoman from 
California, Ms. Watson. Welcome. We are pleased to receive your 
testimony and you are recognized for 5 minutes. Without 
objection, your full statement will be entered into the record.

  STATEMENT OF THE HON. DIANE E. WATSON, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Watson. Madam Chairman, thank you so much for offering 
an opportunity for me to testify before the committee and 
address some of my top priorities as we consider the budget for 
fiscal year 2010. I have three main target areas I would like 
to highlight.
    The first is reforming No Child Left Behind. The second is 
seeing that the Iraqis pay for their own national defense and 
minimizing the use of emergency supplementals to fund armed 
conflicts. Implementing education policy reform is imperative.
    To meet the intellectual needs of the 21st century, we must 
confront the educational debt of the disadvantaged students 
which has accrued over decades due to unequal access to quality 
teachers and resources. The Bush administration's 2002 No Child 
Left Behind policy aimed to raise overall achievement and to 
close the gap for underserved students of color, those living 
in poverty and English as a second language pupils and students 
with disability by setting test score targets for disaggregated 
subgroups. However, in practice this policy has proven to be 
counterintuitive. By linking funding to performance on 
standardized tests, this fostered a drill and kill approach to 
teaching rather than a critical thinking approach. As a result 
of this policy, underperforming schools were penalized by 
cutting their already inadequate funding. The punitive 
sanctions of No Child Left Behind only increased the likelihood 
that the most vulnerable students will be further left behind 
by a system not designed to support their learning.
    To empower our children with skills and confidence, our 
educational system must have two-way accountability. This means 
that not only are the students and the schools accountable to 
the State for test performance, as they are under the current 
No Child Left Behind paradigm, but the State and Federal 
Government must also be accountable to the student and the 
school for providing adequate and equitable resources for 
achievement.
    We should seek higher reading, math and science 
comprehension from all American students. But to do so we must 
provide them with quality teachers, a world class curriculum, 
and equal opportunities to learn and succeed.
    Now, during the prosecution of the Iraqi war, Congress and 
the President used the emergency supplemental to fund more than 
$600 billion towards the war in Iraq. The use of this funding 
tactic has resulted in many cases of waste, fraud, and abuse.
    Recently, President Obama stated that he plans to not use 
the emergency supplemental and will actually budget the 
remainder of the war in Iraq according to the normal budgetary 
process. I would like the committee to strongly consider adding 
a section to the budget that will only allow the use of the 
emergency supplemental for up to one year after armed conflict 
begins and then mandate that the normal budget process be 
utilized throughout the remainder of the engagement. This would 
prevent the type of wasteful spending we have seen in the 
conflict in Iraq.
    Also, I would like to see the defense budget reduced by $90 
billion. The Iraqi Government has an estimated surplus of up to 
$97 billion and maybe even more. $23.7 billion in oil proceeds 
are deposited in the Federal Reserve Bank of New York and is 
audited by the United Nations. $15.6 billion is deposited in 
the Central Bank of Iraq and other Iraqi banks. And the 
remaining $51 billion are based in three variables, expected 
oil exports, estimated price that Iraq will get for all the 
oil, and Iraq's budget versus what they will actually spend.
    Since Iraq has a surplus, I see no need for the United 
States to continue to bear the burden of their national 
defense. However, I do understand the need to fund some 
reconstruction projects considering we invaded the country, 
looking for weapons of mass destruction and never found any. So 
we must rebuild what we destroyed, but we do not have to 
continue to pay for their defense.
    Thank you so much, Madam Chairwoman.
    [The prepared statement of Diane E. Watson follows:]

    Prepared Statement of Hon. Diane E. Watson, a Representative in 
                 Congress From the State of California

    Chairman Spratt and Ranking Member Ryan thank you for the 
opportunity to testify before your committee and address some of my top 
priorities as we consider the budget for Fiscal Year 2010. I have three 
main points I would like to cover, reforming No Child Left Behind, have 
Iraq pay for their own national defense, and minimize the use of the 
emergency supplemental to fund armed conflicts.
    Implementing education policy reform is imperative to meet the 
intellectual needs of the 21st century. We must confront the 
educational debt of disadvantaged students which has accrued over 
decades due to unequal access to quality teachers and resources.
    The Bush Administration's 2002 No Child Left Behind Policy aimed to 
raise overall achievement and to close the gap for underserved students 
of color, those living in poverty, English as a Second Language pupils, 
and students with disabilities by setting test-score targets for 
disaggregated subgroups.
    However, in practice this policy has proven to be counter-
intuitive, by linking funding to performance on standardized tests. 
This fostered a ``drill and kill'' approach to teaching rather than a 
critical thinking approach. As a result of this policy, under 
performing schools were penalized by cutting their already inadequate 
funding. The punitive sanctions of No Child Left Behind only increased 
the likelihood that the most vulnerable students will be further left 
behind by a system not designed to support their learning.
    To empower our children with skills and confidence our educational 
system must have two-way accountability. This means that not only are 
the students and the schools accountable to the state for test 
performance as they are under the current No Child Left Behind 
paradigm, but the state and Federal Government must also be accountable 
to the student and the school for providing adequate and equitable 
resources for achievement.
    We should seek higher reading, math, and science comprehension from 
all American students, but to do so we must provide them with quality 
teachers, a world-class curriculum, and equal opportunities to learn 
and succeed.
    During the prosecution of the Iraq War, Congress and the President 
used the emergency supplemental to fund more than $600 billion towards 
the war in Iraq. The use of this funding tactic has resulted in many 
cases of waste, fraud, and abuse. Recently, President Obama stated that 
he plans to not use the emergency supplemental and will actually budget 
the remainder of the war in Iraq according to the normal budgetary 
process. I would like the committee to strongly consider adding a 
section to the budget that will only allow the use of the emergency 
supplemental for only up to one year after armed conflict begins, and 
then mandate that the normal budget process be utilized throughout the 
remainder of the engagement. This would prevent the type of wasteful 
spending we have seen in the conflict in Iraq.
    Also, I would like to see the Defense budget reduced by $90 billion 
dollars. The Iraqi Government has an estimated surplus of around $90 
billion. $23.7 billion in oil proceeds are deposited in the Federal 
Reserve Bank of New York and is audited by the United Nations, $15.6 
billion is deposited in the Central Bank of Iraq and other Iraqi banks, 
and the remaining $51 billion are based on three variables, expected 
oil exports, estimated price that Iraq will get for the oil, and Iraq's 
budget versus what they will actually spend.
    Since Iraq has a surplus, I see no need for America to continue to 
bear the burden of their national defense. However, I do understand the 
need to fund some reconstruction projects, considering we invaded the 
country looking for weapons of mass destruction and never found any, so 
we must rebuild what we destroyed, but we do not have to continue to 
pay for their defense when they can do so.
    Mr. Chairman, thank you for this opportunity to address the 
committee and I look forward to your questions.

    Ms. Tsongas. Thank you, Ms. Watson, for your testimony.
    The next member to testify will be the gentlewoman from 
California, Ms. Lee. Welcome. We are pleased to receive your 
testimony. You are recognized for 5 minutes. And without 
objection, your full statement will be entered into the record.

STATEMENT OF THE HON. BARBARA LEE, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Ms. Lee. Thank you very much, Madam Chair. I would like to 
thank you and the members of the Budget Committee, including 
Congressman Bobby Scott, for giving me the opportunity to 
testify today on the 2010 budget. As Chair of the Congressional 
Black Caucus, I want to briefly lay out several priorities of 
our caucus in the areas of poverty, health care, criminal 
justice programs, national defense, and international affairs, 
which I believe the committee should consider as it crafts the 
House budget resolution.
    The fundamental point I wish to make to the committee today 
is that a budget is really a moral document. It should reflect 
our values as a Nation and what we as a community and as a 
society and as a country hold sacred. Particularly during these 
tough economic times, the budget should strive to protect and 
care for the least among us, even as it puts our Nation on a 
path to economic recovery.
    I am pleased at this year for the first time in a long time 
we have a President and an administration that finally gets it. 
However, we cannot underestimate the magnitude of the problem 
that our Nation is facing. All of us recognize that budget 
priorities and the policies of the last administration have 
quite literally left our Nation in shambles.
    Although the challenges that our Nation faces are great, I 
believe that with the leadership of President Obama we can put 
our Nation back on the right path. Fundamentally, that means we 
must address the issue of poverty and funding programs that 
help put people back on their feet.
    As job losses continue, we must support vital income 
security programs such as the Supplemental Nutrition Assistance 
Program; and we must safeguard access to unemployment 
insurance, Medicaid, and the Recovery Act's COBRA subsidy.
    The CBC also urges the committee to consider including the 
necessary budget authority to account for the cost of 
increasing the Federal minimum wage and indexing it to 
inflation.
    In addition, the committee should consider the cost of 
reforming current asset tests for economic assistance.
    We ask that the committee also commit to making the 
expanded earned income tax credit and child tax credit in the 
American Recovery and Reinvestment Act permanent.
    Also, the committee should also consider the cost of 
redefining the Federal poverty level to create a ``decent 
standard of living threshold'' to determine the amount of 
annual income that would allow families a safe and decent, but 
modest, standard of living.
    The Congressional Black Caucus supports the President's 
call for health care reform; and we urge the Budget Committee 
to account for the cost of health care reform to ensure that 
the 45 million uninsured--4 million of which are children--have 
access to quality affordable health care.
    Also, we urge the committee to address the ongoing racial 
and ethnic health disparities, for example, by including 
additional funding for initiatives to combat HIV and AIDS and 
sexually transmitted infections among minority communities, 
including the $610 million for the Minority Aids Initiative.
    We also urge the committee to zero out funding for 
ineffective abstinence-only-until-marriage programs and 
redirect those funds to teach comprehensive sex education, 
which includes abstinence. Ultimately, making this shift in 
funding priorities will save taxpayers dollars.
    The CBC urges the committee to account for funding efforts 
to combat and reduce juvenile crime and efforts to rehabilitate 
ex-offenders.
    The CBC urges the full funding of the Second Chance Act, 
increased funding for the Justice Assistance Program, the 
Juvenile Justice Program, Civil Rights Enforcement, the COPS 
Program, the Byrne Justice Grant Program, and State and Local 
Law Enforcement Assistance.
    With regard to national defense, we support robust funding 
for our troops and America's national defense. But even as we 
maintain the capacity of our military and fully fund support 
for our returning veterans, we should eliminate the excesses of 
the previous administration.
    The Congressional Black Caucus supports reducing funding 
for the failed ballistic missiles defense system and has 
consistently supported the work of the GAO to weed out waste, 
fraud, and abuse within DOD. The Defense Department has already 
saved an estimated $89 billion between fiscal year 2001 and 
fiscal year 2007 by implementing 1,600 of the GAO's 
recommendations; and we urge this committee to include 
direction to the Armed Services Committee supporting further 
action on the GAO recommendations.
    We also recommend the President's request for a $15 billion 
increase for the Department of State. This is very important to 
us for the Department of State and other international 
programs, minimally $15 billion. We urge the increase. We urge 
the committee to increase this in the budget resolution and to 
support a range of critical programs that help combat global 
AIDS, tuberculosis, and malaria and assist in peacekeeping 
efforts in Darfur and fund development and educational exchange 
programs.
    So let me thank the committee again for the opportunity to 
share just a few of the Congressional Black Caucus' priorities 
with you today; and, if there are no objections, I would like 
to enter into the record a detailed list of what our budget 
priorities are.
    As you can see, the Congressional Black Caucus has a broad 
range of priorities, but we share a common purpose: to 
safeguard our shared values and to invest in an America that 
will ensure opportunities and prosperity for generations to 
come.
    Thank you, Madam Chair. I want to thank the committee once 
again, and I would like to submit the entire list for the 
record.
    Ms. Tsongas. Without objection, and thank you for your 
testimony.
    [The prepared statement of Barbara Lee follows:]

 Prepared Statement of Hon. Barbara Lee, a Representative in Congress 
                      From the State of California

    Thank you Mr. Chairman. I'd like to thank you, Ranking Member Ryan, 
the staff, and the members of the Budget Committee, including 
Congressman Bobby Scott, for giving me the opportunity to testify today 
on the 2010 budget.
    As the Chairwoman of the Congressional Black Caucus, I want to 
briefly lay out several priorities of our caucus in the areas of 
poverty, healthcare, justice programs, national defense, and 
international affairs which I believe the Committee should consider as 
it crafts the House budget resolution.
    The fundamental point I wish to make to the committee today is that 
a budget is really a moral document. It should reflect our values as a 
nation, and what we as a community and a society hold sacred.
    Particularly during these tough economic times, the budget should 
strive to protect and care for the least among us, even as it puts our 
nation on a path to economic recovery.
    I'm pleased that this year, for the first time in a long time, we 
have a President and an administration that finally gets it, and I'm 
proud to support President Obama's budget.
    However, we cannot underestimate the magnitude of the problem that 
our nation is facing.
    As all of us know, the budget priorities and the policies of the 
last administration have quite literally left our nation in shambles.
    Although the challenges that our nation faces are great, I believe 
that with the leadership of President Obama we can put our nation back 
on the right path.
    Fundamentally that means addressing the issue of poverty, and 
funding programs that help put people back on their feet.
                               on poverty
    As job losses continue, we must support vital income security 
programs, such as the Supplemental Nutrition Assistance Program (SNAP/
food stamps), and we must safeguard access to Unemployment Insurance, 
Medicaid, and the Recovery Act's COBRA subsidy.
    The CBC also urges the Committee to consider including the 
necessary budget authority to account for the cost of increasing the 
federal minimum wage and indexing it to inflation.
    In addition, the Committee should consider the cost of reforming 
current asset tests for economic assistance.
    We ask that the committee also commit to making the expanded earned 
income tax credit and child tax credit in the American Recovery and 
Reinvestment Act permanent.
    Finally, the Committee should also consider the cost of redefining 
the Federal Poverty Level to create a ``Decent Living Standard 
Threshold'' to determine the amount of annual income that would allow 
families a safe and decent, but modest, standard of living.
                               healthcare
    The CBC supports the President's call for healthcare reform.
    The CBC urges the Budget Committee to account for the cost of 
healthcare reform to ensure that the 45 million uninsured Americans 
(four million of which are children) have access to quality and 
affordable healthcare.
    The CBC also urges that we equalize payments to Medicare Advantage 
and Medicare. This simple move will save $55.9 billion over the next 5 
years alone.
    In addition, the CBC urges the Committee to address ongoing racial 
and ethnic health disparities, for example by including additional 
funding for initiatives to combat HIV/AIDS and sexually transmitted 
infections among minority communities, including $610 million for the 
Minority AIDS Initiative.
    We also urge the committee to zero out funding for ineffective 
abstinence-only-until-marriage programs, and redirect those funds to 
teach comprehensive sex education, which includes abstinence. 
Ultimately making this shift in funding priorities will save taxpayers 
money.
                            justice programs
    The CBC urges the Committee to account for funding efforts to 
combat and reduce juvenile crime and efforts to rehabilitate ex-
offenders.
    The CBC urges the full funding of the Second Chance Act, increased 
funding for the Justice Assistance Program, the Juvenile Justice 
Program, Civil Rights Enforcement, the COPS Program, the Byrne Justice 
Grant Program, and State and Local Law Enforcement Assistance.
                          on national defense
    The CBC supports robust funding for our troops and America's 
national defense.
    But even as we maintain the capacity of our military and fully fund 
support for our returning veterans, we should eliminate the excesses of 
the previous Administration.
    The CBC supports reducing funding for the failed Ballistic Missile 
Defense program and has consistently supported the work of the 
Government Accountability Office to weed out waste, fraud and abuse 
within the DOD.
    The Defense Department has already saved an estimated $89 billion 
between FY01 and FY07 by implementing 1,682 of the GAO's 
recommendations. And we urge the Committee to include direction to the 
Armed Services Committee supporting further action on the GAO 
recommendations.
                         international affairs
    The CBC commends the President for requesting a $15 billion 
increase for the Department of State and other international programs 
in FY2010.
    We urge the Committee to include this increase in the budget 
resolution to support a range of critical programs that help for 
example to combat global AIDS, tuberculosis, and malaria, assist in 
peacekeeping efforts in Darfur, and fund cultural and educational 
exchange programs.
                                closing
    Let me thank the committee again for the opportunity to share the 
priorities of Congressional Black Caucus with you today and if there 
are no objections I would like to submit a detailed list for the 
record.
    As you can see the Congressional Black Caucus has a broad range of 
priorities but they share a common purpose, to safeguard our shared 
values and to invest in an America that will ensure opportunities and 
prosperity for generations to come.

    Ms. Tsongas. The next member to testify will be the 
gentleman from Ohio, Mr. Loebsack.
    Welcome. We are pleased to receive your testimony, and you 
are recognized for 5 minutes. Without objection, your full 
statement will be entered into the record.

   STATEMENT OF THE HON. DAVID LOEBSACK, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF IOWA

    Mr. Loebsack. Thank you, Madam Chair. Thank you for the 
opportunity to testify before the committee on the fiscal year 
2010 budget proposal.
    As I consider my priorities for the fiscal year 2010 
budget, I believe it is necessary to focus on the effects of 
the current economic crisis on our States. The States across 
this country are facing severe budget cuts.
    To make matters worse, Iowa and many other States are 
dealing with the situation in the wake of severe natural 
disasters. During the summer of 2008, the State of Iowa 
experienced the worst natural disaster in our history. In Iowa, 
85 of 99 total counties were declared disaster areas by 
President Bush. We were not alone. The floods of 2008 affected 
many in the Midwest.
    I want to thank my colleagues in this Congress for their 
support in the last Congress. The supplemental funding 
appropriated by Congress helped begin our recovery process, but 
still Iowa continues to struggle to recover and to rebuild.
    President Obama has submitted a budget blueprint for fiscal 
year 2010 that is thoughtful and balances the need for 
investment with a need for fiscal restraint. For States like 
Iowa, perhaps one of the most significant differences between 
this budget and those of the past is that it takes into account 
the cost of major disasters and the cost of disaster recovery. 
Iowa alone has billions of dollars in damage Statewide. There 
are thousands of families with damaged homes who suffered in 
subzero temperatures this past winter, a winter that is not 
finished yet. Businesses rapidly closing their doors and an 
increasing amount of unemployed individuals.
    While we have made great strides through hard work and the 
realization that disaster recovery is a long-term commitment, I 
strongly urge the committee to recognize the need in the fiscal 
year 2010 budget for continued and additional assistance to 
those States which had severe natural disasters in 2008 and are 
still struggling in 2009.
    I represent the Second District of Iowa with arguably the 
most significant amount of damage from the flooding in the 
State. This District includes Iowa's second largest city, Cedar 
Rapids, which is seeing most of the significant damage, 
although numerous other towns in my District, such as Palo and 
Oakville, suffered devastating damage as well.
    The university, our largest university, with an enrollment 
of over 30,000 students, additionally suffered severe damage, 
upwards of three-quarters of a billion dollars worth of damage.
    The State continues to have unmet needs, including 
assistance for housing, business, public services, social 
services, and future disaster mitigation. To highlight Iowa's 
continuing struggles, I would like to submit for the record 
letters from all over my District--this is a very large pile of 
letters, as you can see--from both city and county officials of 
Cedar Rapids, Coralville, Columbus Junction, Fort Madison, Iowa 
City, Keokuk, Keosauqua, Muscatine, Oakville and Palo, and 
additional letters from Davis County, Des Moines County, Linn 
County and Lee County Boards of Supervisors and the State 
legislature's Rebuild Iowa Committee chairman, which further 
demonstrate the broad range of needs in the State and the 
damage in each of these areas.
    I am also submitting a letter from the Economic Planning 
and Redevelopment Corporation, a group that was formed post 
disaster to aid economic redevelopment efforts in the city of 
Cedar Rapids. All of their combined hard work has helped 
immensely with the rebuilding effort.
    As the Nation experiences one of its most severe economic 
downturns in its history, it is exceedingly important to 
address the needs of States recovering from severe disasters. I 
want to thank you again, Madam Chair, and the committee for 
this opportunity; and I will be happy, of course, to answer any 
questions on the status of Iowa in the future and the status of 
Iowa in the wake of the 2008 disasters and any other concerns 
you have, and I would like to enter these letters for the 
record as well. Thank you.
    Ms. Tsongas. Without objection. Thank you, Mr. Loebsack, 
for your testimony.
    [The prepared statement of David Loebsack follows:]

Prepared Statement of Hon. David Loebsack, a Representative in Congress 
                         From the State of Iowa

    I want to thank the Chairman and Ranking Member for the opportunity 
to testify before the Committee on the Fiscal Year 2010 Budget 
proposal.
    As I consider my priorities for the FY10 Budget, I believe it is 
necessary to focus on the effects of the current economic crisis on our 
States. States across this country are facing severe budget cuts. To 
make matters worse, Iowa, and many other states, are dealing with this 
situation in the wake of severe natural disasters.
    During the summer of 2008, the State of Iowa experienced the worst 
natural disaster in our history. In Iowa, 85 of 99 total counties were 
declared disaster areas by President Bush. We were not alone; the 
floods of 2008 affected many in the Midwest.
    I want to thank my colleagues for their support last Congress. The 
Supplemental funding appropriated by Congress helped begin our recovery 
process but still Iowa continues to struggle to recover and rebuild.
    President Obama has submitted a budget blueprint for Fiscal Year 
2010 that is thoughtful and balances the need for investment with the 
need for fiscal restraint. For States like Iowa, perhaps one of the 
most significant differences between this budget and those of the past 
is that it takes into account the cost of major disasters and the cost 
of disaster recovery.
    Iowa alone has billions of dollars in damage statewide. There are 
thousands of families with damaged homes in sub-zero temperatures, 
businesses rapidly closing their doors, and an increasing amount of 
unemployed individuals. While we have made great strides through hard-
work and the realization that disaster recovery is a long-term 
commitment, I strongly urge the Committee to recognize the need in the 
Fiscal Year 2010 budget for continued and additional assistance to 
those states which had severe natural disasters in 2008 and are still 
struggling in 2009.
    I represent the 2nd District of Iowa with arguably the most 
significant amount of damage from the flooding. This District includes 
Iowa's second largest city, Cedar Rapids, which sustained some of the 
most significant damage although numerous other towns in my District 
such as Palo and Oakville suffered devastating damage as well. The 
State continues to have unmet needs ranging from assistance for 
housing, business, public services, social services, and future 
disaster mitigation.
    To highlight Iowa's continuing struggles I would like to submit for 
the record letters from all over my district, from both city and county 
officials of Cedar Rapids, Coralville, Columbus Junction, Fort Madison, 
Iowa City, Keokuk, Keosauqua, Muscatine, Oakville, and Palo in addition 
to letters from Davis County, the Des Moines County and Linn County 
Boards of Supervisors, and the State Legislature's Rebuild Iowa 
Committee Chairman which further demonstrate the broad range of needs 
in the state and the damage in each of these areas. I am also 
submitting a letter from the Economic Planning & Redevelopment Corp., a 
group that was formed post-disaster to aid economic redevelopment 
efforts in the City of Cedar Rapids. All of their combined hard work 
has helped immensely with the rebuilding effort.
    As the nation experiences one of its most severe economic 
downturns, it is exceedingly important to address the needs of states 
recovering from severe disasters. Thank you again for this opportunity 
and I will be happy to answer any questions on the status of Iowa in 
the wake of the 2008 disasters or other concerns you may have.

    Ms. Tsongas. The next member to testify will be the 
gentlewoman from New York, Ms. Clarke.
    Welcome. We are pleased to receive your testimony, and you 
are recognized for 5 minutes. Without objection, your full 
statement will be entered into the record.

  STATEMENT OF THE HON. YVETTE D. CLARKE, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Ms. Clarke. Thank you very much, Madam Chairwoman.
    Madam Chairwoman and members of the committee, I would like 
to thank you for this opportunity to discuss the Federal budget 
and its impact on the housing and economic recovery of New York 
City. I believe that the fiscal year 2010 budget is this 
country's first major step and blueprint for fiscal recovery, 
stability and responsibility.
    Everyday we hear and read in the news how the increasing 
number of mortgage foreclosures poses a financial threat to 
local housing markets, financial institutions, homeowners, and 
State and local governments. The financial crisis has evolved 
into an international economic recession which has not only 
adversely impacted my congressional District in Brooklyn but 
our Nation as a whole. For example, the Center for Responsible 
Lending Projects states that for 2009 there will be 435 
foreclosures in New York's 11th Congressional District; and 
over the next 4 years that number will increase to 1,448.
    That is why I would like to use my time today to highlight 
one critical aspect of the Federal budget, the Community 
Development Block Grant, CDBG, program. As you know, the CDBG 
program is flexible and therefore provides resources to provide 
a wide range of unique community development needs. One of the 
Department of Housing and Urban Development's longest-running 
programs, CDBG funds local community development activities 
such as affordable housing, antipoverty programs, and 
infrastructure development. These funds can also be used to 
create jobs in many communities by expanding or retaining local 
businesses.
    Historically, New York City tends to utilize between 50 to 
65 percent of CDBG funding towards housing programs. In 
particular, the funding is used to maintain and improve the 
city owned housing stock. Additionally, CDBG funds have been 
used on a critical--excuse me, on critical public social 
service and infrastructure programs, such as child care, senior 
citizen services, and recreation centers.
    What many people do not know is that the CDBG program was 
instrumental in the aftermath of the September 11th terrorist 
attacks in New York City. After that tragic event, New York 
City applied for and received a waiver for increased CDBG 
funding for food and medical care without cutting into much-
needed funding used for the housing programs. The Community 
Development Block Grant program also provided funds to New York 
City for economic development initiatives, planning and 
administration, and improving public facilities.
    That is why I am pleased that HUD is committed to 
fulfilling its mission to increase home ownership, support 
innovative and sustainable community development, and increase 
the availability of affordable housing.
    In the President's budget blueprint, President Obama stated 
that he wants to restore funding for many HUD programs to 
achieve these important goals. Specifically, the President 
wants to provide $4.5 billion to CDBG for fiscal year 2010 to 
ensure that communities continue to invest in and expand 
economic opportunities for low-income families. I respectfully 
urge this committee to support President Obama's request, which 
is an important step in the right direction towards fully 
funding the CDBG program.
    Thank you again for the opportunity to testify before this 
committee today. I look forward to working with you over the 
next several weeks to craft a budget that provides fiscal 
recovery, stability, and responsibility, as well as addresses 
the needs and priorities of the people of the 11th 
Congressional District of New York City and all Americans 
across our country. Thank you.
    Ms. Tsongas. Thank you, Ms. Clarke, for your testimony.
    [The prepared statement of Yvette Clarke follows:]

   Prepared Statement of Hon. Yvette D. Clarke, a Representative in 
                  Congress From the State of New York

    Mr. Chairman, Ranking Member Ryan, and Members of the Committee, I 
would like to thank you for this opportunity to discuss the federal 
budget and its impact on New York City. I believe that the FY 2010 
Budget is this country's first major step towards fiscal recovery and 
responsibility.
    Every day I hear on the news how the increasing number of mortgage 
foreclosures poses a financial threat to local housing markets, 
financial institutions, homeowners, and state and local governments. 
This financial crisis has morphed into an economic recession which has 
not only adversely impacted my congressional district, but New York 
City as a whole. For example, the Center for Responsible Lending 
projects that for 2009 there will be 435 foreclosures in New York's 
11th Congressional District, and over the next four years that number 
will increase to 1,448.
    That is why I would like to use my time today to highlight one 
critical aspect of the federal budget--the Community Development Block 
Grant (CDBG) program. As you know, the CDBG program is flexible and 
therefore provides resources to address a wide range of unique 
community development needs. One of the Department of Housing and Urban 
Development's (HUD) longest running programs, CDBG funds local 
community development activities such as affordable housing, anti-
poverty programs, and infrastructure development. These funds can also 
be used to create jobs in many communities by expanding or retaining 
local businesses.
    Historically, New York City tends to utilize between 50 to 65 
percent of CDBG funding towards housing programs. In particular, the 
funding is used to maintain the city-owned housing stock. Additionally, 
CDBG funds have been used on critical public service programs such as 
child care, senior citizen services, and recreation centers.
    What many people do not know is that the CDBG program was 
instrumental in the aftermath of the September 11th terrorist attacks. 
After that tragic event, New York City applied for and received a 
waiver for increased CDBG funding for food and medical care without 
cutting into much needed funding used for the housing programs. The 
Community Development Block Grant program also provided funds to New 
York City for economic development initiatives, planning and 
administration, and improving public facilities.
    That is why I am glad HUD is committed to fulfilling its mission to 
increase homeownership, support innovative and sustainable community 
development, and increase the availability of affordable housing. In 
the President Budget Blueprint Obama stated that he wants to restore 
funding for many HUD programs to achieve these important goals. 
Specifically, the President wants to provide $4.5 billion to CDBG for 
Fiscal Year 2010 to ensure that communities continue to invest in and 
expand economic opportunities for low-income families. I respectfully 
urge this Committee to support President Obama's request, which is an 
important step in the right direction towards fully funding the CDBG 
program.
    Thank you again for the opportunity to testify before this 
committee today. I look forward to working with you over the next 
several weeks to craft a budget that provides fiscal recovery and 
responsibility, as well as addresses the needs and priorities of the 
people of New York City and all Americans.

    Ms. Tsongas. The next member to testify will be the 
gentlewoman from California, Ms. Richardson.
    Welcome, and thank you for your patience.

  STATEMENT OF THE HON. LAURA RICHARDSON, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Richardson. Thank you, Chairwoman Tsongas, Chairman 
Spratt, Ranking Member Ryan, and members of the House Budget 
Committee. I thank you for allowing me the opportunity to 
appear before you today to discuss what priorities are critical 
to California's 37th Congressional District.
    The 37th Congressional District is rich with ethnic and 
economic benefits but also challenges.
    More than half of the District speaks a language other than 
English.
    We are located adjacent to the Ports of Long Beach and Los 
Angeles that facilitate the impacts of 45 percent of the 
Nation's cargo.
    Twenty-one percent of the individuals live in poverty. That 
is one out of five.
    We have an educational system that is unable to offer 
adequate after-school tutoring, job training programs; and, as 
a result, 30 percent of the population, they are over 25 years 
old, and they don't have a high school diploma.
    With the sharp downturn in our economy, hard times have 
come to Americans. The hardest hit, though, are those like in 
my District who have already, prior to this crisis, already 
experienced not having a sufficient education, without 
marketable work place skills, and already burdened by a 13.6 
percent unemployment rate.
    While California's unemployment is now 10.1 percent, above 
the national average of 8.1 percent, one community in the heart 
of my District, the city of Compton, is already being hit with 
an unemployment rate of 18 percent.
    Therefore, my first priority is preserving the jobs already 
in the 37th District, such as the last surviving middle-class 
jobs derived from Boeing's C-17 production facility in Long 
Beach, California. Failure to procure more aircraft will have 
the detrimental effect of losing over 30,000 jobs nationally 
and our Nation's last military cargo manufacturing site. The C-
17 is routinely utilized in Iraq and Afghanistan to move 
critically injured patients, has delivered troops, gun tanks 
and humanitarian aid with the tsunami in Thailand, Hurricane 
Katrina and earthquake relief in Pakistan, all in 2005 alone.
    My second priority is increasing funding for the Workforce 
Investment Act programs that will play a major role in whether 
our economy recovers, whether our workforce will compete 
globally, and whether Congress with its current actions will 
only be acting as a mere insufficient stopgap that will 
deteriorate and burden Americans for generations to come.
    Specific job training programs such as Job Corps, Youth 
Build, Summer Work, and programs for nontraditional and 
dislocated workers are critical to ensuring that those living 
in districts like mine, urban, low-income areas, will be able 
to fill available jobs and make a stable life for themselves 
and their communities. As.
    Congress and the administration continue to battle an 
increasing deficit, now close to $500 billion and projected to 
climb to over $1 trillion this year, I recommend implementing 
two financial considerations.
    I sit before you today not only as a Member with a series 
of needs for my District but as someone with experience that I 
would like to share with you. I wish to bring my masters in 
business administration and 14 years of private-sector 
experience to the table to help.
    In California, I led the effort as chairwoman to create a 
Budget Oversight Committee in the Nation's 32nd largest city 
that led to establishing a sound fiscal policy and resolutions 
to over a two-decade old mounting deficit. Consequently, I 
solicit your consideration of a legislative action that would 
conduct a thorough user fee study.
    The GAO, for example, could collect data from respective 
agencies that evaluated when fees were last assessed to 
determine whether those fees meet or exceed the current cost 
recovery required to provide that very service or program.
    When this strategy was utilized in the second largest city 
in the largest county in the United States, data indicated the 
general fund was subsidizing 25 percent of its budget with 
inadequate fee structures. That is, to the fees we do on a 
Federal level, is $233 billion. Imagine recouping 25 percent of 
those dollars.
    While we confront strategies that include cutting waste and 
inefficiencies from the budget, the long-overdue reform of the 
Harbor Maintenance Tax must also be on the table. For years, 
the Federal Government has held billions of dollars in the 
Harbor Maintenance Tax Trust Fund to patch and reduce the size 
of the deficit. This means Congress is holding over $5 billion 
hostage in a trust fund meant to improve maritime commerce 
through dredging projects which, in turn, would reduce 
impacting costs.
    Lastly, as someone who represents a District that sees 45 
percent of the entire Nation's cargo pass through its streets, 
I can tell you that having a nationwide dedicated freight 
funding program is critical.
    Again, I want to work with the Budget Committee. I applaud 
all of your hard work, and I stand ready to work with you to 
adopt these strategies that benefit not only my District but 
our Nation as a whole.
    Thank you, and I am ready to answer any questions.
    Ms. McCollum [presiding]. Thank you, Congresswoman 
Richardson. I don't see any questions currently at the time; 
and your full statement, of course, will be entered into the 
record, as earlier mentioned. Thank you.
    [The prepared statement of Laura Richardson follows:]

   Prepared Statement of Hon. Laura Richardson, a Representative in 
                 Congress From the State of California

    Chairman Spratt, Ranking Member Ryan, and Members of the House 
Budget Committee: I thank you for allowing me the opportunity to appear 
before you today to discuss what priorities are critical to 
California's 37th District.
                                overview
    The 37th Congressional District is:
    <bullet> Rich with ethnic and economic benefits and challenges
    <bullet> Located adjacent to the Ports of Long Beach and Los 
Angeles that facilitates 45% of the nations cargo
    <bullet> 21% of individuals live in poverty (1 in 5), and an
    <bullet> Education system unable to offer adequate after-school, 
tutoring and job training programs
    With the sharp downturn in our economy, hard times have come to 
Americans. The hardest hit are those like many in my district who 
already prior to this crisis were:
    <bullet> without a sufficient education
    <bullet> without marketable workplace skills, and
    <bullet> already burdened by 13.6% unemployment rates
    While California's unemployment (9.3%) above the national average 
of 8.1%, one community in the heart of my District, the City of 
Compton, is being hit with unemployment over 18%.
                            preserving jobs
    Therefore, my first priority is preserving the jobs already in the 
37th District, such as the last surviving middle class jobs derived 
from Boeing's C-17 production facility in Long Beach. Failure to 
establish an Air Force aircraft needs assessment and long term 
procurement process will have a detrimental effect of losing over 
30,000 jobs nationally and our nation's last military cargo 
manufacturing site.
    The C-17 is routinely utilized in Iraqi and Afghanistan to move 
critically injured patients to medical centers for treatment and has 
significantly increased the survivability rate for wounded soldiers. 
Additionally, the C-17 has served multi-functionally to deliver troops, 
gun tanks and humanitarian aid with the Tsunami in Thailand, Hurricane 
Katrina and earthquake relief in Pakistan in 2005 alone.
                             creating jobs
    My second priority is increasing funding for the Workforce 
Investment Act programs that will play a major role in whether our 
economy recovers, whether our workforce will compete globally and 
whether Congress' current actions are merely an insufficient stop gap 
that will deteriorate and burden Americans for generations to come. 
Specific job training programs such as Job Corps, YouthBuild, Summer 
Work, Non-traditional and Dislocated worker employment are critical to 
ensuring that those living in urban, low-income areas will be able to 
fill available jobs and make a stable life for themselves and their 
communities.
                         fiscal responsibility
    As Congress and the Administration continue to battle an increasing 
deficit now close to $500 Billion and projected to climb to over a 
trillion dollars this year, I recommend the implementation of two 
financial considerations.
    I sit before you today not only as a Member with a series of needs 
for their District, but as someone with experience with and a passion 
for budgets. I wish to bring my MBA and 14 years of private sector 
experience to the table to assist you in your work. In California, I 
led the effort as Chairwoman, to create a budget oversight committee in 
the nations 32nd largest city that led to establishing sound fiscal 
policies and the resolution of our two decade old mounting deficit.
    Consequently, I solicit your consideration of legislative action 
that would conduct a thorough ``User Fee'' study. The GAO, for example, 
could collect data from respective agencies that evaluated when fee's 
were last assessed, and determine whether those fee's meet or exceed 
the current cost recovery required to provide that service or program.
    When this strategy was utilized in the second largest city in the 
largest county in the United States, data indicated that the general 
fund was subsidizing over 25% of its budget with inadequate fee 
structures. Enacted adjustments both increases and reductions, led to 
millions of dollars in additional revenue that eliminated the 
structural deficit.
    Lastly, while we confront strategies that include cutting waste and 
inefficiencies from the budget; reform of the Harbor Maintenance Tax 
must be on the table as well. For years, the federal government has 
held billions of dollars in the Harbor Maintenance Tax Trust Fund to 
patch and reduce the size of the deficit. The money is desperately 
needed for its intended purpose, dredging projects, which in turn will 
result in economic benefits and fewer impact costs.
    As someone who represents a District that sees 45% of the entire 
nation's cargo pass through its streets, I can tell you that a 
dedicated nationwide generating and spending federal freight policy is 
vital to our future economic success. I intend to introduce the 
MOVEMENT Act to assist in that effort.
    Again, I want to thank the Budget Committee for your hard work. I 
stand ready to support the Committee with nationally beneficial 
priorities and solutions for consideration that will support what is 
best for the American people and our economy. Thank you and I am ready 
to answer your questions.

    Ms. McCollum. The next member to testify will be the 
gentlewoman from Guam, Congresswoman Bordallo.
    We are pleased to receive your testimony, and you are 
recognized for 5 minutes. Without objection, your full 
statement will be entered into the record. Welcome.

 STATEMENT OF THE HON. MADELEINE Z. BORDALLO, A REPRESENTATIVE 
             IN CONGRESS FROM THE TERRITORY OF GUAM

    Ms. Bordallo. Good afternoon, Madam Chairman; and I thank 
you for the opportunity to testify today.
    I have three issues to address relative to the 2010 budget 
resolution. The first, I respectfully request an appeal to the 
committee to include in the budget resolution sufficient 
budgetary headroom to allow for Congress to pass legislation 
implementing the recommendations of the Guam War Claims Review 
Commission; second are the budgetary needs associated with the 
planned military buildup on Guam; and third are matters 
pertaining to the scheduled reauthorization of the Compact of 
Free Association between the United States Government and the 
Republic of Palau and a need to increase the level of Compact-
impact assistance provided to affected jurisdictions, including 
Guam, Hawaii and the Commonwealth of the Mariana Islands.
    First, with respect to Guam war claims, I thank this 
committee for including reference to the Guam war claims 
legislation in its reports accompanying the budget resolutions 
passed by the House for fiscal years 2008 and 2009. This was 
critical to overcoming budgetary hurdles that slowed the bill's 
progress in reaching the House floor. So we hope that the 
committee can continue its commitment again this year to help 
enable Senate passage of the legislation and its ultimate 
implementation by the Foreign Claims Settlement Commission.
    On the opening day of the 111th Congress, I reintroduced 
the Guam World War II Loyalty Recognition Act as H.R. 44. On 
February 23rd, the House voted 299 to 99 to pass this 
legislation; and, currently, H.R. 44 is in the Senate. In the 
last Congress, identical legislation was not considered by the 
Senate before they adjourned, so this a very important request 
that we have.
    And going on now to the Guam War Claims Review Commission, 
which was authorized by the 107th Congress, conducted hearings 
on Guam to receive testimony from survivors. In addition to 
these hearings, the Review Commission also received 
questionnaires. In total, approximately 8,000 questionnaires 
were received by the Review Commission; and based upon these 
returned questionnaires, it is estimated that the amounts of 
actual claims would be significantly lower than the 
Commission's original estimates. Death claims may be as low as 
330, based on the self-declarations in the questionnaires. And 
I have all the other notes, Madam Chair, on my statement here.
    So I feel that the Congress has a moral obligation to bring 
closure for the loyal Americans who experienced the brutality 
of the occupation on Guam. For 4 long years, our people 
experienced the horrors of war, beheading, rapes, and forced 
march and so on. So I respectfully request that the budget 
resolution for fiscal year 2010 take into account the costs 
associated with H.R. 44.
    Now, secondly, we are looking forward to the planned 
realignment of the military forces on Guam; and this is 
creating substantial budget pressures on the Department of 
Defense and the Government of Guam. We are going to receive 
8,300 Marines from the Third Marine Expeditionary Force; and, 
additionally, the Air Force is realigning a Red Horse Squadron 
from Osan, Korea, adding nearly 3,000 more airmen to Andersen 
Air Force Base, along with a planned increase of Navy personnel 
in Guam.
    So the realignment of these forces alone is estimated to 
cost $14 billion over the next 5 to 6 years; and, of this $14 
billion cost, nearly $6 billion will be taken up by the 
Government of Japan. So it is a joint operation.
    Planning for the realignment is well under way and is 
ongoing under the direction of the Joint Guam Program Office. I 
continue to work with our Federal partners in local government 
to accomplish the many details associated with the buildup.
    Although we do not have final details on the amount of 
funding in the President's fiscal year 2010 budget for military 
construction or to support civilian infrastructure upgrades on 
Guam, we ask that the committee provide sufficient funding for 
initial horizontal infrastructure projects. Additionally, Guam 
civilian infrastructure has significant requirements to improve 
its capacity and quality in order to facilitate and sustain the 
military buildup as well as meet basic civilian community 
requirements.
    The third point I have, in particular Guam is facing a $160 
million requirement to close the Ordot landfill and open a new 
landfill and recycling center to comply with the February, 
2004, U.S. District Court of Guam Federal consent decree to 
close the dump; and the Port of Guam has a requirement for $195 
million in improvements to facilitate commerce. This also has 
to do with the military buildup, because the military will be 
using the dump site as well as some of our other civilian 
operations.
    The last, finally, Madam Chairwoman, is the Subcommittee on 
Insular Affairs, Oceans and Wildlife. I would respectfully 
request that the committee reevaluate the level of mandatory 
spending associated with the Compact-impact assistance. The law 
currently provides $30 million each year until 2023 for Federal 
grants to Guam, Hawaii, the Commonwealth of the Northern 
Marianas, and to American Samoa. Now, this is to provide 
services for the citizens of the Compact states who migrate to 
our islands. The amount of $30 million each year, however, does 
not fully account for the actual impact; and I ask that the 
committee consider providing for an increase to mandatory 
Compact-impact assistance in its budget resolution.
    These are the three points I would like to make. I do have 
everything written in more detail in my written statement, and 
I appreciate the opportunity to submit this testimony for the 
record. Thank you, Madam Chairman.
    Ms. McCollum. I thank the gentlewoman from Guam for her 
testimony; and, as you said, without objection, your full 
statement will be entered into the record.
    [The prepared statement of Madeleine Bordallo follows:]

    Prepared Statement of Hon. Madeleine Z. Bordallo, a Delegate in 
                  Congress From the Territory of Guam

    Good afternoon Chairman Spratt and Ranking Member Ryan. Thank you 
for the opportunity to testify before the House Committee on the Budget 
on the Obama Administration's budget proposal for Fiscal Year 2010 and 
Guam's budget priorities for the upcoming year. I greatly appreciate 
your attention to and consideration of the priorities that I will 
address with this statement.
    First, I respectfully request and appeal to the Committee to 
include in its proposed budget resolution for Fiscal Year 2010 
sufficient budgetary headroom to allow for Congress to pass legislation 
implementing the recommendations of the Guam War Claims Review 
Commission. Second, I will address the budgetary needs associated with 
the planned military build-up on Guam. And last, I will call attention 
to the scheduled reauthorization of the Compact of Free Association 
between the United States Government with the Republic of Palau and 
update the committee about Compact-impact assistance.
    With respect to the first matter and highest priority, I thank this 
committee for including reference to the Guam war claims legislation in 
its reports accompanying the budget resolutions passed by the House for 
fiscal years 2008 and 2009. This was critical to overcoming budgetary 
hurdles that slowed the bill's progress in reaching the House floor. We 
hope that the committee can continue its commitment again this year to 
help enable Senate passage of the legislation and its ultimate 
implementation by the Foreign Claims Settlement Commission.
    On the opening day of the 111th Congress, I re-introduced the Guam 
World War II Loyalty Recognition Act as H.R. 44. On February 23, 2009 
the House of Representatives voted 299-99 to pass this legislation. 
Currently H.R. 44 is in the Senate, where it has been referred to its 
Committee on the Judiciary. In the last Congress, identical 
legislation, H.R. 1595 was not considered by the Senate before they 
adjourned for the 110th Congress other than by a unanimous consent 
request for its passage that was objected to on April 17, 2008. Support 
for the enactment of the Guam World War II Loyalty Recognition Act 
continues to grow, and I hope that the Senate will pass the bill this 
year.
    As in previous years, the Congressional Budget Office (CBO) 
estimates that the budget should provide for a least $126 million over 
the next three fiscal years for the implementation of H.R. 44. This 
estimate is based on pay out of every conceivable claim whose payment 
would be authorized by H.R. 44.
    The issue of Guam war claims is not a new issue. Bills seeking to 
resolve this matter have been introduced in every Congress since the 
first such bill was introduced in the 99th Congress. Ensuring there is 
ample budget authority and ability of the Committee on Appropriations 
to appropriate the amounts needed to pay the claims that would be 
authorized is integral to resolving this issue.
    The Guam War Claims Review Commission, which was authorized by the 
107th Congress, conducted hearings on Guam to receive testimony from 
survivors. In addition to these hearings, the Review Commission also 
received questionnaires from survivors on their occupational 
experiences. In total, approximately 8,000 questionnaires were received 
by the Review Commission primarily from survivors on Guam and to a 
smaller extent, from throughout the entire United States. Based upon 
these returned questionnaires, it is estimated that the amounts of 
actual claims would be significantly lower than the Commission's 
original estimates and the conservative estimate provided by CBO. Death 
claims may be as low as 330 based on the self-declarations in the 
questionnaires. While injury claims may actually number closer to 4,000 
to 5,000. It should also be noted that the final report of the Guam War 
Claims Review Commission included estimates for the potential death and 
personal injury claims. The Commission estimated total funding for 
claims to be $126 million based on 1,000 deaths and 8,551 survivors. 
The amount of $126 million matches the CBO estimate for H.R. 44.
    The Congress has a moral obligation to bring closure for the loyal 
Americans who experienced the brutality of the occupation on Guam. 
Therefore, I respectfully request that the budget resolution for Fiscal 
Year 2010 take into account the costs associated with H.R. 44.
    Second, looking forward, the planned realignment of military forces 
to Guam is creating substantial budget pressures on the Department of 
Defense (DOD) and the Government of Guam. The largest part of this 
force posture change is the realignment of nearly 8,000 Marines from 
the III Marine Expeditionary Force currently stationed in Okinawa, 
Japan. Additionally, the Air Force is realigning a Red Horse Squadron 
from Osan, Korea adding nearly 3,000 more airmen to Andersen Air Force 
Base along with a planned increase of Navy personnel on Guam. The 
realignment of these forces alone is estimated to cost $14 billion 
dollars over the next five to six years.
    Unlike other major personnel movements and base closures, this 
realignment also includes a cost contribution from the Government of 
Japan. Nearly $6 billion dollars of the total $14 billion dollar cost 
will come from the Government of Japan and related entities. Although 
this will relieve some financial pressure on the United States 
Government, it will still require the Department of Defense to program 
nearly $8 billion in resources over the next five to six years. The 
Department has not identified all the authorities that will be required 
in order to execute the Japanese funding through special purpose 
entities. As such, the Department of Defense will likely need budget 
room to program the Japanese funding dollars so they can be executed 
for projects on Guam.
    Planning for the realignment is well under way and it is ongoing 
under the direction of the Joint Guam Program Office (JGPO) in 
coordination with U.S. Naval Facilities Engineering Command. I continue 
to work with our federal partners and the local government to 
accomplish the many details associated with the buildup. Additionally, 
the Department of Defense is working with the Department of the 
Interior through the Interagency Group on Insular Areas (IGIA) to 
coordinate further investment by other vested federal agencies that can 
provide Guam with funding to improve their medical, educational and 
physical infrastructure.
    Although we do not have final details on the amount of funding in 
the President's Fiscal Year 2010 budget for military construction or to 
support civilian infrastructure upgrades on Guam, we ask that the 
committee provide sufficient funding for initial horizontal 
infrastructure projects will enable vertical construction in future 
fiscal years. This type of initial infrastructure support in the 
military construction budget is particularly important to ramping up 
construction capacity on Guam so that the on-island workforce will be 
ready for the substantial increases in construction in future years.
    Additionally, Guam's civilian infrastructure has significant 
requirements to improve its capacity and quality in order to facilitate 
and sustain the military build-up as well as meet basic civilian 
community requirements. This point was recently highlighted in a 
September 2008 Government Accountability Office report entitled 
``Opportunity to Improve the Timeliness of Future Overseas Planning 
Reports and Factors Affecting the Master Planning Effort for the 
Military Build-up on Guam''. The report indicates that immediate 
improvements are needed for Guam's civilian infrastructure in order to 
support the build-up.
    In particular, Guam has a $160 million requirement to close the 
Ordot landfill and open a new landfill and recycling center to comply 
with a February 2004 U.S. District Court of Guam federal consent decree 
to close the dump. The Port of Guam has a requirement for $195 million 
in improvements to facilitate commerce and throughput of construction 
materials for the military build-up. The Department of Defense has 
indicated that the port could be a potential choke-point in delivery of 
construction materials. This Congress took action to begin the process 
of alleviating the choke-point with passage the National Defense 
Authorization Act for Fiscal Year 2009 which, under Section 3512, 
authorizes the Maritime Administration to work with the Port Authority 
of Guam to undertake the necessary capital improvements at the port. 
Funding is needed from the Maritime Administration, the Department of 
the Interior and the Department of the Defense to begin immediate 
improvement projects. Finally, two primary wastewater treatment plants 
on Guam have been denied a waiver to operate with primary treatment 
only under the Clean Water Act. The Guam Waterworks Authority estimates 
that it will cost an immediate $50 million in renovations to make the 
two wastewater plants compliant and eligible for a waiver and an 
additional $300 million to enable both plants with secondary treatment 
capabilities.
    Guam's growing importance as a strategic asset to our national 
security is evidenced by the planned increase in DOD investment in the 
island's bases. Guam is proud to serve the United States in this 
manner. But it is important that the Federal Government begin now to 
help the island prepare for this enhanced role. The Committee's support 
by means of providing budgetary headroom for the enactment and 
implementation of H.R. 44, the Guam World War II Loyalty Recognition 
Act, will go far toward achieving this goal as well as for providing 
headroom for certain civilian infrastructure projects needed to 
facilitate the build-up.
    Finally, as Chairwoman on the Subcommittee on Insular Affairs, 
Oceans and Wildlife, I would respectfully request that the Committee 
re-evaluate the level of mandatory spending associated with Compact-
impact assistance that is stipulated by Section 104(e) of Public Law 
108-188. That section provides $30 million each year until 2023 for 
grants to Guam, Hawaii, the Commonwealth of the Northern Mariana 
Islands, and American Samoa, to assist with services provided to 
citizens of the Compact states who migrate to these islands under the 
terms of the Compact. The amount of $30 million each year does not 
fully account for the impact, and I ask that the Committee consider 
providing for an increase in its budget resolution.
    There is no question that the Compacts of Association have a 
significant on financial impact on our local governments in providing 
certain basic services to citizens from the Compact states. The GAO has 
documented this impact and an enumeration of FAS citizens in each 
jurisdiction was undertaken last year by the Census Bureau. That Census 
reveals a migration increase for Guam and Hawaii. Furthermore, the 
Compact with Palau, which was first signed in 1994, requires a 
reauthorization this year. I would respectfully request that the 
Committee address the budgetary increases in the Fiscal Year 2010 
resolution associated with the reauthorization of the Compact with 
Palau.
    I appreciate the opportunity to submit this testimony for the 
record. Thank you for your consideration of my testimony.

    Ms. McCollum. The committee is going to, without objection, 
stand in recess for a few moments to the call of the Chair.
    [Recess.]
    Ms. Jackson Lee. Thank you, Madam Chair, very much for your 
kindness. In fact, I am chairing a subcommittee upstairs; and 
you are very kind to yield me this time.
    Ms. McCollum. Well, we welcome the gentlewoman, 
Representative Jackson Lee, from Texas; and we are pleased to 
receive your testimony. You are recognized for 5 minutes; and, 
without objection, your full statement will be entered into the 
record.

 STATEMENT OF THE HON. SHEILA JACKSON-LEE, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Ms. Jackson Lee. Thank you very much.
    Let me say that this budget process is enormously 
important, and I am hoping that we can work on these matters 
together. I serve on the Foreign Affairs Committee, Judiciary, 
and, as well, founded the Congressional Children's Caucus. I 
would like to speak broadly and ask unanimous consent if I 
might revise and extend my remarks.
    Ms. McCollum. Without objection.
    Ms. Jackson Lee. Thank you very much.
    So let me just globally speak to issues; and there may be 
some pointed questions, recognizing that we suffer a deficit 
that was generated not by the actions of the majority or of 
this present administration. However, I do think our mutual 
vision of re-employing persons, intervening in the lives of 
young people are key.
    So I first urge our budget to include for the first time in 
a number of years investment in summer youth jobs. I know that 
we have just voted on the Give Act, a number of overlapping 
programs such as AmeriCorps, VISTA, Youth Build, but summer 
jobs are key. In fact, they help embellish the resources of a 
family. I think they are key, and I would like to support that.
    In my revised statement, I will have particular numbers, 
but I would rather in essence give you a broad statement. I 
would like to encourage the President's number but also the 
Budget Committee to increase a mark or hold for health care 
reform. And I, frankly, believe that the money should equal to 
the possibility of a public option. Obviously, there are many 
of us who support a single payor. That would include a public 
option. I think, in fact, that would save us money; and we 
would find that the budget would be well to have a public 
option and to save monies.
    Minority AIDS initiative at $610 million this year. With an 
increase of nearly $200 million, I would hope that we would 
keep that mark.
    Funding for the Ryan White CARE Act, $2.8 billion this 
year, an increase $578 million. I think these are people-
oriented requests, and I would like to ensure that we keep that 
mark.
    Our work on the Foreign Affairs Committee regarding HIV, 
STD, TB, viral hepatitis, even though these are U.S.-based, 
would certainly warrant keeping the--and/or seeing an increase 
in the CDC prevention activities for those diseases.
    Housing for people living with AIDS is clearly--as we look 
at the report that came out of the District of Columbia, we are 
not sure how many other area jurisdictions have the increase of 
people infected or affected by HIV/AIDS. I would support the 
$360 million increase, which is an increase of $50 million.
    I also support zeroing out funding for ineffective 
abstinence, only because it hurts those who are in most need.
    Again, though, on the international assistance, we have 
been holding hearings in the Foreign Affairs Committee. I do 
believe that the international assistance that has been 
utilized by the military have been effective over the years, 
that we have needed them in Iraq and Afghanistan in particular. 
I have actually visited and seen that assistance. But I want to 
up the numbers on the State Department USAID.
    In addition, we want to look in the authorizing committee 
at flexibility in using those dollars. But I would like to keep 
the 57.1--I think it is--million dollars. I will revise it in 
my statement, as I am trying to move quickly, Madam Chair. But, 
in any event, I support the present mark for the international 
assistance for USAID in the State Department.
    Let me also join in urging the Budget Committee to account 
for the increased need for income security programs such as 
supplemental nutrition assistance, unemployment assistance, 
Medicaid, and the Recovery Act of COBRA subsidy. As a member of 
the House Judiciary Committee, I would encourage increased 
funding. I think there has been an obvious and conspicuous case 
in domestic violence and the funding of violence against women, 
particularly in educational outreach, which apparently we are 
missing the boat on, is to educate women how to protect 
themselves.
    Also what seems to get lost is a Community Relations 
Division, which even in this new climate of partisanship and 
opportunity for looking beyond people's race, we do have issues 
that continue in our community; and the Community Relations 
Division, where people go out and try to broker a solution to 
racial tension or otherwise, has suffered.
    The Civil Rights Division in the Department of Justice has 
suffered as well, and I would argue for the increased funding 
of that.
    Then I would also ask the committee to consider the cost of 
redefining the Federal poverty level, which is currently 
$22,050 for a family of four 100 percent. I urge the creation 
of a decent living standard threshold to determine the amount 
of annual income that will allow an individual to live beyond 
deprivation at a safe and decent but modest standard of living.
    Let me also, as I move quickly, reinforce the need for 
affordable housing. Right now, in Houston, Texas, besides the 
affordable housing Section 8 vouchers, 25,000 people remain on 
our list of Section 8 vouchers. I think with the crisis of 
decreased access to housing there is going to be an increased 
need for apartments or other living conditions.
    I would hope that we would be able to deal with some of 
those issues; and, as well, I urge the committee to support the 
administration's proposal again for the National Affordable 
Housing Trust Fund at $1 billion and to fully fund the 
Community Development Block Grants and the Neighborhood 
Stabilization, which is going to be very important in these 
issues.
    Let me close quickly by supporting funding, as I indicated, 
for the Justice--let me add Juvenile Justice, Civil Rights, and 
the COPS Program and, in education, TRIO and the GEAR UP 
program, Youth Build, but also K through 12 and IDEA.
    Lastly, veterans. I want to increase and commend the 
President's budget for $25 billion above the baseline and focus 
on health care for veterans and other priorities, community 
block grant, public housing, capital funds; and I will just add 
those to my statement as I revise it in the record.
    I believe we should be people oriented; and I, frankly, 
believe that on many of the issues of military funding I want 
to focus on the issues of our military personnel. And I believe 
that there is an opportunity under this climate to redirect 
some of those funds to the needs of our domestic interests.
    With that, Madam Chair, I yield back.
    Ms. Tsongas. Thank you, Congresswoman Jackson Lee, for your 
testimony. As we had said earlier, without objection, your full 
statement will be entered into the record as it is revised and 
extended.
    [The prepared statement of Sheila Jackson Lee follows:]

  Prepared Statement of Hon. Sheila Jackson-Lee, a Representative in 
                    Congress From the State of Texas

    Let me say that this budget process is enormously important, and I 
am hoping that we can work on these matters together. I serve on the 
Foreign Affairs Committee, Judiciary, and, as well, founded the 
Congressional Children's Caucus. I would like to speak broadly and ask 
unanimous consent if I might revise and extend my remarks.
    So let me just globally speak to issues; and there may be some 
pointed questions, recognizing that we suffer a deficit that was 
generated not by the actions of the majority or of this present 
administration. However, I do think our mutual vision of re-employing 
persons, intervening in the lives of young people are key.
    So I first urge our budget to include for the first time in a 
number of years investment in summer youth jobs. I know that we have 
just voted on the Give Act, a number of overlapping programs such as 
AmeriCorps, VISTA, Youth Build, but summer jobs are key. In fact, they 
help embellish the resources of a family. I think they are key, and I 
would like to support that.
    In my revised statement, I will have particular numbers, but I 
would rather in essence give you a broad statement. I would like to 
encourage the President's number but also the Budget Committee to 
increase a mark or hold for health care reform. And I, frankly, believe 
that the money should equal to the possibility of a public option. 
Obviously, there are many of us who support a single payor. That would 
include a public option. I think, in fact, that would save us money; 
and we would find that the budget would be well to have a public option 
and to save monies.
    Minority AIDS initiative at $610 million this year. With an 
increase of nearly $200 million, I would hope that we would keep that 
mark.
    Funding for the Ryan White CARE Act, $2.8 billion this year, an 
increase $578 million. I think these are people-oriented requests, and 
I would like to ensure that we keep that mark.
    Our work on the Foreign Affairs Committee regarding HIV, STD, TB, 
viral hepatitis, even though these are U.S.-based, would certainly 
warrant keeping the--and/or seeing an increase in the CDC prevention 
activities for those diseases.
    Housing for people living with AIDS is clearly--as we look at the 
report that came out of the District of Columbia, we are not sure how 
many other area jurisdictions have the increase of people infected or 
affected by HIV/AIDS. I would support the $360 million increase, which 
is an increase of $50 million.
    I also support zeroing out funding for ineffective abstinence, only 
because it hurts those who are in most need.
    Again, though, on the international assistance, we have been 
holding hearings in the Foreign Affairs Committee. I do believe that 
the international assistance that has been utilized by the military 
have been effective over the years, that we have needed them in Iraq 
and Afghanistan in particular. I have actually visited and seen that 
assistance. But I want to up the numbers on the State Department USAID.
    In addition, we want to look in the authorizing committee at 
flexibility in using those dollars. But I would like to keep the 57.1--
I think it is--million dollars. I will revise it in my statement, as I 
am trying to move quickly, Madam Chair. But, in any event, I support 
the present mark for the international assistance for USAID in the 
State Department.
    Let me also join in urging the Budget Committee to account for the 
increased need for income security programs such as supplemental 
nutrition assistance, unemployment assistance, Medicaid, and the 
Recovery Act of COBRA subsidy. As a member of the House Judiciary 
Committee, I would encourage increased funding. I think there has been 
an obvious and conspicuous case in domestic violence and the funding of 
violence against women, particularly in educational outreach, which 
apparently we are missing the boat on, is to educate women how to 
protect themselves.
    Also what seems to get lost is a Community Relations Division, 
which even in this new climate of partisanship and opportunity for 
looking beyond people's race, we do have issues that continue in our 
community; and the Community Relations Division, where people go out 
and try to broker a solution to racial tension or otherwise, has 
suffered.
    The Civil Rights Division in the Department of Justice has suffered 
as well, and I would argue for the increased funding of that.
    Then I would also ask the committee to consider the cost of 
redefining the Federal poverty level, which is currently $22,050 for a 
family of four 100 percent. I urge the creation of a decent living 
standard threshold to determine the amount of annual income that will 
allow an individual to live beyond deprivation at a safe and decent but 
modest standard of living.
    Let me also, as I move quickly, reinforce the need for affordable 
housing. Right now, in Houston, Texas, besides the affordable housing 
Section 8 vouchers, 25,000 people remain on our list of Section 8 
vouchers. I think with the crisis of decreased access to housing there 
is going to be an increased need for apartments or other living 
conditions.
    I would hope that we would be able to deal with some of those 
issues; and, as well, I urge the committee to support the 
administration's proposal again for the National Affordable Housing 
Trust Fund at $1 billion and to fully fund the Community Development 
Block Grants and the Neighborhood Stabilization, which is going to be 
very important in these issues.
    Let me close quickly by supporting funding, as I indicated, for the 
Justice--let me add Juvenile Justice, Civil Rights, and the COPS 
Program and, in education, TRIO and the GEAR UP program, Youth Build, 
but also K through 12 and IDEA.
    Lastly, veterans. I want to increase and commend the President's 
budget for $25 billion above the baseline and focus on health care for 
veterans and other priorities, community block grant, public housing, 
capital funds; and I will just add those to my statement as I revise it 
in the record.
    I believe we should be people oriented; and I, frankly, believe 
that on many of the issues of military funding I want to focus on the 
issues of our military personnel. And I believe that there is an 
opportunity under this climate to redirect some of those funds to the 
needs of our domestic interests.

    Ms. Tsongas. With that, the committee is now adjourned.
    [Additional statements submitted for the record follow:]
    [The prepared statement of Michele Bachmann follows:]

   Prepared Statement of Hon. Michele Bachmann, a Representative in 
                  Congress From the State of Minnesota

    Thank you, Mr. Chairman.
    Bloomberg, one of the nation's most respected financial news 
sources, recently reported that the multi-hundred-billion-dollar 
stimulus package recently signed into law will push the government's 
total commitment to addressing our economic crisis over the past year 
to a total of about $11.7-trillion.
    That's enough to send a $1,730 check to every man, woman and child 
in the world.
    It's enough to pay off more than 90 percent of all home mortgage 
loans in the U.S.
    We've dealt so much in hundreds of billions and trillions over the 
past several months that these massive numbers have become almost 
commonplace.
    But, the truth of the matter is: This is anything but trivial. 
Because when we talk about the ``government's commitment,'' we're 
talking about the taxpayers' commitment. We're talking about our 
constituents' hard-earned money and their children's hard-earned 
money--generations of taxpayers will be paying for this commitment.
    What's more disturbing than the $11.7-trillion total is that more 
than $8 trillion of it was spent without a vote by the elected 
representatives in Congress. It was lent or pledged under the authority 
of the Federal Reserve Bank and the Federal Deposit Insurance 
Corporation (FDIC).
    There's no open debate on the House floor for these programs. No 
chance for our constituents to provide input to Senators. So, the 
commitment of the taxpayers' money occurs with little fanfare and 
little notice by anyone. In fact, as Congress considers the 
Administration's budget and writes its own, the question becomes 
whether Congress is really cognizant of what money has already been 
spent and how far over-extended taxpayers not only of this generation 
but of future generations already are.
    With the bipartisan support of Blue Dog Democrats and the Ranking 
Republican on the House Budget Committee, I've reintroduced the Truth 
In Accounting Act (H.R. 943) to make government finances truly 
transparent and open. Not only would financial commitments be crystal 
clear to Congress, but also to the taxpayers.
    Thomas Jefferson once said that, ``Whenever the people are well-
informed, they can be trusted with their own government * * * whenever 
things get so far wrong as to attract their notice, they may be relied 
on to set them to rights.'' (1789)
    For our representative government to work as the Founders 
envisioned, the public must have full access to the facts. And, I don't 
mean sound bites and little snippets of information fed to them by 24-
hour cable news.
    The Truth in Accounting Act would, in technical terms, measure the 
present value of projected spending minus projected revenues, over both 
a 75-year horizon and an indefinite-time horizon, for several long-term 
spending obligations. The resulting report to the public would be the 
budget shortfall that must be financed to put American fiscal policies 
on a sustainable path.
    Currently, when Congress and the president prepare budget proposals 
and pass spending bills, they have the luxury of ignoring the 
shortfalls year after year. They prepare, present and approve budgets 
that project these estimates over the short-term--usually five or 10 
years. And, there are a lot of things that can be done on paper to 
paper over the long-term shortfalls.
    My Truth in Accounting Act would require the President to consider 
these long-term shortfalls when he proposes his budget. And, it would 
require both the Government Accountability Office (GAO) and the U.S. 
Treasury to report this information to the Congress so that the numbers 
can be used when we're finalizing the annual budget.
    Furthermore, my legislation would require that the report be 
translated into easily comprehensible terms so that nothing could be 
hidden by complex jargon.
    The government's fiscal imbalance would be presented in the whole, 
and as distributed per person, per worker, and per household.
    The President has just proposed a $3.9-trillion budget. Congress, 
the president and--most importantly--the taxpayers should be fully 
apprised of what's truly at stake.
    When Enron lifted the veil on the accounting problems that riddled 
Wall Street's finances, Congress insisted on real transparency for 
shareholders. The American people deserve no less from their 
government.
    Thank you, Mr. Chairman, and I yield back the balance of my time.

    [The prepared statement of Sam Farr follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    [The prepared statement of John J. Hall follows:]

 Prepared Statement of Hon. John J. Hall, a Representative in Congress 
                       From the State of New York

    Chairman Spratt, Ranking Member Ryan, I want to thank you for the 
opportunity to testify today. I come before you with a simple, yet 
urgent request. We need to accurately fund treatment and compensation 
for veterans with Post Traumatic Stress Disorder.
    For too long we have heard the harrowing stories of soldiers 
returning for war, bearing the scars and wounds of battle, only to face 
an adversarial process in seeking treatment and compensation. This is 
especially true for soldiers who have PTSD. In the Iraq and Afghanistan 
wars alone, more than 100,000 veterans have been diagnosed with PTSD. 
Tragically, however, only 42,000 have been granted service-connected 
disability for their condition.
    As it currently stands, veterans have to ``prove'' the stressor 
that triggered their PTSD, even if they have already been diagnosed. 
They need to track down incident reports, buddy statements, present 
medals, and leap other hurdles to meet the threshold that VA mandates 
in order to receive desperately needed compensation. In an era where 
mental injuries are stigmatized and in a war that has no front or rear 
line--it is clear that the current VA regulations are in need of 
change.
    As Chairman of the Subcommittee on Disability Assistance and 
Memorial Affairs, I have introduced legislation to manifest this 
change. HR 952, the COMBAT PTSD Act, lowers the burdensome threshold 
that veterans have to meet to receive compensation. The COMBAT PTSD Act 
has received immense support, including the endorsement of the American 
Legion, the VFW, DAV, Military Order of the Purple Heart, the IAVA, and 
other VSOs. I have received a pledge from the new Secretary of the VA, 
General Shinseki, to work with me on implementing the ideas expressed 
in the legislation.
    This legislation does not come without a cost, which is why I am 
taking this opportunity to testify before you so that the merits of 
this bill can be heard and accurately reflected in the budget. Last 
Congress, CBO scored this legislation at $4.7 billion over 10 years. 
This is due to the fact that so many veterans who have been fighting 
the VA for years, sometimes up to 20 or 30 years, will finally be 
granted long overdue compensation. However, I want to note that the 
RAND Corporation recently conducted a study and concluded that left 
untreated and undercompensated, PTSD will cost our nation $6.2 billion 
over 2 years--a great deal more than the CBO score of $4.7 over 10 
years.
    To offer one quick example, I helped a WWII veteran in my district, 
Ken MacDonald, receive over $100,000 in retroactive benefits for PTSD. 
Ken had two ships blown out from underneath him, swam in the waters 
with fallen and sharks, and probably witnessed atrocities that we can't 
even fathom--yet was denied PTSD compensation for more than 60 years. I 
was incredibly proud and lucky for the ability to help Ken get his 
benefits, but unfortunately every soldier doesn't win the battle with 
the VA which is why this legislation is so urgently needed.
    The time to act is NOW. The number of Veterans returning from war 
with PTSD, depression, and, sadly, those who commit suicide, are 
growing every year. It is unconscionable that our veterans, like Ken 
McDonald, must wit in some cases 60-plus years for the benefits that 
they have earned defending their freedom. That is why I respectfully 
ask that you include in the FY 2010 Budget Resolution sufficient 
funding to treat the problem of PTSD in returning veterans.
    Thank you again for allowing me to testify and for your 
consideration of my request. I am happy to answer any questions you may 
have.

    [The prepared statement of Baron P. Hill follows:]

Prepared Statement of Hon. Baron P. Hill, a Representative in Congress 
                       From the State of Indiana

    Thank you Chairman Spratt and Ranking Member Ryan for the 
opportunity to submit my thoughts on President Obama's Fiscal Year 2010 
Budget Resolution to the Committee. I applaud the President for 
presenting a budget to Congress that is honest and transparent. Unlike 
years past, President Obama has included war costs in his budget 
outline. The return to transparency in the budget process is welcome, 
and long overdue.
    My primary concern about this budget is a real return to fiscal 
discipline. Although we are in a time of undeniable economic downturn, 
our massive deficit is threatening both our economic and national 
security. The economy was in dire need of a jumpstart--and I believe 
the American Recovery and Reinvestment Act is just that--but it is time 
for Congress to actually live within a budget.
    It is time for pay-as-you-go budgeting (PAYGO) to move from rules 
to the law of the land. It is time for Congress to make the tough 
budgeting decisions we were elected to do.
    President Obama and members of his Administration have been very 
receptive to statutory PAYGO. I appreciate their willingness to work 
with me on this issue and certainly hope to see statutory PAYGO 
language in this budget resolution.
    In the past, I have also voiced concerns about balancing budgets by 
tapping into the Social Security Trust Fund. I opposed the last two 
budgets for that very reason. I certainly hope this Administration will 
not jeopardize entitlement programs on which many Hoosiers rely.

    [The prepared statement of Steve Kagen follows:]

 Prepared Statement of Hon. Steve Kagen, a Representative in Congress 
                      From the State of Wisconsin

    Mr. Chairman: Thank you for allowing me an opportunity to present 
my views and offer suggestions to the Fiscal Year (FY) 2010 budget. I 
believe a nation's budget is a reflection of its values and its 
priorities, and I look forward to working with you and our colleagues 
in designing the FY 2010 budget.
    These are tough times for all of us, everywhere in these United 
States. We are facing the most serious and complex economic challenges 
of the century and we cannot afford mistakes or miscalculations. During 
the last eight years the federal deficit surged to over $1.3 trillion 
dollars; the amount of publicly held debt has doubled; and over 3.6 
million Americans have lost their jobs. Today more than ever, we need 
elected officials at every level of government with good judgment.
    One of the most important inclusions in the President's budget 
outline is his down payment on health care reform. As you know, Mr. 
Chairman, the largest cost of any business is health care. It is my 
hope that Congress will collaborate with the Administration to develop 
practical, substantive and needed reforms to our health care delivery 
system.
    I believe that future reforms must require all health insurance 
companies to openly disclose their prices within Metropolitan 
Statistical Areas, and no citizen should have their civil rights denied 
through the discriminatory actions of insurance companies who deny 
coverage due to pre-existing medical conditions. No citizen should pay 
more than the lowest price available for a given procedure or a medical 
treatment. In addition, Medicare and Medicaid should begin to reward 
value instead of volume by making certain that physicians and hospitals 
are paid sufficiently to cover all overhead costs plus a margin of 
profit. Finally, patients, their families, and their doctors must be 
the only ones to determine which treatments are best for the patient, 
without any interference from insurance companies, hospital 
administrators or government officials.
    I am pleased President Obama has been honest about the costs of 
such necessary reforms, and has listed them in the federal budget. I am 
confident the Committee will continue its previous commitment to 
transparency and present these costs in its budget as well.
    It is also important to note that the President is committed to 
ending many of the budgetary gimmicks previous Administrations utilized 
to portray an unreal financial picture. I am heartened that the 
President operates under the same realistic perspective as the 
Committee has utilized during my time in Congress. By clearly 
articulating future war costs and placing them in the budget, and by 
recognizing the need for future natural disaster funding, the federal 
government and the public are fully aware of the financial decisions we 
face. It is important to provide the American people the unvarnished 
truth so that we can move forward in reducing the deficit and 
establishing a federal government that is fiscally responsible in 
practice, not just on paper.
    As the economy recovers, our workforce will also need to be 
responsive. I would ask the Committee to recognize the continued need 
for worker training programs. Manufacturing jobs are changing and are 
require fewer man-hours. Our government must assist workers in need to 
meet new standards our economy may place upon them and help to maintain 
our traditional knowledge advantage in the global marketplace.
    It is also incumbent for Congress to recognize the consequences of 
our increasingly globalized economy. I support increased funding for 
the Trade Adjustment Assistance (TAA) Program. When a plant is moved 
overseas, or a foreign company undercuts our domestic market, workers 
are affected most. This has not gone unnoticed by the federal 
government, and TAA has evolved to assist workers during economic 
downturns. By providing temporary support as well as training programs, 
TAA allows workers to return to full time employment as soon as 
possible.
    I would be remiss if I didn't remind the Committee how badly the 
economy has affected farmers, who don't need the rug pulled out from 
under them again, by cutting our support even further. The Obama 
Administration has mentioned revisiting the issue of direct payments 
for farmers. This House just passed a bipartisan Farm Bill which 
included significant reductions in direct payments to farmers, perhaps 
already accomplishing the President's goal of ending support to large 
agribusinesses who don't need them.
    I look forward to the Committee's work in designing a budget that 
truly reflects the needs and priorities of the American people.
    Thank you for your consideration of my views.

    [The prepared statement of Howard P. ``Buck'' McKeon 
follows:]

Prepared Statement of Hon. Howard P. ``Buck'' McKeon, a Representative 
                in Congress From the State of California

    Chairman Spratt, Ranking Member Ryan, and Members of the Budget 
Committee: Thank you for this opportunity to submit testimony regarding 
the Budget Resolution for Fiscal Year 2010. I want to raise an issue 
that has surfaced in the President's budget which I find deeply 
troubling. Specifically, I am very concerned by the proposal included 
in the President's FY 2010 budget to eliminate the Federal Family Loan 
(FFEL) program. The FFEL program, in existence for more than four 
decades, has a strong record of making students' dreams of a college 
education possible. The program provides approximately $60 billion in 
federal student loans to students attending over 4,400 institutions 
each year. Eliminating this public-private partnership now will cost 
the country more than 30,000 current jobs, and will have a ripple 
effect on thousands more. I do not believe this is a prudent path to 
pursue, especially during these tough economic times.
    Currently, institutions of higher education are able to choose 
between the Direct Loan (DL) program, through which their students 
borrow directly from the federal government, and the FFEL program, 
which gives their students a choice of lenders. The DL program reached 
its peak in 1998 when it encompassed 34 percent of the market. Since 
that time, schools have migrated away from the program to the extent 
that only 20 percent of total loan volume was in the DL program last 
year. I recognize that each program will see its share of total loans 
fluctuate over time, and with changing circumstances. For instance, 
there has been a modest increase in DL volume recently, attributed to 
the current economic situation. In prior years, volume has shifted from 
DL to FFEL because of concerns about borrower benefits, customer 
service, or infrastructure. These shifts, representing a choice by 
institutions of higher education, are made possible by the existence of 
two programs that compete with and improve one another.
    Colleges and universities and their students also benefit from 
individualized services and programs made possible by the diversity of 
FFEL program participants. A one-size-fits-all, Washington-based 
solution would jeopardize the ability of institutions of higher 
education to tailor programs that best fit their students' needs.
    In talking to institutions that have been in and out of the DL 
program, we have learned that it could take up to nine months for a 
single institution, with plenty of staff, to be ready to issue its 
first loan. We have also learned that the cost to institutions of 
switching programs could be as much as $400,000 for staffing costs, 
system changes, updates, and other infrastructure modifications. With 
colleges and universities already struggling to meet their expenses and 
maintain high quality educational programs, I question a proposal that 
would force schools to spend significant time and money to switch into 
a program that they have rejected in the past.
    Some proponents of the DL program have argued that the FFEL program 
should be eliminated because the federal government recently intervened 
to ensure the program's stability amid the global credit crisis. And it 
is true that, for the first time in the history of the FFEL program, 
the federal government did intercede in 2008, as it did with all of the 
financial sectors. However, this intervention is only temporary. 
Additionally, it is worth noting that the action taken to stabilize the 
FFEL program and ensure students would have uninterrupted access to 
student loans, was the only effort that has not cost the federal 
government a dime, has worked successfully in ensuring that all 
students were able to obtain a federally insured student loan, and may 
have actually earned money for the government. Once the markets have 
returned to their normal activity, the successful public-private 
partnership that has been in existence for over 40 years will resume.
    The proposed elimination of the FFEL program also ignores the fact 
that private sector involvement in student lending has served as a 
vital backstop, particularly when the DL program has been unable to 
fully serve students. For example, in 1997, Congress was forced to 
intervene and pass legislation to assist the DL program in handling a 
significant increase in consolidation loan volume by allowing FFEL 
lenders to offer those services to students. At that time, the DL 
program had less than 34 percent of student loan volume, but had a 
backlog of consolidation applications that exceeded 80,000. Yet even 
with the DL program's failure to fulfill its obligation to students at 
that time, the Clinton Administration and Congress did not propose to 
eliminate that program. In 1998, when the Congress reauthorized the 
Higher Education Act, we preserved both programs and allowed colleges 
to choose the program which best served the needs of their students. 
Just this past year when the Higher Education Act was reauthorized, no 
one proposed killing off the FFEL program or the DL program.
    Rather than hastily eliminating the FFEL program, I would hope that 
we would have a thoughtful and deliberate conversation with all 
interested parties about an alternative model to continue with a 
successful public-private partnership that better fits with the 
advancements we have made since the program's inception. For the past 
two reauthorizations of the Higher Education Act, Committee Republicans 
and Democrats have agreed to set aside partisan differences in order to 
examine the student loan programs in terms of what is best for 
students. It is particularly disheartening to hear the President 
characterize his proposal as, ``putting students ahead of lenders,'' in 
light of the bipartisan cooperation that has underscored the belief 
that healthy competition is beneficial to both programs, and has 
ensured that students are able to obtain student loans even when there 
are service or funding disruptions. Rather than pointing fingers and 
making accusations, I believe Democrats and Republicans must come 
together, as we have in the past, to engage in a constructive dialogue 
that could lead our efforts in developing a new model for the student 
loan program and, possibly, a new, simpler model for the student 
financial aid programs overall. I urge the House Budget Committee to 
retain funding for the FFEL program while the Education and Labor 
Committee continues to study options for improving both loan programs 
for the benefit of all students.

    [The prepared statement of Michael McMahon follows:]

  Prepared Statement of Hon. Michael E. McMahon, a Representative in 
                  Congress From the State of New York

    Chairman Spratt, Ranking Member Ryan, thank you for providing this 
opportunity for all Members to testify before the Budget Committee 
today. This Committee serves a critical role in allowing the Congress 
to manage the budget process and control government spending. And I 
would like to offer a particular thank you to Chairman Spratt for your 
leadership on working to get our fiscal house in order and reduce the 
size of the federal deficit.
    While we still have yet to see many of the details of the 
President's budget submission, the President's preliminary budget lays 
out a bold, ambitious agenda for our country. Our nation is in crisis--
we face the most serious economic downturn since the Great Depression, 
and our people are suffering. Each month brings another half a million 
people losing their jobs, and unemployment is skyrocketing. Students 
can't get loans for college and small businesses are struggling to 
secure credit to keep their doors open on Main Street.
    All eyes are watching us here in Washington. And we need to act 
now. From turning our economy around, to reforming our healthcare 
system, to fighting terrorism and protecting the homeland, to reducing 
our dependence on foreign oil, to combating global warming, to 
rebuilding our outdated infrastructure, and improving our education 
system--we are facing so many enormous challenges. But we can no longer 
wait to address them.
    With all that said, I would urge this committee to follow the 
leadership of Chairman Spratt and work on all these issues in a way 
that is fiscally responsible. We must do what is necessary to jump 
start our economy now, but long-term we must work to bring our budget 
into balance.
    I have two children--Joseph and Julia--and we cannot in good 
conscience pile more and more debt on them and mortgage the future of 
the next generation. The good hardworking people of Staten Island and 
Brooklyn, New York balance their checkbooks at the end of each month--
and they expect nothing less from their leaders in Washington.
    This budget will be a key test for us in the Congress. Will we 
bring the leadership that the American people are demanding? Will we 
change the way business is done in Washington and make the necessary 
investments to rebuild our county's future?
    As challenging as these times are for our nation, they present us 
with opportunities to really make the key investments that will rescue 
our economy and lay the foundation for future economic growth for years 
to come.
    Specifically, I come here today to ask all of you to include in the 
budget significant funding increases in our nation's transportation 
infrastructure. Bang for the buck, nothing will help us create more 
jobs than funding transportation projects and rehabilitating our 
crumbling mass transit, roads and bridges. It is estimated that for 
every billion dollars we spend on capital transportation spending, we 
create more than 37,000 jobs.
    Adding funding for mass transit and other transportation projects 
won't only help jump start our economy, but it also will help improve 
the commutes of millions of Americans every day. The spike in oil 
prices during the summer of 2008 forced many Americans to try mass 
transit for the first time, sending bus, train and subway ridership to 
record levels. And even though gas prices have come down in recent 
months, studies have found that many people have simply chosen to 
continue using mass transit--and ridership has just gone up and up.
    My district has some of the longest average commute times in the 
country--with people travelling well over an hour and a half each way 
to work! Traffic congestion grows every year, and our economy is 
suffering because of our failure to invest in mass transit. The last 
time we made major investments in the transportation network of my 
district was more than 40 years ago with the opening of the Verrazano 
Narrows Bridge in 1964. Many of our subway stations are almost eighty 
years old--and some are in such bad shape that they are literally 
falling apart.
    But unfortunately my district is far from unique. Americans are 
demanding more support for mass transit across the board. This Congress 
has a once in a generation opportunity to really rethink our 
transportation network--and to make the key investments that will give 
this country the 21st Century, integrated, well-maintained 
transportation network that the American people deserve.
    As you begin to markup the Fiscal Year 2010 Budget Resolution, I 
urge you to include a large increase in the amount that can be 
appropriated for mass transit, highways, bridges, and airports--both in 
new construction projects and in funds to maintain our aging 
structures.
    I also would urge all of you to dedicate significant resources to 
increase federal support for the operational budgets for municipalities 
and regional transit systems throughout the nation. Providing funds for 
operations will help ensure that we maintain current transit routes, 
and that mass transit remains a viable option for Americans no matter 
what their income level. In New York City, the Metropolitan 
Transportation Authority this year is considering a doomsday budget 
that would raise fares by almost 25% and scale back service and 
maintenance. These cuts would eliminate many necessary bus and subway 
routes and set our system back decades. And I am sorry to say that New 
York isn't the only city facing such dire straits.
    At a time when more and more people want to ride our buses and our 
rails, we cannot cutback on the services they have come to rely on. 
Mass transit is great for our economy by reducing traffic, great for 
our environment by reducing vehicle carbon emissions, and great for the 
health of our neighbors and our communities by encouraging people to 
walk more.
    Our budget is a statement of our priorities. So as you prepare the 
budget resolution that will guide the debate in the months ahead, I 
urge you to greatly increase the amount of resources dedicated in the 
budget to fund capital projects and mass transit operating budgets for 
agencies at every level of government. Transportation is key to our 
nation's growth and future competitiveness--China, Europe are all 
investing hundreds of billions in their transportation networks, and we 
must be willing to make the key investments that will propel our own 
nation forward and leave a lasting physical, usable legacy for years to 
come.
    Also Mr. Chairman, as a Member of the Committee on Foreign Affairs 
and a representative of one of the most diverse Congressional Districts 
in the United States, I urge the Committee to maintain and increase our 
foreign assistance commitment to our allies around the world. I 
particularly urge the Committee to fund Israel's foreign military 
financing assistance as well as fulfill the Commitment of Secretary 
Clinton for the United States to rebuild Gaza, and provide support to 
democratic institutions and civil society in the Palestinian 
territories. In addition, I urge the Committee to re-affirm the Obama 
Administration's plan to double US foreign assistance, commitment to 
the United Nations and multi-lateral institutions.
    Thank you again for the opportunity to testify today and I yield 
back the balance of my time.

    [The prepared statement of Pete Olson follows:]

  Prepared Statement of Hon. Pete Olson, a Representative in Congress 
                        From the State of Texas

    Chairman Spratt, Ranking Member Ryan, members of the Budget 
Committee, thank you for the opportunity to testify before you today. I 
wanted to take this opportunity to discuss with you a significant, and 
highly visible national program that is at a critical crossroads for 
lack of sufficient resources. America's human spaceflight program.
    Last year NASA celebrated its 50th anniversary. For half a century 
this agency has been leading the world in human space exploration, 
aeronautics, space science and climate research. I believe the record 
is quite clear. The investments we have made in America's space agency 
over the last fifty years have greatly enhanced the perception around 
the world that the United States is the world leader in the benevolent 
uses of science and technology, while providing high-quality jobs, 
delivering cutting edge research, amazing new technologies, and 
inspiring generations of Americans--and for that matter, billions of 
people worldwide--all for less than one percent of our federal budget. 
In fact, even with this year's welcome increase to $18.7 billion, 
NASA's entire budget amounts to only about one-half-of-one-percent of 
the total!
    I understand that there is little room for pet programs in our 
economic environment. I want to impress upon you that this is not one. 
My concern however is this budget does not address the most critical 
issue facing the Agency. The space shuttle is scheduled to be retired 
in about 18 months! The program to develop our future launch 
capability, Constellation, is not slated to be operational until 2015 
at the earliest. This means that for at least 5 years, the United 
States will not have independent access to space, particularly to the 
International Space Station, which has been paid for primarily by 
American taxpayers at a cost of around $100 billion. For those five 
years, our only access to space, and to the ISS, will be through the 
purchase of seats from Russia aboard their Soyuz spacecraft. The 
uncertainties in global politics do not allow me to feel comfortable in 
ceding that capability to another country.
    This gap in our ability to independently access the International 
Space Station is the most critical issue, but make no mistake, the 
ramifications are not limited to the space community; they are of 
global significance. It is increasingly important for the United States 
to strengthen our bonds with our friends and allies. Space exploration 
is one of the most visible activities we do on the world stage, and one 
of the areas where other countries are eager to join with us.
    The President's preliminary budget request appears to be consistent 
with the objectives spelled out in the NASA Authorization Act of 2008 
and I'm pleased that the goal of returning humans to the Moon by 2020 
is a key feature, as are efforts to stimulate the private-sector to 
develop and demonstrate commercial crew and cargo delivery services to 
the International Space Station. The details, however, have not been 
made clear. But even though I am heartened by the FY10 request, I do 
find it troubling that the President's outyear projections indicate 
flat or slightly reduced funding levels for NASA. The challenges 
confronting the agency, including its human spaceflight program, will 
be amplified if these projections come to pass.
    Since its creation, NASA has produced many astonishing scientific 
and technical successes. But it's important to remember that NASA is 
first and foremost a research and development agency whose goal is to 
undertake very risky and technologically challenging missions. Unlike 
operational agencies that deliver goods and services at a scale 
commensurate with its resources, when confronted with inadequate 
budgets, NASA has no option but to slow the pace of its missions and 
programs. Too few resources, and the viability of this multi-mission 
agency may be jeopardized.
    The human spaceflight program has, in recent years, faced 
significant challenges, chief among them replacing the aging Shuttle 
But it's not simply a matter of the cost going forward; NASA's human 
spaceflight program, including Shuttle, has have had to absorb huge, 
unanticipated costs. For instance, the cost arising out of the Shuttle 
Columbia tragedy was $2.7 billion, for which it has never been covered 
by subsequent appropriations. Instead, those costs came out of existing 
programs.
    In addition, human spaceflight has been stressed since the rollout 
of the Constellation system in early 2004. Neither the Administration 
nor Congress have provided the resources that were assumed when the 
program was made public, yet the schedule of retiring the Shuttle and 
the first flight of its successor are still fairly much the same.
    NASA has ten research centers located across the US. The skilled 
workforce that NASA depends on for its human spaceflight program is at 
risk if we don't give them the resources to help close the five year 
gap. Simply put, once they leave NASA, they won't return By funding 
Constellation at a higher level, the ability to keep this workforce in 
place increases by funding more test flights and setting a quicker pace 
in converting existing facilities as just two examples.
    This Congress has debated the necessity and virtue of having 
projects ready to go. Please consider funding this critical national 
program at the levels that allow them to achieve their worthwhile 
goals.

    [The prepared statement of Bill Posey follows:]

  Prepared Statement of Hon. Bill Posey, a Representative in Congress 
                       From the State of Florida

    Dear Chairman Spratt and Ranking Member Ryan: As the House 
Committee on the Budget prepares the Budget Resolution for Fiscal Year 
2010, I ask that the Committee designate sufficient funding for the 
National Aeronautics and Space Administration (NASA) to move forward 
with manned space flight programs.
    Information currently available regarding NASA's budget for 2010 by 
the Office of Management and Budget (OMB) is very brief, lacks 
specifics and makes only cursory references to the Space Shuttle's 
scheduled retirement in 2010 and the ``development of new space flight 
systems for carrying American crews and supplies to space.''
    While the President's budget requests an overall increase to NASA 
for FY 2010, I write the Committee to request that the House Budget 
Resolution allocate sufficient funding to close the gap as much as 
possible between the Space Shuttle's retirement and the Space Shuttle's 
successor, Constellation. This gap should be closed from both ends. I 
would ask the Committee to provide sufficient funding for NASA to 
extend Shuttle flights beyond 2010, while ensuring that funding is 
available also to bring the Constellation program on-line sooner than 
anticipated. I ask the Committee to make both of these programs a 
priority. This is important for our nation's leadership in space and 
for the thousands of workers and their families who will be affected.
    The United States boasts the finest space exploration programs in 
the world, and we jeopardize our leadership in this important area if 
we fail to recognize and address the uncertainty surrounding the 
continuity of our manned space flight programs.

    [The prepared statement of Linda Sanchez follows:]

   Prepared Statement of Hon. Linda T. Sanchez, a Representative in 
                 Congress From the State of California

    Chairman Spratt and Ranking Member Ryan, I would like to thank you 
for the opportunity to submit my Fiscal Year 2010 budget priorities.
    As Congress begins to work on its annual budget, I would like to 
share with the committee what I believe to be key legislative 
priorities that will once again put American working families first.
    The United States is in a major economic slump. Businesses, large 
and small alike, are laying off employees in record numbers. 
Unemployment figures have ballooned to numbers unseen in decades. While 
the challenges we face are undeniably daunting, the President's Fiscal 
Year 2010 Budget Request is a bold response to help steer the United 
States back on course.
    I support the President's $634 billion investment in our health 
care system. For far too long, the costs have skyrocketed and the ranks 
of the uninsured now close to 47 million have grown. Too many never see 
a physician until they visit an emergency room. The costs to employers 
and local, state, and the federal government are unsustainable.
    In my home state of California over 6.6 million people find 
themselves without any health care coverage. It is unacceptable that in 
the world's eighth-largest economy, over 18 percent of residents cannot 
visit a physician to receive basic medical attention when needed.
    Unfortunately, even though we spend more than every other nation in 
the world on health care, we fail to cover everyone, and those who are 
covered do not necessarily achieve good health outcomes.
    I urge the Committee to strongly consider adopting the President's 
request to reform our health care system and to work to ensure that 
families can obtain affordable coverage. I support changing the tax 
code so that those most able to pay contribute a bit more in order to 
help restructure our ailing health care system. Today's investments 
will yield substantial savings in the future that will benefit us all.
    As we reform health care, we must ensure that the American 
workforce will provide employment opportunities. I am pleased that the 
President's Budget sets out an ambitious but realistic plan to develop 
a new economy rooted in innovated green energy technology. As the 
County of Los Angeles struggles with a 10.8 percent unemployment rate, 
the people in my Congressional District are eagerly anticipating the 
opportunity to be part of the Green Jobs Revolution.
    Job growth critical to jumpstarting our economy by keeping our 
youth, including those most at risk of becoming disconnected from the 
labor force, employed and prepared for the new Green Economy.
    The gains from investing in cleaner, renewable sources of energy 
will stretch far beyond the creation of an American green jobs 
manufacturing base. These investments will advance our country's 
commitment to reduce our dependence on foreign oil. I would also urge 
the Committee to ensure that we invest in expansion of Trade Adjustment 
Assistance, Unemployment Insurance, and the Workforce Investment Act. 
We cannot continue to be the only industrialized nation without a clear 
industrial and labor policy.
    At a time when working families are facing ballooning health care 
and education costs, well-paying manufacturing jobs are being shipped 
overseas, and the threat of unemployment is looming, our budget must 
make key investments in critical programs that will help Americans 
through these tough economic times.
    Through reforms to our nation's health care system, investments in 
our children's education and development of a productive American green 
jobs industry, the United States will regain its economic footing.
    I thank the Committee for the opportunity to share my priorities 
and support for President Obama's Budget Request.

    [The prepared statement of Jackie Speier follows:]

Prepared Statement of Hon. Jackie Speier, a Representative in Congress 
                      From the State of California

    Mister Chair and members: I appreciate the opportunity to address 
the Committee today about what I consider to be serious deficiencies in 
the current structure and funding of the Food and Drug Administration--
specifically its inability to adequately regulate the food and dietary 
supplement industries, and also the need to ensure sustained and 
comprehensive oversight of the Troubled Asset Relief Program and other 
programs established to address the current economic crisis.
    Americans spend more than $1 trillion on food each year, but 
because of existing budgetary and regulatory constraints they have no 
assurances that what they are eating is safe. We have failed to provide 
the FDA the appropriate authority or funding to properly regulate the 
safety of our country's food and dietary supplement supply. From both a 
public safety and a health cost perspective, this is simply no longer 
acceptable or sustainable.
    If we do not provide adequate funding for food safety regulation, 
an inevitable and catastrophic contamination outbreak will be not a 
matter of if, but when. Already, more than 76 million Americans become 
sick, 325,000 are hospitalized and 5,000 die each year from foodborne 
illnesses caused by contamination from any one of a number of microbial 
pathogens.
    According to the GAO, as many as 15 federal agencies collectively 
administer at least 30 laws related to food safety. The Food Safety and 
Inspection Service within the USDA and the FDA carry the primary share 
of responsibilities, but they have not received an appropriate share of 
the funding provided to the two agencies relative to their 
responsibilities.
    In the FY 2008 budget, the FDA was responsible for monitoring 80% 
of the US food supply, while FSIS was only responsible for the 
remaining 20%. Contrary to common sense, FSIS received approximately 
65% of the two agencies' combined food safety budget and FDA only 
received 35%. For the health and well being of our country we must 
increase FDA's budgetary share and get them to a level where they have 
the resources that are so obviously necessary to regulate our food 
supply.
    I am also concerned by the FDA's lack of authority to regulate 
Dietary Supplements. The Dietary Supplement Health and Education Act of 
1994 removed the relatively weak regulations that we had in place until 
that time, replacing them with a broad presumption that dietary 
supplements are safe until proven unsafe. In 2008, more than 75,000 
dietary supplement products were available to consumers. The minimal 
oversight of these products by the FDA poses a significant danger to 
consumers and is, frankly, an embarrassment. It took more than 16,000 
adverse event reports and more than 100 deaths before the FDA finally 
acted in 2004 to ban ephedra-a dangerous dietary supplement used for 
weight loss and bodybuilding. This was a full seven years after the 
agency issued its first advisory, and after several states had taken 
their own action to ban this dangerous supplement. There are concrete 
steps we need to take, including providing mandatory recall authority 
for both food and dietary supplements, and establishing a comprehensive 
adverse event reporting system for dietary supplements.
    As for the TARP, there are new reports each day about the lack of 
staff and oversight over at Treasury to help run the Troubled Asset 
Relief Program. Although I believed that it would take some time for a 
new administration to accumulate the staff necessary to properly run a 
program of TARP's magnitude, I don't think any of us expected it to 
take this long, or to be this disorganized.
    When we passed the Emergency Economic Stabilization Act last 
October, we established three separate, yet complimentary oversight 
bodies to monitor the program's implementation and protect the 
taxpayer: the GAO, a new Special Inspector General for the TARP, and a 
bipartisan Congressional Oversight Panel. However, all three lack 
adequate resources and authority to really do the job we have given 
them-and that we need them to do.
    Neil Barofsky, the SIGTARP has come to the Financial Services 
Committee asking for the power and resources to be able to do his job, 
including the ability to hire retired annuitants. The Financial 
Services committee is in the process of marking up legislation to give 
Mr. Barofsky the power necessary to do his job.
    Dr. Elizabeth Warren, the chair of the COP, also suffers from a 
lack of staff and authority. Her panel does not have the subpoena power 
given the other two. COP may call investigatory hearings but cannot 
compel witnesses to come before the panel. She is also short staffed 
and has asked for the authority to hire retired annuitants. Dr. Warren 
and the rest of the panel and staff at COP have put together some of 
the most insightful examinations of the TARP, and we must provide them 
the resources they need to continue their work.
    The GAO has a much different problem. I have spoken with Gene 
Dodaro and a lack of adequate funding remains a huge roadblock for the 
depth of reporting that we have come to expect from GAO across all 
program areas. In California we instituted a cost recovery system for 
our oversight body that has been widely successful in saving taxpayers 
millions of dollars each year, both in the cost of the examinations and 
the waste they are able to ferret out. I believe we must give the GAO 
similar authority, not only for TARP, but for all its activities.
    Taxpayer dollars are too precious, especially right now, to not 
have these programs run correctly and efficiently. The consequences for 
the health, safety and financial security of the American public are 
too great.

    [The prepared statement of Maxine Waters follows:]

Prepared Statement of Hon. Maxine Waters, a Representative in Congress 
                      From the State of California

    I thank Chairman Spratt and the Members of the Committee for 
allowing me to testify on this important legislation. I appreciate the 
Committee's time and energy spent in crafting a budget that addresses 
the needs of the country at this vital point in history.
    President Obama stated during his first address to Congress that a 
budget should be more than just a list of programs and dollar amounts--
it should reflect our values as a Congress. Allow me to briefly mention 
some of the programs I feel strongly about and would like to urge the 
Committee to focus on while drafting the Budget Resolution for Fiscal 
Year 2010.
                         1. affordable housing
    The housing crisis lies at the heart of the current economic 
crisis. As Chairwoman of the Housing and Community Opportunity 
Subcommittee on Financial Services, I believe a substantial budget for 
the Community and Regional Development and the Income Security 
functions are vital in order to account for increases in Affordable 
Housing programs.
    I am pleased that the Obama Administration has proposed a HUD 
budget that increases funding for the Department by 19 percent. I urge 
the Committee to account for this aggressive budget authorization.
    In particular, we must authorize the public housing operating 
subsidy at $5.5 billion, as it is currently funded at only 82 percent 
of need. We must reinvest in our public housing stock to ensure that 
this housing of last resort is always available to those who need it 
most.
    In addition, authorization for full renewal funding is critically 
needed for project-based Section 8 contracts in order to prevent 
thousands of private landlords from leaving the program. In recent 
years, 10,000 to 15,000 of these units have been converted to market 
rates. We must also provide $16.5 billion for Section 8 tenant-based 
vouchers because shortfalls since 2004 have forced housing agencies to 
serve 150,000 fewer families.
    I commend HUD Secretary Donovan for providing the National 
Affordable Housing Trust Fund with $1 billion in the budget. This 
program will prevent homelessness and create and preserve affordable 
housing for very low income households. Funding for the Trust can also 
be used to help us make good on our long-overdue promise to provide 
safe, decent and affordable housing to the millions of Gulf Coast 
families still being affected by Hurricane Katrina.
    Congress must also authorize the Community Development Block Grant 
(CDBG) program at $4.5 billion and preserve the right of communities to 
borrow against future CDBG funds to finance economic development, 
housing rehabilitation and large scale physical improvements through 
Section 108 loan guarantees. I know that the administration has 
identified the Section 108 program for elimination but this program 
must be funded at $6 million, as it is critical to providing economic 
investment in distressed and disadvantaged areas and it comes at no 
cost to the Federal government.
    Finally, I urge the Budget Committee to account for an increase in 
HUD funding by an additional $50 million in order to provide $360 
million for the Housing Opportunities for Persons with AIDS (HOPWA) 
program. Everyone needs a safe place to call home, and that most 
certainly includes people who are being treated for this life-
threatening condition.
                             2. head start
    Few programs in the federal budget provide as high a return on 
investment as the early childhood services of Head Start and Early Head 
Start. But currently, only 3% of eligible children receive Early Head 
Start services, and 50% receive of eligible children receive 
traditional Head Start. It is vital that we continue building on the 
current funding level to support program investments made to Head 
Start.
    The Recovery Act made a much needed $2.1 billion investment in Head 
Start and Early Head Start on top of the $7.1 billion regular 
appropriation in the FY09 omnibus. In order to continue expanding Head 
Start services-or at least make sure no services are cut off for 
children and families--a higher budget authorization level is needed 
for Function 500. At a minimum, I recommend an increase of $1 billion 
for Head Start and a $1 billion for Early Head Start over last year's 
levels.
                            3. job training
    With our economy in shambles, we need to be investing more money 
into a well-trained workforce. The increased funding for the Department 
of Labor's Workforce Investment Act provided by the American Recovery 
and Reinvestment Act should be maintained in the FY10 budget. Job 
training for nurses is one area in particular that I have identified as 
an investment that will reap valuable dividends in the form of 
increased employment opportunities and improved public health.
    I request that the Budget Committee account for $215 million in FY 
2010 for the Nursing Workforce Development programs in Health and Human 
Services; an increase of almost $50 million over FY 2009.
                       4. minority aids institute
    I am deeply concerned about the continuing spread of HIV/AIDS, 
particularly among minorities. Overall, minorities now represent 
approximately 70% of new AIDS cases. While I believe there is a need 
for funding increases in all HIV/AIDS programs, I am especially 
committed to the Minority AIDS Initiative, which targets HIV/AIDS 
prevention and treatment funds to minority communities.
    The Minority AIDS Initiative is funded through several health-
related accounts within Function 550. The Initiative received a total 
of about $400 million each year since FY 2003 in all accounts combined. 
I request an increase of $210 million in Function 550 so that the 
Minority AIDS Initiative would receive a total of $610 million in FY 
2010 across all accounts combined. This would enable minority 
communities to scale up their efforts to stop the epidemic and meet the 
growing needs for prevention education, HIV testing, and AIDS treatment 
in these communities.
                                5. haiti
    Haiti is the poorest country in the Western Hemisphere, and it has 
been adversely impacted by a series of unfortunate events over the past 
year. I urge the Budget Committee to provide a robust increase in 
funding for the International Affairs account in order to allow 
significant increases in assistance to this impoverished country. The 
most important accounts for Haiti are Economic Support Funds, 
Development Assistance, Child Survival and Health, the Global HIV/AIDS 
Initiative, and the PL-480 food assistance account. I intend to track 
these accounts throughout the budget and appropriations process and 
make certain that Haiti receives a share within each account that is 
proportionate to its needs.
                               conclusion
    Change has come to the United States, and I look forward to a 
budget resolution that reflects the high expectations our constituents 
have for Congress to meet the challenges we face as a nation. Let me 
again thank the members of the House Budget Committee for their time, 
and I look forward to working with you in the coming weeks.

    [The prepared statement of Peter Welch follows:]

 Prepared Statement of Hon. Peter Welch, a Representative in Congress 
                       From the State of Vermont

    Chairman Spratt, Ranking Member Ryan, and Members of the Committee, 
thank you for this opportunity to come before you to discuss the 
federal budget and its impact on the State of Vermont. The federal 
budget reflects the priorities of our nation and speaks to the needs of 
individuals all across America, individuals who are struggling to make 
ends meet. I would like to use this opportunity to highlight the cases 
of several Vermonters who have contacted me over the last year, 
Vermonters for whom the decisions we make in this budget will make a 
real difference in their lives.
    Last fall, I met Joseph Provost, a Vermont National Guardsman and 
veteran of the war in Iraq, at the VFW Post in Newport, Vermont, near 
Lake Memphramagog. At this gathering of veterans and their families, 
Mr. Provost and his wife spoke about their struggles since Mr. Provost 
returned from serving in Iraq. He was injured during his service, and 
came home from Iraq a different man. Mr. Provost applied for disability 
compensation from the VA in January, 2008, and was still waiting for a 
decision about his benefits when I met with him last fall. Finally, 
after nearly ten months of waiting and intervention from my office, Mr. 
Provost was awarded his due compensation from the VA. I wish that Mr. 
Provost's case was an isolated incident, but based on my conversations 
with veterans, he is not alone. Far too many veterans are waiting far 
too long for a final determination on their VA claim.
    Hearing stories like this helps to inform my support for the Fiscal 
Year 2010 Budget. The Obama administration has proposed a 16 percent 
increase to the VA budget, or nearly $113 billion, with a portion of 
these funds going to modernize the Department of Veterans Affairs 
disability claims process. The current process is antiquated and badly 
needs an overhaul. The funding included in this budget means that 
General Shinsecki and the VA will have the resources to address the 
problem head-on so that veterans like Mr. Provost do not have to keep 
waiting for the benefits they have earned and deserve.
    The rising cost of health care is also a concern that is squeezing 
the budget of many Vermonters, like Dan and Cynthia Hampton, who live 
in my hometown of Hartland, Vermont. They have one son serving in the 
United States Air Force who is serving in Afghanistan and another who 
is in the eighth grade. I would like to read an excerpt from a letter 
that Dan and Lori wrote to me:
    I've worked for Imperial Company Inc. of West Lebanon, NH for 
twenty-seven years. My wife is self-employed. My wife and I have 
reached a breaking point in terms of affordable health insurance for 
our family. I learned earlier this week that our health care insurance, 
which we get through my employer, will increase to $242.25 per week. 
This increase combined with the fact that I've gone almost three years 
without a pay increase and even had my pay cut 10% for over a year and 
a half has us reeling! We are at a loss as to what our options are.
    The Hamptons are among thousands of Vermonters and millions of 
Americans who are desperately searching for any alternative so that 
they can afford their health insurance. Even more troubling, there are 
millions of Americans who lack even the most basic coverage of any 
kind--Americans for whom one health care emergency could mean 
bankruptcy or losing their home. This is simply unacceptable.
    With this budget, President Obama has shown that he is going to 
address the challenge of health care reform head-on. The American 
Recovery and Reinvestment Act made significant investments to modernize 
our system of tracking and sharing medical records. It also provided a 
substantial subsidy for many of those who have lost their jobs and are 
utilizing COBRA to continue their coverage. The Administrations FY10 
budget continues this trend by making a $634 billion down payment on 
health care reform in order to make high quality, affordable health 
care available for all.
    The last story I will share with you today is that of Lucinda Flint 
from Brandon, Vermont, who contacted me about weatherizing her home. 
Like many seniors, Ms. Flint lives on a small income and can't afford 
to pay for the expensive changes to weatherize her home. She heats her 
home with wood and can't use parts of her house in the winter because 
they are too cold. As a result, she tells me, she is sick all winter 
long because she can't properly heat her old home. Her family is ready 
to help her with the installation; all she needs is some capital to buy 
some insulation.
    The Fiscal Year 2010 budget supports weatherization programs that 
would help Ms. Flint, building on the Recovery Act that Congress 
recently passed. It is estimated that savings from weatherization could 
add up to $350 per household. Weatherization and other efficiency 
funding will not only help keep Vermonters warm in the winter, they 
will help reduce electricity consumption, create jobs, and cut down on 
greenhouse gas emissions that contribute to global warming. There are 
thousands of Vermonters like Ms. Flint, who want to save energy, help 
protect the environment, and improve their own financial situation at 
the same time--this budget sets us on a path to help them do that.
    I am pleased that the Obama budget takes bold, new steps on health 
care and energy priorities while renewing the promise to our veterans. 
I strongly support these steps, as they will help individuals and 
families and strengthen our nation for years to come. I respectfully 
request that the following e-mails from Daniel Hampton and Lucinda 
Flint be submitted to the Committee record, and I thank you, again, for 
the opportunity to speak here today.
                      e-mail from mr. dan hampton
    Dear Congressman Welch: My name is Dan Hampton of Hartland Vermont. 
I am the son of Dan and Lori Hampton, also of Hartland, and a long time 
resident of Hartland. Together with my wife Cindy I write you out of 
desperation. We are a hard working couple who have attempted to do 
everything right. We have two sons, one of which is serving his country 
as a member of the USAF and is currently in Afghanistan. Our other son 
is in the eighth grade. I've worked for Imperial Company Inc. of West 
Lebanon, NH for twenty-seven years. My wife is self-employed. My wife 
and I have reached a breaking point in terms of affordable health 
insurance for our family. I learned earlier this week that our health 
care insurance, which we get through my employer, will increase to 
$242.25 per week. This increase combined with the fact that I've gone 
almost three years without a pay increase and even had my pay cut 10% 
for over a year and a half has us reeling! We are at a loss as to what 
our options are. We would greatly appreciate any information you could 
provide us with alternative health care coverage. Anything that we're 
aware of has one or both of us going without insurance for a one year 
period before anything is available through the state of Vermont. In 
addition, what if anything is available for our son, as we will not 
consider having him without insurance.
    Thank you in advance for your help regarding this issue.
            Respectfully,
                                  Daniel & Cynthia Hampton.
                     e-mail from ms. lucinda flint
    Dear Mr. Welch: I voted for you, as I felt that you really 
concerned with the senior of this state. Well, I am a senior, (65) and 
I need help. I need help to insulate my home. I live on a very small 
income, and I am not well. What I need is to be able to get insulation 
to put on the outside of my home. My family will help me with putting 
it up. But I just have enough money at the end of the month, to the pay 
the basic bills. Is there some kind of grant that would help me with 
this. I only heat my home with wood. But I cannot use any of the back 
of my home, as it is so cold. The only rooms that I can use are 
kitchen, livingroom, and upstairs bedroom. If there is anyway that you 
can tell me what I can do about this, I would appreciate any help at 
all. I have been sick all winter long because of being cold. Thank you.

    [Whereupon, at 5:53 p.m., the committee was adjourned.]

                                  <all>

</pre></body></html>
